<html>
<title> - CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA ANNUAL REPORT 2004</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA
                             ANNUAL REPORT
                                  2004

=======================================================================

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 5, 2004

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-764                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

JIM LEACH, Iowa, Chairman            CHUCK HAGEL, Nebraska, Co-Chairman
DOUG BEREUTER, Nebraska              CRAIG THOMAS, Wyoming
DAVID DREIER, California             SAM BROWNBACK, Kansas
FRANK WOLF, Virginia                 PAT ROBERTS, Kansas
JOE PITTS, Pennsylvania              GORDON SMITH, Oregon
SANDER LEVIN, Michigan               MAX BAUCUS, Montana
MARCY KAPTUR, Ohio                   CARL LEVIN, Michigan
SHERROD BROWN, Ohio                  DIANNE FEINSTEIN, California
DAVID WU, Oregon                     BYRON DORGAN, North Dakota

                     EXECUTIVE BRANCH COMMISSIONERS

                  STEPHEN J. LAW, Department of Labor

                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce
                   LORNE CRANER, Department of State
                    JAMES KELLY, Department of State

                      John Foarde, Staff Director

                  David Dorman, Deputy Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page
I. Executive Summary and List of Recommendations.................     1

II. Introduction: Corruption--The Current Crisis in China........     6

III. Monitoring Compliance With Human Rights.....................    12
    (a) Rights of Criminal Suspects and Defendants...............    12
    (b) Protection of Internationally Recognized Labor Rights....    27
    (c) Freedom of Religion......................................    34
    (d) Freedom of Expression....................................    45
    (e) Economic, Social, and Cultural Rights....................    55
    (f) Freedom of Residence and Travel..........................    62

IV. Maintaining Lists of Victims of Human Rights Abuses..........    65

V. Development of Rule of Law and the Institutions of Democratic 
  Governance.....................................................    66
    (a) Constitutional Reform....................................    66
    (b) Nongovernmental Organizations and the Development of 
      Civil Society..............................................    70
    (c) Access to Justice........................................    72
    (d) China's Judicial System..................................    78
    (e) Commercial Rule of Law and the Impact of the WTO.........    83
    (f) Forced Evictions and Land Requisitions...................    91

VI. Tibet........................................................    95

VII. North Korean Refugees in China..............................   102

VIII. Developments During 2004 in Hong Kong......................   104

IX. Appendix: Commission Activities in 2003 and 2004.............   107

X. Endnotes......................................................   110


          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       2004 ANNUAL REPORT

            I. Executive Summary and List of Recommendations

    The Commission finds limited progress over the past year in 
some areas of human rights and rule of law in China, but also 
finds severe and continuing problems on many of the issues 
critical to ensuring that its citizens enjoy internationally 
recognized human rights. Chinese government repression of free 
religious belief and practice has grown more severe over the 
past year. The Chinese government has continued its record of 
violating workers' rights and punishing workers who advocate 
for change. Chinese authorities continue to expend significant 
resources to silence their critics and censor information from 
sources the government cannot control or influence. The 
Commission notes that China continues to enact legal reforms 
that may provide the foundation for stronger protection of 
rights in the future. However, the monopolization of power 
under a one-party system and the resulting absence of 
democratic accountability have led to widespread corruption and 
a loss of faith in government. Together these cascading 
problems frustrate the efforts of ordinary Chinese citizens to 
claim their rights under the Constitution and law, and hinder 
the implementation of legal reforms adopted since 1979.
    In March 2004, the National People's Congress amended 
China's Constitution to guarantee human rights for China's 
citizens. This step is a positive development, but the Chinese 
Communist Party will now have to deliver some measurable 
improvements in human rights to maintain its own legitimacy. 
The government and Party must also create the legal mechanisms 
necessary to enforce this and other constitutional guarantees. 
Without these mechanisms, the Chinese leadership demonstrates 
its continued unwillingness to allow the Chinese people to 
exercise their constitutional rights, freely voice their 
beliefs, desires, and complaints, or take a meaningful role in 
their government. This reluctance was particularly evident in 
recent backward-stepping policies designed to move Hong Kong 
away from the promised ``high degree of autonomy'' and to delay 
developing the democratic institutions that most Hong Kong 
people support.
    Since taking office in 2003, China's new leadership has 
gradually moved away from the ``economic growth at any price'' 
strategy of the past and toward a new ``populism.'' This shift 
has been accompanied by substantial efforts to grapple with 
HIV/AIDS and a failing public health infrastructure, alleviate 
poverty, and address 
serious fiscal and governance issues burdening China's rural 
poor. Chinese women are benefiting from new economic 
opportunities, but poverty in rural areas disproportionately 
harms women. Chinese law has begun to recognize and offer 
redress for problems like domestic violence, marital rape, and 
sexual harassment.
    The Chinese government continues to detain and imprison 
Chinese citizens for peacefully exercising their rights to 
freedom of expression, association, and belief. Coerced 
confessions, lack of access to defense counsel, law enforcement 
manipulation of procedural protections, pervasive presumption 
of guilt by law enforcement officials, judges, and the public, 
and extra-judicial pressures on courts continue to undermine 
the fairness of the criminal process in China. In the wake of 
several abuse scandals, Chinese criminal justice organs 
launched a coordinated campaign in 2003 and 2004 to improve 
public relations and assuage public anger over some law 
enforcement abuses. The campaign has set a more positive tone 
for discussion of defendant rights and produced some limited 
results. However, lack of professionalism in many law 
enforcement agencies and courts, public pressure on the 
government to address rising crime rates, and leadership 
efforts to maintain Party power and social stability are likely 
to limit the impact of these initiatives in the short term. As 
they debate key reforms to China's criminal justice system, 
Chinese scholars, judges, and officials continue to look to 
foreign models and are actively seeking exchange with foreign 
counterparts on criminal justice issues.
    Working conditions in China and the government's lack of 
respect for internationally recognized worker rights remained 
largely unchanged over the past year. Government implementation 
of labor laws, regulations, and policies continues to fall well 
below international norms in a number of areas. The Chinese 
government denies Chinese citizens the right to organize freely 
and to bargain collectively; it continues to imprison labor 
leaders and suppress worker efforts to represent their own 
interests; it continues to discriminate against migrant 
workers; and it has developed a system that encourages forced 
labor. Child labor remains a significant problem in China. In 
addition, unhealthy and unsafe conditions are pervasive in 
Chinese workplaces.
    The Party intensified its crackdown against free religious 
belief and practice during 2003 and expanded the campaign 
during 2004. The Commission has welcomed China's progress 
toward developing a system based on the rule of law, but in the 
case of religion, the Chinese government uses law as a weapon 
against believers. Hundreds of unregistered believers, and 
members of spiritual groups such as Falun Gong, have endured 
severe government repression in the past year. Many 
unauthorized places of worship have been demolished. The 
Chinese government has tightened its repression of unregistered 
Catholic religious practice and believers. Protestant house 
church congregations have suffered continued government 
intimidation and harassment, with reports of beatings and 
killings. The Party continues its ongoing campaign to transform 
Tibetan Buddhism into a doctrine that promotes patriotism 
toward China, and repudiates the religion's spiritual leader, 
the Dalai Lama. The Chinese government continues to strictly 
regulate Islamic education and practice, particularly in 
Xinjiang, where authorities prevent Uighur Muslim children from 
developing a strong Islamic identity and punish adult Muslims 
for engaging in unauthorized religious activity.
    Chinese authorities continue to impose strict licensing 
requirements on publishing and news reporting. Authorized 
publishers are subject to censorship; unauthorized publishers 
are subject to punishment. China's government continues to 
harass, intimidate, 
detain, and imprison those who express opinions that the Party 
deems objectionable. Although the number and variety of 
government-controlled information sources continue to increase, 
the Chinese government attempts to prevent Chinese citizens 
from accessing news from foreign sources, often with help from 
foreign and Chinese companies that must either impose political 
self-censorship or be shut down. Chinese citizens must rely on 
resources and technology that organizations outside of China 
provide to circumvent government Internet censorship.
    Forced evictions in urban areas and the requisition of 
farmland in rural areas are fueling anger at government 
officials and developers and generating a growing stream of 
citizen petitions, legal disputes, and protests across China. 
Despite central government efforts to curb illegal land 
transactions and abuses, corruption remains rampant. Procedures 
and compensation standards are weighted heavily in favor of the 
government and developers and do not adequately protect the 
rights and interests of those whose land is requisitioned.
    The hukou (household registration) system remains a key 
component of the caste-like divide in Chinese society between 
urban and rural residents. The Chinese government continues to 
liberalize the hukou regime, but some of these reforms are 
slowly shifting the existing system into a set of officially-
recognized class divisions based on wealth.
    Access to justice remains a serious problem in China. 
Although the government is making strides to enhance the 
professional quality of the Chinese judiciary, scarce legal 
resources and the intermingled nature of government and private 
legal services in rural areas limit equitable access to the 
legal system. The Chinese judicial system continues to be 
plagued by both extra-judicial interference and internal 
administrative practices that constrain the independence of 
judges and undermine court effectiveness. A closed, non-
transparent, and inefficient network of thousands of ``letters 
and visits'' offices, where citizens can petition their 
government, serves as a dysfunctional alternative to the legal 
system for most Chinese citizens. The Chinese government's 
progress in establishing a nationwide legal aid system over 
recent years is a positive step toward developing the rule of 
law, but government efforts are limited by the failure to fund 
local institutions properly.
    The visit to China by the Dalai Lama's envoys that began on 
September 12 creates an important opportunity to address 
obstacles and achieve progress through dialogue. Chinese 
leaders misrepresent the Dalai Lama's offer to accept bona fide 
autonomy as an attempt to gain independence in a ``disguised 
form,'' even though he has stated that a solution can be based 
on China's Constitution. Politically, Tibetan rights to 
constitutionally guaranteed freedoms of speech, religion, and 
association are subject to strict constraints, but emerging 
patterns suggest that local governments in some Tibetan areas 
are relatively less repressive than others. Economically, most 
Tibetans live in rural areas where they are marginalized by low 
incomes, poor health care, and lack of economic opportunities. 
Culturally, the increasing Han population in Tibetan areas 
poses a significant challenge to Tibetan culture and heritage.

                            Recommendations

    The Commission is working to implement the recommendations 
made in the 2002 and 2003 Annual Reports until they are 
achieved. The Commission makes the following additional 
recommendations for 2004:

Human Rights for China's Citizens
        <bullet> The new CECC Political Prisoner Database is a 
        unique 
        resource for promoting human rights in China. Members 
        of Congress should make full use of the Database by 
        asking delegations from their states and districts that 
        may be traveling to China to present to Chinese 
        officials lists of political and religious prisoners 
        derived from the Database. They should also urge local 
        officials and private citizens involved in sister-state 
        and sister-city relationships with China to use 
        Database information to advocate vigorously for the 
        release of political and religious prisoners.

        <bullet> The Chinese government made efforts to combat 
        the practice of torture in the past year, but China 
        lacks the public institutions necessary to monitor and 
        expose law enforcement abuses. The President and the 
        Congress should continue to encourage public debate and 
        criticism of torture in China by pressing the Chinese 
        government to fulfill, without further delay, its 
        longstanding commitment to allow an unconditional visit 
        by the U.N. Special Rapporteur on Torture.
        <bullet> China's xinfang (``letters and visits'' ) 
        system is at the center of severe miscarriages of 
        justice, but foreign governments and observers 
        understand it poorly. The President and the Congress 
        should encourage exchanges between Chinese xinfang 
        officials and U.S. academics, lawyers, and NGOs 
        directed at regularizing procedures and moving disputes 
        into the legal system.
        <bullet> Chinese scholars, judges, and officials are 
        debating reforms to China's criminal justice system and 
        actively seeking exchanges with the United States and 
        other countries on criminal justice issues. The 
        President and the Congress should continue to encourage 
        reform of China's criminal justice system by sponsoring 
        more exchanges that focus on the role of defense 
        lawyers and discuss internationally recognized criminal 
        justice standards such as the presumption of innocence 
        and the right to remain silent.
        <bullet> The future of Tibetans and their religion, 
        language, and culture depends on fair and equitable 
        decisions about future policies that can only be 
        achieved through dialogue. The Dalai Lama is essential 
        to such a dialogue. The President and the Congress 
        should continue to urge the Chinese government to 
        engage in substantive discussions with the Dalai Lama 
        or his representatives.

Religious Freedom for China's Faithful
        <bullet> The freedom to believe and to practice one's 
        religious faith is a universal and essential right. The 
        Chinese leadership must open itself to dialogue on 
        establishing true freedom of religion for all its 
        citizens. The President and the Congress should foster 
        and support such a dialogue by urging Chinese leaders 
        at all levels to meet with religious figures from 
        around the world to discuss the positive impact on 
        national development of free religious belief and 
        religious tolerance, and to urge the release of 
        religious prisoners.
        <bullet> The Chinese government continues to use anti-
        cult regulations to oppress believers who choose not to 
        worship within the confines of government-authorized 
        religion, and prohibits the free publication and 
        importation of the Bible, the Koran, and the sacred 
        texts or teachings of other religious and spiritual 
        groups, including those of the Falun Gong. The 
        President and the Congress should continue to urge 
        China's leaders to eliminate all laws and regulations 
        that allow the arbitrary labeling of unregistered 
        religious and spiritual groups as cults, and to 
        eliminate all restrictions and controls on the freedom 
        to produce, read, and distribute the religious or 
        spiritual texts of one's choosing.

Labor Rights for China's Workers
        <bullet> The involvement of Chinese workers is 
        essential to efforts to improve workplace health and 
        safety programs in China. In addition, bringing Chinese 
        workplaces into compliance with international labor 
        standards requires cooperation among governments, the 
        private sector, and NGOs. The President and the 
        Congress should expand U.S. programs to improve worker 
        involvement in workplace health and safety; conduct 
        rule of law training and technical assistance in China 
        to help workers assert their rights under Chinese law; 
        and facilitate cooperation between and among private 
        industry, the NGO sector, and the Chinese and U.S. 
        governments with a view toward bringing Chinese labor 
        standards into compliance with international standards.
        <bullet> Forced prison labor violates both 
        international labor standards and U.S. laws when the 
        products of forced labor are exported to the U.S. 
        market. The President and the Congress should sponsor 
        and facilitate meetings of U.S. and Chinese officials 
        and NGOs to develop policy recommendations on 
        eliminating the use of forced labor in Chinese prisons 
        and detention facilities and to ensure the full 
        implementation of the 1992 Memorandum of Understanding 
        on Prohibiting Trade in Prison Labor Products with 
        China.

Free Flow of Information for China's Citizens
        <bullet> The rights to freedom of speech and freedom of 
        the press are internationally recognized and 
        constitutionally guaranteed, but Chinese citizens 
        generally remain unaware of the nature of these rights 
        and their government's violation of them. The President 
        and the Congress should fund programs to develop 
        technologies to enable Chinese citizens to access 
        Internet-based information that the Chinese government 
        currently blocks, as well as educational materials 
        regarding the rights conferred under international 
        human rights law with respect to freedom of speech and 
        freedom of the press.
        <bullet> The Chinese government uses technology, prior 
        restraints, intimidation, detention, and imprisonment 
        to chill free expression and control China's media. The 
        President and the Congress should urge the Chinese 
        government to eliminate prior restraints on publishing, 
        cease detaining journalists and writers, and stop 
        blocking foreign news broadcasts and Web sites.

Rule of Law and Civil Society
        <bullet> The Chinese leadership has publicly committed 
        itself to moving toward a market economy based on 
        internationally accepted principles of transparency, 
        accountability, and the rule of law. The President and 
        the Congress should support this goal by approving and 
        funding a commercial rule of law technical assistance 
        program for China through the Commercial Law 
        Development Program at the U.S. Department of Commerce. 
        Such a program should emphasize specific WTO 
        commitments, including transparency, deterrent criminal 
        enforcement of intellectual property rights, and 
        national treatment for goods and services.
        <bullet> Access to justice remains a serious problem, 
        particularly in rural China. The President and the 
        Congress should continue to fund programs directed at 
        improving the capacity of Chinese NGOs to train and 
        support rural legal workers and legal aid 
        organizations.
        <bullet> Chinese courts evaluate judicial performance 
        by using rote statistics on decided and reversed cases. 
        This has resulted in a passive judiciary dependent on 
        advisory opinions to decide cases. The President and 
        the Congress should encourage exchanges and cooperation 
        between U.S. and Chinese judges and court 
        administrators with a view toward fostering 
        administrative reform in the Chinese judiciary.

    The Commission's Executive Branch members have participated 
in and supported the work of the Commission, including the 
preparation of this report. The views and recommendations 
expressed in this report, however, do not necessarily reflect 
the views of individual Executive Branch members or the 
Administration.
    This report was approved by a vote of 20 to 1.<dagger>

       II. Introduction: Corruption--The Current Crisis in China

    Corruption in China is rampant. Large numbers of top-level 
provincial and ministerial leaders have been driven from office 
on 
corruption grounds in recent years. In some cases, the 
corruption of top leaders has encouraged and sheltered wide-
ranging networks of local officials who protect each other 
against discovery and prosecution.\1\ This has led to a loss of 
confidence on the part of many Chinese citizens in the honesty 
of government and Party officials, despite the Party's effort 
to respond to notorious corruption cases with repeated 
campaigns for clean government.
    The one-party system remains the key obstacle to rooting 
out corruption. China needs broader forms of democratic 
accountability and free access to information to eliminate 
official corruption and restore confidence in government. Some 
leaders within China comprehend the necessity for change and 
understand that inflexibility, secrecy, and a lack of 
democratic oversight pose the greatest challenges to rooting 
out the corruption that threatens China's continued 
development. While the interim steps taken by the Communist 
Party to date may generate some improvements at the margins, 
solving the problem of corruption requires narrowing the gap 
between China's forward-looking economic reforms and its 
backward-looking political system.
    Corruption in China is growing at all levels and 
increasingly 
involves senior officials as well as collusion among officials, 
or between officials and private entrepreneurs or collaborators 
overseas.\2\ High-level leaders tried and convicted on major 
corruption charges in the last 12 months include: Wang Xuebing, 
former president and party secretary of the Chinese 
Construction Bank;\3\ Mai Chongkai, former Chief Justice of the 
High People's Court in Guangdong;\4\ and Wang Huaizhong, former 
deputy governor of Anhui province.\5\ In all, 13 top officials 
were convicted of corruption in 2003.\6\ Such developments have 
created significant public concern. Before the National 
People's Congress (NPC) annual meeting in March 2004, Xinhua 
polled its readers to find out which issue should take priority 
on the legislative agenda. More than 80 percent of respondents 
chose corruption.\7\ Transparency International ranks China 
among the worst countries in terms of domestic public 
corruption.\8\ Economists estimate that the annual cost of 
corruption to China may exceed 14 percent of gross domestic 
product.\9\ A 2004 report by China's Auditor General shows 
that, far from being limited to provincial officialdom, 
embezzlement and misuse of public funds affects 41 of the 55 
ministries and commissions under the State Council, amounting 
to at least 1.4 billion yuan ($169.4 million) missing from the 
total 2003 budget.\10\
    Political protection of corrupt officials is a serious 
problem in China. Chinese journalists have noted the phenomenon 
of the local ``boss'' (yibashou) who personally controls 
positions, wages, and lucrative opportunities for enrichment 
within his region. Officials operating under the boss's 
umbrella of influence are often protected from prosecution 
because the boss controls the anti-corruption institutions 
themselves. An apparent example of political influence 
exercised to defeat investigation and prosecution is the Zhou 
Zhengyi case, discussed below.
    Procurator General Jia Chunwang reported to the NPC in 
March 2004 that his office opened investigations during 2003 
into 39,562 cases of abuse of official power involving 43,490 
individuals and prosecuted 22,761 cases involving 26,124 
individuals.\11\ Over the same period, the office opened 
investigations into 18,515 cases of embezzlement, bribery, and 
misappropriation of public funds.\12\ Procuratorates opened 
investigations into 2,728 senior officials at or above the 
county level, as well as 167 cadres in charge of regional 
bureaus and four cadres of provincial rank.\13\ Furthermore, in 
a report to the NPC in March 2004, Xiao Yang, Chief Justice of 
the Supreme People's Court, reported that 794 judges were 
investigated for corruption in 2003, with 52 cases referred for 
criminal prosecution.\14\

Corruption in the 2008 Olympics
    The Chinese government has made the 2008 Olympics a 
centerpiece of its international political program--a symbol of 
joining the most modern and civilized nations on equal terms. 
China fought hard to get the Olympics and therefore has a 
strong incentive to meet the challenge of hosting them. 
However, early indications of serious graft show that even the 
Olympics have not been safe from China's corruption crisis.\15\ 
China's Auditor General reported to the NPC Standing Committee 
in June 2004 that of the 131 million yuan ($15.8 million) 
appropriated since 1999 for the work of the Beijing 2008 
Olympics organizing committee, 109 million yuan had been 
improperly diverted to building homes for the committee's 
staff.\16\ According to an official in China's Olympics 
organizing committee, an earlier review by the special audit 
department established to monitor Olympic spending failed to 
disclose the misdeeds, probably because that department's 
powers do not extend to investigating the Beijing City Sports 
Bureau, where the fraud occurred.\17\ This jurisdictional 
anomaly in the Olympics auditing process demonstrates the way 
in which tangles of overlapping laws and supervisory 
organizations guarantee the opacity that allows corruption to 
thrive.\18\
    The National Audit process that uncovered this fraud in the 
Olympics may ultimately grow into a corruption-fighting tool. 
The Chinese Constitution requires that the State Council 
establish an auditing body to supervise revenues and 
expenditures of the Council itself and all of its subordinate 
entities. It further requires that the auditing entity 
``independently exercise its power to supervise through 
auditing in accordance with law, subject to no interference by 
any other administrative organ or any public organization or 
individual.'' \19\ The National Audit Administration, led by Li 
Jinhua, the current Auditor General, performs this 
constitutional supervisory function, and its report this year 
attracted significant media attention.\20\ Although the unitary 
nature of the Chinese state precludes separation of powers and 
thus real independence, Deputy Auditor General An Linghu 
recently said that the last two premiers have never tried to 
change anything in the reports. While lack of transparency 
precludes revealing whether audits are adjusted to protect 
political figures, announced plans to make all audit reports 
public in the future may help limit such manipulation.\21\ 
According to a Xinhua report attributed to Zhang Qiuxia, a 
National Audit Administration director, the office plans to 
include the Central Committee of the Party in future 
audits.\22\

Corruption in the Countryside
    Corruption in rural areas harms China's poorest citizens. A 
vivid account of the toll taken by corrupt officials who 
manipulate taxes and impose random fees on farmers appeared in 
a recent book, An Investigation of China's Peasantry.\23\ 
Officials profiting from their official power to allocate land 
use have displaced thousands. An example of this kind of abuse 
is the plight of 20,000 farmers from a minority area in Hebei 
province who were relocated to make way for the construction of 
a reservoir.\24\ The municipal Party secretary failed to pay 
compensation to the displaced farmers and instead used the 
funds to build luxurious local offices. When a group of farmers 
traveled to Beijing to petition the central government for 
redress, they were beaten by police, and some were sentenced to 
re-education through labor (laojiao).
    In this and other cases, local officials have used police 
like a personal militia to suppress questions about their 
financial dealings, and have used re-education through labor 
and other forms of administrative detention to silence 
inconvenient protestors. Such tactics directly undermine the 
central government's fight against corruption nationwide. 
Dispatching local police to Beijing to silence petitioners 
extends local cover-ups to the capital itself. The problem 
extends well beyond land-taking. Funds transferred to local 
governments for disaster relief or education subsidies have 
also been targets for corrupt officials.\25\ From 2002 to 2003, 
disaster funds misused in poverty-stricken Shaanxi province 
amounted to 5,686,000 yuan ($688,000).\26\ In Guangdong 
province, altogether 35 officials have been accused this summer 
of misappropriating educational funds.\27\ According to the 
Guangdong Province Disciplinary Inspection Commission, local 
education departments used the money for banquets and received 
kickbacks on the purchase of items like textbooks.

Corruption in the Cities
    Corruption in China's cities distorts the urban plan, often 
harming poorer residents and discarding historical districts in 
favor of upscale housing and shopping areas. As in rural areas, 
local officials control the allocation of land use rights and 
use that control to benefit themselves and their families. In 
one example, tycoon Zhou Zhengyi obtained low-cost development 
rights to a project in Shanghai by manipulating the law with 
the help of local officials, then mortgaged his rights in the 
property to major banks and used the money to buy Hong Kong 
listed companies, which would buy the project back.\28\ The 
local officials who had approved Zhou's 
application for the land ultimately received shares in the 
listed company that owned the development.\29\ When a bank 
investigation of some of the underlying loans brought the 
scheme to light, Zhou was arrested and tried in secret in May 
2004. He received a relatively mild three-year sentence for 
falsifying registered capital 
reports and manipulating share prices. Many Shanghai citizens 
evicted because of Zhou's development scheme were not satisfied 
with the small compensation offers he made for their property 
or the replacement housing in distant suburbs, and some have 
filed suits against the Shanghai government.\30\
    The power to allocate valuable city land for development 
has been a source of wealth for the Shanghai elite over the 
past decade. Those who have profited from this power naturally 
resist any interference with its use. It is therefore not 
surprising that displaced residents in Shanghai, who are 
contesting politically connected land developments, have 
generally been unable to find lawyers to represent them. But 
former lawyer Zheng Enchong, who had made a practice of 
advising evicted residents in urban renewal cases, worked with 
some of the residents evicted from the land in the Zhou Zhengyi 
case. His work on eviction cases had earlier resulted in the 
Shanghai Bureau of Justice refusing to renew his license to 
practice law.\31\ In June 2003, Zheng was arrested and charged 
with disclosing state secrets. According to an unofficial copy 
of the judgment in that case, the charge was based on a fax 
Zheng sent to a New York-based human rights NGO concerning a 
small demonstration in Shanghai.\32\ Zheng's appeal of his 
three-year sentence was denied in December. In reporting his 
conviction, Xinhua portrayed Zheng Enchong as a professional 
outlaw who had been refused his license renewal for cause and 
not as an ``anti-corruption'' hero as described in the foreign 
media.

Fighting Corruption in a One-Party State: Formal Institutions and 
        Political Controls
    Two separate, but parallel, systems have evolved in China 
since 1979 for the supervision of state administration and 
evaluation of cadres for their political integrity: a system of 
``administrative supervision'' within the government and a 
system of ``discipline and inspection'' within the Party. In 
1993, these two vertical systems were merged at the top, but 
each continued to operate under separate regulations.\33\ Party 
officials who violate standards of behavior are punished 
according to the Party charter. Non-Party officials who violate 
standards of behavior, including those working in Party 
offices, are punished according to state civil service 
regulations. This dual-track system is rooted in Leninist 
theory and tracks a slogan based on the preamble of the Party 
charter and included in Article 2: ``The Party Must Manage the 
Party (dang yao guan dang).'' In clinging to this concept, the 
Party may have fostered a sense of impunity among corrupt 
cadres.

            Administrative supervision
    The Law on Administrative Supervision, promulgated in 1997, 
formalized the ``administrative supervision'' system within 
government. This law calls for supervising entities to set up 
``informing and reporting systems'' and to hear citizen 
accusations against public employees. Regulations issued under 
this law detail procedures for the investigation of tips and 
handling of evidence, and protection of the investigators and 
the investigated.\34\ The law itself gives supervising entities 
the jurisdiction to issue the dreaded ``dual summons'' to 
public officials under investigation: an order to present 
themselves at a designated time and place to explain and 
clarify the matters under investigation.\35\ When such an order 
comes down, the target official knows that much of the 
investigation of his or her activities has been completed and 
enough evidence has been found to make sanction or prosecution 
likely.\36\
    While the law seeks to protect state investigators from 
political revenge, it makes supervisors responsible not only to 
a higher supervisory entity, but also to the local government--
an entity likely to have interests adverse to the project of 
supervision.\37\ The legal authority of the administrative 
supervisory system is limited to collecting information, 
issuing cease and desist orders to offenders, and recommending 
administrative sanctions in certain cases.

            Discipline and inspection
    The Party's new ``Inner-Party Supervision Regulations,'' 
drafted over the course of 13 years and finally issued in 
February 2004, are an attempt to systematize constraints on the 
authority of Party leaders. The linchpin of the regulations is 
replacement of strict hierarchical controls with ``inner-Party 
democracy,'' an elaborate system under which Party leaders at 
all levels accept the supervision of the larger pool of Party 
members that they represent. For example, Article 13 requires 
that important decisions, including hiring and firing, be 
debated by the entire group and put to a vote. This voting 
exercise is designed to reduce the unilateral power of Party 
``bosses,'' who have been able in several notorious cases to 
use their powers to both enrich themselves and create broad 
umbrellas of influence. Hu Jintao's highly publicized 
presentation of the Politburo's work report to the Central 
Committee for approval in October 2003 was designed to show 
Party cadres and the public that ``inner-Party democracy'' 
applies to all levels. While China's leaders may expect the new 
regulations to solve the Party's internal problems, given the 
time required to break down internal 
resistance to the new constraints on power, and the lack of an 
independent authority to ensure enforcement, it is unlikely 
that the Party has found a real solution to the problem of 
corruption among its leaders.
    Two of the most powerful anti-corruption tools in other 
countries, public disclosure of assets and an independent 
press, have no real role in the new Supervision Regulations. 
Article 33 of the regulations lends token support to 
``supervision by public opinion'' by encouraging Party 
organizations and leading cadres to leverage the news media to 
fight corruption. However, the next article requires that media 
engaging in such supervision ``uphold the party spirit, observe 
media discipline and professional ethics and grasp the correct 
orientation in guiding public opinion''--all phrases long used 
to limit the free expression of criticism in the press.\38\
    The Party also recently updated disciplinary procedures and 
punishments for cadres at all levels. In February 2004, the 
Party Central Committee promulgated ``Chinese Communist Party 
Regulations on Disciplinary Punishment,'' updating temporary 
regulations issued in 1997. Chapter VI, ``Acts in Breach of 
Political Discipline,'' lists infractions that may lead to expulsion 
from the Party. These include such corrupt behaviors as: hiring the 
children of friends; taking gifts, stealing state property, 
driving luxury cars, or accepting gambling trips; taking a cut 
of funds donated for charitable causes or allocated to 
compensate residents for land requisition; smuggling; and 
illegally transferring land use rights. The 
organization of offenses related to corruption is apparently 
designed to harmonize with the PRC Criminal Law on the same 
subjects. This parallel list of offenses reminds Party members 
that the Criminal Law looms beyond a possible expulsion; the 
Criminal Law provides for capital punishment for the most 
serious crimes related to corruption.
    The current leadership's plans for solving China's 
corruption crisis lack the crucial element of an independent 
authority to take final jurisdiction of corruption crimes out 
of the hands of the Party. Despite continuing efforts at 
building a control system of ``democratic supervision'' within 
the Party, without transparency and true democratic oversight, 
it is unlikely that even the most elaborate self-inspection 
system can be effective.

              III. Monitoring Compliance With Human Rights

           III(a) Rights of Criminal Suspects and Defendants


                                FINDINGS


        <bullet> The Chinese government continues to detain and 
        imprison Chinese citizens arbitrarily for exercising 
        their rights to freedom of expression, association, and 
        belief.
        <bullet> Coerced confessions, lack of access to defense 
        counsel, law enforcement manipulation of procedural 
        rules, pervasive presumption of guilt by law enforcers, 
        judges, and the public, and extra-judicial influences 
        on courts continue to undermine the fairness of the 
        criminal process in China.
        <bullet> Chinese criminal justice organs launched a 
        coordinated campaign in 2003 and 2004 to improve public 
        relations and assuage public anger over some common law 
        enforcement abuses. The campaign has set a more 
        positive overall tone for defendant rights and produced 
        some limited practical results. However, lack of 
        professionalism in many law enforcement agencies and 
        courts, public pressure on the government to address 
        rising crime rates, and leadership efforts to maintain 
        Party power and social stability are likely to limit 
        the impact of these initiatives in the short term.
        <bullet> Chinese scholars, judges, and officials are 
        looking to foreign models as they debate key reforms to 
        China's criminal justice system and are actively 
        seeking exchange with foreign counterparts on criminal 
        justice issues.

China's ``Strike Hard'' Anti-Crime Campaign
    Crime rates in China have generally been on the rise in 
recent years.\39\ To address this problem, law enforcement and 
judicial officials continued China's ``strike hard'' anti-crime 
campaign in late 2003 and 2004.\40\ Traditionally, ``strike 
hard'' campaigns have been intense national crackdowns of fixed 
duration associated with unusually harsh law enforcement 
tactics, quick trials, and violations of criminal 
procedure.\41\ Officially launched in April 2001, the current 
campaign appears to have evolved into a lower-intensity but 
permanent feature of the political landscape.\42\ Within this 
overall ``strike hard'' framework, prosecutors and public 
security agencies launch periodic crackdowns targeting certain 
locales or particular crimes.\43\ Chinese scholars and lawyers 
have expressed concern that efforts to meet law enforcement 
targets during such crackdowns have led to wrongful 
convictions.\44\
    The Party maintains ``strike hard'' activities in part 
because it believes that anti-crime campaigns are popular with 
the public and enhance Party legitimacy. Public complaints 
about police inefficiency and the handling of several notable 
criminal cases in the last year suggest significant popular 
dissatisfaction with the performance of law enforcement 
agencies and courts.\45\ The public also seems to have a 
limited appetite for procedural protections that result in 
lenient treatment for criminals.\46\ Numerous polls suggest 
that the general public rates security as a major concern and 
supports tough measures to address crime.\47\ Thus, while past 
experience indicates that ``strike hard'' campaigns have done 
little to stem the rising tide of crime and corruption in 
China,\48\ the Party perceives them as necessary to maintain 
legitimacy and satisfy popular demand for strong action.\49\
    National Chinese crime statistics offer a mixed picture of 
law enforcement trends in 2003. According to official sources, 
Chinese courts handled a total of 735,535 criminal cases in 
2003, an increase of 1.2 percent over 2002.\50\ Reflecting the 
leadership's stated concern with official crime, law 
enforcement agencies and courts highlighted efforts to combat 
corruption. Prosecutors claim to have opened investigations of 
43,490 individuals for abuse of power and dereliction of duty 
in 2003.\51\ People's courts report that they adjudicated 
nearly 23,000 cases involving official crime in the same 
period.\52\ Officially, the number of violent crimes and 
corruption cases decreased slightly in 2003.\53\ Public 
security officials recently admitted, however, that only 42 
percent of 4.39 million reported crimes were solved last 
year,\54\ and many reports suggest that crime is on the rise in 
specific regions. As such, official claims that the ``strike 
hard'' campaign has reduced crime rates should be evaluated 
with caution.

Political Crimes
    The Chinese Constitution recognizes the rights to freedom 
of assembly, expression, and association.\55\ The Chinese 
government, however, routinely exploits vaguely defined crimes 
to detain and charge individuals for the non-violent exercise 
of these rights.\56\ Victims of this practice include Chinese 
citizens who lead peaceful labor protests, attempt to form 
political parties, exercise their religious beliefs, post 
articles on the Internet relating to political 
reform, or petition for redress of their grievances.\57\ 
Chinese prosecutors often charge these individuals with crimes 
such as ``endangering state security,'' \58\ ``subversion,'' 
\59\ or, in the case of Tibetans and Uighurs, ``inciting 
splittism,'' \60\ even if their acts are non-violent and pose 
no threat to the state. For example, essayist Luo Yongzhong was 
sentenced to three years in prison last year for ``incitement 
to subversion'' and ``attacking the socialist system'' after 
posting essays on the Internet criticizing Jiang Zemin's 
``Three Represents'' theory.\61\
    The definition of crime in the PRC Criminal Law conveys the 
continued political orientation of the Chinese criminal justice 
system:

          A crime refers to an act that endangers the 
        sovereignty, territorial integrity and security of the 
        State, splits the State, subverts the State power of 
        the people's democratic dictatorship and overthrows the 
        socialist system, undermines public and economic order, 
        violates State-owned property, property collectively 
        owned by the working people, or property privately 
        owned by citizens, infringes on the citizens' rights of 
        the person, their democratic or other rights, and any 
        other act that endangers society and is subject to 
        punishment according to law.\62\

    A significant number of individuals, including Yao Fuxin, 
Xiao Yunliang, Rebiya Kadeer, Tenzin Deleg, Su Zhimin, and 
others continue to serve long prison sentences for political 
offenses. Chinese authorities released several notable 
political prisoners over the past year, including Xu Wenli, 
Wang Youcai, Phuntsog Nyidron, and Liu Di,\63\ but authorities 
also initiated a new wave of arrests and convictions of 
Internet essayists, legal advocates, journalists, religious 
adherents, and other political activists. Over the past year, 
authorities also held numerous individuals incommunicado, and 
without any apparent legal basis, for peacefully expressing 
their political views.\64\ For a discussion of new arrests and 
convictions for political crimes, see Section III(c)--Freedom 
of Religion, Section III(d)--Freedom of Expression, and Section 
VI--Tibet. While noting significant difficulties in determining 
the number of individuals currently imprisoned for political 
crimes, several credible analysts estimate that it is somewhere 
in the range of 10,000 to 25,000.\65\
    Although the National People's Congress (NPC) removed the 
crime of ``counterrevolution'' from the PRC Criminal Code in 
1997 and replaced it with the crime of ``endangering state 
security,'' \66\ approximately 500 individuals convicted of 
``counterrevolution'' before 1997 remain imprisoned in 
China.\67\ Under a 1997 Supreme People's Court (SPC) notice 
that has been applied in practice to counterrevolutionary 
prisoners, individuals convicted of ``endangering state 
security'' are much less likely than other prisoners to receive 
sentence reductions and parole.\68\ Observers had hoped that 
China would make some progress last year on parole and sentence 
reductions for prisoners serving time for 
``counterrevolutionary crimes,'' arguing that many of these 
prisoners were convicted for acts that would no longer be 
considered crimes.\69\ However, despite foreign governmental 
and non-governmental overtures on this issue, the Chinese 
government has refused to re-evaluate its position.\70\

Arbitrary Detention
    The United Nations Working Group on Arbitrary Detention 
identifies a detention as arbitrary (1) when there is clearly 
no legal basis for the deprivation of liberty (for example when 
individuals are kept in detention after the completion of their 
prison sentences or despite an amnesty law applicable to them, 
or in violation of domestic law or relevant international 
instruments); (2) when individuals are deprived of their 
liberty because they have exercised the rights and freedoms 
guaranteed in certain provisions of the United Nations 
Declaration on Human Rights (UNDHR) or the International 
Covenant on Civil and Political Rights; and (3) when non-
compliance with the standards for a fair trial set out in the 
UNDHR and other relevant international instruments is 
sufficiently grave as to make a detention arbitrary.\71\ The 
International Covenant on Civil and Political Rights provides 
that ``[a]nyone arrested or detained on a criminal charge shall 
be brought promptly before a judge or other officer authorized 
by law to exercise judicial power'' and ``[a]nyone who is 
deprived of his liberty by arrest or detention shall be 
entitled to take proceedings before a court, in order that that 
court may decide without delay on the lawfulness of his 
detention and order his release if the detention is not 
lawful.'' \72\
    Arbitrary detention in China takes a number of forms, 
including detention and incarceration for non-violent political 
and religious expression, illegal extended detention that 
violates China's own procedural laws, and detention that in 
practice is not subject to prompt judicial review, including 
incommunicado detention, disappearances and detentions during 
short-term security sweeps, and forms of administrative 
detention such as re-education through labor, forced 
psychiatric commitment, and forced commitment for drug 
detoxification.

            Illegal extended detention in the criminal process
    Law enforcement authorities often hold criminal suspects 
and defendants in pre-trial detention for periods exceeding 
those permitted by Chinese law and international human rights 
norms and standards. In some cases, they also detain defendants 
for long periods after trial while courts decide on a judgment. 
This practice often contravenes provisions in the PRC Criminal 
Procedure Law that require judgments to be rendered no more 
than two and one-half months after prosecution. The following 
cases are selected examples of extended detention in late 2003 
and 2004:

        <bullet> Dissident Yang Jianli waited from August 2003 
        until May 2004 for a court to hand down a judgment 
        after his trial on charges of illegal entry into China 
        and espionage. Before his trial, Yang was held for 
        nearly 15 months in pre-trial detention, much of it 
        incommunicado. The U.N. Working Group on Arbitrary 
        Detention ruled that his detention was arbitrary and 
        violated international law.\73\
        <bullet> The Beijing Intermediate People's Court did 
        not hand down a judgment in the evidence fabrication 
        case of defense lawyer Zhang Jianzhong until December 
        2003, nearly 11 months after his trial. Before his 
        trial, Zhang was held in detention for nearly ten 
        months, the first two incommunicado.\74\
        <bullet> In November 2003, authorities released 
        Internet dissident Liu Di after she spent more than a 
        year in detention. Liu had written several Internet 
        articles critical of the government and the Party. 
        Police held her on suspicion of subversion, but 
        prosecutors rejected the case after a year for lack of 
        evidence and never filed formal charges against 
        her.\75\

    In the spring of 2003, Chinese courts and law enforcement 
agencies launched a major public campaign to eliminate 
``illegal extended detention,'' \76\ which Chinese authorities 
have identified as a major source of public discontent with the 
criminal justice system.\77\ Frustrated by lack of progress, 
law enforcement and court officials intensified the campaign in 
the fall of 2003, setting time limits for the resolution of 
extended detention cases and issuing a joint notice on 
rectifying the problem of extended detention.\78\ The notice 
provided tacit acknowledgement of many of the common abuses of 
detention limits that outside observers have long 
criticized.\79\ Throughout the campaign, domestic media 
reported on sometimes shocking instances of extended detention, 
including the case of a farmer who had been in custody for 28 
years but had never been formally charged with a crime.\80\ The 
significant media effort to promote the campaign has given 
suspects and their families some official basis to protest 
extended detention in individual cases.
    In March 2004, the Supreme People's Procuratorate (SPP) and 
the SPC reported that they had handled nearly 30,000 cases of 
extended detention at all stages of the criminal process and 
cleared nearly all outstanding cases.\81\ Both also announced 
new reporting and control systems designed to prevent future 
extended detention cases.\82\ Statistics on the number of 
extended detention cases that have been cleared are impossible 
to verify, and at least one credible Chinese observer told 
Commission staff that contrary to media reports, there are 
still many outstanding cases.\83\ Nevertheless, the observer 
noted a belief that government efforts are sincere. Authorities 
appear to have made some genuine progress in addressing the 
procedural issue, although not always with favorable 
substantive results. For example, two of the most well-known 
cases of extended detention, those of Yang Jianli and Zhang 
Jianzhong, were brought to a conclusion in 2003 with guilty 
verdicts. Despite these developments, extended detention 
problems continued in sensitive criminal cases throughout last 
year, and arbitrary administrative detentions and security 
sweeps continued as they have in previous years.

            Disappearances, security sweeps, and house arrests
    Public security has continued to arbitrarily detain or 
restrict the personal freedom of activists, petitioners, and 
other perceived security threats in the past year, particularly 
during important public functions or sensitive anniversaries. 
For example, during the NPC meetings in March 2004, security 
authorities reportedly rounded up vagrants and petitioners and 
held them in a Beijing stadium without any apparent legal 
basis.\84\ In other cases, local police met petitioners who 
traveled to Beijing for the NPC meetings at train and bus 
stations and forcibly repatriated them to their home 
provinces.\85\ Similar detentions were reported before the 
meeting of the Party Central Committee in September 2004.\86\ 
The NPC meetings, the 15th anniversary of the 1989 Tiananmen 
Square demonstrations, and the Central Committee meeting also 
brought a disturbing series of arbitrary detentions of 
dissidents and activists. For example, Dr. Jiang Yanyong, who 
last year helped to expose the SARS crisis and who wrote a 
letter in February 2004 calling on authorities to reassess the 
official verdict on Tiananmen, was detained for nearly seven 
weeks beginning on June 4.\87\ During the Tiananmen 
anniversary, authorities also placed other activists and 
dissidents, including Ding Zilin, Zhang Xianling, Yin Min, 
Huang Jinping, Hu Jia, and Liu Xiaobo, under house arrest or 
otherwise restricted their freedom of movement.\88\ None of 
these individuals were charged with a crime or brought before a 
judge for review of the lawfulness of their detention or the 
restrictions imposed on them.

            Re-education through labor
    Under China's administrative detention system, public 
security officials have the power to send individuals for ``re-
education through labor'' (laojiao, or RETL) for terms of up to 
three years, with the possibility of a one-year extension. This 
system violates internationally recognized human rights norms 
for numerous reasons: (1) suspects are not entitled to a court 
trial and in practice public security officials serve as 
investigator, prosecutor, and judge, subject to only minimal 
judicial oversight that is rarely applied; (2) the definition 
of offenses subject to RETL are vague and easily manipulated by 
police to silence individuals exercising their rights to 
freedom of expression, association, and assembly; (3) RETL 
detention terms can be longer than those for similar offenses 
prosecuted under the formal criminal justice system; and (4) 
the legal basis for RETL is questionable because an 
administrative regulation established the system, while the PRC 
Legislation Law requires all 
restrictions on personal freedom to be established pursuant to 
national law.\89\ Some critics also highlight the fact that 
RETL detainees are subject to forced labor. [See Section 
III(b)--Protection of Internationally Recognized Labor Rights--
Forced Labor].
    Despite these problems, public security agencies have 
expanded their use of RETL over the past decade. Regulations on 
RETL issued in 2002 include new offenses not contained in 
earlier RETL regulations,\90\ and the number of RETL detainees 
has risen. According to several estimates, the number of RETL 
detainees fluctuated between 150,000 and 200,000 in the early 
to mid-1990s, but between 1999 and 2002 the number detained 
ranged from 270,000 to 300,000.\91\ Scholars attribute the 
increase in the number of RETL detainees to rising crime rates, 
which have increased burdens on the formal criminal justice 
system, and steady growth in the number and size of social 
protests and disturbances in China.\92\ Some observers also 
note that the gradual expansion of defendant rights in the 
formal criminal justice system encourages police to rely more 
heavily on administrative detention.\93\ Finally, the 
government has used RETL in its repression of Falun Gong 
adherents and Uighur Muslims in Xinjiang.\94\ Chinese observers 
and U.S. scholars believe that between 2 percent and 10 percent 
of RETL detainees are political detainees.\95\
    In response to a rising tide of public, scholarly, and 
official criticism and a petition to the NPC Standing Committee 
challenging the legality of RETL, Chinese authorities appear to 
be trying to improve public perceptions of RETL and bolster the 
legal basis for maintaining it.\96\ Press reports over the past 
year have highlighted government initiatives to institute 
professional and educational training programs in RETL centers, 
permit spousal visits, and establish a hearing system for RETL 
cases with legal representation for detainees.\97\ The NPC is 
also working on a national law called the ``Law on Correcting 
Unlawful Acts.'' The draft law reportedly introduces reforms to 
systematize the existing web of local RETL regulations, 
eliminate outdated RETL offenses, make the definition of 
remaining RETL offenses less vague, and address the concern 
that some RETL terms are longer than those for similar acts 
prosecuted in the criminal justice system.\98\ Drafters are 
also reportedly debating provisions that would give judges, 
rather than public security officers, the power to hand down 
RETL sentences.\99\ Other pending legislation would eliminate 
RETL as a form of punishment for selected categories of minor 
public order offenses.\100\ These developments suggest that the 
government intends to reform rather than eliminate RETL, at 
least in the near term.\101\ According to Commission sources, 
significant reform of the RETL system is likely.

            Forced psychiatric detention
    Law enforcement authorities have the power to forcibly 
commit individuals to psychiatric facilities (ankang).\102\ 
Ankang centers are intended for the custody and treatment of 
mentally ill offenders, but they have also been used to detain 
mentally sound individuals who have angered or antagonized 
authorities. The use or threat of ankang to punish dissidents 
continued in 2004. For example, human rights activist Wang 
Wanxing continues to be detained in an ankang center for 
unfurling a banner in Tiananmen Square in 1992. His wife has 
never been given a documented diagnosis of his mental 
condition.\103\ In June 2004, authorities reportedly threatened 
to commit human rights and AIDS activist Hu Jia to a mental 
institution for his continued efforts to commemorate the 
Tiananmen demonstrations.\104\ The use of ankang for political 
detentions raises human rights concerns similar to those noted 
above with respect to other forms of administrative detentions.

            Repeal of the custody and repatriation system
    In June 2003, the State Council repealed a controversial 
form of administrative detention called custody and 
repatriation (C&R) after a young university graduate named Sun 
Zhigang was mistakenly detained in the system and beaten to 
death in custody. Under C&R, public security officials had the 
power to detain anyone without an identification card, 
temporary residence permit, or work permit and forcibly 
repatriate them to their place of registered residence. The 
system was used to detain indigents, migrants, petitioners, and 
political activists and was associated with a host of 
abuses.\105\ In August 2003, civil affairs bureaus nationwide 
began to convert the former C&R detention centers into 
voluntary aid centers tasked with providing temporary housing 
and social services to indigents and beggars. As of March 2003, 
Ministry of Civil Affairs officials reported that 931 of the 
aid centers nationwide had received a total of 250,000 
visits.\106\
    Although officials report some challenges in changing the 
mentality of staff accustomed to administering the coercive C&R 
system, research and visits by Commission staff, as well as 
anecdotal evidence, suggest that the new aid system is largely 
voluntary.\107\ Police in several cities have complained that 
the repeal of C&R has hampered their ability to combat 
crime.\108\ Although restrictions on migrants remain in place, 
government authorities have made efforts to ease some such 
controls in the past year [see Section III(f)--Freedom of 
Residence and Travel].\109\ The detention and forced 
repatriation of petitioners during the NPC meetings in March 
2004 suggests, however, that public security officials have 
other methods at their disposal to detain individuals who in 
the past may have been subjected to C&R.

Torture and Abuse in Custody
    Despite legal prohibitions on torture\110\ and recent 
campaigns to address law enforcement abuses, torture remains 
common in China.\111\ In the wake of the widely publicized case 
of Sun Zhigang [see Repeal of the custody and repatriation 
system above], Chinese media have reported on numerous cases of 
torture and coerced confessions.\112\ Foreign media, NGOs, and 
Falun Gong affiliates also reported on the widespread use of 
torture.\113\ Forms of torture identified in such reports 
include beatings, electric shock, and the suspension or 
shackling of limbs in painful positions.\114\ According to 
Chinese reports, official abuses including torture resulted in 
the deaths of 460 people and serious injuries to 117 people in 
the first ten months of 2003.\115\ A recent SPP investigation 
uncovered more than 4,000 cases of official abuse between 2001 
and 2003, including cases involving torture and coerced 
confessions.\116\ The number of torture and abuse cases is 
likely much higher than indicated by these domestic 
statistics.\117\
    The Chinese government made some public efforts to combat 
the practice of torture in the past year. In an effort to 
soothe public anger over law enforcement abuses, senior 
government leaders and law enforcement officials continued to 
condemn torture in public statements and launched several 
campaigns to root out abusive police and prosecutors.\118\ 
These campaigns resulted in a number of well-publicized 
prosecutions of law enforcement officials for torture.\119\ 
Public security scholars have also discussed the limited 
utility of torture as an investigative technique in 
professional exchanges and in scholarly writings.\120\ On the 
regulatory front, the Ministry of Public Security (MPS) issued 
a new regulation in the fall of 2003 that prohibits the use of 
torture as an investigative tool in administrative cases.\121\ 
Although some reports described the new provision as an 
``exclusionary rule'' for administrative cases, the provision 
only states that evidence obtained illegally may not form the 
basis of a verdict, not that courts must disregard it 
altogether.\122\ While the new regulation is a welcome 
development, this has long been the technical rule in Chinese 
criminal cases.\123\ In July 2004, the MPS issued another new 
regulation with the stated purpose of cracking down on 
interrogation abuses and rectifying the interrogation 
process.\124\ Under the new regulation, police chiefs are to be 
demoted and responsible officers dismissed if a person subject 
to interrogation commits suicide or dies of abuse or other 
``unnatural'' causes.\125\ Some local governments also 
introduced limited initiatives to address torture.\126\
    Chinese sources acknowledge that the problem of torture is 
rooted less in a lack of formal prohibitions than in prevailing 
law enforcement attitudes and an inability or unwillingness to 
enforce existing laws and regulations. A recent article in 
China's Legal Daily concludes that the problem persists because 
many law enforcement officials continue to believe that torture 
is appropriate if the goal is to uncover evidence or crack down 
on crime.\127\ Prosecutors and courts often ignore such 
abuses,\128\ and illegally obtained evidence is not excluded in 
Chinese trials.\129\ Consequently, prosecutors and public 
security officials have few disincentives to engage in abusive 
practices. As a U.S. political scientist concluded at a 
Commission roundtable, limited improvements on torture may be 
possible under the current system, but ``China, like most 
authoritarian systems, lacks the institutions to create self-
generating or self-sustaining monitoring of law enforcement 
abuses, or to generate effective political pressure for 
reform.'' \130\
    Theo van Boven, the U.N. Special Rapporteur on Torture, has 
long negotiated with the Chinese government for permission to 
make an investigative visit to China. For a number of years, 
the U.S. government has asked the Chinese government to accept 
van Boven's terms and schedule a visit. In March 2004, probably 
to head off potential support for a U.S.-sponsored resolution 
on China at the annual U.N. Human Rights Commission meeting, 
the Chinese government announced that it had agreed to a visit 
by van Boven.\131\ In June 2004, however, China postponed the 
visit until later in the year, citing the need for additional 
preparations and the difficulty of coordinating the visit among 
different local governments and authorities.\132\
``Harvesting'' of Organs from Executed Prisoners
    Several new reports of ``organ harvesting'' from executed 
prisoners surfaced in 2004. A leading Chinese transplant 
surgeon told a Hong Kong newspaper that organ harvesting 
continues and called it ``a stain on the history of medical 
practice in China.'' \133\ The Lanzhou Morning News reported 
that the parents of an executed man sued the Dunhuang Detention 
House because authorities refused to return the corpse of their 
executed son. According to the report, the man's organs had 
been removed. The court accepted the facility administrator's 
word that the prisoner had donated his organs voluntarily, even 
though the official did not produce a document or other written 
evidence showing that the prisoner had done so. ``To patch up a 
quarrel,'' the court awarded the family the amount it had spent 
hiring people to bring a coffin to the place of execution.\134\
    According to Chinese reports, central government 
authorities are drafting a national law that establishes rules 
for organ transplants. Chinese sources are unclear whether this 
law will address the issue of involuntary organ donations from 
executed prisoners.\135\ Local legislation on organ donation 
enacted in Shenzhen last year did not address this issue.\136\
Access to Counsel and Right to Present a Defense
    Under Chinese law, defendants have the right to hire an 
attorney,\137\ but national law only guarantees pro bono legal 
defense if a defendant is a minor, faces a possible death 
sentence, or is blind, deaf, or mute.\138\ In other cases where 
defendants cannot afford legal representation, courts may 
appoint defense counsel or the defendant may apply for legal 
aid, but the law does not guarantee free legal 
representation.\139\ Chinese authorities are taking steps to 
improve access to legal aid, but funds are limited and the 
system provides applicants with lawyers in only a small 
percentage of cases [See Section V(c)--Access to Justice].\140\ 
Nationwide, only about one-third of Chinese criminal defendants 
have legal representation.\141\ The rate of representation is 
even lower in many rural areas.\142\
    Chinese defense attorneys face numerous obstacles in 
representing their clients. Under the Criminal Procedure Law, 
Chinese defendants in theory have the right to meet with 
counsel after their first interrogation, or from the day they 
are subject to detention or arrest, to obtain evidence in 
possession of the prosecution, and to cross-examine prosecution 
witnesses at trial.\143\ In practice, law enforcement 
authorities frequently undermine or ignore these and other 
rights.\144\ Authorities often delay responding to requests by 
lawyers to see their clients, refuse such requests outright, or 
impose unreasonable restrictions on client access.\145\ In some 
cases, defense attorneys are only granted one or two meetings 
with defendants, sometimes only hours prior to trial, making it 
virtually impossible for the attorneys to mount an adequate 
defense.\146\ Defense attorneys also face numerous obstacles in 
collecting evidence or gaining access to evidence that the 
prosecution holds. Witnesses often do not appear in court, 
undermining the right of cross-examination. Often, all defense 
lawyers can do in the face of such obstacles is to plead for 
lenient treatment. Chinese officials acknowledged many of these 
problems in several articles published in the past year.\147\ 
Chinese defense attorneys indicate that their work environment 
has not improved significantly in the past year and that many 
of the problems described above have persisted.\148\
    Some defense attorneys who represent their clients too 
aggressively face harassment and prosecution. Authorities have 
prosecuted defense lawyers on questionable corruption charges 
or threatened to revoke their licenses.\149\ In other cases, 
they have accused aggressive lawyers of ``evidence 
fabrication.'' In December 2003, for example, defense lawyer 
Zhang Jianzhong was convicted and sentenced to two years' 
imprisonment for violating Article 307 of the PRC Criminal 
Code, a provision on evidence fabrication.\150\ Many observers 
questioned the basis for the charges and believe that Mr. Zhang 
was targeted for his vigorous defense work.\151\ A China Daily 
editorial published in April 2004 acknowledged that some 
lawyers face such intimidation, noting that Article 306, 
another provision on evidence fabrication, is ``abused 
sometimes by police officers and procurators to retaliate 
against attorneys who have frustrated their case against the 
accused.'' \152\
    The Chinese government has begun to take some limited but 
positive steps to address the concerns of defense attorneys and 
their clients. In December 2003, for example, the SPP released 
a new set of regulations designed to improve conditions for 
defense attorneys.\153\ The provisions included specific time 
limits within which prosecutors must arrange meetings with 
clients and a requirement that prosecutors act on defense 
lawyer complaints and respond to requests for evidence.\154\ In 
March 2004, Chinese media announced that the NPC is likely to 
repeal Article 306 of the Criminal Law.\155\ Official 
statements on the key role of defense attorneys provided a 
welcome acknowledgment of the need for meaningful 
representation of criminal defendants.\156\ So far, however, 
the practical impact of these steps appears to be limited. The 
new SPP provisions on client access do not apply to cases 
investigated by public security,\157\ and defense lawyers 
complain that prosecutors have manipulated the new rules or 
ignored them altogether.\158\

Fairness of Criminal Trials
    Criminal courts in China rarely acquit defendants. 
According to official statistics, the conviction rate in 
Chinese criminal courts exceeded 99 percent in 2003.\159\ 
Chinese lawyers and scholars warn that lack of professionalism 
and legal competence on the part of some law enforcement and 
court personnel, a prevailing presumption of guilt, and 
political factors contribute to the high conviction rate.\160\ 
Defendants who appeal their convictions face limited prospects 
for reversal. Lower courts often seek guidance from higher 
courts regarding legal issues in cases before them, 
particularly in sensitive cases. Consequently, many lower court 
judgments already reflect the view of higher court judges, 
undermining the purpose of appellate review [see Section V(d)--
China's Judicial System]. Perhaps because of the limited 
prospects for success, only roughly 15 percent of criminal 
defendants exercise their right to appeal.\161\ In the rare 
case that a defendant is acquitted, Chinese law provides little 
finality. Prosecutors may appeal acquittals or request 
adjudication supervision from higher courts until they obtain a 
guilty verdict. In fact, they have an incentive to do so, since 
acquittals may result in official liability for wrongful 
detention and arrest under China's State Compensation Law.\162\
    The length, openness, and scheduling of Chinese criminal 
trials also raise questions about the fairness of the trial 
process. Chinese criminal trials sometimes last only a matter 
of hours and rarely more than a day, even when they involve 
sensitive or complex issues or a possible death sentence.\163\ 
Despite rules requiring criminal trials to be open to the 
public, authorities often restrict access to the courtroom or 
invoke exceptions involving ``state secrets'' in order to keep 
trials closed.\164\ Finally, authorities sometimes create 
obstacles that make it difficult for defense lawyers to 
represent their clients properly at trial. In the case of 
Internet dissident Du Daobin, for example, court authorities 
announced the trial date only three days before the trial. The 
court refused to reschedule the trial after Du's defense lawyer 
notified it that he could not appear in court on that day, 
forcing the lawyer to submit only a written defense.\165\ Du's 
other attorney, who was court-appointed, reportedly refused to 
appear in court unless Du agreed to plead guilty to a 
subversion charge.\166\
    Chinese lawyers and scholars complain that courts often 
hand down guilty verdicts in criminal cases without adequate 
evidence.\167\ Documents from several high-profile criminal 
cases 
decided in the past year provide examples of the questionable 
evidence on which convictions are sometimes based.

        <bullet> In May 2004, a Beijing court convicted U.S. 
        dissident Yang Jianli of espionage. The evidence that 
        the prosecution presented appears to have been based 
        almost entirely on Yang's ``confession'' that his U.S.-
        based advocacy group had contacts with a Taiwan 
        organization and provided minor grants to researchers 
        in mainland China. The Ministry of State Security had 
        internally classified the Taiwan organization as an 
        ``espionage organization.'' The prosecution does not 
        appear to have provided any independent evidence that 
        Yang's behavior constituted espionage as a matter of 
        law or that he intended to commit the crime of 
        espionage.\168\
        <bullet> In October 2003, a Shanghai court convicted 
        lawyer Zheng Enchong on charges of ``illegally 
        providing state secrets to entities outside of China.'' 
        Zheng sent handwritten notes and an ``internal'' Xinhua 
        news advisory on local labor and property protests to 
        the New York-based organization Human Rights in China. 
        The prosecution repeatedly did not produce the 
        handwritten notes in court. A public security official 
        classified the information contained in the materials 
        as ``state secrets,'' despite the fact that both the 
        information on the protest and the news advisory were 
        publicly available.\169\
        <bullet> California businessman Jude Shao continues to 
        serve a 16-year sentence for falsely issuing value 
        added tax receipts and for tax evasion, despite 
        evidence demonstrating that the tax was paid, a March 
        2004 audit report to support this finding, and a report 
        on the case by a panel of criminal law experts that 
        raises serious questions about the evidentiary basis 
        for Shao's conviction.\170\ According to advocates for 
        the defense, authorities held Shao incommunicado before 
        his trial. His defense attorney, who was hired only ten 
        days prior to trial, was not permitted to meet with him 
        and was not allowed to review the evidence against Shao 
        before the trial. To date, Chinese courts have refused 
        to accept Shao's petitions for retrial based on new 
        exculpatory evidence.

    Convictions in many cases appear to be based almost 
entirely on defendant confessions, despite the prevalence of 
coerced confessions and legal provisions stating that a 
confession may not be the sole basis for a conviction.\171\ In 
recent years, mainland Chinese and Hong Kong media have 
reported on numerous cases of defendants convicted and even 
sentenced to death on the basis of coerced confessions or 
questionable evidence.\172\ Even in the absence of physical 
coercion, high conviction rates encourage defendants to confess 
in the hope of receiving more lenient treatment.\173\
    Courts are subject to a number of external influences in 
deciding cases.\174\ Local governments exercise influence over 
judicial work through their control of judicial appointments, 
salaries, and court finances. Party Political-Legal Committees 
also supervise the work of the courts and can influence or 
decide the outcome of trials, particularly in major or 
sensitive cases.\175\ In one example that became public last 
year, an official legal newspaper announced the verdict in an 
extortion case that had not yet been tried after it received a 
Party circular on the case.\176\ In another instance, a 
Shenyang court commuted the death sentence of notorious mafia 
boss Liu Yong after finding that the confession of a key 
government witness in his trial had been coerced. In response 
to a flood of public outrage over the decision, the SPC retried 
the case and reinstated the death sentence, reportedly under 
direct orders from the Party Political-Legal Committee and 
despite the opposition of several SPC judges.\177\ Government 
or Party leaders sometimes feel compelled to interfere in 
criminal case decisions in response to public and media 
pressure for convictions. While such public pressure has 
provided a check on corruption and government misconduct in 
some cases, in the Liu Yong case and others it has given rise 
to concerns about mob justice.

Capital Punishment
    The PRC Criminal Law includes 68 capital offenses ranging 
from murder to bribery and embezzlement.\178\ Recent judicial 
interpretations and NPC amendments to the Criminal Law appear 
to have increased the number of capital offenses by authorizing 
application of the death penalty in certain cases involving 
acts of terrorism or the unlawful use of toxic chemicals.\179\ 
Although some Chinese scholars have called for the abolition of 
the death penalty,\180\ polls and anecdotal evidence suggest 
that popular support for capital punishment in China continues 
to remain strong, and officials continue to view the death 
penalty as an effective deterrent against crime and 
corruption.\181\ Some scholars have argued that China should 
consider abolishing the death penalty for economic crimes as a 
first step.\182\
    The Chinese government considers the number of death 
sentences it carries out each year to be a state secret.\183\ 
Amnesty International compiled published reports on 1,060 
executions in 2002 but cautioned that the Chinese media report 
only a fraction of all executions.\184\ In early 2004, the 
China Youth Daily cited an NPC delegate as stating that China 
executes nearly 10,000 criminals annually.\185\ Although the 
delegate's statement could be interpreted in different 
ways,\186\ this number is consistent with several other 
estimates of the annual number of executions in China, 
including an internal Chinese figure referenced in the book The 
Fourth Generation (Disidai).\187\ According to a recent report, 
Luo Gan, head of the national Party Political-Legal Committee, 
has ``quietly'' ordered Chinese judicial authorities to reduce 
the number of executions.\188\ Some Chinese scholars question 
whether the directive will have much practical effect in the 
context of China's continuing ``strike hard'' campaign.\189\
    Both Chinese scholars and international observers continue 
to express concern about China's system of death penalty 
review. While the Criminal Procedure Law requires the SPC to 
review all death sentences, the SPC has delegated this power in 
cases involving murder, rape, and a number of other crimes to 
provincial high people's courts.\190\ In the 300 death penalty 
cases it did review in 2003, the SPC changed the original 
sentence or ordered retrials in 118 cases.\191\ The specter of 
wrongful executions that such high 
reversal rates raise, along with questions about the legality 
and appropriateness of the SPC's delegation of power, has 
sparked considerable debate in Chinese legal circles.\192\ In 
response, Chinese media reported in March 2004 that the NPC and 
SPC are actively considering proposals to return the power of 
review in all death penalty cases to the SPC.\193\ To deal with 
the heavy caseload that the SPC would face if such a reform 
were approved, the proposal reportedly calls for the SPC to 
hire up to 200 new judges and to establish branch offices in 
several regional districts to conduct the reviews.\194\ Chinese 
sources suggest that the proposal is in part an effort to blunt 
international criticism of China's human rights record.\195\

Reform Initiatives and Public Discussion of the Criminal Justice System
    Domestic Chinese media carried extensive reports on law 
enforcement and judicial reforms over the past year. In 
addition to the reforms noted above, police, prosecutors, 
courts, and penal institutions launched a series of initiatives 
with the stated purpose of improving transparency and 
information exchange, enhancing citizen supervision of law 
enforcement, addressing corruption and abuse in the criminal 
justice system, and improving the image of penal institutions.

        <bullet> Police, prosecutors, and courts began holding 
        regular press conferences, appointed press 
        spokespersons, established points of public inquiry, 
        and instituted information disclosure systems and 
        hotlines for complaints.\196\
        <bullet> The SPP established a new system of citizen 
        supervisors designed to monitor cases and address 
        complaints about the conflict of interest inherent in 
        the procuratorate's dual role as prosecutor and 
        supervisor of the legal process.\197\ In June 2004, the 
        SPP also announced new disciplinary punishment rules 
        for prosecutors.\198\
        <bullet> The MPS launched several drives to address 
        misconduct and official abuse in the police force.\199\ 
        In January 2004, the MPS announced that it had fired 
        387 police and investigated or prosecuted 988 police 
        for misconduct, fired 11,000 for lack of 
        qualifications, and transferred an additional 34,000 
        unqualified police personnel to new jobs. In April 
        2004, the MPS announced a training campaign for 
        remaining officers.\200\
        <bullet> In December 2003, SPC President Xiao Yang 
        announced that courts had disciplined a total of 972 
        court workers for misconduct following a sweep of the 
        judicial system. One hundred and four of the 
        individuals were convicted of crimes.\201\
        <bullet> Ministry of Justice (MOJ) officials announced 
        a review of the nation's penal system and a series of 
        new prison reform initiatives, including seminars on 
        protecting prisoner rights, mechanisms to solicit 
        prisoner complaints, and new work and 
        education benefits.\202\
        <bullet> In May 2004, the SPP, the MOJ, and the MPS 
        announced a crackdown on human rights abuses in the 
        nation's prisons and corruption in the parole and 
        sentence reduction process.\203\ The SPP reported in 
        September 2004 that the investigation into the matter 
        revealed more than 13,900 cases in which sentences had 
        been illegally reduced.\204\
        <bullet> The SPP claimed that it had uncovered 4,029 
        human rights violations, including torture, coerced 
        confessions, illegal detentions, election tampering, 
        and other abuses, and vowed to continue its 
        investigation for another year.\205\
        <bullet> Scholars, legislators, and criminal justice 
        officials are reportedly working on a set of joint 
        regulations on evidence exchange\206\ and drafting 
        major revisions to the Criminal Procedure Law.\207\

    These and other reforms are part of what appears to be a 
coordinated government campaign to improve the public image of 
law enforcement agencies and the judiciary. Government 
officials launched the campaign in mid-2003, in part as a 
response to public anger over several well-publicized cases of 
law enforcement abuse in early 2003, which they interpreted as 
a sign of general public frustration with law enforcement 
misconduct and corruption.\208\ The initiatives also give 
President Hu Jintao and Premier Wen Jiabao an opportunity to 
demonstrate progress on citizen rights and the fight against 
corruption as they seek to bolster their populist image.\209\
    Chinese scholars, law enforcement personnel, lawyers, and 
judges continued a spirited discussion of criminal justice 
reform in 2004 through conferences, scholarly and general media 
publications, online forums, and legal exchanges.\210\ Scholars 
and officials also continued to demonstrate an interest in 
foreign legal models, engaging in numerous legal exchange 
programs with foreign counterparts on a broad range of criminal 
justice issues. These exchanges included conferences on 
criminal defense, capital punishment, constitutional protection 
in criminal procedure, pre-trial discovery, plea bargaining, 
and other subjects. In one such program in the spring of 2004, 
U.S. lawyers and legal scholars conducted a mock evidence 
suppression hearing for 300 prosecutors at Beijing's National 
Prosecutors College.\211\ In another, criminal justice scholars 
from 68 countries met in Beijing in September 2004 to discuss 
juvenile justice, corruption, criminal procedure, and other 
criminal law issues.\212\ Reform-minded Chinese scholars 
interviewed by Commission staff encouraged more such exchanges, 
noting that the programs have had a positive impact and are an 
important way to encourage further reform of the criminal 
justice system.\213\ Foreign observers monitoring the reform 
process agreed, noting that the upcoming amendments to the 
Criminal Procedure Law present an important opportunity to 
impact the direction of reform through legal exchange.\214\

Implications of Criminal Justice Developments and Prospects for Further 
        Reform
    Events over the past year illustrate the complex nature of 
criminal justice reform in China. The government's reform 
initiatives on extended detention, defense lawyers, human 
rights abuses, and other issues are positive steps. On a 
rhetorical level, these initiatives and the official statements 
accompanying them set a tone more conducive to the protection 
of suspect and defendant rights. They also provide important 
political cover for defendant complaints in individual cases 
and for efforts by reformers to push for broader structural 
changes in the criminal justice system. As continued discussion 
and legal exchange make clear, many dedicated scholars, judges, 
and officials recognize the need for reform of China's criminal 
justice system and are pushing for additional reforms, albeit 
within the boundaries set by the leadership.
    Despite some incremental improvements, however, the 
immediate practical impact of these initiatives appears to be 
limited. Although Commission sources have expressed cautious 
optimism about some reform measures, the continued problems 
described in this section suggest that implementation of these 
reforms remains uneven at best. These implementation problems 
will likely continue for several reasons. First, law 
enforcement and the courts are under conflicting public and 
government pressures. The public is angry about law enforcement 
abuses and corruption in the criminal justice system, but also 
wants the government to ensure public safety and deal with the 
growing crime problem. Second, the 
leadership's commitment to reform seems to be limited, and the 
government continues to manipulate procedural protections when 
expedient in sensitive or major criminal cases. Such acts 
undermine official statements on the need for a more even 
balance between the power of the state and the rights of 
criminal defendants and respect for human rights. Finally, 
continued arbitrary detentions, controls on judicial 
independence, and the leadership's apparent reluctance to 
dismantle the RETL system call into question the Party's 
commitment to broader reforms. Thus, while the leadership will 
likely have to deliver some concrete improvements in order to 
maintain its legitimacy, such improvements are likely to be 
incremental.

      III(b) Protection of Internationally Recognized Labor Rights


                                FINDINGS


        <bullet> The Chinese government does not respect the 
        core labor rights of freedom of association and 
        collective bargaining. The Chinese government prohibits 
        workers from forming independent labor organizations to 
        protect their rights and continues to harass and punish 
        workers who attempt to establish such organizations.
        <bullet> Millions of Chinese workers have no 
        alternative but to work in unsafe and unhealthy 
        conditions.
        <bullet> Employers frequently withhold wages from 
        Chinese workers. Local governments often fail to help 
        workers collect back wages, triggering frequent worker 
        demonstrations and unrest.

Introduction
    Working conditions in China and the government's lack of 
respect for internationally recognized worker rights remained 
largely unchanged over the past year. Working conditions in 
China's rapidly growing manufacturing sector remain generally 
poor and do not comply with minimum international standards. As 
discussed below, implementation of Chinese labor laws, 
regulations, and policies continues to fall short of 
international norms. The Chinese government denies Chinese 
citizens the right to organize freely and to bargain 
collectively, and over the past year the government has 
continued to imprison labor leaders and suppress worker efforts 
to represent their own interests. Government policies toward 
migrant workers continue to be discriminatory. Over time, the 
Chinese government's labor and security policies have resulted 
in the development of a system that encourages forced labor.
    Since the late 1970s, the National People's Congress has 
enacted progressive laws that on paper give Chinese workers 
rights similar to those that workers in developed countries 
enjoy. Poor enforcement of these laws, however, contributes to 
a number of serious problems, the most severe of which is the 
high rate of injury and death among workers. Deaths in the coal 
mining industry alone, while on the decline, still average more 
than 6,000 per year.\215\ Even though national and local laws 
and regulations seek to limit working hours, Chinese government 
prohibitions on independent labor associations, and workers' 
lack of knowledge of their legal rights, undermine such legal 
protections in practice.\216\
    A principal cause of the increasing incidence of labor 
disputes and worker unrest in China is poor government 
enforcement of existing labor laws and Chinese workers' lack of 
knowledge about their rights. To help China address these 
problems, the United States Department of Labor is funding a 
$4.1 million technical cooperation project in China to assist 
the Ministry of Labor and Social Security with training 
programs to provide legal education for legal aid workers and 
to improve employee/employer relations.\217\

Internationally Recognized Labor Standards
    Members of the International Labor Organization (ILO) have 
acknowledged the existence of a basic set of principles 
concerning the fundamental rights of workers to associate, to 
bargain collectively, and to be free from child and forced 
labor and from discrimination in employment. The ILO 
Declaration on Fundamental Principles and Rights at Work (the 
``1998 Declaration'') reaffirms the commitment of ILO members 
to those basic principles. China is a member of the ILO, but 
frequently does not respect these basic commitments.
    The ILO's eight core conventions provide guidance on the 
full scope of rights and principles enumerated in the 1998 
Declaration.\218\ China has ratified three of these 
conventions, including two on child labor and one on equal 
remuneration for male and female workers.\219\ China has not 
fulfilled its obligations under the 1998 Declaration to 
respect, support, and promote these rights and principles. One 
NGO characterized the Chinese government's interaction with the 
ILO as demonstrating ``steadfast refusal to 
compromise on the issue of freedom to organize and join a trade 
union of one's choice.'' \220\ The International Covenant on 
Economic, Social, and Cultural Rights (ICESCR), ratified by 
China in 2002, includes a section guaranteeing the rights of 
workers to organize independent trade unions. China's 
government, however, has claimed reservations to the ICESCR for 
provisions that conflict with China's Constitution and labor 
laws, which bar such organizations.\221\

            Freedom of association and collective bargaining
    The Chinese government does not provide workers with the 
internationally recognized right to join unions of their own 
choosing, to bargain collectively, or to strike. In spite of 
government prohibitions, Chinese workers continue to attempt to 
form their own labor organizations, usually spurred on by 
incidents involving non-payment of wages, poor working 
conditions, or corrupt confiscation of state-owned enterprise 
assets by management. Because workers have no legal means of 
organizing to help themselves, their ability to express 
discontent is highly limited. Frustrated by a lack of channels 
through which to communicate with management on working 
conditions or wage issues, workers are forced to protest, 
sometimes through large-scale demonstrations. These 
demonstrations often result in a repeated cycle of clashes and 
arrests. The government's repressive labor policies therefore 
trigger the very unrest that the Party leadership is anxious to 
avoid.
    Revised in 2001, China's Trade Union Law continues to 
recognize the All-China Federation of Trade Unions (ACFTU), a 
body closely linked to the Party, as the only national-level 
trade union in China. Under this law, the establishment of any 
lower-level trade union depends upon approval of the next 
higher-level union body.\222\ As a result, the ACFTU exercises 
an absolute veto over the establishment of any trade union and 
can block any attempt to establish independent labor 
associations. The sole legal union representative for the 
average Chinese worker is his or her local ACFTU branch, even 
though these branches seldom perform any of the important 
functions traditionally associated with unions, such as 
organizing workplaces or advocating for workers in disputes 
with management.\223\ Sometimes, the ACFTU branch actively 
seeks to prevent workers from pursuing wage claims. For 
example, in one case a local ACFTU manager formally represented 
company management, rather than workers, in their appeal of a 
decision ordering the payment of back wages.\224\ One Chinese 
worker in Shanghai characterized the role of his ACFTU branch 
this way:

          There is a trade union in our workplace simply 
        because it is compulsory and the local government sent 
        out a form to our boss. The management simply filled in 
        the form and that's that--we've got a trade union. It's 
        a common practice.\225\

    The ACFTU often frustrates moves by workers to form 
independent worker organizations. In one case, migrant workers 
tried to form an independent workers association in 2002 with 
the support of local officials. After the association enrolled 
1,500 workers and helped address worker grievances for three 
months, ACFTU and labor ministry officials closed it down, 
claiming that it was an independent union.\226\ ACFTU branches 
are also used as convenient ``cover'' by local officials 
seeking to prove their compliance with national and 
international labor standards. In November 2003, Guangdong 
provincial labor officials stated that they considered the 
ACFTU to have successfully set up branches in foreign-owned 
export factories in the province.\227\ Subsequent Commission 
staff conversations with employees of foreign compliance 
monitoring organizations working in the same area indicated 
that the ACFTU branches were having no visible impact on these 
foreign-invested workplaces and their level of activity was not 
detectable.\228\
    The Chinese government frequently ends worker protests by 
jailing leaders on a variety of criminal and administrative 
charges. In February 2004, government authorities suppressed 
protests by about 2,000 workers of the Tieshu Textile Factory 
in Suizhou, Hubei province, after the bankrupt state-owned 
factory failed to pay severance benefits. Authorities began 
making arrests when protests blocked the city's main rail line 
and occupied the factory premises. Nine workers were detained. 
The protests followed a 15-month peaceful campaign to gain back 
wages and termination pay.\229\ Authorities eventually tried 
Chen Kehai, Zhao Yong, Zhu Guo, and Yang Yongcai for 
``disturbing public order'' under summary procedures limiting 
their rights to legal defense.\230\ Zhu Guo received a one-year 
sentence and Chen Kehai and Yang Yongcai each received 
sentences of two and one-half years.
    Workers sometimes resort to desperate measures to seek 
redress of their problems. In July 2004, 23 laid-off coal 
miners traveled from Hegang, Heilongjiang province, to Beijing 
to petition the government for compensation. Scaling the roof 
of a building adjacent to the Supreme People's Court, the 
miners threatened mass suicide.\231\ After they were detained 
for causing a disturbance, hundreds of fellow miners set off in 
a convoy in an attempt to reach Beijing to support the 23 
petitioners, but were stopped by police.\232\
    A prominent U.S. political scientist noted at a Commission 
roundtable in 2003 that worker protests are increasingly 
sophisticated and growing in number, particularly in China's 
northeast region.\233\ He cited one police officer who 
complained that ``local protestors now show up having already 
raised funds for petition drives, hired lawyers, and invited 
news reporters to the event.'' He also pointed out that Western 
experts claim that ``the CCP and the State cannot hope to 
contain social unrest unless they address institutional 
catalysts including . . . bureaucrats who are corrupt, 
indifferent, and abusive.'' \234\

Workplace Health and Safety
    Unhealthy and unsafe conditions are pervasive in the 
Chinese workplace. In 2003, 963,976 workplace accidents claimed 
136,340 lives.\235\ The ILO estimates that Chinese workers 
annually suffer 11.1 accidents per 100,000 workers, a rate more 
than five times as high as that in the United States.\236\ 
According to one U.S. scholar, China and other developing Asian 
countries are experiencing what he called ``an industrial 
accident crisis of world-historical proportions.'' \237\ 
Inadequate training for machinery operators and unsafe handling 
of chemicals contribute to China's high rate of industrial 
accidents and injuries. In April 2004, carelessness in the 
handling of chemicals led to a gas explosion at Chongqing's 
Tianyuan Chemical Industry plant that killed 243 people and 
injured more than 9,000.\238\
    Accidents are particularly common in Chinese coal mines. 
While the mining industry is formally subject to provincial and 
local safety rules and regulations, such provisions are 
commonly ignored as local operators and officials reopen small, 
older mines to meet surging demand.\239\ Unemployed workers, 
especially those from the countryside, often seek work in these 
unsafe mines.\240\ Although coal-mining accidents declined 12.8 
percent in 2003, more than 6,000 miners still died in 
accidents.\241\ In Jiexiu, Shanxi province, for example, 28 
miners were killed in a gas explosion after their manager 
ordered them to continue working without ventilation. The 
director of the Jiexiu city Bureau of Work Safety said that the 
accident was ``totally avoidable.'' \242\
    Mine owners have occasionally taken steps to cover up 
accidents, making it difficult to determine the true accident 
rate. In June 2004, two Hebei mine owners were arrested for 
trying to cover up a gas explosion that killed 12 miners. The 
owners reported only one death, cremated the other bodies, and 
paid family members to keep quiet. The injured were not sent to 
hospitals, but were treated privately.\243\
    The Chinese government has taken some steps to address the 
problem of workplace injuries. In April 2003, the State Council 
passed the Regulations on Insurance for Occupational Injuries, 
effective January 1, 2004.\244\ The regulations establish a 
workers' compensation insurance system, requiring all companies 
in China to purchase insurance for work-related injuries.\245\ 
Although the Ministry of Labor and Social Security issued 
implementing regulations in the fall of 2003, the impact of 
these regulations is still uncertain. Chinese authorities have 
also mounted an industrial safety campaign, including a 
requirement for ``safe production licenses.'' Obtaining a 
three-year license requires companies to implement operational 
safety procedures and training, set up administrative bodies to 
supervise production, provide equipment meeting safety 
standards, and prepare emergency plans. Industries failing to 
comply must halt operations and pay fines ranging from 50,000 
yuan ($6,045) to 100,000 yuan ($12,091).\246\ To measure the 
success of its safety campaign, the central government plans to 
institute a national system of safety indices that will be 
distributed to provincial and local governments.\247\ While 
this new policy is a positive development, the government and 
industry are unlikely to reduce workplace injuries and deaths 
until workers can fully participate in the enforcement of 
health and safety regulations.
    Several U.S. government efforts exist to improve Chinese 
working conditions. The U.S. Department of Labor has funded a 
program in China, implemented by the National Safety Council, 
to train miners and mine operators on safe methods and 
practices. This program addresses only coal mining safety 
issues, and the need exists for other cooperative programs to 
address workplace health and safety issues in other industrial 
sectors. In June 2004, the U.S. Labor Department signed four 
letters of understanding with the Chinese Ministry of Labor and 
Social Security and the State Administration of Work Safety, 
including commitments to cooperate on regulations regarding 
wages, work hours, mine safety, occupational health and safety, 
and the administration and oversight of pension programs. \248\

Wages and Work Hours
            Wages
    The legally mandated minimum wage for Beijing is 495 yuan 
($59.77) per month, 570 yuan ($68.82) for Shanghai, and 600 
yuan ($72.45) for Shenzhen.\249\ Many Chinese employers do not 
pay workers even these modest rates. For example, one footwear 
factory in Dongguan paid its workers the equivalent of 18 U.S. 
cents per hour when the legal minimum wage was 31 cents per 
hour. In the same factory, legally mandated overtime rates were 
62 cents per hour, but workers were only paid 24 to 34 cents 
per hour for overtime that was essentially mandatory. Some 
workers accumulated up to 31 hours of overtime per week. 
Workers also had various wage deductions for room and 
board.\250\

            Wage and pension arrears
    Non-payment of wages and pensions is common in China, 
particularly for workers in financially ailing state-owned 
enterprises (SOEs). SOE employees are often assured generous 
retirement benefits while employed, only to be cut adrift when 
the company experiences problems or goes bankrupt.\251\ 
According to the Minister of Labor and Social Security, unpaid 
pension benefits in the first five months of 2000 alone 
amounted to 1.4 billion yuan ($174.6 million).\252\ Migrant 
workers are also vulnerable to wage withholding practices. 
Employers induce migrants to work throughout the year with 
promises of future payment, only to vanish with the approach of 
the Chinese New Year.\253\ Official sources suggest that over 
70 percent of Chinese migrants are owed back wages and that 
total back wages owed to migrants amounted to 100 billion yuan 
($12.5 billion) at the end of 2003.\254\
    Wage withholding generates desperate attempts by workers to 
recover the money owed to them. Increasingly, this has involved 
worker suicide attempts or threats.\255\ Large-scale worker 
protests are also common. In June 2004, around five thousand 
Shenzhen workers clashed with police in protesting wage 
withholdings by their Hong Kong-owned factory.\256\ Some SOE 
managers impose fines on workers seeking better conditions. In 
the summer of 2003, a Jiangxi province power company announced 
a series of escalating fines for workers seeking to discuss 
wage and benefit issues with local government officials.\257\
    The back wage issue has sparked warnings from the central 
government, the adoption of various local regulations, and 
numerous clean-up campaigns.\258\ The failure of local 
governments to settle construction industry wage debts has been 
a significant area of dispute. The central government's 
pressure on local governments has been effective in addressing 
a few immediate problems.\259\ However, Chinese media reports 
have noted the ineffectiveness of such sporadic campaigns to 
resolve the basic issue of wage arrears.\260\ Sustained 
government commitment to improving the legal rights of workers 
is required. One positive development over the past year was 
the passage of national Regulations on Legal Aid, allowing 
workers to seek assistance with legal claims for minimum wage, 
workers' compensation, and back wages. [See the discussion of 
legal aid programs in Section V(c)--Access to Justice.]

            Migrant workers and the hukou system
    Migrant laborers often face a range of discriminatory 
practices under China's household registration (hukou) system. 
For a discussion of these issues, see Section III(f)--Freedom 
of Residence and Travel.

            Overtime
    Chinese labor law limits overtime to three hours per day 
and no more than nine hours per week over a regular 40-hour 
workweek.\261\ A study of 142 Chinese factories producing goods 
for international brands showed that over 93 percent of the 
factories required excessive overtime, defined in the study as 
work hours exceeding legal limits or 60 hours total.\262\
    U.S. companies that purchase goods from Chinese 
subcontracting factories are aware of excessive overtime 
practices, but have had limited success in changing them. 
Factory managers cite inadequate production time and last-
minute design changes as the principal cause of excessive 
overtime.\263\ Commission staff and 
representatives of U.S. and European companies have discussed 
these issues, and the company officials have shown a growing 
awareness of the need to address excessive overtime practices 
before they place orders with suppliers who use subcontracts. 
Most agree that contract provisions curbing excessive overtime 
should become part of the supply chain management system.\264\ 
A Congressional survey of labor conditions in China identified 
a number of different workplace codes of conduct addressing 
this issue.\265\

Child Labor
    Although the Chinese government adopted regulations in 
December 2002 banning the employment of children under the age 
of 16, child labor remains a significant problem in township 
and village enterprises and in agriculture. While national data 
is unavailable, foreign NGOs and local governments in China 
have documented multiple instances of child labor in violation 
of China's own national laws.\266\ Sometimes, educational 
institutions themselves are complicit in compelling children to 
work.\267\
    Child labor issues sometimes attract national media 
attention. For the June 13, 2004 edition of the China Central 
Television Network's (CCTV) ``Focus'' news program, reporters 
conducted interviews with workers at a Tianjin knitting factory 
and revealed that most were under the legal age of 16 years. 
Not only did factory owners violate the law by employing 
minors, but they also forced the children to work up to 14 
hours a day and withheld the wages of those who failed to keep 
pace. Some of these children were left homeless after being 
fired from the factory.\268\ Similarly, the People's Daily 
reported on a handicraft company in Fuzhou that had hired four 
underage girls, two of whom had just graduated from primary 
school, and required them to work more than 12 hours per day. 
After deductions for room and board, one of the children earned 
only 100 yuan ($12) for a month's work when she had been 
promised between 300 and 400 yuan.\269\

Forced Labor
    Reports detailing the use of forced labor in Chinese 
prisons continue to be published.\270\ Several indicate that 
Falun Gong practitioners and other prisoners detained under 
China's re-education through labor (RETL) system have been 
producing goods for local and export markets under highly 
abusive conditions.\271\ Corruption associated with the 
management of profit-making prisons has generated some national 
attention within China. In September 2003, the Chinese 
government announced experimental plans to separate the 
``production units'' from the direct supervision of prison 
wardens and place them under the control of provincial 
administrators.\272\ For a discussion of the re-education 
through labor system, see Section III(a)--Rights of Criminal 
Suspects and Defendants.
    The Commission is concerned that products resulting from 
prison labor may be reaching the United States in violation of 
U.S. law. The Chinese and U.S. governments signed a memorandum 
of understanding in 1992 in which the Chinese government agreed 
to 
assist in investigating reports of prison labor products 
reaching the United States. Chinese government willingness to 
cooperate with the U.S. has been uneven, at best. Between 1996 
and 2001, Chinese authorities approved only 3 out of 11 
requests for site visits, the last in 2000.\273\ During that 
same time period, U.S. Customs substantiated three allegations 
of products made with prison labor in violation of Section 307 
of the Tariff Act of 1930 (10 U.S.C. Sec. 1307).\274\ Section 
501 of the United States-China Relations Act of 2000 created a 
multi-agency U.S. government task force to enforce the ban on 
Chinese forced or prison labor products.\275\ The task force 
was reconstituted in 2003 following the integration of the 
Customs Service into the Department of Homeland Security and 
began meeting again with Chinese officials in the spring of 
2004. Progress to date has been limited to a small number of 
interactions between U.S. and Chinese officials.

                       III(c) Freedom of Religion


                                FINDINGS


        <bullet> Chinese government repression of free 
        religious belief and practice has grown more severe 
        over the past year. The Communist Party intensified its 
        crackdown against unauthorized religious and spiritual 
        groups in 2003 and expanded the campaign during 2004. 
        Hundreds of unregistered religious practitioners, and 
        members of spiritual groups such as Falun Gong, have 
        endured severe government harassment in the past year, 
        with reports of beatings and killings.
        <bullet> The Party continues its on-going campaign to 
        transform Tibetan Buddhism into a doctrine that 
        promotes patriotism toward China and repudiates the 
        religion's spiritual leader, the Dalai Lama. However, 
        the intensity of religious repression against Tibetan 
        Buddhists may vary across regions. Qinghai province, 
        and possibly Gansu, may be relatively less repressive. 
        The Tibet Autonomous Region (TAR) and Sichuan province 
        currently implement policy in the most aggressive 
        manner.
        <bullet> The Chinese government has intensified 
        repression of unregistered Christians. Many 
        unregistered Christian churches have been demolished. 
        Protestant house church congregations have increasingly 
        found themselves the target of severe government 
        harassment, with reports of beatings and killings. Over 
        25 unregistered Catholic bishops, priests, and 
        seminarians have been arrested, and Chinese officials 
        have intensified harassment of unregistered lay 
        Catholics in some areas, often pressuring them to 
        register with the officially sanctioned Catholic 
        Patriotic Association. The Chinese government took no 
        public steps toward renewing diplomatic relations with 
        the Holy See.
        <bullet> The Chinese government continues to enforce 
        strict regulations repressing Islamic education and 
        practice, particularly in Xinjiang, where regional 
        policies focus on preventing Uighur Muslim children 
        from developing a strong Islamic identity and punishing 
        adult Muslims engaging in ill-defined ``illegal 
        religious activity.'' The Chinese government continues 
        to outlaw private madrassas and mosques, impose travel 
        restrictions on imams, restrict haj pilgrimages, and 
        force Muslims to adhere to Party-sanctioned 
        reinterpretations of the Koran and Hadith.

Doctrinal Hostility Toward Religion
    The Chinese government forbids any religious practice that 
fails to conform to the Party's views on religion--views shaped 
by doctrinaire Marxist antagonism toward all things religious. 
The Party maintains that the world outlooks of Marxism and 
religion are fundamentally opposed, and that religion is an 
illusory, inverse reflection of the external world.\276\ Party 
members are instructed to help the broad masses establish a 
``correct world outlook.'' \277\ Since the early 1990s, the 
Party has attempted to achieve this goal by imposing its views 
on religion in China's laws, regulations, and policies. This 
policy has led to the intimidation, harassment, arrest, 
detention, torture, and even death of religious practitioners 
who have chosen not to practice their beliefs in conformity 
with government mandates.
    Current Party doctrine on religion is based on a new 
socialist religious theory attributed to China's third 
generation leadership, specifically former president and Party 
leader Jiang Zemin. The Party's new socialist religious theory 
remains grounded in Marxist antagonism to religion, but adds a 
theoretical justification for co-opting religion to achieve 
Party ends in Jiang's formulation of the ``Three Represents.'' 
\278\ The Three Represents are best known in the West for 
providing the theoretical basis for allowing private 
entrepreneurs and other new social strata to join the Party. 
Under Jiang's socialist religious theory, ``the broad masses of 
believers'' also have a role to play in ``reform and opening 
up, and socialist modernization.'' \279\ But only those 
practitioners who accept ``unity and cooperation [with the 
Party] in political matters'' will also enjoy ``mutual respect 
[with the Party] in belief.'' \280\
    The Party's limited theoretical tolerance of religion, 
however, has little to do with respect for religious belief or 
practice. Instead, the Party sees it as a temporary solution to 
the longer-term problem of religion itself and the best means 
devised by the Party to ensure its own continued survival.\281\ 
Party theory dictates that religious belief is a form of 
delusion and will inevitably be overtaken by 
rational thinking grounded in science. But Party theory also 
recognizes that religion can be a powerful force and is better 
harnessed and controlled than battled. For the present, Party 
goals are best achieved by guiding religious believers in 
pursuits that serve the Party's ends, like developing 
``production and breeding industries'' and launching ``public 
welfare undertakings such as providing assistance to 
impoverished areas . . . supporting the army and giving 
preferential treatment to the families of soldiers.'' \282\
    Party leaders in Beijing publicly embrace this theory-based 
co-option of religion, but there is less evidence that Party 
cadres at the local level can always easily untangle the 
theoretical knot of what is acceptable belief and practice. 
These ambiguities have led to ``ideological [confusion],'' 
\283\ and may partially explain inconsistencies in the 
tolerance shown for religious practice in different parts of 
China.\284\ Sympathetic Party cadres can take a softer policy 
line on religious practice in one locality, while hostile 
cadres launch a local crackdown elsewhere, both finding ample 
justification in the same Party dogma. Authorities identified 
increased propaganda and education as the antidote, and the 
2004 National Forum on Religious Affairs launched a new ``Three 
Contingents'' program to enhance training for ``leading 
government and Party cadres, united front and religious affairs 
cadres, and (patriotic) religious personages.'' \285\

China's Religious Affairs Bureaucracy
     The highest levels of China's leadership generate national 
policies regarding the control of religious affairs.\286\ The 
Party's United Front Work Department coordinates these 
policies, which are implemented by the State Council's State 
Administration for Religious Affairs (SARA). This national-
level bureaucracy is replicated at the provincial and local 
levels, ensuring rigorous, albeit sometimes inconsistent, 
monitoring and control over religious affairs. The central 
mission of this bureaucracy has remained consistent since the 
early 1950s: ``to act as an agent of the Party in controlling 
religious activities and groups.'' \287\ No one in China may 
engage in communal worship unless SARA has authorized the group 
to register with the Ministry of Civil Affairs, and no one may 
import, produce, or distribute religious material in China 
unless SARA has vetted and approved it.\288\ One Chinese 
official maintained that this registration requirement ensures 
that authorized religious groups are treated as legal persons 
and each enjoys the protections of Chinese law.\289\ Chinese 
authorities also claim that these legal protections provide 
China's citizens ``sufficient'' freedom of religious 
belief.\290\
    Since the early 1990s, Chinese authorities have emphasized 
the creation of a legal framework to control religion, as 
opposed to the previous framework relying on Party discipline 
among cadres who were often guilty of being under or over 
zealous.\291\ In a January 2003 People's Daily editorial, the 
director of SARA, Ye Xiaowen, wrote, ``The purpose of managing 
religious affairs by law is to safeguard legitimate religion, 
curb illegal cults, resist infiltration, and crack down on 
crime.'' \292\ The scholar Pitman Potter has succinctly 
described the limitations of China's more recent legalistic 
approach to religious control:

          In a pattern broadly comparable to circumstances in 
        other societies where law is deployed to privilege 
        dominant belief systems and marginalize those of the 
        minority, regulation of religion in China is used not 
        only to control religious practices but also to express 
        the boundaries of tolerance and repression so as to 
        isolate resistance and privilege communities loyal to 
        the Party/state. Thus, the government promises 
        tolerance for the compliant and repression for the 
        resistant.\293\

    The Commission has generally welcomed China's progress 
toward developing a system based on the rule of law, but in the 
case of religion, the Chinese government uses law as a weapon 
against believers. Instead of enjoying legal protections, 
religious believers in China who choose to practice their faith 
outside government authorized forums face what Chinese 
authorities term the ``important weapon'' of the united front. 
``United front, religious, public security, cultural, and 
propaganda'' organs should find ways to operate in unison 
against the believer.\294\ Falun Gong practitioners have felt 
the full brutality of this unified state repression since the 
1999 launch of the Party's ``protracted, complicated, and 
intense fight'' \295\ against their peaceful beliefs and 
practices.\296\ This repression is carried out within the rule 
by law imposed by the Party on the practice of religion.\297\

New and Developing Trends
    The Party intensified its crackdown on ``cults'' and 
expanded the campaign during 2004.\298\ The campaign, directed 
by the State Council Office for Preventing and Handling Cult 
Issues,\299\ seeks ``to prevent cults from breeding and 
infesting rural villages.'' \300\ Although the People's Daily 
highlighted the spiritual group Falun Gong as a particular 
target,\301\ the campaign is part of a wider crackdown against 
all unregistered religious groups, including Christians and 
Buddhists.\302\ In late June 2004, a local Party official in 
Lanzhou noted that cracking ``down on free preachers who carry 
out missionary work illegally and engage in feudal and 
superstitious activities'' must be a key focus for cadres in 
the new century.\303\
    Party fears of religion ``poisoning the minds'' \304\ of 
China's youth have been reflected more prominently in the 
Chinese press since last year's annual report. One Chinese 
study of middle school students in Beijing showed that 53 
percent demonstrated an affinity for Buddhist prayer, and 
identified one likely source of this ``superstitious'' thinking 
as the Internet, ``currently the latent assassin of the 
ideology of young people.'' \305\ In response, Chinese 
authorities have launched anti-cult ``education programs'' for 
youth throughout China, including propaganda classes directed 
at middle and primary school students that encourage the 
adoption of ``scientific atheism'' and the rejection of 
``feudal and superstitious beliefs.'' \306\ In Xinjiang, more 
rigorous state-mandated training of young and middle-aged 
clerics emphasizes political training and discourages ``study 
of religious tenets.'' \307\ A model program titled ``small 
hands holding big hands'' was adopted encouraging students to 
report unauthorized religious activity by their relatives at 
home.\308\ The Party's stated goal is to train ``a new 
generation of patriotic religious personages.'' \309\
    Chinese authorities continue to express fears that 
``hostile international forces'' will use ``religion to expand 
the impact of their values and carry out ideological 
infiltration'' into China,\310\ and often portray certain 
groups, like Falun Gong, as a ``tool of the Western anti-China 
forces.'' \311\ A recent Party statement on religion found that 
an important conclusion drawn 40 years ago, that ``missionary 
work cannot be separated from imperialist politics, nor can it 
be separated from imperialist invasion,'' still offers an 
important lesson for today.\312\ Party officials draw on these 
fears to encourage nationalist sentiment against the religious 
groups it opposes, as members of the Three Tiers of Servant 
underground church in Heilongjiang province found when their 
beliefs were tied to infiltration by ``external forces'' during 
mass arrests in April.\313\ In Tibetan and Uighur areas, where 
separatist sentiment often is interwoven with religious 
conviction, state repression of religion is particularly 
harsh.\314\
    Despite government policies on religion, religious activity 
in China is surging. Official Chinese statistics indicate that 
there are more than 140 million practitioners in all authorized 
faiths, but the true number, including those who worship in 
private or outside state-controlled channels, is certainly much 
higher. After strictly-controlled religious practice was 
permitted once again in the aftermath of the Cultural 
Revolution, it seems likely the Party overestimated its ability 
to harness and then propagandize away religion, and 
underestimated the true depth of the Chinese people's longing 
for religious freedom.

Religious Freedom for Tibetan Buddhists
    Party and state authorities tolerate religious activity by 
Tibetan Buddhists within the strict limitations of China's 
Constitution, laws, regulations, and policies. According to a 
2002 propaganda manual for ``educating'' Tibetan Buddhist 
monks:

          Citizens' freedom of religion [sic] belief should not 
        be described as ``religious freedom'' in which 
        unprescribed religious activity is pursued according to 
        individual whims. It would be improper for the practice 
        of freedom of belief to oppose state laws and policies, 
        and religious activity must be pursued within the 
        confines permitted by the national constitution, law, 
        and policy.\315\

    An overwhelming majority of Tibetans are Buddhist. 
According to data provided to Commission staff by Chinese 
officials, monks and nuns constitute about two percent of the 
Tibetan population of the TAR, Qinghai, and Gansu 
provinces.\316\ One official described this fraction as ``a 
proper proportion.'' Most Tibetans, secular and monastic, 
strive to maintain their personal faith and avoid running afoul 
of official proscriptions.
    The Party guides an on-going campaign to transform Tibetan 
Buddhism into a doctrine that promotes patriotism toward China 
and repudiates the religion's spiritual leader, the Dalai Lama. 
A TAR manual issued in 2002 that is used in compulsory classes 
of ``Patriotic Education'' in monasteries and convents 
instructs that one of the ``fundamental duties of religion work 
in the new century'' is ``to forge the over-arching unity of 
the vast masses of believers of all China's nationalities under 
the banner of Patriotism.'' \317\ Monks and nuns learn that 
their religion ``must be relentlessly guided in its 
accommodation with Socialist society.'' \318\ A propaganda 
manual distributed to TAR cadres and academics in 2002 is aimed 
at the secular education sphere and counsels that the Party 
strongly advocates atheism and Marxist materialism because they 
are ``the essence of excellent human civilization.'' \319\ A 
2002 ``anti-splittism'' handbook for monks and nuns targets the 
Dalai Lama, his international supporters, and the U.S. 
government with a broad, interrelated set of accusations:

          From the 1980s onward, international anti-China 
        forces led by the U.S. made ``containing China'' the 
        basis of their policy and, taking the ``Tibet Issue'' 
        as an important strategic objective, overhauled their 
        deceitful methods. Using the issues of ethnicity, 
        religion, culture, human rights, and the environment, 
        they distorted the actual prevailing situation in Tibet 
        and slandered the policies of our country toward its 
        Tibet region, and stepped up support for the Dalai 
        clique [to] no end, and their ``Independence'' activity 
        became even stronger, which they took as a starting 
        point for their real aims: to attack China's stability, 
        contain its economic development, and ultimately 
        destroy it.\320\

    Commission staff delegations visiting Tibetan areas have 
seen signs that the intensity of religious repression is not 
uniform, an impression consistent with privately expressed 
expert opinions. Conditions in Qinghai province, and possibly 
in Gansu province as well, may be relatively less repressive, 
especially where the Gelug sect\321\ of Tibetan Buddhism is in 
the minority. The TAR and Sichuan province currently implement 
policy in the most aggressive manner. Authorities in Sichuan 
have targeted popular Buddhist teachers for persecution. One, 
Sonam Phuntsog of Ganzi county, received a five-year sentence 
after he advised local Tibetans to ``listen whole-heartedly to 
what the Dalai Lama says.'' \322\ He is due for release in 
October 2004. Another, Tenzin Deleg, was sentenced in late 2002 
to death with a two-year reprieve on charges of separatism and 
involvement in causing explosions. Authorities refuse to 
disclose details about the evidence against him, asserting that 
it involves state secrets.
    State-run political education sessions require that monks 
and nuns denounce the Dalai Lama's recognition in 1995 of Gedun 
Choekyi Nyima as the reincarnation of the Panchen Lama, Tibet's 
second-ranking spiritual leader. Chinese authorities installed 
another boy, Gyalsten Norbu, several months later and demanded 
that the secular and monastic communities accept his 
legitimacy. Officials promptly took Gedun Choekyi Nyima, then 
age six, and his parents into custody and have held them 
incommunicado since that time. The U.S. government has 
repeatedly urged China to end restrictions on Gedun Choekyi 
Nyima and his family, and to allow international 
representatives to visit them. Meanwhile, Gyaltsen Norbu's 
appointment continues to stir widespread resentment among 
Tibetans.
    The Party regards Tibetan Buddhism, like all religions, as 
a burden on society and requires monasteries and nunneries in 
Tibetan areas to achieve self-reliance.\323\ Charging admission 
is a common means of generating income for monastic centers in 
larger towns and cities.\324\ The construction of new highways 
and airports in the vicinity of Tibetan destinations, along 
with a growing Chinese middle class, has made Han tourism 
possible on a scale far exceeding that of foreign tourism.\325\ 
Both tourists and tourism disrupt religious activities and 
create the impression that the government promotes treating 
Tibetan religious sites as a commodity and cares 
little about the effect on religion. Credible reports claim 
that monastic study in some of Tibetan Buddhism's most 
respected centers of learning is suffering from an 
unprecedented onslaught of domestic tourists, many of whom show 
no awareness that the only purpose of a monastery is to impart 
a religious education. Reports also assert that monks and nuns 
face restrictions on religious study and a shortage of 
qualified teachers. Many risk the perilous trek into exile in 
order to pursue their studies freely. The Chinese government 
has demonstrated a commitment to protect religious architecture 
and art, but it has not demonstrated a similar commitment to 
respect the sanctity of religious practice.

Religious Freedom for China's Catholics and China-Holy See Relations
    The Chinese government has tightened its repression of 
unregistered Catholic religious practice and believers, 
intensifying a campaign begun in 2000. In some provinces, 
government authorities have stepped up efforts to intimidate 
and harass unregistered Catholics, often pressing them to 
register with the Catholic Patriotic Association (CPA).\326\ In 
the most extreme cases, government authorities have destroyed 
unregistered Catholic church buildings.\327\ Over 40 
unregistered Catholic bishops and priests continue to be in 
prison, in labor camps, under house arrest, or under strict 
surveillance. In November 2003, a U.S. NGO that monitors 
religious freedom for Catholics in China reported that 
unregistered Catholic Bishop Su Zhimin had been seen under 
guard in a hospital in Baoding, Hebei province. A frequent 
subject of official U.S. and international inquiry with the 
Chinese government since his detention in 1997, Bishop Su's 
whereabouts and condition are unknown. The same source reports 
the October 2003 arrest of about a dozen unregistered Catholic 
priests and seminarians, several 2004 arrests of unregistered 
Catholic bishops and priests who were soon released, and the 
arrest of ten unregistered priests and seminarians in August 
2004.\328\
    Chinese religious authorities generally subject registered 
Catholics to a milder type of control that concentrates on the 
seminaries, where the government subjects seminarians to 
interrogation about their religious and political beliefs and 
requires their attendance at ideological training courses. In 
early 2003, the officially sanctioned CPA and the CPA-approved 
bishops issued three documents that strengthened the role of 
the CPA in matters previously reserved to the clergy.\329\ 
These matters include the selection of bishops, the running of 
seminaries and convents, and the training of priests and 
sisters. The initial implementation of these new policies 
generally has not been vigorous, and has varied from diocese to 
diocese, in part because CPA supervision is weak or nonexistent 
in some areas. In parts of China, CPA officials have been 
accused of embezzling church property, or selling or renting it 
for personal gain. Registered Catholics have been permitted to 
continue developing a fledgling network of social organizations 
including orphanages, nursing homes, clinics, HIV/AIDS 
treatment centers, and leprosariums, and to engage in disaster 
relief activities. Government authorities have also permitted 
registered Catholics to create Internet Web sites and to offer 
advanced theological training for registered clergy and courses 
in basic theology for registered laity.
    Relations between China and the Holy See seem to have 
deteriorated over the past year. The Chinese government clashed 
with the Holy See over China's attempt to consecrate a large 
number of official bishops without Holy See approval in January 
2000 and responded angrily to the Holy See's October 2000 
canonization of 120 Chinese martyrs. But after failing in 2002 
to force its own episcopal candidate on the CPA-registered 
Catholic diocese of Hengshui, Hebei, the Chinese government 
permitted the consecration of Feng Xinmao, the appointee 
approved by the Pope, in January 2004.\330\ Although in the 
past, Chinese government officials and intermediaries 
representing the Holy See met periodically, such contacts have 
not occurred since the July 2003 visit to Beijing of a senior 
U.S. Catholic prelate, who held discussions with state and CPA 
officials.\331\ The Chinese government has so far taken no 
visible steps toward renewing diplomatic relations with the 
Holy See, which were broken in 1951. The Chinese government 
remains unwilling to meet the requirements of the Holy See 
regarding religious freedom for unregistered Catholics, papal 
selection of bishops, and reduction of the role and authority 
of the Patriotic Association.
    In 2004, the Holy See publicly protested the persecution of 
Catholic clergy for the first time since the mid-1990s. In 
March, a spokesman for the Holy See declared that any charges 
against arrested unregistered Bishop Wei Jingyi ``should be 
made public, as in any lawful state.'' In response, a Chinese 
Foreign Ministry spokesman said that ``police authorities have 
not taken any restrictive measures'' against Wei. SARA claimed 
that Bishop Wei was stopped for questioning after having 
traveled abroad with a falsified identity card. In April, the 
Holy See also declared the arrest of unregistered Bishop Jia 
Zhiguo ``inadmissible in a state of law that declares that it 
guarantees `freedom of religion' and `respects and safeguards 
human rights.' '' In both cases the bishops were 
released.\332\ In May, June, and September, Chinese government 
arrests of additional bishops, priests, and laypeople prompted 
additional protests from the Holy See.\333\
    The situation for China's Catholics continues to change. 
The two most important developments are the reconciliation of 
the official clergy to the Holy See and the growing 
reconciliation between 
unregistered and registered Catholics. In 2004, the Vatican 
announced that 49 of the 79 official bishops have privately 
established communion with the Holy See.\334\ Those who have 
done so are becoming more forthright. In an interview with a 
foreign journalist, Li Duan, the CPA-approved Bishop of Xi'an, 
declared, ``The Pope is the head of the Church . . . The Pope 
has the right to govern and supervise all the Church's 
activities, including the election of bishops. We will never 
deny that the Pope has the right to do so.'' \335\ A younger 
generation of registered Catholic priests frequently has 
refused to be ordained by bishops not in communion with the 
Holy See or to attend episcopal consecrations performed by 
them. Yet a minority of the registered Catholic clergy 
continues to adhere to the Chinese government's vision of a 
national Catholic Church independent of the Holy See. In April 
2003, the government rewarded Bishop Fu Tieshan of Beijing for 
his service to this vision by making him a vice-chairman of the 
National People's Congress (NPC).\336\ Although not discussed 
openly, the relationship of official bishops to the Holy See 
framed the discussions at a July 2004 meeting of the National 
Conference of Chinese Catholic Representatives. Almost half of 
the registered bishops refused to attend this joint meeting of 
the CPA and the registered bishops' 
conference. Speaking to the Conference, senior Politburo member 
Jia Qinglin and Ye Xiaowen, Director of SARA, insisted on the 
``autonomy'' of the Chinese Catholic Church in the matter of 
episcopal ordination.\337\ Ordination of bishops is a question 
of increasing importance to the Catholic Church in China, as 
many bishops are elderly. In the registered community, many 
candidates are reluctant to accept episcopal succession in the 
current atmosphere; in the unregistered community, candidates 
who have the proper level of theological education are 
difficult to find within a given diocese.
    Despite the difficult issues facing China's Catholics, the 
registered and unregistered communities keep moving closer 
together. The increasingly open loyalty of the registered 
clergy to the Holy See has earned them growing acceptance from 
underground Catholics. Some unregistered clergy have urged 
their members to adopt a conciliatory attitude toward the 
registered Church, and many have done so. Most unregistered 
Catholics, however, continue to refuse to worship with the CPA-
approved Catholic community.\338\

Religious Freedom for China's Muslims
    The Chinese government continues to strictly regulate 
Islamic education and practice, particularly in Xinjiang, where 
regional policies on religion are designed in part to ensure 
that Uighur Muslim children do not develop a strong Islamic 
identity.\339\ Private madrassas and mosques are prohibited in 
Xinjiang,\340\ and children under 18 years of age cannot 
receive religious instruction, including private Koranic study 
at home.\341\ Chinese authorities impose harsh travel 
restrictions on imams in Xinjiang,\342\ and they must 
demonstrate ``good political quality'' \343\ before they can 
participate in the state-run propaganda classes that are 
mandatory for preaching or leading prayer.\344\ The state-
authorized China Islamic Association has begun implementing a 
policy that directs Muslims to interpretations of the Koran and 
Hadith that conform to Party guidelines.\345\
    Following a gradual increase in Party tolerance of religion 
beginning in 1978, Islamic education and practice surged in 
Xinjiang. By the late 1980s, regional authorities became 
concerned that Islam was weakening the Party's influence.\346\ 
In response, the Xinjiang government issued a series of laws 
and regulations to ``control'' Islam.\347\ These laws and 
regulations, and their successors, continue to govern Islamic 
education and practice today. They prohibit Muslims from 
unauthorized organizing,\348\ accepting foreign 
contributions,\349\ or printing or distributing religious 
materials without explicit permission from authorities.\350\ 
Authorities in Xinjiang have also cracked down on the 
construction of mosques.
    Chinese government rhetoric attempts to cast suspicion on 
Muslims in Xinjiang. For example, according to one official in 
Urumqi, before 1999 the number of mosques in Xinjiang far 
exceeded the ``the needs of normal religious activity,'' \351\ 
and ``nearly all the illegal activities or disturbances in 
Xinjiang are connected to religion.'' \352\ According to a 
member of the Xinjiang Academy of Social Sciences, the most 
prevalent ``illegal religious activities'' in the region 
include private underground Koranic study, trans-regional 
missionary work, and Talib (student) activities.\353\
    Chinese authorities seem to be implementing policies likely 
to generate further Uighur alienation and resentment rather 
than national unity. A recent Party Central Committee document 
noted that the major dangers to maintaining stability in 
Xinjiang are ethnic separatism and illegal religious 
activity.\354\ Chinese authorities accuse ``ethnic 
separatists'' of trying to ``politicize the problem of 
religion,'' and emphasize the importance of drawing a clear 
distinction between these two ``dangers.'' \355\ However, 
strict and often insensitive Chinese policies toward Uighurs 
and government efforts to categorize long-held Uighur 
aspirations for increased autonomy as ``splittism'' or 
``terrorism,'' may be just as responsible for linking the two 
issues. According to one U.S. scholar, Islamic piety or 
practice cannot be understood in isolation from politics, but 
it should also not be simply reduced to politics.\356\ ``Uighur 
religiosity has political content, but state interventions 
have, indeed, politicized it further.'' \357\ Public security 
officers reportedly arrested a young Muslim poet in January 
2003 for chanting a verse in public. ``Security officials told 
foreign journalists . . . (that) . . . the young man was guilty 
of `spiritual terrorism.' Officials said the poem `attacked our 
government policy' regarding ethnic minorities.'' \358\
    Chinese authorities may have overreached in the continuing 
crackdown on Uighur ``separatism.'' According to a recent study 
by a U.S.-based human rights NGO, ``the Chinese authorities are 
sowing the seeds of an ethnic resentment so profound as to 
jeopardize the very stability they claim to defend.'' \359\ 
Rather than focusing attention on ``the extremely small number 
of ethnic separatists . . . (engaged) in violent terrorist 
activities,'' \360\ Chinese authorities have instituted harsh 
religious policies that discriminate against all Uighurs, based 
on the false premise that most Uighurs support radical and 
violent Islamist separatism and terrorism. In fact, Uighurs are 
``divided from within by religious conflicts, in this case 
competing Sufi and non-Sufi factions, territorial conflicts, 
linguistic discrepancies, common-elite alienation, and 
competing political loyalties.'' \361\

Religious Freedom for China's Protestants
    China's unregistered Protestant house churches suffer 
continued government intimidation, harassment, and, in some 
cases, severe repression.\362\ Although the Party justified 
some of these actions based on claims of church ties to 
external forces,\363\ in fact they are the product of the 
Party's concern about the rapid increase in house church 
membership and the existence of a loose network linking these 
congregations through the personal ties of some church leaders. 
One U.S. scholar has suggested that the Party perceives the 
house church movement as an especially serious threat because 
membership, estimated in the tens of millions, has grown as 
churches have become ``increasingly Sinicized through the 
inclusion of features of folk religion and traditional cultural 
forms.'' \364\
    Despite the broad appeal of the house church movement, the 
Party's fears of a Protestant mass movement challenging its 
authority seem groundless. Increasing Sinicization has caused 
division rather than unity among house churches in many 
cases.\365\ The highly sectarian tendencies of some 
congregations led one group of church leaders in 1998 to 
condemn heretical teachings and ask the government to ``change 
the definition of a `cult' from meaning simply any Christian 
group that didn't register with the (state-authorized) Three 
Self Patriotic Movement.'' \366\ Although many house church 
leaders seek unity among congregations, most have shown little 
inclination to challenge the state, and ``some pastors say 
their groups are more concerned about internal divisions and 
attacks by `heretics' and `cults' like the `Eastern Lightning' 
(whose leader claimed she was the Christ incarnate) than they 
are about state repression.'' \367\
    Despite the apparent lack of any real threat to Party 
authority or public safety, the Party intensified its ``anti-
cult'' crackdown against the house church movement in 2003 and 
expanded the campaign in 2004. Xiao Biguang, a leader in the 
South China Church, and Zhang Yinan, a house church historian, 
were arrested in September 2003. Police cited Zhang's ``hopes 
for the destruction of Chinese government bodies'' during his 
sentencing to two years of re-education through labor in 
October.\368\ He was reportedly beaten after arriving at the 
labor camp.\369\ Xiao Biguang, who was organizing the legal 
defense for imprisoned South China Church founder Gong 
Shengliang and had revealed that prison authorities had nearly 
beaten Gong to death, was released from detention in October. 
Pastor Gong was arrested in August 2001 and charged with 
premeditated assault, using a cult to undermine the 
implementation of law, and rape. The cult charges were dropped, 
and Gong's December 2001 death sentence was commuted to life in 
prison, but Pastor Gong continues to endure serious abuse from 
prison authorities in Wuhan.\370\
    In October 2003, Zhang Hongmei, a house church member in 
Shandong province, was reportedly beaten to death after being 
detained by police for ``illegal religious activities.'' The 
day before her death, police had demanded that Zhang's family 
pay the equivalent of a $362 fine for her release.\371\ Three 
house church leaders--Liu Fenggang, Xu Yonghai and Zhang 
Shengqi--were tried in secret in Hangzhou, Zhejiang province in 
March 2004. The original charges of inciting the gathering of 
state secrets were amended to providing intelligence to 
organizations outside of China.\372\ According to a U.S.-based 
human rights NGO, the arrests were in response to a report 
released by Liu detailing the severe repression of Christians 
in Hangzhou. Xu had printed the report and Zhang had 
disseminated it on the Internet.\373\ On August 6, the 
Intermediate People's Court in Hangzhou sentenced Zhang, Xu, 
and Liu to one, two, and three years in prison, respectively. A 
U.S. NGO that monitors religious freedom in China reported the 
abduction by police of Three Tiers of Servants church leader Xu 
Shuangfu in Heilongjiang province and the arrest of scores of 
his followers during April 2004.\374\ One of those arrested, Gu 
Xianggao, was beaten to death while in police custody.\375\ 
Xu's condition and whereabouts remain unknown.
    Compared to the highly vulnerable house churches, China's 
authorized Protestant congregations operate comfortably within 
the state's religious bureaucracy, in effect enduring ``the 
constraints imposed on their parishes in exchange for the 
opportunity to worship in public.'' \376\ Oversight by two 
Chinese organizations under the SARA, the Three Self Patriotic 
Movement (TSPM) and the China Christian Council, ensure that 
China's registered Protestant churches conform to state 
religious guidelines.\377\ Approximately 13,000 Protestant 
congregations are registered to hold services in China. 
Registered pastors are paid by the state and are subject to 
removal if the government believes they have become too 
evangelical. Church officials often complain in private about 
state interference and restrictions. According to these 
officials, SARA decides ``how many pastors the TSPM may ordain 
in any six-month period, how many meetings TSPM pastors can 
hold in any one-month period, and who is permitted to teach at 
and graduate from China's 17 official Protestant seminaries.'' 
\378\
    As in other areas of religious affairs, inconsistencies 
exist in official policy toward Protestants, and some see a few 
small signs of hope for limited change. Some house churches 
have reportedly been successful in appealing to the principles 
of the Chinese Constitution ``to obtain reparations for harm 
done to their leaders or facilities.'' \379\ In 2001, the Party 
seemed prepared to begin allowing house churches to forego 
registering with the TSPM,\380\ but this possibility apparently 
was abandoned in favor of the current crackdown on house 
churches.

                      III(d) Freedom of Expression


                                FINDINGS


        <bullet> China's Constitution guarantees Chinese 
        citizens freedom of the press, but China's laws and 
        regulations explicitly prohibit Chinese citizens from 
        exercising this right.
        <bullet> Chinese authorities continue to impose strict 
        licensing requirements on publishing and news 
        reporting. Authorized publishers are subject to 
        government management and censorship; unauthorized 
        publishers are subject to closure and civil and 
        criminal penalties.
        <bullet> China's government continues to intimidate and 
        imprison those who express opinions that Communist 
        Party and government officials deem embarrassing or 
        threatening.
        <bullet> Chinese authorities continue to attempt to 
        prevent Chinese citizens from accessing news from 
        foreign sources, and are receiving assistance from 
        commercial enterprises, who must either impose 
        political self-censorship or risk being shut down.
        <bullet> Chinese citizens must rely upon organizations 
        outside of China to circumvent government Internet 
        censorship.
        <bullet> The flow of government-controlled information 
        continues to increase.

Introduction
    China's government continues to suppress freedom of the 
press in a manner that contravenes its own Constitution. 
China's Constitution guarantees Chinese citizens freedom of the 
press, but one prerequisite for a free press is the absence of 
licensing requirements that act as barriers to engaging in 
publishing. Chinese 
authorities continue to impose strict licensing requirements on 
publishing and news reporting. By requiring publishers to 
obtain and maintain a license, Chinese authorities control who 
gets to publish (by refusing to grant a license), ensure that 
the government is represented in all publications (by requiring 
an enterprise to have a government sponsor in order to obtain a 
license), and intimidate and silence those who have been 
authorized to publish (by revoking, or threatening to revoke, a 
license).\381\ As long as China's legal system imposes these 
prior restraints, Chinese citizens will not be able to exercise 
their right to freedom of the press.
    Chinese authorities continue to expend significant human, 
legal, and technical resources to silence their critics and 
censor information from sources the government cannot control, 
influence, or censor.
    The Chinese government tolerates discussion of political 
issues, provided that no criticism is directed at Party and 
central government actions or policies, and that such 
discussions are restricted to forums that are either closed to 
the public or subject to government monitoring and censorship. 
As the head of the Party's Central Propaganda Department told 
the producers of one television news program, news reporting 
must be ``conducive to implementing the Party's line, 
principles and policies'' and enhance the ``people's trust in 
the Party and the government.'' \382\

Promising Developments
    The Commission notes several developments that have had a 
positive impact on the lives of Chinese citizens. Authorities 
continue to allow the selective publication of information that 
previously they would have deemed too embarrassing or 
threatening, such as corruption, discussions of government 
policies, and deaths owing to natural and man-made disasters. 
For example, China's state media carried reports of the 
democracy march in Hong Kong in July 2004. Nevertheless, 
China's government, and not the press itself, remains the final 
arbiter of what can be published: none of the state media 
reports mentioned that the Hong Kong march involved hundreds of 
thousands of demonstrators who were demanding more democracy.
    The Chinese government is allowing citizens more access to 
different types of government information.\383\ Government 
departments are also increasing the number of official 
spokespersons available to field news media inquiries.\384\ 
Chinese officials appear prepared, however, to use the 
spokesperson system to restrict the flow of information to the 
public by creating a single authorized channel through which 
the government permits reporters to ask questions of government 
departments.\385\
    Media outlets in China are increasingly operated as 
commercial enterprises.\386\ This change in organization has 
made the media more responsive to audience demands, but this 
``enterprization'' is not the same as genuine 
``privatization.'' The Chinese government has licensed some 
private and foreign publication distributors,\387\ but private 
publishing remains illegal,\388\ and authorized publishing 
enterprises remain subject to government management, 
sponsorship, licensing, and citizenship requirements. 
Publishers must also obey government orders to censor 
politically sensitive content.
    The government has required most news publications to 
become financially self-supporting, and this commercialization 
has caused an increased emphasis on investigative reporting and 
timely delivery of news. Because the government censors 
negative reporting on senior officials, investigative reporting 
is limited to subjects that do not criticize the Party or the 
central government, such as foreign affairs and local 
news.\389\

The Media as a Political Tool: Supervision of Public Opinion, Abuse, 
        Corruption, and New Directions in Media Regulation
    The Chinese government has transformed the concept of 
``freedom of the press'' from the principle that individuals 
should have the right to publish into an ethical duty to 
publish and censor for the benefit of the Party.\390\ The Party 
has always viewed publishing as a tool for securing its hold on 
power, not as an individual right,\391\ and the government 
continues to treat the press as a political tool\392\ and to 
regulate it accordingly.\393\ Chinese government authorities 
ensure that the press fulfills its duty to the Party by 
requiring that all publishers be licensed by the government. 
Publishers must also be sponsored by a government agency,\394\ 
and the General Administration of Press and Publication (GAPP), 
the National Administration of State Secrets, and the Party's 
Central Propaganda Department act as the final arbiters of what 
types of politically sensitive material may be published.\395\
    The government continues to treat the press both as a 
propaganda tool\396\ and as an agent for domestic information 
gathering. Chinese authorities refer to these dual roles of the 
news media--to act as both the ``eyes'' and the ``mouthpiece'' 
of the government--as ``supervision of public opinion.'' 
According to the Party, supervision of public opinion should 
originate with ``the masses of people going through the news 
media to publicly implement democratic supervision of the Party 
and the government.'' \397\ In practice, however, ``supervision 
of public opinion'' means that all news media in China must 
serve the Party in two ways. First, the media monitors public 
sentiment and reports on certain topics (and censors others) in 
a manner that allows the Party to manipulate public 
opinion.\398\ For example, after dozens of people died in a 
public stampede in February 2004, the Beijing municipal Party's 
propaganda office instructed all local media outlets to publish 
the same news reports.\399\
    The second way that the Chinese government requires the 
news media to implement supervision of public opinion is by 
monitoring the public's opinion regarding China's leaders and 
their policies, and relaying this information back to the 
leadership. For example, if a journalist in China submits a 
story that an editor deems too politically sensitive to 
publish, Chinese law requires the editor to designate the story 
as ``classified,'' and, instead of publishing it, treat it as a 
secret government document.\400\ The editor must then pass such 
documents directly to the government agency that manages the 
publisher.
    Until recently, Chinese authorities could carry out 
supervision of public opinion easily because the number of news 
reporting agencies in China was small. The Xinhua News Agency, 
a government agency directly under the State Council, was the 
country's primary news gathering and publishing agency.\401\ In 
addition, the government directly managed and subsidized all 
news publications. News gathering organizations have 
proliferated rapidly in the past few years, however, and the 
government expects them to operate as commercial 
enterprises.\402\ The reporting priorities of these commercial 
publishers differ from directly subsidized publications, and 
Chinese authorities are seeking to ensure that they continue to 
channel information that helps the Party maintain power. One 
method the government employs is establishing relationships 
between publishers and government agencies outside of the 
traditional sponsorship hierarchy. For example, in January 
2004, the People's Daily reported that several media groups in 
China had formed an ``information sharing'' arrangement with 
the Beijing Municipal Procuratorate.\403\ The following month 
the Procuratorate issued regulations on how they would handle 
such information.\404\
    Chinese authorities require anyone wishing to practice 
journalism to obtain a license.\405\ In conjunction with this 
requirement, the GAPP (the Chinese government agency primarily 
responsible for censoring books and periodicals)\406\ launched 
a Web site that now lists the names of persons who are 
forbidden to report news.\407\ In January 2004, the government 
launched a campaign to shut down branches of newspapers that 
had not acquired appropriate government authorizations.\408\
    Chinese leaders distract attention from the absence of 
freedom to publish by focusing propaganda efforts on ethical 
problems in the news media. Articles appear almost weekly in 
the state-controlled press decrying the abuses of and by the 
press and exhorting reporters and editors to engage in 
supervision of public opinion. But no articles raise the lack 
of individual freedom to publish, or question whether it is 
appropriate for the press to be regulated as if it were a 
government agency.\409\
    Because the commercialization of the news media complicates 
government efforts to implement censorship, authorities have 
begun to employ new tools to silence and intimidate the news 
media. For example, for several years the publications of 
Guangdong province's Southern Group have been among the most 
liberal, popular, and respected in China. In the past, the 
government has relied upon ``traditional'' censorship 
techniques, based on its licensing and managerial authority, to 
control Southern Group publications.\410\ In January 2004, 
however, the authorities disciplined the Southern Group's 
Southern Metropolitan Daily by detaining several current and 
former senior editors and managers, and charging two with 
economic crimes.\411\ Many scholars and citizens in China 
objected that the charges were without legal basis, and that 
Guangdong authorities exploited China's immature financial 
regulatory system and the news media's ``quasi-governmental'' 
status to punish the editors of a newspaper that had 
embarrassed the provincial leadership.\412\ Web sites that 
protested these prosecutions were accessible for a few weeks, 
but were taken down when the controversy began to attract 
increased domestic and international attention.\413\
    The Chinese government has also undertaken projects to use 
the public to improve the reach of its censorship. For example, 
in January 2004, as part of a ``Sweep Away Pornography and 
Strike Down Illegal Publications'' campaign,\414\ the Ministry 
of Public Security set up a nationwide hotline that people 
could call to report publications with ``serious political 
problems'' and receive rewards.\415\ In February 2004, Sun 
Jiazheng, Minister of Culture, said that regional cultural, 
finance, public security, industry, and commerce departments 
were to reward people for reporting illegal Internet use, 
including posting essays calling for democracy and reform.\416\ 
Several provinces have also instituted ``media supervisor'' 
systems, in which the government hires private citizens ``to 
monitor local media for accurate reporting and orderly 
distribution . . . [and] report problems to the provincial 
propaganda department.'' \417\

Prior Restraints
    As the Commission noted with respect to religion [see 
Section III(c)--Freedom of Religion], while China's progress 
toward developing a system based on the rule of law has been 
laudable, in the case of freedom of expression, China is using 
law as a weapon. Instead of protecting freedom of the press, 
laws in China impose 
extensive administrative licensing requirements on all forms of 
publishing. No one may publish a book, newspaper, magazine, or 
commercial Web site in China without a government agency 
sponsor and a license from the GAPP. Individuals cannot legally 
publish, since Chinese law continues to restrict the right to 
publish to enterprises with a large amount of registered 
capital.\418\ The government has the authority to revoke any 
publisher's license and force it to cease publishing.\419\
    In October 2003, the GAPP completed a campaign in which it 
revoked the licenses of over 600 newspapers.\420\ In February 
2004, Chinese authorities issued an order stating that 
government agencies that sponsored publications should 
strengthen their ``opinion guidance'' over those publications, 
and publishers should conscientiously accept the supervision 
and management of their government sponsors.\421\
    In January 2004, the GAPP awarded 50 companies licenses to 
publish on the Internet.\422\ Under Chinese law, anyone who 
operates a commercial Internet publisher without a license is 
engaged in illegal publishing and may be shut down at any 
time.\423\ For example, in January 2004, a Beijing court 
refused to hear an appeal by Li Jian, the operator of a civil 
rights Web site, against a lower court's decision supporting 
the Beijing Communications Administration's (BCA) closure of 
his site. While Li Jian said his site was not commercial, and 
therefore did not have to be licensed, BCA officials said that 
the government had the right to shut down the site because it 
included an unlicensed bulletin board system, and Mr. Li had 
not provided accurate contact information and ID card number 
when he registered the site.\424\
    The government continues to require that all books 
published in China be assigned ``book numbers,'' and the 
authorities determine who is allowed to publish through their 
exclusive control of the distribution of these numbers. In 
October 2003, the GAPP banned 19 dictionaries.\425\ In July 
2004, it banned 30 periodicals for illegally using registration 
numbers belonging to other periodicals.\426\ In January 2004, a 
court in Hefei, Anhui province, sentenced two men to prison 
terms of nine and seven years for ``unlawful operation of a 
business.'' Their crime was to publish books of love poems 
using illegally purchased book numbers.\427\
    In addition to the GAPP, numerous other agencies 
participate in the government censorship regime. The State 
Administration of Radio, Film, and Television (SARFT) issued 
regulations reaffirming the requirement that political 
filmmakers submit their screenplays for approval before 
releasing their films.\428\ The State Meteorological Office 
issued regulations prohibiting Chinese media outlets from 
publishing weather reports without prior government 
authorization.\429\ The Ministry of Public Security has 
increased surveillance of mobile phone short text messages\430\ 
for ``false political rumors'' and ``reactionary remarks.'' \431\ 
In October 2003, several Party and government agencies jointly 
established the ``Central Leading Group for the Coordination of 
Work To Improve Publications'' to ensure that all publications 
``do not have problems with political orientation.'' \432\ In March 
2004, the Ministry of Culture banned a foreign computer game because 
it discredited the image of China.\433\

Government Censorship
    Chinese authorities continue to impose restrictions on who 
may publish news and who can discuss certain topics. In 
February 2004, Chinese authorities ordered senior managers at 
Sina.com, Sohu.com, Netease (163.com), and other Internet 
portals to close news chat rooms and stop using live Web 
broadcasts, translating foreign news, and doing online 
interviews with scholars, artists, and professionals. Managers 
were instructed to rely exclusively on news from Xinhua, the 
official news agency.\434\
    The government also determines which news topics are 
completely forbidden. For example, in October 2003, the 
Minister of Health stated that news media outlets could not 
publish anything regarding SARS unless the Ministry of Health 
had first approved the report.\435\ In November 2003, the 
Beijing municipal government issued the ``Opinion on Carrying 
Out the Work of Housing Demolition and Relocation Well to 
Safeguard Social Stability,'' requiring propaganda departments 
to ensure that all reports on demolition incidents ``take 
social stability as their starting point.'' \436\ Pursuant to a 
bilateral agreement, Chinese authorities aired Vice President 
Cheney's March 2004 address to students in Shanghai in its 
entirety, but government censors eliminated references to 
political freedom and Taiwan, as well as his answers to 
questions after the speech, from the version posted on state-
owned Web sites.\437\
    While remaining pervasive and repressive, Chinese 
government censorship is becoming less monolithic. For example, 
in August 2003, government officials in Dingnan county, Jiangxi 
province, removed pages of the People's Daily before it was 
distributed in the county. The pages included a report 
regarding corruption in the county government. In September 
2003, China's national media, including the China Youth Daily, 
the People's Daily, and Xinhua, carried a series of reports 
decrying the Dingnan censorship, which they deemed 
``appalling.'' In another example, China's State Council 
included information in one of its reports from organizations 
such as Human Rights Watch and Reporters Without Borders, even 
though China's government prohibits these organizations from 
operating in China, and attempts to prevent Chinese citizens 
from accessing their Web sites.\438\
    Other examples of Chinese government censorship during the 
past year include:

        <bullet> In September, a Chinese scholar published an 
        article critical of local government officials who had 
        enacted regulations prohibiting the media from 
        publishing opinions that contradict court judgments. 
        The scholar did not say, however, which local 
        government he was criticizing.\439\
        <bullet> In January, the GAPP issued regulations 
        restricting the right to publish books on reforming the 
        Constitution to three publishing houses.\440\
        <bullet> In March, managers of a state-owned television 
        station in Tibet were punished for showing brief images 
        of the banned flag of independent Tibet.\441\
        <bullet> In March, Hong Kong media reported that 
        Chinese authorities told Mao Yuanxin, Mao Zedong's 
        nephew and his special liaison person during the post-
        Cultural Revolution period, that he could not publish 
        his memoir because it included ``instructions,'' 
        ``exhortations,'' and ``comments'' by Mao Zedong that 
        had not been made public previously.\442\
        <bullet> Also in March, another Hong Kong publisher 
        reported that Chinese authorities had forbidden Li Peng 
        from publishing his memoir, which, according to the 
        report ``sought to explain how leaders in the central 
        government were divided over what to do about the 
        weeks-long pro-democracy protests in Beijing's 
        Tiananmen Square.'' \443\
        <bullet> In May, China's domestic media reported on a 
        journalist attempting to cover unrest relating to 
        demolitions in Chenzhou, Hunan province. According to 
        the reporter, city government officials had issued an 
        order that no municipal agencies were to cooperate with 
        reporters from several television news programs who had 
        recently arrived to cover the story.\444\
        <bullet> In July, economist Mao Yushi told the South 
        China Morning Post that the publisher of his book, Give 
        Freedom to Ones You Loved, had received an order to 
        stop making new prints and to cease distribution of 
        unsold copies.\445\

Self Censorship
    Because Chinese authorities can revoke a publisher's 
license, the Party and government are able to ensure that 
Chinese news outlets remain on their side.\446\ Chinese news 
publishers occasionally include comments somewhat critical of 
China's central government in their English publications, but 
edit such comments out of Chinese language versions.\447\ 
Publications often engage in self-censorship after-the-fact, 
based upon how the government decides a problem should be 
handled. For example, after Zheng Enchong's conviction in 
October 2004, the Web site of the China Economic Times, a 
publication put out by the State Council's Development and 
Research Center, briefly carried an article entitled ``Is 
Demolition a State Secret? '' questionning whether the 
government had the authority to designate information regarding 
demolition protests as a state secret. The article was quickly 
removed from the site.
    Because Chinese authorities can refuse to allot book 
numbers, book publishers refuse to publish works unless they 
can purge them of politically sensitive material.\448\ For 
example, in September 2003, the authorized Chinese publisher of 
Hillary Clinton's memoir, Living History, censored several 
passages critical of China from the Chinese translation of her 
book without her permission.\449\ To circumvent China's book 
censorship regime, some authors allow mainland Chinese 
publishers to remove political material that Chinese 
authorities would find objectionable, but also have the 
unexpurgated edition published in Hong Kong.\450\ A review of 
recent scholarly literature on the media and journalism 
demonstrates the hand of both government and self-censorship in 
China:

        <bullet> Most books published in China dealing with 
        news media issues ignore the question of China's lack 
        of freedom of the press.\451\
        <bullet> Books that discuss how the law protects (or 
        does not protect) journalists discuss the situation in 
        foreign countries,\452\ but do not discuss the large 
        number of journalists and other writers currently in 
        prison in China for their writings.\453\
        <bullet> Books that discuss the problems facing China's 
        domestic news media focus on the lack of ethics and 
        professionalism in China's media, but do not discuss 
        the problems caused by China's licensing and censorship 
        systems.\454\
        <bullet> Books comparing Chinese and Western news media 
        either ignore the issue of freedom of the press,\455\ 
        or only address it in the context of problems facing 
        the foreign media and ignore the issue with respect to 
        China's own legal system.\456\
        <bullet> Books that address the topic of freedom of the 
        press in China repeat Communist dogma on the topic and 
        reach the conclusion that Chinese journalists do not 
        face any inappropriate restraints on their freedom of 
        expression.\457\

    As with the publishers of books and periodicals, China's 
Internet operators also exercise extensive self-censorship, 
both to comply with Chinese law, and to avoid offending the 
government. Internet cafes employ staff to monitor which Web 
sites their customers are using and to tell them to stop 
visiting ``illegal'' sites. Internet Bulletin Boards use 
software to block posts containing words designated as 
forbidden by ``relevant government agencies.'' They also employ 
staff to monitor and delete politically sensitive articles that 
users try to post, and ban users who attempt to post 
politically sensitive materials too often.\458\ In December 
2003, Sina, Sohu, Net Ease and dozens of other Internet news 
outlets jointly signed an ``Internet News Information Service 
Self-Discipline Pledge'' promising to ``voluntarily submit to 
government administration and public supervision.'' \459\
    Self-censorship is highly visible on Internet search 
engines based in China. While a search for the term ``China 
human rights'' on the U.S.-based search engine ``Google'' 
returns a mixture of China-based and non-China based Web sites 
as the top results, the same search on the popular China-based 
search engine ``Baidu'' does not return the Web sites of any 
human rights organizations that are not China-based. A search 
for ``Falun Gong'' on Google returns over 400,000 results, 
while the same search on Baidu returns no results.\460\ U.S. 
companies that operate Internet portals based in China have 
agreed to Chinese government requirements to monitor users and 
remove ``harmful'' information, and must either censor their 
search engine results or risk being closed down. For example, 
Yahoo's Internet search engine for users in China 
(www.yahoo.com.cn and www.yisou.com) censors search results to 
exclude sites for the Voice of America, Radio Free Asia, and 
Human Rights in China, as well as sites discussing Falun Gong, 
Tibetan independence, and the 1989 Tiananmen Square massacre. 
Also, Google designed its Chinese language news aggregation 
service so that users in China do not retrieve results from 
dissident news Web sites that Chinese authorities have 
blocked.\461\
Monitoring, Jamming, and Blocking of Outside Information
    Chinese government policies continue to reflect official 
concern that Chinese citizens increasingly have access to 
political information from sources the government cannot 
control, influence, or censor.\462\ For example, in May 2004, 
SARFT issued a notice requiring broadcasters to reject shows 
that ``promote Western values, lifestyles, and social 
systems,'' especially under the guise of educational, 
scientific or cultural programming.\463\
    Chinese authorities continue to devote considerable legal, 
human, and technical resources to blocking information from 
foreign sources. For example, in July 2004, Forum 18 released a 
study showing that many foreign religious Web sites are blocked 
in China.\464\ Chinese authorities also continue to block the 
Web sites of Voice of America, Radio Free Asia, the Chinese 
language versions of the BBC, Deutsche Welle, and other foreign 
news Web sites, and the Web sites of major human rights groups 
that report on China.\465\ In addition, the Chinese government 
also employs thousands of ``Internet police'' to enforce laws 
relating to Internet security and content.
    Chinese authorities appear to recognize, however, that they 
cannot completely stop the influx of information without 
crippling economic growth.\466\ The government's response has 
been to allow some Chinese citizens to have limited access to 
foreign information, provided it does not weaken the Party's 
political power. As a result, the government is relaxing 
restrictions on sources of both non-political information and 
political information with a limited audience, while tightening 
controls on sources of political information with a mass 
audience. For example, while Chinese authorities have begun to 
allow foreign participation in the distribution of 
publications, the GAPP says there is no plan to allow 
foreigners to publish in China.\467\ In January 2004, the GAPP 
vowed to crack down on what it termed ``outlaw publications'' 
from Hong Kong that were publishing in China without a 
license.\468\
    In December 2003, the government began to allow foreign 
firms to hold minority stakes in film studios, and in February 
2004 authorities announced that they were lifting the ban on 
foreign investment in TV production studios.\469\ Nevertheless, 
the Chinese government has stated that foreign companies may 
not broadcast news in China.\470\ The central government 
continues to attempt to block radio broadcasts by Voice of 
America, Radio Free Asia, and the BBC.\471\ In addition, 
China's laws continue to restrict satellite dish 
ownership,\472\ and government rules require foreign news 
broadcasters to send all their satellite feeds through channels 
controlled by the government.\473\
    Chinese authorities continue to attempt to block human 
rights, educational, political, and news Web sites without 
providing public notice, explanation, or opportunity for 
appeal. The Chinese approach to Internet filtering seems to be 
based on the theory that censorship does not have to be perfect 
to be effective. Allowing Chinese citizens limited access to 
outside sources of information permits the Chinese government 
to manipulate public opinion while creating the impression that 
it is not seriously attempting to censor such information. For 
example, the Chinese government generally allows Chinese 
Internet users to access some English-language foreign news Web 
sites, but blocks these sites during politically sensitive 
times.
    At the same time, government authorities generally ignore 
the attempts of most Chinese citizens to circumvent the 
government's information firewall to access blocked foreign Web 
sites, provided these individuals do not disseminate the 
information within China. A relatively small pool of people has 
access to the Internet and the time, desire, and ability to 
circumvent the firewall. By making it difficult, but not 
impossible, to access foreign news sources, and punishing those 
who distribute that information more widely, Chinese 
authorities can dilute the impact of uncontrollable information 
sources and more easily monitor who is willing to devote time 
and effort to get information critical of the government and 
the Party.
    During the annual National People's Congress (NPC) meetings 
in March 2004, the government shut down domestic weblog 
sites\474\ and blocked access to foreign weblog sites.\475\ 
Users in China speculated that authorities shut down the sites 
because some people had employed these forums to publish 
opinions on Dr. Jiang Yanyong's letter asking for a 
reassessment of the 1989 Tiananmen Square democracy protests. 
While domestic weblogs were eventually allowed to reopen, 
authorities continue to block weblog hosting services outside 
of China.\476\
    Chinese authorities continue to look to technological 
measures to refine Web site censorship. For example, in 
February 2004 the GAPP announced plans to invest 50 million 
yuan (about $6 million) to create an ``Internet Publishing 
Supervision System'' to control the publication of political 
content on the Internet.\477\ Minister of Culture Sun Jiazheng 
also called for ``using long-range computer surveillance 
systems to carry out 24-hour, real-time monitoring of Internet 
cafes,'' \478\ and some locations, such as Shanghai, have begun 
instituting video surveillance of Internet cafe users.\479\
    To control the flow of information to Chinese citizens, the 
Customs Office continues to confiscate political and religious 
materials. Chinese law grants customs officials broad authority 
to confiscate any publication deemed ``harmful to the 
government.'' \480\ The Customs Office maintains a list of the 
types of books that may not be imported for political reasons 
and uses its authority to confiscate religious materials such 
as the Bible and certain scholarly works and politically 
sensitive books published abroad, such as The Tiananmen 
Papers.\481\ The list, however, is not available to the public. 
Customs officials also confiscate Chinese language newspapers 
that individuals attempt to bring into China.\482\

Selectively Enforced National Security Laws
    The Party and government continue to exploit vague national 
security laws to silence Chinese citizens who criticize them 
and their policies.\483\ The Commission welcomes the release 
over the past year of several political prisoners,\484\ but 
regrets that during the same period Chinese security and 
judicial authorities detained or sentenced dozens of 
individuals for exercising their right to express their 
political beliefs.
    Chinese courts continue to interpret China's laws in a 
manner that favors protecting the government's image over the 
right to freedom of expression. For example, in February 
Chinese authorities imprisoned five people for using the 
Internet to disseminate a story about the persecution of a 
Falun Gong practitioner. Published reports did not indicate 
that the story's dissemination resulted in any actual or 
potential threat to China's national security or public safety. 
Nevertheless, the court sentenced these individuals to terms of 
5 to 14 years in prison for ``vilifying the government's image 
through spreading fabricated stories.'' \485\
    The government continues to define state secrets to include 
any information that authorities do not wish the public to 
know. Chinese authorities have held Uighur businesswoman Rebiya 
Kadeer imprisoned in the Xinjiang Autonomous Region for over 
four years for allegedly attempting to disclose published 
newspaper articles that the government deemed ``state secrets'' 
after-the-fact. In October 2003, a Shanghai court sentenced 
activist and former lawyer Zheng Enchong to three years in 
prison for reporting labor and property protests to a foreign 
human rights group. In August 2004, a court in Hangzhou, 
Zhejiang province sent Liu Fenggang, Xu Yonghai, and Zhang 
Shengqi to prison for ``revealing state secrets'' to a foreign 
organization because they allegedly discussed the razing of 
several churches with foreign human rights groups.\486\ In May 
2004, Xinhua reported that a Beijing court sent three 
individuals to prison for divulging state secrets because they 
had stolen questions on an English examination.\487\
    The following is a partial list of individuals that Chinese 
authorities have detained and imprisoned during the past year 
for exercising their right to freedom of expression. Additional 
information on their cases and others will be available on the 
Commission's Political Prisoner Database:

        <bullet> Detained: Hu Jia, Ding Zilin, Huang Jinping, 
        Zhang Xianling, Lu Jiaping, Kong Youping, Zhang 
        Shengqi, Xu Yonghai, Jiang Yanyong, and Liu Fenggang.
        <bullet> Sentenced: Ma Yalian, Li Jian, Chen Shumin, Lu 
        Zengqi, Yuan Qiuyan, Yin Yan, Sang Jiancheng, Jiang 
        Lijun, Li Zhi, Yan Jun, Luo Changfu, He Depu, Cai 
        Lujun, Du Daobin, Zheng Enchong, and Luo Yongzhong.

    Some people who were detained and released have been 
monitored by security officers\488\ and ordered not to speak to 
the press.\489\ Others have been forced into exile. The Chinese 
government's policy of intimidating and arresting those who 
criticize the Party or the central government or express 
opinions that contravene official views not only disregards the 
rights of these individuals to freedom of expression, but also 
intimidates many others who would speak out but remain silent 
for fear of being punished.

              III(e) Economic, Social, and Cultural Rights

                        III(e)(i) Women's Rights


                                FINDINGS


        <bullet> China's ongoing economic reforms have 
        increased opportunities for women to build their own 
        businesses and gain greater economic power and 
        security. However, in rural areas, the market 
        transition has increased fees, impoverishing some 
        families and harming girls' access to education. Recent 
        legal reforms have strengthened women's rural land use 
        rights, which may help build their economic power in 
        the countryside and generally increase the value of 
        daughters in the eyes of the general public.
        <bullet> Chinese women continue to suffer from domestic 
        violence at home and sexual harassment in the 
        workplace. However, in recent years, central and local 
        governments have set up programs to publicize the 
        problem of domestic violence and punish abusers, and 
        courts have begun to accept cases involving marital 
        rape and assist women complaining of sexual harassment.
        <bullet> The continued growth of women's associations 
        and women's studies programs are encouraging women to 
        mobilize to solve shared problems. The All-China 
        Women's Federation (ACWF) is playing a positive role in 
        working with some of these groups and in offering 
        legislative remedies for outstanding problems.

    Women are succeeding as entrepreneurs in China, in some 
measures even in comparison to men.\490\ According to a 2004 
survey of Chinese entrepreneurs summarized in Xinhua, China had 
19.59 million women who were owners or legal representatives of 
enterprises. Personal annual incomes for female entrepreneurs 
were higher than for males.\491\ However, the survey also found 
that less than a third of the female entrepreneurs took out 
bank loans, most relying instead on themselves or their 
families for investment, prompting the question of whether 
skilled women are treated equally by banks.\492\
    A gap still exists between the educational levels of men 
and women despite significant narrowing since enactment of the 
1986 PRC Elementary Education Law. Census figures for 2000 show 
the gap narrowing dramatically.\493\ Among Chinese citizens 
with higher education, men outnumbered women nearly three to 
two, but among 20 to 24-year olds, the figures were nearly 
equal. However, a recent study of gender equity in basic 
education found that many girls lose their chance for even 
basic education, particularly in the poor areas in western 
China, because of parental emphasis on the education of 
sons.\494\
    Traditional rural attitudes toward women, to some extent 
based on economic factors, devalue daughters. A long-term study 
of the impact of economic change on rural women in a southern 
China village found that part of a family's decision to abort 
or abandon female babies has been that families with sons 
benefit in the periodic reallocation of village lands.\495\ 
Since the study was completed, however, a Rural Land 
Contracting Law was enacted that provides farmers with 30-year 
land use rights and prohibits most readjustment and 
reallocation of land during that period.\496\ If enforced, this 
law should limit the degree to which village officials can 
favor sons over daughters in land allocation, improve women's 
economic position in rural areas, and perhaps reduce son 
preference.

Domestic Violence and Sexual Harassment
    Chinese citizens have become increasingly aware of the 
serious problem of domestic violence since it was highlighted 
at the 1995 Fourth World Conference on Women in Beijing. A 
survey in late 2003 by the All-China Women's Federation (ACWF) 
found that more than 50 percent of those surveyed ``admitted 
having been beaten by their partner at least once in the past 
six months,'' while more than 20 percent admitted frequent 
beatings and 1 percent had ``experienced systematic domestic 
violence.'' \497\ Another recent study found that ``nearly half 
of Chinese people believe it is reasonable for husbands to beat 
their wives.'' \498\ With increased awareness, however, 
attitudes that regard physical abuse of wives as 
normal are beginning to change. The number of legal cases 
involving charges of domestic violence is steadily rising. In 
2002, the ACWF handled ``36,000 appeals for help from wives in 
distress, nearly 40 percent more than in 2001,'' and domestic 
abuse is now a factor in nearly 60 percent of all 
divorces.\499\
    Law enforcement entities are also becoming more sensitized 
to the crime of domestic violence. In the past, many officials 
would not pursue domestic violence cases vigorously, believing 
they should not intervene in family disputes. Until the mid-
1990s, law enforcement authorities commonly handled a wife's 
complaint of domestic abuse by referring the couple to 
mediation.\500\ The related crime of marital rape is also 
beginning to get attention in China.\501\ Article 236 of the 
Criminal Law does not explicitly state a marital exemption for 
rape and courts have preferred to prosecute marital rape under 
the more general Section 260 on abuse or maltreatment of family 
members.\502\ The question of marital rape in China is 
complicated by Article 16 of the 2001 PRC Marriage Law, which 
provides, ``Both husband and wife shall have the duty to 
practice family planning.'' The Supreme People's Court (SPC) 
recently held that this ``duty'' implies a ``right'' for both 
spouses to engage in sexual relations.\503\ Unwilling to 
interfere with that implied right, the SPC points to Section 
260 as the best way prosecute marital rape.
    A number of initiatives are now underway to combat domestic 
violence.\504\ Community and anti-domestic violence teams, 
counseling hotlines, and rescue centers are available to 
victims in some cities and nearby rural areas. Educational 
programs have been established for judges and police officers, 
training programs are in place for staff in domestic violence 
centers, and some localities have begun counseling male 
abusers.\505\
    In recent years, there have been several successful suits 
by women against employers for sexual harassment. Women have 
obtained judgments ordering defendants to apologize, desist 
from harassing women, and, in a few cases, pay damages.\506\ 
According to one survey, 48 percent of women said they had 
experienced harassment and 13 percent said that men had pressed 
them for sexual favors in exchange for various benefits.\507\ 
Ninety percent of callers to a women's hotline complained of 
harassment by older men who are their superiors in the 
workplace.\508\ The cases have received a great deal of media 
attention, and articles have since come out in police 
publications expressing support for women facing this kind of 
abuse.\509\ Last fall, the ACWF submitted a motion to the 
National People's Congress Standing Committee suggesting that 
the PRC Law on Protection of Women's Rights and Interests be 
amended to define the offense of sexual harassment and 
prescribe legal redress.\510\

Women's Organizations and Women's Studies
    Even before the Fourth World Conference on Women in 1995, a 
large number of organizations focusing on women's issues were 
active in China. One source indicates that 2,000 such 
organizations had sprung up nationwide by 1989.\511\ The ACWF 
has played a supporting role in the development of some 
organizations, while other organizations have developed 
relatively independently.\512\ Cooperation between the ACWF, a 
government organization based in Beijing with branches in most 
regions, and independent grassroots groups can be especially 
fruitful. For example, cooperation between a grassroots hot-
line dealing with rural violence issues in Henan and the local 
ACWF branch led to a TV program ``Keep Violence Far from the 
Family.'' \513\ NGOs are likely to have an important role in 
solving the current deficit in public services to China's 
poorest citizens, particularly women.\514\ The rapid 
development of the academic discipline of feminist sociology in 
China's universities, with at least 16 new departments 
established in 2003 alone, should help Chinese women understand 
the nature of the problems that still confront them and 
collaborate on solutions.\515\

                 III(e)(ii) Trafficking in Human Beings


                                FINDINGS


        <bullet> Trafficking of women and children in China 
        remains pervasive.
        <bullet> Most human trafficking in China is domestic, 
        but traffickers also sell Chinese women abroad for 
        commercial sex and sell women from Southeast Asia and 
        Korea into prostitution and forced marriages in China.
        <bullet> Chinese law enforcement authorities recently 
        broke several cases of large-scale trafficking of 
        infants. This criminal practice is the result in part 
        of the continued coercive enforcement of family 
        planning rules.

    Domestic trafficking of women and children in China is a 
particularly serious human rights abuse. According to a UNICEF 
estimate in 2002, at least 250,000 women and children in China 
were victims of human trafficking.\516\ Traffickers commonly 
sell teenage and young adult women into forced marriages to 
farmers in the countryside or into prostitution in China's 
cities.\517\ According to some estimates, nearly 50,000 Chinese 
women currently live in forced marriages nationwide.\518\ A 
1997 study conducted by the United Nations concludes that, in 
some villages, 30 to 90 percent of marriages were the result of 
trafficking.\519\ The trafficking of women is acute in 
impoverished minority areas of Yunnan and Sichuan provinces and 
the Guangxi Autonomous Region, where recruiters touting 
lucrative jobs in urban areas lure young, uneducated women out 
of the countryside, kidnap them, and sell them into 
prostitution either within China or abroad.\520\
    Trafficking in infants also seems to be on the rise in 
China. In one notorious case in Yulin in Guangxi Autonomous 
Region, traffickers kidnapped or purchased some 118 infants 
from families and hospitals and transported them to other 
provinces for sale.\521\ This case shocked the Chinese public 
when first exposed in a news article detailing how the 
traffickers drugged dozens of the infants and placed them into 
travel bags for transport to buyers in Anhui and Henan 
provinces. At least one infant did not survive, according to 
the news accounts. Yulin authorities prosecuted the head of the 
local hospital's obstetrics department, who put the traffickers 
in touch with mothers of unwanted infants.\522\ But a relative 
of one of the accused argued that the scheme was humanitarian, 
because otherwise the unwanted infants would have been 
abandoned to starve.\523\
    The rising number of trafficking cases in China reflects 
the confluence of numerous factors, including the ``one-child'' 
policy, which has encouraged some parents to abort or abandon 
female infants in the hope of conceiving a son; the increasing 
disparity between rich and poor; and a lack of knowledge among 
ordinary citizens of their legal rights and protections.
    The Commission notes that the Chinese government has made 
some progress in reaching out to the victims of human 
trafficking, but central, provincial, and local authorities 
should do more. The U.S. State Department found that China does 
not fully comply with the minimum standards stipulated in the 
Trafficking Victims Protection Act of 2000.\524\ In addition, 
the Chinese government has not signed the U.N. Protocol to 
Prevent, Suppress, and Punish Trafficking in Persons, 
Especially Women and Children. China's criminal code explicitly 
prohibits the trafficking of women and children and mandates 
severe punishment for these crimes,\525\ but the law needs to 
be refined and brought up to date, according to one Chinese 
legal scholar.\526\ In recent years, the Ministry of Public 
Security has begun several ``Strike Hard'' campaigns aimed at 
curbing trafficking in persons.\527\ Such campaigns, however, 
focus on punishment and do not address the causes of the 
problem, which include continuing pressure to comply with 
family planning rules, the worsening disparity between rich and 
poor, inadequate public education in legal rights, and lack of 
shelter and legal assistance for victims, especially in rural 
areas.
    A U.S. research institute studying the issue distinguishes 
China from other Asian countries because most of its trade in 
humans is domestic.\528\ But the trafficking of persons from 
China to other nations is also a global concern. Traffickers 
sell women from mainland China into the commercial sex industry 
in the United States, Canada, Europe, and Australia, as well as 
Singapore, Malaysia, South Korea, Japan, and Taiwan.\529\ Cases 
involving the trafficking of Chinese women for prostitution 
also have been reported from South Africa and South 
America.\530\ Some trans-border trafficking cases involve 
multinational criminal syndicates, and rescuing the victims and 
bringing the traffickers to justice requires close cooperation 
between countries.\531\ The Chinese government has made some 
progress in building the necessary international cooperation in 
law enforcement,\532\ but most observers believe that Chinese 
authorities must do more.

          III(e)(iii) Public Health and Human Rights in China


                                FINDINGS


        <bullet> The Chinese government now recognizes the 
        severity of its HIV/AIDS crisis and has begun to take 
        action, but some local authorities continue to abuse 
        HIV victims to silence their demands for treatment and 
        assistance and detain the activists who support them. 
        More Chinese government attention is required in 
        Xinjiang, where an intravenous drug crisis and a mobile 
        population make the rapid spread of HIV a threat.
        <bullet> China's aging and poorly-funded health care 
        system hampers its struggle with a number of major 
        diseases, ranging from the new viruses HIV/AIDS and 
        SARS to the traditional threats of tuberculosis and 
        hepatitis.
        <bullet> China continues to use coercive fines to 
        enforce its birth control policy. Despite legal 
        prohibitions on forced abortion and sterilization, some 
        reports allege that local officials use such tactics 
        and others describe women using the law to resist them.

HIV/AIDS
    The Chinese leadership has made significant progress in the 
past year in recognizing the dimensions of China's HIV/AIDS 
crisis, formulating new HIV policies, and addressing legal 
issues. Premier Wen Jiabao illustrated the change in tone when 
he publicly shook hands with AIDS patients at a Beijing 
hospital in December 2003. Vice Premier and Health Minister Wu 
Yi has made high-profile visits to AIDS villages in Henan,\533\ 
and has called on the entire country to confront the epidemic. 
HIV/AIDS publicity campaigns have emerged in major cities, and 
the Party has developed a curriculum and text on HIV for use at 
the Central Party School.\534\ Nationwide prime-time television 
programs on HIV/AIDS emerged in 2004. In February 2004, the 
State Council formed a national level AIDS Prevention and Care 
Working Committee, headed by Vice Premier Wu and comprised of 
23 central government departments and institutions and leading 
officials from seven provinces where AIDS is particularly 
prevalent. The Ministry of Health announced in April that it 
had begun offering free treatment for HIV/AIDS patients.
    In March 2004, China's first local law on AIDS prevention 
and control took effect in Yunnan. The law protects the legal 
rights of people living with HIV/AIDS and their families and 
forbids discrimination against them.\535\ In April 2004, the 
Chinese government established its first legal research center 
on AIDS-related issues in Shanghai.\536\ Vice Premier Wu has 
emphasized that the government must also determine how to 
implement the new ``Four Free'' policy in poor and rural areas: 
providing free testing, free treatment, free schooling for AIDS 
orphans, and free treatment to prevent mother-to-child HIV 
transmission. In May 2004, the State Council issued a circular 
that outlined a series of urgent measures to slow the spread of 
HIV/AIDS.\537\ The circular requires local governments and 
leaders to take responsibility for AIDS in their 
regions, warning ``those officials breaching [their] duty or 
hiding epidemic reports will be severely punished.'' The 
circular also orders government at all levels to increase the 
amount of money dedicated to combating HIV and, most 
significantly, states that funds must be allocated from the 
central government when local budgets are insufficient.
    Despite these crucial changes in the attitudes and actions 
of central authorities, local reports continue to surface about 
mistreatment of people living with HIV/AIDS including 
discrimination in housing and development. In May, several 
people living with HIV/AIDS were detained for more than a week 
in Henan. While local authorities said they detained the 
villagers for ``violating social order,'' the villagers believe 
they were arrested because they were seeking assistance from 
provincial authorities to compel local officials to carry out 
their agreements to support disease victims.\538\
    Central government money and support is particularly 
crucial in peripheral areas like Xinjiang. The government 
agencies that have a part in fighting HIV have not yet 
developed a coordinated response, and often seem unaware of 
each other's efforts. For example, in a drug detoxification 
center run by the local public security bureau, all inmates 
were tested regularly for HIV. Although the results were 
forwarded to the Ministry of Health in Beijing, inmates were 
never told of their HIV status and were not put in touch with 
programs to help them cope with the disease after their 
release. Until recently, these agencies in Xinjiang had not 
received the 
message that HIV was a priority of the central government.\539\ 
However, the Xinjiang Bureau of Health in Urumqi has conducted 
valuable work on a shoestring budget, including a hot-line to 
answer HIV-related questions for commercial sex workers, and 
HIV intervention projects in minority religious communities.

Other Major Health Challenges
    China suffers from a high rate of hepatitis B, usually 
spread by exchange of blood or infection from drinking water 
contaminated by human waste. Some local regulations 
discriminate against hepatitis B victims in employment. The 
Ministry of Health estimates that about 20 million people are 
infected with hepatitis B and as many as 500,000 people become 
infected with, and half that number die of, hepatitis B-related 
liver disease each year.\540\ Other estimates put the number of 
infected persons as high as 100 million. While there are no 
national laws on employment of hepatitis B-infected persons, 
some central and local governments prohibit the hiring of 
people with certain varieties of the disease. In a recent case 
in Anhui province, Zhang Xianzhu successfully sued a government 
personnel office, complaining that his job application had been 
unjustly rejected because of his hepatitis. The court held that 
the personnel office had applied a regulation incorrectly, but 
did not invalidate the regulation itself.\541\
    Severe Acute Respiratory Syndrome (``SARS'') re-emerged on 
isolated occasions in 2004, but did not result in a wider 
outbreak as in 2003. In contrast to the government's efforts to 
quash news of the initial SARS epidemic in 2003, health 
authorities openly announced each case as it became known and 
quickly contained each infection. Despite laudable official 
openness in this specific instance, relevant Chinese laws still 
require journalists to get advance approval before publishing 
public health information about broad categories of diseases 
classified as ``state secrets.'' \542\
    Apart from infectious diseases, perhaps the greatest health 
challenge for China today is rural poverty. Chen Guidi and Wu 
Chuntao's recent book, A Survey of Chinese Peasants, includes 
several accounts of rural residents facing death and financial 
ruin because of the high cost of sickness.\543\ In 2002, Dr. 
Janos Annus, the WHO representative to China, noted that there 
is only minimal health insurance in the countryside: ``Health 
insurance coverage for rural people is around seven percent 
only--people have to pay from their own pocket. . . . The rural 
healthcare system based on the co-operatives was abolished 
around the mid 1980s, with the provision that a new system 
would be built to replace it. But that system has not been 
built yet.'' \544\ The lack of an adequate public health system 
has hampered China's response to SARS, and still cripples its 
fight against HIV/AIDS. In response, the central government 
decided this May to spend 2.073 billion yuan ($252 million) for 
the country's public health infrastructure.\545\

Population Control and Family Planning
    The Chinese government's use of coercive fines to enforce 
its population control policy has not changed in the past 
year.\546\ Under the 2002 Population and Family Planning Law, 
when a family has a child not allowed by law, family planning 
officials can assess a fine and have it enforced by the 
courts.\547\ Regulations specify that fines are to be set at 
the provincial level. In Shanghai, the fine currently specified 
is three times average annual disposable income in the city 
(resulting in a fee of more than 35,000 yuan).\548\ While the 
law provides for economic coercion of this kind, it 
specifically rules out use of physical force in enforcing birth 
controls and provides for strict punishment of officials who 
fail to observe this prohibition. Reports, however, indicate 
continuing resort to physical coercion in some areas and 
describe a few cases in which women have claimed protection 
against such coercion under these articles of the law.\549\ In 
addition, as permitted by the law, some localities have passed 
regulations allowing more couples to have a second child under 
certain circumstances.\550\ Recognizing that one incentive to 
have many children is to ensure support in old age, other 
regions have set up funds to compensate one-child families 
after retirement.\551\
    Some Chinese population studies suggest that China will 
eliminate its coercive policies when economic development has 
increased the education levels and job opportunities for girls 
and women. Scholars urge that in areas of declining fertility, 
rigid quantitative controls be shifted to more indirect and 
market-based policies.\552\ This shift to greater flexibility 
in implementation of birth controls might help resolve two 
long-term side-effects of the policy: distorted sex ratios and 
rapid aging of the population.\553\ Unless these two trends are 
reversed, China will be faced with cascading health challenges 
in the future, as some youths turn to traffickers to find wives 
and families without daughters struggle to care for frail 
elders.

                 III(f) Freedom Of Residence And Travel


                                FINDINGS


        <bullet> The Chinese household registration (hukou) 
        system contributes to discrimination in access to 
        social services. This discrimination exacerbates 
        China's stark economic divide between urban and rural 
        residents.
        <bullet> National and local authorities are gradually 
        reforming the hukou system, but some of these measures 
        are slowly shifting the existing system into a set of 
        officially-recognized class divisions based on wealth, 
        with an urban underclass composed of rural migrants.

    The household registration (hukou) system remains a key 
component of the caste-like divide in Chinese society between 
urban and rural residents. Massive rural-urban migration 
continues to put heavy pressure on the system. Under this 
pressure, Chinese national and local authorities are 
liberalizing the hukou regime, but rural migrants continue to 
suffer significant regulatory discrimination with regard to 
basic social services. This discrimination exacerbates the 
economic hardships they face on a range of issues such as back 
wages, property rights, and the education of their 
children.\554\
    Chinese migrants are frequently the targets of a wide range 
of unfair practices. Urban employers often exploit the tenuous 
social status of migrants and their unfamiliarity with their 
rights. Chinese factory managers also often require workers to 
pay a ``deposit'' to secure a job. Workers lose these deposits 
if they return home without permission or before their contract 
expires.\555\ Migrants sometimes suffer discrimination in their 
home villages, particularly with respect to their property 
rights. For example, a large number of legal cases have been 
brought recently in Shaanxi province that pertain to the rights 
of individuals who have left their village either temporarily 
or permanently (such as migrants to urban areas, or women who 
have married out of the village), but continue to 
retain their rural hukou identification with the village. When 
the village distributes money from collective assets, such as 
government compensation for the requisition of village land, 
the villagers often deny these migrants a share because they 
are perceived as outsiders.\556\
    Migrants also face official discrimination as a result of 
their residence status. In some cases, a regulation explicitly 
bars access to social services. Until 2003, for example, 
numerous provincial regulations limited legal aid only to 
individuals having either a local hukou or a temporary 
residence permit.\557\ As Chinese critics have noted, migrants 
who wish to obtain a temporary residence permit often must pay 
substantial fees, both over and under the table, to various 
government agencies.\558\ Consequently, millions of migrants 
remain unregistered and cut off from social services. According 
to the Chinese news media, fewer than 3 percent of migrant 
applicants actually receive legal aid.\559\ Such regulatory 
obstacles have resulted in a rural migrant underclass in 
Chinese cities that is deprived of many of the social services 
their urban neighbors enjoy.\560\
    Central government measures adopted recently attempt to 
eliminate some of the most blatant discrimination with regard 
to social services. For example, the State Council passed 
national legal aid regulations in 2003 that do not condition 
legal aid on the residence status of applicants.\561\ Despite 
such moves, financial resources of local governments often 
limit their actual ability to offer these social services to 
migrants.\562\ For example, pilot medical projects in western 
China aimed at addressing the collapse in rural health care 
often exclude migrants because of cost.\563\ In contrast, 
relatively well-off southern localities have begun to allow 
rural hukou holders to buy into health plans run by urban 
governments, with local governments sometimes subsidizing the 
migrants' share.\564\
    Despite central government measures, the hukou system 
continues to facilitate local discrimination because it divides 
Chinese society into clear categories and provides a convenient 
method for local authorities and residents to identify 
migrants. This phenomenon is particularly evident with regard 
to the education of the approximately 20 million migrant 
children in China. Many city governments see migrant children 
as an unwelcome and expensive nuisance, and therefore simply 
forbid them from attending public schools, or charge their 
parents substantial additional fees.\565\ Over 80 percent of 
migrant children pay more than their urban counterparts to 
attend school.\566\ Private schools for migrants often find 
themselves in conflict with local governments and residents 
seeking to close them.\567\ Although the State Council took 
steps to ensure a measure of equal treatment in September 2003 
by ordering urban public schools to assume the responsibility 
of accepting and educating migrant children,\568\ the forward 
progress represented by this shift in central policy has been 
undercut by the ability of local officials to discriminate on 
the basis of hukou identification. In some areas, central 
government pressure on local schools to admit migrant students 
has led to the extortion of additional fees.\569\ Sometimes 
such pressure prompts even more creative forms of 
discrimination. Facing central pressure to admit migrant 
children to local public schools, township governments in 
Ningbo have responded by adopting a ``separate but equal'' 
policy. Local authorities have designated one particular public 
school as the ``migrant'' school, replaced the full-time 
teachers with part-time instructors, and redirected local 
government education subsidies to the schools serving local 
students.\570\
    The Chinese government has improved the general treatment 
of migrants. The State Council's formal abolition of the 
custody and repatriation system in 2003 was a step forward [see 
Section III(a)--Rights of Criminal Suspects and Defendants]. 
The Hangzhou Public Security Bureau has eliminated mass dragnet 
sweeps aimed at rounding up migrants.\571\ A new national 
identification card law limits the ability of the police to 
request identification in certain situations.\572\
    A significant number of local governments have begun to 
experiment with various forms of hukou reform.\573\ A few have 
announced the abolition of temporary residence permits.\574\ 
But many of these reform measures merely allow a limited number 
of relatively well-off rural hukou holders to obtain urban 
residence status by demonstrating they have a fixed place of 
residence and a ``relatively stable source of support.'' \575\ 
These requirements are heavily weighted against low-income 
rural migrants. Nanjing's new regulations, issued in June 2004, 
define ``fixed place of residence'' as ownership of an 
apartment or possession of one issued by a work unit.\576\ 
Hebei province excludes applicants for local hukou from living 
in rented apartments.\577\ Both sets of regulations define 
``relatively stable source of income'' as holding either a 
professional job or one providing income above the government-
established minimum wage.\578\ Similar restrictions are common 
in many other local hukou reforms.\579\ These are difficult for 
poor rural migrants to fulfill. Such measures are gradually 
shifting the hukou system into a set of formal class divisions 
based on wealth, giving an official stamp of approval to the 
creation of an urban migrant underclass barred from receiving 
many social services.
    Fundamental reform faces significant obstacles. Guangzhou 
public security officials indicate they continue to regard the 
residence permit system as an indispensable tool of social 
control, particularly of migrants.\580\ Although the NPC is 
currently considering draft proposals for a Law on the 
Protection of Peasant Rights,\581\ similar legislation has been 
under study for years without much progress.\582\ Instead, 
Chinese leaders have favored administrative pronouncements to 
address the status of Chinese migrants.\583\ As one Chinese 
critic notes, ``[Central government] policy attention cannot 
completely replace legal protection. Protecting the interests 
of peasants requires [that] the law give them corresponding 
rights, rather than merely letting peasants run around from 
place to place seeking protection by waving national `policy 
documents.' '' \584\ Unless the Chinese government affords 
effective legal protections to migrants and ends the social 
inequalities perpetuated by the hukou system, discrimination 
against migrants will continue to create serious social 
problems.

        IV. Maintaining Lists of Victims of Human Rights Abuses

    The Commission is pleased to announce the completion of the 
first phase of development of its Political Prisoner Database 
(PPD). The Commission is now populating the database with 
political prisoner information provided by reliable sources in 
China, the United States, and elsewhere. For additional 
information about the Commission's standards for political 
prisoner information, please see ppd.cecc.gov. The Commission 
has developed the PPD pursuant to Section 302(b) of Public Law 
No. 106-286 [22 USC Sec. 6912(b)], which requires that the 
Commission compile and maintain lists of victims of human 
rights abuses.
    The Political Prisoner Database provides a new and powerful 
research tool for U.S. advocacy on behalf of Chinese citizens 
imprisoned for the exercise of rights guaranteed to them by 
international law. Although primarily designed for official 
U.S. government use for advocacy and issue research, the PPD 
will also assist private human rights researchers, non-
governmental organizations, scholars, and other advocates in 
tracking prisoner case information, monitoring individual 
cases, and assessing trends in the Chinese government's 
treatment of prisoners of conscience over time. As both 
communities of users become more familiar with the PPD's 
features and gain experience in using it, the Commission 
expects to develop additional features for the PPD in the 
future.
    Beginning at 12:00 noon EST on Monday, November 1, 2004, 
the general public may query the PPD through a public access 
feature found on the Commission's Web site: <ppd.cecc.gov/
pap.asp>. Queries to the database will return information to 
the requestor in the form of a Portable Document Format (pdf) 
document. Members of the general public who register on the PPD 
site may save their search results there for subsequent use. 
Visitors who prefer not to register may also use the query 
feature, but will not be able to save their search results on 
the World Wide Web.

   V. Development of Rule of Law and the Institutions of Democratic 
                               Governance

                       V(a) Constitutional Reform


                                FINDINGS


        <bullet> In March 2004, the National People's Congress 
        adopted amendments to China's Constitution that in 
        theory confirm the state's protection of human rights 
        and enhance property rights. Having adopted such 
        language, the government will have to deliver some 
        limited practical improvements in the human rights 
        arena or risk damaging its legitimacy.
        <bullet> Chinese citizens lack a legal mechanism 
        through which to enforce their constitutional rights, 
        and the Chinese government is unlikely to create such a 
        mechanism in the near-term.
        <bullet> Chinese lawyers and scholars continue to 
        discuss constitutional reform and constitutional 
        enforcement in conferences, scholarly journals, and in 
        some online forums. Chinese citizens are making use of 
        language in the recent constitutional amendments to 
        promote further reform and protest violations of their 
        rights. The government has harassed some reform 
        advocates for discussions on constitutional reform that 
        it considers too far-reaching.

The 2004 Constitutional Amendments
    In March 2004, the National People's Congress (NPC) passed 
a slate of constitutional amendments that the Central Committee 
of the Communist Party approved in October 2003.\585\ The 14 
amendments include new provisions that, on paper, enhance 
constitutional protections for private property and declare 
explicitly that ``the State respects and safeguards human 
rights.'' \586\ Other provisions incorporate Jiang Zemin's 
``Three Represents'' theory into the Constitution as a guiding 
ideology of the state,\587\ clarify the state's role in 
directing the private economy, and call for the implementation 
of ``political civilization,'' a term widely associated with 
the rule of law and more accountable governance.\588\
    Foreign observers and some Chinese experts reacted to the 
constitutional amendments with caution, welcoming them as a 
symbolic step forward but warning that their practical impact 
would be minimal without a working constitutional enforcement 
mechanism.\589\ In interviews with Commission staff, other 
Chinese scholars attached greater significance to the 
amendments, arguing that even without an enforcement mechanism 
in place, the amendments will encourage the discussion of human 
rights issues and lay a foundation for further reform.\590\ One 
leading scholar told Commission staff that the human rights 
amendments would provide a necessary theoretical basis for 
ratification of the International Covenant on Civil and 
Political Rights (ICCPR).\591\
    The adoption of the 2004 amendments capped an active year 
of discussion over the scope of constitutional reform. Some of 
this discussion was too far-reaching for authorities. In mid-
2003 and again in January, the Chinese government issued 
directives to curtail unauthorized publication on or discussion 
of constitutional amendments, and it harassed reform advocates 
such as Cao Siyuan after senior leaders became concerned that 
academic and media discourse was raising expectations for 
broad-ranging reform.\592\ In addition, the Party Central 
Committee's General Office reportedly issued a document warning 
that ``hostile forces'' had infiltrated the domestic debate on 
constitutional reform and directing Chinese 
organizations to exercise caution in rule of law exchanges with 
foreign entities.\593\ Official papers and Web sites promoted 
the ``bottom-up'' nature of the Party-approved constitutional 
amendment proposals and expert commentary on the need for 
constitutional ``stability.'' \594\
    While continuing to exert controls over the media and 
expression [see Section III(d)--Freedom of Expression], 
however, the government tolerated some discourse on 
constitutional issues that was critical of the limited nature 
of official reform efforts. For example, the Legal Daily, a 
Ministry of Justice newspaper, and Caijing, a liberal-minded 
financial weekly, published relatively candid articles calling 
for the establishment of a working constitutional enforcement 
mechanism and noting that citizens should have the right to 
compel constitutional review.\595\ At academic conferences, in 
legal journals, and in some online forums, leading Chinese 
scholars discussed the nature of constitutionalism and 
mechanisms of constitutional enforcement.\596\ Reform advocates 
maintained a progressive Web site called the ``Open 
Constitution Initiative'' until the government shut it down in 
2004 (most likely because it criticized the prosecution of the 
editors of the Southern Metropolitan Daily), then re-
established it in Hong Kong on a site that is currently 
accessible to mainland Internet users.\597\ Finally, average 
citizens began to draw on new constitutional provisions as they 
protested official abuses and made efforts to protect their 
rights. Property rights protestors in Hangzhou, Beijing, Henan, 
and Guangzhou, for example, explicitly invoked new 
constitutional protections in pressing their claims against 
developers and local governments.\598\ Some of these protests 
received favorable coverage in the Chinese press.\599\ Free 
expression advocates have also invoked constititutional 
protections to challenge the application of anti-subversion 
laws.\600\

Constitutional Enforcement
    President Hu Jintao's emphasis on constitutional supremacy 
in late 2002 raised hopes that the Chinese government would 
take steps to establish a working constitutional mechanism in 
2004. The NPC Standing Committee has the formal power to 
supervise enforcement of the Constitution and invalidate laws 
and regulations that conflict with it, but has failed to 
fulfill this constitutional role in practice.\601\ This failure 
has long been a key complaint of legal reformers in China and 
came into sharper relief in 2004, as many asked what good new 
constitutional rights would be without a mechanism through 
which to enforce them.
    Chinese scholars have discussed several models of 
constitutional enforcement, including improved constitutional 
enforcement by the NPC Standing Committee, a special 
constitutional committee under the NPC Standing Committee, a 
German-style constitutional court, and proposals to vest 
China's courts with the power of constitutional review.\602\ 
Many scholars seem to agree that in the current political 
climate, constitutional enforcement powers are unlikely to be 
wrested from the NPC. These experts see an NPC constitutional 
committee composed of legal experts as the mechanism most 
likely to be adopted.\603\
    The Chinese government has taken some limited steps toward 
this initial goal. During the March 2004 NPC meeting, a Chinese 
report suggested that ``relevant departments'' were considering 
proposals to establish a human rights commission within the NPC 
and the Chinese People's Political Consultative 
Conference.\604\ There has been little public discussion of 
this proposal in the Chinese news media, however, and it is 
unclear what powers such a commission would have if it were 
established.\605\ More recently, in June 2004, the NPC Standing 
Committee announced the creation of a special legislative 
review panel tasked with reviewing legislation and regulations 
for consistency with the Constitution.\606\ The creation of 
this panel may improve the handling of citizen petitions on 
conflicts between the Constitution and laws or regulations and 
could be a first step toward more robust constitutional 
enforcement.
    Over the past year, reform-minded scholars, lawyers, and 
judges have also continued their efforts to establish case 
precedents for constitutional review by the courts. At present, 
Chinese courts lack the power to apply constitutional 
provisions to individual cases or to strike down laws or 
regulations that are inconsistent with the Constitution.\607\ 
Nevertheless, advocates at legal aid centers in Beijing and 
Chengdu are actively searching for and bringing test cases with 
constitutional claims as their basis.\608\ For example, lawyers 
have filed lawsuits challenging local government policies that 
prohibit the employment of individuals with hepatitis B or 
require job applicants to be a certain height, claiming that 
such policies violate the equal protection clause of China's 
Constitution.\609\ Other cases have involved unlawful property 
seizures. In several of these cases, plaintiffs have achieved 
success in the form of settlements or court victories on non-
constitutional grounds, and some of the lawsuits have prompted 
legislative remedies to address the problems at issue.\610\ To 
date, however, courts have been unwilling to accept or apply 
legal arguments based on the Constitution. Although some legal 
scholars have criticized the courts for this reluctance, others 
promoting constitutional litigation believe the courts are wise 
to take a cautious approach in order to avoid unnecessary 
political conflicts that could set back reform efforts.\611\
    One notable legal case last year provided an example of 
such potential political conflicts. In September 2003, an 
intermediate court judge in Luoyang ruled that a Henan 
regulation on seed prices was invalid because it conflicted 
with the national ``Seed Law.'' \612\ The decision elicited an 
angry response from the Henan Provincial People's Congress 
Standing Committee, which charged that the judge had exceeded 
her power and demanded that she be disciplined for her 
``illegal'' review of the local regulation.\613\ Although the 
case did not involve a constitutional question, the controversy 
over judicial power had clear constitutional overtones, and it 
sparked a national debate in legal circles on the problem of 
constitutional review in China.\614\ In addition, four lawyers 
filed a petition with the NPC Standing Committee challenging 
the effectiveness of the local seed price regulations and 
calling on the NPC Standing Committee to resolve the 
legislative conflict.\615\ At the time of publication, neither 
the case itself, which was appealed, nor the petition, had been 
resolved.
    Despite these developments and continued discussion of 
constitutional issues, progress on constitutional enforcement 
is likely to be slow. The creation of the NPC legislative 
review panel is a positive step toward this goal, but the 
principal function of the panel appears to be to review 
existing laws and regulations for consistency with the 
Constitution, rather than to review constitutional violations 
in individual cases.\616\ The NPC is unlikely in the near term 
to create a broader constitutional enforcement mechanism with 
these powers and responsibilities. In May 2004, a member of the 
NPC Legal Committee explicitly ruled out the possibility that a 
constitutional court would be established.\617\ According to 
Commission sources, the Party leadership has not yet put forth 
any concrete proposals for a broadly empowered constitutional 
review institution and is not expected to approve plans for 
such an institution in the near future.\618\
Implications of Developments in Constitutional Law
    Constitutional reform developments in 2003-4 should be 
interpreted with caution. Despite official statements on rights 
protection, the NPC's adoption of the new constitutional 
amendments should be seen more as an attempt to shore up Party 
legitimacy than a move to enhance individual rights in 
practice. A Party communique lists strengthening Party 
leadership, maintaining national unity and social stability, 
and promoting economic reform as the principal purposes for 
amending the Constitution, not enhancing and enforcing 
individual rights.\619\ That senior Chinese leaders have not 
taken any concrete steps toward establishing a constitutional 
enforcement mechanism, and appear unlikely to do so in the near 
future, counsels caution in assessing leadership motives for 
the new amendments and official pronouncements on human rights.
    The constitutional reforms should not be viewed as merely 
empty rhetoric, however. Not long ago, the Party rejected 
discussion of ``human rights'' altogether.\620\ By 
incorporating human rights into the Constitution and 
publicizing official human rights campaigns, the government has 
legitimized discussion of human rights in China. This rhetoric 
provides important political cover for reformers both inside 
and outside the government and Party. Interviews by Commission 
staff suggest that the amendments have already helped to lay 
the groundwork for ratification of the ICCPR, to withstand 
calls to reinstate a controversial form of administrative 
detention that was abolished last year, and to promote other 
reform initiatives.\621\ Moreover, several cases over the past 
two years demonstrate that reformers outside the government are 
adept at co-opting official rhetoric and casting their 
initiatives as efforts to advance the leadership's goals.\622\ The constitutional revisions will provide additional cover for such 
efforts.
    More importantly, the adoption of the amendments and 
publicity on constitutional reform have raised public 
expectations for change. In the short term, China's leaders 
will have to show some modest practical improvements in the 
areas addressed by the constitutional amendments to sustain 
Party legitimacy and diffuse social anger over issues such as 
property seizures and law enforcement abuse. In the long term, 
the amendments and accompanying discussion are likely to 
contribute to grassroots pressure for the 
government to deliver a working mechanism for constitutional 
enforcement. As a writer in the official China Youth Daily 
declared last October, ``rights without guarantees are 
worthless. We need to strengthen our effort to perfect 
mechanisms for [challenging] violations of rights. Only if we 
do this will the rights of citizens be more than `rights on 
paper.' '' \623\ As citizens mobilize to protect their property 
interests and challenge abuses that seem inconsistent with new 
constitutional guarantees, such calls are likely only to grow.

V(b) Nongovernmental Organizations and the Development of Civil Society


                                FINDINGS


        <bullet> New regulations on foundations demonstrate 
        some change and liberalization, but maintain the 
        principle of firm government control present in other 
        civil society regulations.
        <bullet> Chinese civil society organizations continue 
        to suffer from significant internal problems, such as 
        limited organizational capacity and poor self-
        governance.

    Since the onset of economic reform in the late 1970s, 
Chinese government domination over the economic and social life 
of its citizens has diminished. Non-profit associations and 
organizations with varying links to the Communist Party and 
government have begun to grow as the role of government in 
society recedes. The growth of these organizations suggests the 
gradual emergence of a more pluralistic Chinese society. But 
numerous factors hamper the development of Chinese civil 
society, including a restrictive regulatory environment, lack 
of funding, and limited capacity for self-governance.\624\ Two 
main developments affecting Chinese civil society occurred over 
the past year: the passage of national Regulations on the 
Management of Foundations (Foundation Regulations) \625\ and 
the deepening reform of China's public institutions.
    The Foundation Regulations attempt to channel the resources 
of a growing economy into addressing social problems by 
defining a framework for both private and public foundations. 
The Foundation Regulations are the first major change to the 
legal framework governing Chinese civil society since the 
government issued rules regulating two other types of non-
governmental organizations in 1998.\626\
    The Foundation Regulations maintain the Chinese 
government's continued control over civil society 
institutions.\627\ The Foundation Regulations retain the 
requirement that a foundation must find a sponsor organization 
in order to register.\628\ This requirement, also present in 
the 1998 regulations, is one of the most substantial 
restrictions on the development of an independent civil society 
in China. The government limits qualified sponsor organizations 
to government bureaus and Party mass organizations.\629\ 
Sponsors provide ``guidance'' for the civil society 
organizations they supervise and participate in their annual 
review.\630\ Control over sponsorship gives Chinese authorities 
an effective weapon against organizational activities they deem 
to be dangerous. Many Chinese civil 
society organizations remain appendages of their sponsors,\631\ 
inhibiting the emergence of an independent civil society and 
limiting the ability of Chinese civil society organizations to 
check government power.\632\ Although some officials and 
academics debate the wisdom of the tight controls over civil 
society that the sponsor requirement imposes, its retention in 
the Foundation Regulations indicates firm support by the 
Chinese leadership.\633\
    Despite the sponsor requirement, the Foundation Regulations 
contain some change and liberalization. The Foundation 
Regulations lack the restrictions of prior civil society 
regulations which bar the registration of more than one 
organization addressing the same issue in a particular 
administrative region.\634\ The Foundation Regulations also 
differ from the 1998 regulations on other civil society 
organizations by permitting representative offices of foreign 
foundations to register and be treated like Chinese 
foundations.\635\ Equal treatment is a mixed blessing, however, 
since the Foundation Regulations also explicitly extend the 
sponsor requirement to the representative offices of foreign 
foundations operating in China.\636\
    Chinese officials assert that the Foundation Regulations 
represent the first step in an overhaul of all Chinese civil 
society regulations. Revisions to the 1998 regulations should 
be completed by 2005.\637\ According to these officials, these 
revisions should parallel the Foundation Regulations in 
explicitly providing for the registration of other foreign NGOs 
in China.\638\
    Born in the 1950s, public institutions historically have 
been state-controlled organizations that provide public 
services in science, education, culture, health, and 
sports.\639\ As of 2001, more than 1 million Chinese public 
institutions existed, employing some 25 million people.\640\ 
Market reforms have created serious economic pressures on 
Chinese public institutions, many of which are heavily 
dependent on state funding. Over the past 15 years, and 
particularly since the end of the 1990s, the Chinese government 
has been gradually reducing the level of financial support for 
public institutions.\641\ This policy has resulted in the 
gradual privatization of a number of public institutions, 
including arts troupes, Xinhua bookstores, and basic health 
care providers.\642\ These organizations increasingly function 
as private economic actors seeking independent revenue, rather 
than as administrative units of the Chinese state.\643\ This 
gradual independence may lead public institutions to evolve 
into a component of a more diverse Chinese civil society.
    At present, the government does not have a coherent reform 
plan for public institutions in China.\644\ This vacuum, 
combined with the scattered efforts of public institutions to 
raise funds, has led to serious declines in certain essential 
public services. One example is the collapse of rural health 
care and health monitoring.\645\ Some government officials and 
scholars recently have proposed structural reforms that would 
gradually transform some public institutions into enterprises, 
some into governmental entities, and others into civil society 
organizations.\646\
    Many Chinese civil society organizations continue to suffer 
from internal weaknesses as well. Chinese civil society 
organizations may become dominated by a few individuals whose 
actions are seldom constrained by formal rules.\647\ 
Corruption, poor organizational capacity, lack of planning, and 
weak institutional continuity sometimes have also been 
problems.\648\ Over the past decade, the beginnings of a more 
diverse Chinese civil society have emerged, but its future 
development depends on removing regulatory obstacles and 
building organizational and management capacity.

                         V(c) Access to Justice


                                FINDINGS


        <bullet> Access to justice remains a serious problem, 
        particularly in rural China. Scarce legal resources, 
        combined with the intermingled nature of government and 
        private legal services in rural areas, limit equitable 
        access to the legal system.
        <bullet> In most of China, a secretive, opaque, and 
        inefficient network of thousands of ``letters and 
        visits'' (xinfang) offices serves as a dysfunctional 
        proxy for the legal system.
        <bullet> The xinfang system is at the center of severe 
        miscarriages of justice and human rights abuses in 
        China.
        <bullet> China's gradual establishment of a nationwide 
        legal aid system is a positive step toward developing 
        the rule of law.
        <bullet> Legal aid in China remains severely limited, 
        owing to government failure to fund local institutions 
        adequately, particularly in rural China.

The Xinfang System: Petitioning for Justice
    The formal legal system is almost entirely absent from the 
lives of most of China's citizens. According to one survey of 
rural Chinese grievances, less than two percent involve a 
lawyer, a court, or any office of the formal legal system, 
significantly lower than corresponding figures for either the 
United States or Chinese cities.\649\ Even in Chinese urban 
areas, lack of legal representation is extremely common.\650\ 
The vast majority of Chinese disputes end up in quasi-formal 
channels. One primary channel is the system of ``letters and 
visits'' (xinfang) offices, accessed by the traditional 
practice of petitioning progressively higher levels of 
government for assistance.\651\
    The roots of the xinfang system can be traced back to 
centuries of imperial Chinese rule. China has traditionally 
lacked any clear division between administrative and judicial 
authority.\652\ The lowest imperial official, the district 
magistrate, simultaneously performed functions as varied as 
ensuring the collection of taxes, managing the local militia, 
and meting out justice in local legal cases.\653\ Appeals of 
magistrate legal decisions consisted of consecutive petitions 
up the government hierarchy in a repeated effort to enlist the 
assistance of higher-level officials in reversing lower-level 
decisions. Central authorities employed such petitions as a 
means of ensuring justice in individual cases, but also as an 
information channel on grassroots conditions and a performance 
review of local magistrates.\654\ Frequent struggles broke out 
between aggrieved petitioners attempting to reach higher 
authorities and local government officials attempting to defend 
or cover up their decisions.\655\ As a last resort, petitioners 
would travel to Beijing, prostrating themselves before the 
centers of imperial power in an effort to gain the attention of 
key officials or the emperor himself.\656\ Obtaining justice in 
these situations was not merely a legal question, but also 
required connections, sheer persistence, and the political 
ability to mobilize popular support to put pressure on central 
authorities to reverse local decisions.\657\
    This traditional Chinese petition system has survived the 
founding of the PRC in the form of the xinfang system. 
Established in the early 1950s, xinfang offices initially 
provided a means for central officials both to address abuses 
by local government officials and to obtain information on 
grassroots conditions. Aggrieved citizens would approach Party 
cadres in designated provincial xinfang bureaus and lodge 
complaints about the behavior or decisions of lower-level 
officials. Successful complaints might result in the dispatch 
of investigation teams or the discipline of offending 
cadres.\658\ Since the beginning of China's decentralization of 
power in the late 1970s, xinfang bureaus have proliferated in a 
wide range of organizations. These include offices of the local 
police, government, Party, procuracy, people's courts, people's 
congresses, and the news media. Petitioners often contact any 
official or bureau they perceive as having the ability to 
intervene and assist with their problems, regardless of whether 
the official or bureau has formal responsibility or authority 
over the subject matter.
    Despite the gradual development of a formal Chinese legal 
system, Chinese citizens continue to rely heavily on 
petitioning to resolve their grievances. According to estimates 
from officials in the national xinfang bureau, total petitions 
(both letters and visits) to Party and government xinfang 
bureaus at the county level and higher are about 11.5 million 
per year, compared to the six million legal cases handled 
annually by the judiciary.\659\ The 2003 Supreme People's Court 
Work Report states that the entire Chinese judiciary handled 42 
million petitions during the preceding five years, as compared 
to approximately 30 million formal legal cases.\660\ The 
Supreme People's Court (SPC) alone handled 120,000 petitions in 
the past year, compared with 3,567 formal appeals.\661\ The 
xinfang bureau of the National People's Congress (NPC) reported 
receiving 76,868 petitions during 2003, and all levels of the 
Chinese procuracy handled 527,332.\662\
    Petitioning is partly a political protest, partly an appeal 
for justice in an individual case, partly a request for aid, 
and partly an attempt to grab the attention of higher-level 
officials.\663\ Individual petitioning may be as simple as the 
repeated visits of one dissatisfied individual to multiple 
government offices.\664\ Collective petitioning is more 
organized and has political overtones. As one scholar has 
noted, it often involves ``formal, written complaints 
physically carried by a group of villagers to higher levels 
(usually the township or county town),'' that are accompanied 
by documentary evidence and statements of witnesses.\665\ It 
may also employ demonstrations, speeches, and processions. The 
primary use of petitions is not to express displeasure with 
national government policies, but rather to oppose the actions 
and policies of local government officials.\666\
    Although much petitioning is extra-legal in nature, it 
often overlaps with the formal legal system. Lawsuits under the 
Administrative Litigation Law are often ``preceded, 
accompanied, or followed'' by collective petitions.\667\ 
Chinese courts frequently hold reception days to hear citizen 
petitions.\668\ Citizens often petition higher courts outside 
the appeals process, seeking independent review of lower court 
cases.\669\ Losing parties in legal cases also often bypass the 
formal appeal process in favor of direct petitions to local 
people's congress delegates.\670\ Petitioning is not limited to 
low-level government organs or by subject matter. At least one 
patent case at the high people's court level is the subject of 
individual petitions.\671\
    Precisely because groups of petitioners represent an 
implicit threat to the social order, petitioning can prove 
effective. The arrival of several thousand rural petitioners or 
extreme actions by individuals, such as suicide threats or violence, 
can sometimes compel high government officials to intervene 
(via legal means or otherwise) to reverse local policies or 
decisions. The overwhelming majority of individual petitioners, 
however, find themselves lost in a Kafkaesque shuffle from 
bureau to bureau and city to city, facing years of red tape 
without any real resolution to their problems.\672\
    Resolving individual grievances is not the main focus of 
most xinfang bureaus, despite the heavy reliance by Chinese 
citizens on petitioning. Instead, xinfang bureaus operate as a 
``tripwire'' to inform officials on general or emergency issues 
of popular concern, attempt to calm angry petitioners, and 
report on severe local government abuses. In a limited number 
of cases, they may conduct some joint negotiations with various 
government bureaus to resolve particular disputes.\673\ The 
practice of petitioning also allows Chinese leaders to give the 
appearance of responsiveness to individual citizen complaints. 
In one such example in 2004, Premier Wen Jiabao intervened in a 
back wage dispute presented by a Sichuan farmer.\674\ 
Publicizing such actions in the news media presents an image of 
responsiveness at the top that increases citizen expectations 
and encourages further petitioning.\675\
    Xinfang bureaus have numerous faults from the standpoint of 
a rules-based system of providing justice. They lack formal 
power, have no systematic set of rules to decide particular 
cases, and can often only resolve disputes by prompting the 
extra-legal intervention of higher-level officials.\676\ 
National and provincial xinfang bureaus are secretive, closed 
institutions closely tied with the Party.\677\ Xinfang 
officials often see their goal as ``maintaining order'' in 
conjunction with public security authorities, rather than 
fairly resolving problems.\678\ Xinfang bureaus effectively 
reward organized political activity by ensuring that large 
groups of petitioners have their demands met, while 
simultaneously viewing such protests as threats to the social 
order.\679\ The xinfang system also allows Chinese leaders to 
identify and address particular social problems, either through 
repressive measures or limited concessions. This ``early 
warning'' aspect may allow the government to temporarily 
deflect popular pressures for more democratic rule and access 
to a transparent legal system.\680\
    Despite national and local regulations theoretically 
protecting the rights of petitioners to approach xinfang 
bureaus, file grievances, and receive responses, abuses are 
common.\681\ Local officials often repress petitioners to 
conceal the severity of social problems from higher 
authorities. Examples include:

        <bullet> Arbitrary government detention and expulsion 
        of thousands of petitioners from Beijing in March and 
        September, prior to meetings of the NPC and Party 
        Central Committee.\682\
        <bullet> Shaanxi court sentence of a petitioner 
        representative for distributing publicly available 
        national government circulars on lowering the rural tax 
        burden to groups of farmers.\683\
        <bullet> Detention of four petitioners in a Henan 
        village hard-hit by AIDS by local officials attempting 
        to prevent them from contacting the central 
        government.\684\
        <bullet> Henan court sentence of petitioner 
        representatives protesting misconduct in village 
        elections and seeking to deliver provincial rulings on 
        the issue to county officials.\685\

    The gradual development of the formal legal system may be 
displacing xinfang channels.\686\ National regulations direct 
government xinfang bureaus to leave justiciable issues to the 
courts,\687\ and some courts are directing petitions into legal 
channels.\688\ Government legal aid programs and the spread of 
legal services are also a partial effort to address some of the 
problems discussed above. However, the continued presence of 
xinfang channels and petitioning activity reflects the reality 
that most Chinese disputes are still resolved by the personal 
power of high officials, rather than by law.

Legal Services and Legal Aid
    Since the 1990s, the Chinese government has made progress 
in developing a national legal aid system. Legal aid has helped 
promote the development of rule of law in China by increasing 
the ability of average citizens to use the legal system. 
However, U.S. scholars note that some Chinese government 
officials appear to focus more on building a bar of registered 
lawyers in urban areas than on coherently addressing rural 
legal needs.\689\ Lack of central government funding has also 
led to uneven development of legal aid programs. Wealthy urban 
areas are developing formal legal aid institutions, but in 
rural areas local governments lack the resources to support 
them.
    Wiped out in the Cultural Revolution, the Chinese legal 
profession has grown steadily since the beginning of reforms in 
the 1970s. Originally defined as socialist state workers, 
lawyers emerged under the 1996 Lawyers Law as private economic 
actors providing legal services, albeit managed by the Ministry 
of Justice (MOJ) and subject to a mandatory pro bono 
requirement.\690\ The Chinese bar has grown, from 43,533 
registered lawyers in 1989 to 122,585 in 2001.\691\ Relative to 
the population as a whole, their numbers remain low by Western 
standards. At present, there is roughly one lawyer for every 
10,000 individuals in China, compared to a ratio of about 1 to 
550 in the United States.\692\
    Despite the growth of the Chinese bar, lawyers are almost 
completely absent in rural China. One survey found only one 
practicing lawyer at the township level, while one out of ten 
rural Chinese counties lack any lawyers at all.\693\ A range of 
paraprofessionals consequently dominates the legal services 
market in Chinese rural areas. These include basic-level 
workers in legal services offices and local judicial bureaus, 
in addition to a significant number of unlicensed, self-trained 
individuals who serve as legal advisors for rural 
residents.\694\
    Basic legal service workers often lack formal legal 
education or training, but local judicial bureaus or courts 
license them to practice.\695\ Although China's approximately 
100,000 basic legal service workers number only somewhat fewer 
than the total number of lawyers, they handle many more 
cases.\696\ Workers provide consultations, engage in mediation, 
represent parties in civil cases, may collect fees, and may 
organize to form legal services offices. They may not represent 
defendants in criminal cases.\697\ Since the early 1990s, 
government authorities have privatized legal services offices. 
They now function more or less as law firms, dominating the 
market in rural legal services and competing against law firms 
in the urban market.\698\
    Local judicial bureaus are the county and township level 
branches of the MOJ.\699\ They supervise and often provide 
training for basic legal service workers, as well as oversee 
local mediation and legal aid efforts.\700\ Pursuant to central 
government efforts to reduce local expenditures, many judicial 
bureaus have opened legal services offices as a source of 
additional revenue. As one Chinese scholar characterized it, 
``In all the counties I surveyed, the local judicial bureau and 
the local legal services office were a case of `one person, two 
signs,' with the head of the local legal services office being 
a member of the local judicial bureau . . . and the identity of 
these individuals unclear, part official, part private.'' \701\
    Such blurring of boundaries intermingles ``government'' and 
``private'' functions at the local level. Heads of local 
judicial bureaus (in their capacity as government officials) 
may designate a basic-level legal worker to mediate an end to a 
contentious dispute between villagers. If mediation fails, the 
same worker may shift into a fee-for-service role providing 
legal assistance to one (or both) parties via consultation, 
drafting legal documents, or court representation.\702\ The 
lack of formal legal training in China's countryside also blurs 
the lines between courts and other judicial organs. Just as 
local judicial bureaus train basic-level legal workers, so do 
local courts train local judicial bureau personnel. Judges 
organize conferences and training sessions on new laws for 
local judicial bureau personnel, and invite them to observe and 
participate in court mediation.\703\ Such interlocking roles, 
combined with the inevitable personal and financial 
relationships, effectively prevent rural residents from 
accessing independent legal services.
    Beginning in the early 1990s, concern with access to 
justice generated significant Chinese government interest in legal 
aid.\704\ Privatization of legal services led to government 
efforts to enlist China's growing number of lawyers in an 
effort to tackle social problems. Central government 
encouragement of legal aid efforts led to a rapid increase in 
the number of government-run legal aid centers (from several 
hundred in the late 1990s to 2,774 by the end of 2003).\705\ In 
Shaanxi province, for example, the provincial government, all 
major metropolitan areas, and some 72 out of 108 county-level 
governments have opened legal aid centers.\706\ Various quasi-
independent legal aid organizations associated with 
universities or Party organizations have also developed.\707\
    In 2003, the State Council issued a set of national Legal 
Aid Regulations, providing a formal framework for the further 
development of provincial and local legal aid efforts.\708\ The 
Legal Aid Regulations formally make providing legal aid a 
government responsibility under the MOJ.\709\ But the central 
government has allocated almost no money to support local 
governments in establishing legal aid centers.\710\ MOJ 
officials rely on a mix of orders and cajoling to persuade 
local authorities to establish centers.\711\
    The Legal Aid Regulations also establish a set of 
eligibility guidelines for legal aid applicants that represent 
a relatively limited set of cases, and in criminal cases allow 
an individual to apply for legal aid only after initial police 
investigation is complete.\712\ The Legal Aid Regulations allow 
local authorities a degree of discretion in refusing cases. 
They also grant local legal aid centers flexibility in 
structuring their programs.\713\ The Legal Aid Regulations only 
require legal aid centers to provide pro bono assistance in 
criminal cases in which a defendant faces a possible death 
sentence, is a minor, or is blind, deaf, or mute.\714\ Except 
for these cases, applicants for legal aid must also meet a 
locally set standard of economic hardship.\715\
    Chinese legal aid centers rely heavily on mandatory pro 
bono representation, although MOJ personnel also represent 
clients directly.\716\ MOJ personnel generally run the intake 
process, distribute qualified cases to private lawyers, and 
supervise the cases. Private lawyers generally handle one or 
two legal aid cases per year.\717\ The Legal Aid Regulations 
authorize legal aid centers to subsidize lawyers handling these 
cases, but forbid lawyers from receiving fees from their 
clients.\718\ Chinese legal aid officials cite the lack of 
money to pay these subsidies to private lawyers as a serious 
obstacle to the development of legal aid.\719\
    The failure of the central government to provide funding 
for legal aid has led to severely uneven development of 
programs.\720\ In relatively well-off urban areas, some 
municipal governments have appropriated funding to support 
legal aid centers run by full-time staff.\721\ Such urban 
centers are often relatively 
institutionalized and professional.\722\ In contrast, legal aid 
services in rural areas are generally an additional duty 
shouldered by the local judicial bureau.\723\ Often, the same 
MOJ employee in a given rural county simultaneously runs the 
local judicial bureau, his own private legal services office, 
and provides legal aid services out of the same location.\724\ 
The legal aid services provided in such circumstances are 
limited and their pro bono nature subject to question.
    Demand for legal aid in China remains far higher than 
supply. According to legal aid officials in Chengdu, Sichuan 
province, only about one-third of applicants receive legal aid 
each year.\725\ MOJ statistics show legal aid centers handling 
166,433 cases during 2003, or fewer than 3 percent of the total 
number of cases decided by the Chinese court system in 
2003.\726\ Lawyers do not necessarily represent legal aid 
applicants. According to government statistics, less than half 
of China's full-time legal aid workers have a lawyer's 
license.\727\ Yet legal aid representatives appear to win civil 
cases for their clients relatively often.\728\ Official Chinese 
statistics for outcomes in criminal cases against legal aid 
recipients are unclear.\729\
    Legal aid in China is focused on the type of problems faced 
by low-income urban workers rather than the rural poor. One 
example is that labor and support payment cases dominate the 
civil side, rather than disputes over land and taxation. On the 
criminal side, cases involving the death penalty and those with 
underage defendants predominate.\730\ Civil cases constitute 57 
percent of all legal aid cases, criminal cases 41 percent, and 
administrative cases 2 percent.\731\
    Despite many successes in individual legal cases, legal aid 
programs do not broadly challenge established policies.\732\ 
They reflect government interests because the government funds 
and operates them. Some urban legal aid centers rely on media 
reports to identify ongoing legal cases receiving critical 
coverage, then actively approach clients to see if they need representation.\733\ Chinese government-funded legal aid centers 
are not an external constraint on government action, but another 
element in the dispute resolution process. For example, Xi'an legal 
aid personnel participated along with the courts, labor bureau, and 
other ministries in a recent conference designed to reach 
consensus on how to practically address a series of labor law 
disputes.\734\ Because they often represent underserved groups in 
society, legal aid centers may bring some latent problems to the 
surface and help check local abuses. Quasi-independent public interest 
law organizations affiliated with universities often advocate broader 
change more vigorously.\735\
    Workers at Chinese legal aid organizations have few 
opportunities for training. Some provincial centers hold 
occasional sessions for lower-level MOJ personnel, but the only 
trainings that the Ministry itself has organized have been in 
cooperation with foreign NGOs.\736\ Foreign NGOs seeking to 
enhance Chinese legal aid efforts should consider programs that 
strengthen the capacity of the MOJ Legal Aid Center to conduct 
its own training.\737\ To strengthen Chinese civil society, 
such efforts should also concentrate on non-governmental 
organizations providing legal aid services.\738\ Programs 
directed at rural needs should also focus on training and 
organizing basic legal services workers.\739\

                      V(d) China's Judicial System


                                FINDINGS


        <bullet> The Chinese judiciary continues to be plagued 
        by internal administrative practices which constrain 
        the independence of individual judges and undermine 
        court effectiveness.
        <bullet> The Chinese government is making significant 
        strides in 
        increasing legal training and the professional quality 
        of the Chinese judiciary through new programs and 
        employment practices. However, many of these efforts 
        ignore the practical needs of rural Chinese courts.

Internal Judicial Administration
    Internal administrative practices commonly used in Chinese 
courts reduce the independence of individual judges and create 
a passive cadre of judges. Three examples are the 
``responsibility system for wrongly decided cases,'' \740\ the 
use of case closure rates to evaluate judicial 
performance,\741\ and the extensive reliance on qingshi 
(internal advisory opinion) procedures.
    Court responsibility systems, which sanction judges for 
errors in deciding cases, began in the late 1980s as a means to 
curb corruption.\742\ In practice, responsibility systems 
differ by province and by court. Some define ``wrongly decided 
cases'' as those in which mistakes in procedure, determination 
of the facts, or application of law have resulted in 
``incorrect'' outcomes.\743\ One Sichuan court censures judges 
for any error whatsoever, not only for procedural or legal 
violations, but also grammatical or spelling errors in their 
opinions.\744\ Disciplinary measures also vary. Depending on 
the number and seriousness of the mistakes in ``wrongly decided 
cases,'' a judge may face internal criticism, fines, slower 
promotions, critical notations in his or her personnel file, 
or, in extreme cases, criminal sanctions.\745\ In some courts, 
sanctions are automatic and linked to reversal on appeal.\746\ 
Other courts have internal mechanisms in which a judge's peers 
review reversed cases to determine the severity of the error 
and the need for punishment.\747\ Some courts employ these 
measures frequently, others not at all.\748\
    Court responsibility systems limit judicial independence 
and efficiency, particularly in linking disciplinary punishment 
to ordinary appellate reversals.\749\ They force Chinese judges 
to consider their self-interest in conducting essential 
judicial duties, such as hearing difficult cases, applying the 
law in unclear situations, or clearly expressing their judicial 
opinions in writing.\750\ These systems prompt Chinese judges 
to pressure parties into agreeing to mediation, because, as one 
judge said, ``mediation can't be appealed, and there is no 
`incorrect case' rate.'' \751\
    Some Chinese government officials are aware of these 
problems. The Supreme People's Court (SPC) set out national 
guidelines in 1998 that explicitly exempt judges from 
responsibility for incorrect judgments arising from errors in 
legal understanding or mistaken factual findings, or for 
reversals on appeal that result from amendments to the law or 
new evidence.\752\ These guidelines have had some impact, as 
some courts have revised their systems to include these 
exemptions.\753\ But some courts do not follow the SPC 
guidelines.\754\ Other responsibility systems retain a degree 
of ambiguity, making the extent of judges' freedom to decide 
cases difficult to determine. For example, 1999 court rules for 
one Beijing Intermediate People's Court include the 1998 SPC 
exemptions for judicial sanctions related to ``errors,'' but expressly 
sanction judges for ``distortions'' of fact or law.\755\ 
Uncertainty over such distinctions, combined with the penalties 
of the responsibility system, creates an environment hostile to 
judicial independence and creativity, resulting in a generally 
passive cohort of Chinese judges.
    The common administrative practice of using the ``case 
closure rate'' to evaluate court performance creates similar 
pressures. The annual review process Chinese courts and judges 
undergo often considers the percentage of closed versus filed 
cases for a given year as a means to evaluate overall judicial 
efficiency.\756\ Individuals and courts with low ratings may 
suffer in terms of slower promotions and budget 
allocations.\757\ Given this incentive structure, Chinese 
courts self-report staggeringly high case closure rates, often 
greater than 99 percent,\758\ and often generate these rates 
through unscrupulous means. For example, Chinese courts 
commonly refuse to accept cases submitted in December, knowing 
that these cases would remain undecided at the end of the year 
and consequently reduce their case closure rate.\759\ Judges often 
also pressure parties to mediate rather than litigate if the 
case might continue past the end of the year.\760\ As Chinese 
critics have noted, these practices injure the rights of 
parties, harm the image of the Chinese judiciary, and undermine 
the procedural time limits for litigation set in the 
administrative, civil, and criminal laws.\761\ They also 
reflect an effort to manage the Chinese judiciary as an 
administrative agency rather than allow judges to independently 
exercise judicial authority.
    Fear of censure under court responsibility systems creates 
incentives for Chinese court judges to seek advance guidance 
before issuing their decisions, contrary to principles of 
judicial independence. Judges seek such guidance through a 
well-developed system of requesting internal advisory opinions 
(qingshi).\762\ The request may be as informal as asking the 
tribunal head for his views on a particular case, or as formal 
as sending a written request to a higher court. Chinese judges 
maintain that they never use the practice to ask courts to make 
factual findings, but rather ask for advisory opinions only in 
cases in which the law is unclear or they are uncertain how to 
apply it to a particular set of facts.\763\ But when lower 
courts frequently send detailed case information to higher 
courts, questions arise about whether the lower courts are 
properly exercising their trial authority. Databases of Chinese 
laws and regulations contain many examples of replies to 
qingshi requests from all levels of the Chinese judiciary.\764\ 
These differ little in form and content from similar requests 
from lower-level administrative agencies to higher-level 
departments. Qingshi requirements are often very lax, allowing 
judges themselves to decide when it is appropriate.\765\ 
Chinese trial practice liberally accommodates qingshi 
procedures, including tolling the legally required time limits 
for deciding a case.\766\ Higher courts often have a research 
bureau formally responsible for responding to qingshi requests 
from below.\767\ Individual judges also may perform this 
role.\768\ Qingshi requests factor into the drafting of formal 
judicial interpretations. The SPC relies on qingshi requests 
from lower-level courts to determine which areas of law are 
unclear and need formal judicial interpretation.\769\ Excessive 
reliance on the qingshi process is emblematic of the top-down, 
overly administrative management structure of the entire 
Chinese judiciary.
    Many in China criticize the qingshi system. As one 
procuratorate official bluntly put it, the system ``is the 
embodiment of violations of law, regulation, and correct 
procedure in court management.'' \770\ No legal basis exists 
for the qingshi system, which appears to violate provisions of 
the Chinese Constitution and Judge's Law guaranteeing courts 
the independent exercise of judicial authority.\771\ The 
closed, internal nature of the process also violates principles 
of openness and transparency in judicial decision-making and 
conflates the appellate and trial procedures, often rendering 
the appeal a formality. Moreover, the continued use of the 
qingshi system breeds passivity, dependency, and a lack of 
independent thought by Chinese lower court judges. They simply 
pass difficult or unclear cases up the judicial hierarchy.\772\
    Chinese courts have made some limited moves to curb the use 
of qingshi. The SPC notice issued in response to public outcry 
surrounding cases of extended detention directs lower courts to 
``progressively eliminate'' the use of qingshi, except in 
``difficult cases involving the application of law.'' \773\ 
Certain local courts have issued similar instructions.\774\ 
However, the use of qingshi is difficult to eliminate in 
practice.\775\ Under the pressure of administrative measures 
such as responsibility systems, Chinese judges adopt a passive 
approach to dispute resolution. They prefer to use the qingshi 
process to refer any difficult case up to higher authorities 
rather than decide it themselves and risk censure. Fundamental 
administrative reforms are necessary to curb the dependence of 
the Chinese judiciary on advisory opinions.

External Pressures on the Chinese Judiciary
    Numerous external actors, such as the Party, local 
governments, and local people's congresses (LPCs), impose 
limits that stifle the development of an independent Chinese 
judiciary.\776\ Courts encounter interference from LPCs in the 
form of individual case supervision.\777\ According to Chinese 
sources, as many as 70 percent of individual petitions to some 
local LPC xinfang bureaus represent appeals of final court 
decisions.\778\ Formal structures exist to facilitate 
``supervision'' of particular cases in which LPC delegates take 
an interest.\779\ Some Chinese courts have LPC liaison offices 
present in their buildings to aid in such interventions.\780\ 
According to Chinese scholars, SPC regulations require that any 
case that individual National People's Congress delegates raise 
with the Court must be reviewed and the results must be 
reported back to the delegates.\781\ Although LPCs formally 
intervene in only a limited number of cases, ``status 
requests'' on ongoing court cases are relatively common.\782\ 
This contributes to an overall atmosphere that is not conducive 
to judicial independence.
    Chinese courts face similar pressure from the media. 
Because Chinese judges lack professional standards and often 
are influenced by factors other than the law, courts may decide 
cases in line with their view of prevailing public opinion, 
particularly when press coverage is vigorous.\783\ Chinese 
courts may ignore normal legal protections or questionable 
facts in issuing quick death sentences, such as in the Liu Yong 
case [see Section III(a)--Rights of Criminal Suspects and 
Defendants]. In addition, the internal government reports 
prepared by the Chinese media may also generate high-level 
interventions in particular cases.\784\

Judicial Professionalism
    Although the Chinese government is making significant 
strides in increasing the professional quality of the Chinese 
judiciary through training programs and new employment 
practices, many of these efforts ignore the practical needs of 
rural Chinese courts. Educational requirements for judges have 
been tightened, and the SPC has announced ambitious plans to 
use higher court judges to carry out educational lectures on 
new laws and regulations for China's roughly 150,000 basic 
court judges.\785\ Such projects ignore the realities of rural 
Chinese courts, which often lack the financial resources to 
attract university graduates and must struggle to merely retain 
the judges they do have.\786\ The highly academic educational 
and training programs organized by national and provincial 
judicial training programs appear similarly misdirected, given 
the heavy emphasis of basic-level Chinese courts on 
mediation.\787\ Many local Chinese judges express a desire for 
more practically oriented, skills-focused training 
sessions.\788\
    Observers also detect signs of a shift toward a more 
professional administrative structure and recruiting process. 
Traditionally, Chinese judges have risen to the bench through 
an internal promotion process, starting first as a judicial 
secretary and gradually progressing to a full judgeship.\789\ 
This system results in significant mixing of clerical and 
judicial duties,\790\ and creates internal pressures to promote 
unqualified senior clerical staff to judgeships.\791\ The 
result is a highly imbalanced judiciary: approximately two-
thirds of the roughly 300,000 Chinese court personnel are 
judges, with only 40,000 judicial secretaries.\792\ In the fall 
of 2003, the SPC took positive steps to stop this practice, 
with newly issued regulations that redefine the position of 
judicial secretary as a purely support function, rather than a 
step on the career track to becoming a judge.\793\ If fully 
implemented, this should gradually increase judicial 
professionalism.\794\ Many Chinese courts, with the 
encouragement of the SPC, are also beginning to experiment with 
selecting judges from among lawyers and other experienced legal 
professionals.\795\

Quality and Availability of Judicial Decisions
    The quality and availability of Chinese judicial decisions 
remains a concern. Decisions often lack any legal reasoning and 
are frequently unavailable to the public. This is partly a 
result of the generally low educational levels of Chinese 
judges and the heavy emphasis in basic-level courts on mediation 
rather than formal trials.\796\ The excessively administrative nature 
of the Chinese judiciary also plays a role. Judges indicate that they 
frequently avoid listing reasons for their decisions in clear 
judicial opinions out of fear of censure under the 
responsibility systems.\797\
    The Chinese judiciary is taking steps to improve the 
quality of judicial opinions. SPC directives requiring the 
publication of judicial decisions are an effort to increase 
transparency and compel judges to write better decisions in the 
face of public scrutiny.\798\ Several court Web sites, 
including those in Beijing, Shanghai, and Hainan province, 
allow users to download judicial decisions.\799\ The 
intellectual property tribunal of the Beijing High People's 
Court has begun publishing all of its opinions online.\800\ 
Review by Commission staff reveals that while many of these 
online opinions continue to lack legal reasoning, a few contain 
short analyses of 
relevant legal principles and facts. Some Chinese judges have 
indicated that pressure to publish opinions is encountering 
internal opposition within Chinese courts, as less-skilled 
judges resist the pressure to publish decisions out of concern 
for their public image or fear of punishment under court 
responsibility systems.\801\

         V(e) Commercial Rule of Law and the Impact of the WTO


                                FINDINGS


        <bullet> The WTO transparency obligations have had a 
        positive effect on local governance by providing cover 
        to reformers and raising public and official awareness 
        of administrative, judicial, and legislative reform 
        efforts.
        <bullet> The Chinese government has adopted a series of 
        industry 
        development policies that reorganize domestic 
        industries and frequently discriminate in favor of 
        domestic products, sometimes in contravention of 
        China's WTO commitments.
        <bullet> Only rhetorical progress has been made toward 
        reducing the extremely high level of intellectual 
        property rights infringement in China in the past year 
        and the situation continues to severely injure U.S. 
        intellectual property industries.

    The implementation of China's World Trade Organization 
(WTO) accession obligations remains a key measure for China's 
development of commercial rule of law. Although there has been 
progress in many areas, the Chinese government frequently finds 
that it lacks the capacity to implement many of the commitments 
requiring changes to its legal system both effectively and 
immediately. Moreover, market interventionist policies, often 
under the guise of industry development policies, frequently 
discriminate against goods and services of foreign origin, 
which generally runs afoul of WTO rules. The U.S. government 
will need to closely monitor China's progress in meeting all of 
its WTO commitments at the national and local levels to ensure 
that lower-profile measures that may deny foreign firms market 
access do not become standard bureaucratic practice.
    Continued engagement on trade issues, particularly WTO 
implementation and compliance, is an important means to foster 
the rule of law in China. Because of internationally binding 
trade commitments and the economic realities of foreign direct 
investment, Chinese authorities cannot avoid meaningful discussion 
when confronted with economic and investment-related issues. This 
situation makes engagement on trade among the most constructive 
vehicles for the U.S. government to address the rule of law and 
legal reform in China. Continued engagement on trade issues has 
been the basis of a strong and surprisingly stable bilateral 
relationship.

Commercial Rule of Law Beyond the WTO
    The systemic changes required to implement China's WTO 
commitments also affect other areas of rule of law development 
in China, especially the capacity building of the Chinese 
judiciary and bureaucracy that many of China's WTO accession 
commitments have mandated. In the judiciary, the Supreme 
People's Court (SPC) has begun seeking comments on its draft 
interpretations through its online services. In addition, some 
intermediate courts are now experimenting with publication of 
all their decisions.\802\ The significance and reasons for this 
change extend beyond the requirements of WTO accession, but the 
need to provide reasoned decisions for trade-related actions 
plays a role in this reform.\803\
    Provincial and local government bodies and provincial 
people's congresses continue to make notable progress in 
transparency. Some have been publishing draft legislation, for 
both trade-related laws and other types of legislation. For 
example, the Sichuan Provincial People's Congress has published 
draft laws since the early 1990s.\804\ The Guangdong Provincial 
People's Congress has interpreted the 2000 Law on Legislation 
to require that the Congress seek opinions on legislation from 
relevant stakeholders.\805\ The Guangdong People's Congress and 
the Sichuan People's Congress publish all legislation on their 
Web sites before formal approval.\806\
    An increasing number of local legislatures have made open 
calls to the general public for input on legislation. Some have 
developed official procedures for considering suggestions. 
These regulations have been developed to implement certain 
provisions of the 2000 Law on Legislation.\807\ Shenzhen began 
soliciting legislative proposals through its Web sites in 
2004.\808\ The Guangdong Provincial People's Congress solicits 
comments on legislation through newspapers, its Web site, 
direct invitations to particular constituencies, and open 
hearings.\809\ Some local people's congresses have attempted to 
use hearings to obtain public views on legislation. But 
people's congresses also seem to be having problems putting 
into practice previously adopted rules outlining how they will 
conduct a hearing. The few legislative hearings held so far 
demonstrate that Chinese legislators still need to address 
issues such as witness selection and public and official 
attendance.\810\
    Provinces and municipalities are developing innovative 
measures to distinguish themselves as forward-leaning in 
governmental transparency and business efficiency. In 
Chongqing, officials established the Chongqing Industrial 
Business Administration Office to be a ``one-stop'' office for 
licensing.\811\ The Internet also provides a regular means of 
interaction between the government and its citizens on a wide 
variety of issues. In Wuhan, the government has created a 
bulletin board for airing grievances, and Beijing's government 
solicits input on public works online.\812\ Shanghai's 
legislature has sought to expand its experience with hearings 
beyond the legislature itself with a proposal to enact a local 
regulation that would set up a hearing mechanism for the local 
government.\813\
    Although not directly required by China's WTO commitments, 
local governments have cited WTO transparency commitments as a 
factor affecting changes in the civil service system. According 
to interviews with Commission staff, the Guangdong Provincial 
Personnel Department responded to WTO accession by recruiting 
for civil servants from a wider pool of applicants, without 
regard to their social status. The entire process of hiring, 
promotion, and firing has become more transparent, using a 
standard examination for hiring decisions and protecting the 
right of the public to file complaints against prospective 
high-level appointees.\814\
    Recent changes like these that bring greater transparency 
in government administration owe much to the general 
requirements and increases in capacity that WTO accession has 
required. While many problems have arisen in China's 
implementation of its specific commitments, that implementation 
has benefited many U.S. companies doing business in China and 
provided U.S. trade officials with much more comprehensive 
tools for addressing problems that arise in the bilateral 
relationship.

Transparency
    China has not made progress over the last year on WTO 
commitments related to transparency. According to USTR, 
transparency is the most important of all of the WTO 
obligations.\815\ Because transparency affects a wide range of 
industries, the Chinese government's failure to implement the 
commitments causes harm in a number of sectors and trade areas. 
As soft commitments, the transparency obligations are some of 
the most difficult to comply with, because they involve the 
cooperation of government departments and agencies at all 
levels. A government organization seeking to comply with the 
transparency commitments must also reckon with the interests of 
the Communist Party, which may not always correspond. Despite 
these difficulties, some observers are optimistic that the 
Chinese government will eventually meet its commitments on 
transparency, and the general level of U.S. industry concern 
has decreased.\816\
    In its accession agreement, China also agreed to 
participate in an annual review for the first eight years of 
its WTO membership with a final review in the tenth year.\817\ 
This Transitional Review Mechanism (TRM) has now completed two 
cycles through the Committees and Councils of the WTO, ending 
with a consolidating session in the WTO General Council. In the 
first year, the results of the TRM disappointed many observers, 
who expected it to have great potential to assist WTO 
implementation in China.\818\ The Chinese government refused to 
provide written answers to questions and requests that the 
United States and other WTO members had made in advance. 
Because decision-making in WTO Committees and Councils operates 
by consensus, the Chinese delegation also blocked the adoption 
of any official report on the TRM. Monitoring progress with 
China's implementation in its second year of membership, the 
U.S. government declared that the 2003 TRM process was less 
contentious and more productive.\819\ The 2003 TRM, however, 
had all the same negative features of the earlier TRM process, 
with no written responses from the Chinese delegation or final 
report of any kind. The Chinese delegation appears to have 
succeeded in lowering expectations for the outcome of the TRM. 
As a result, the TRM process does not work to the benefit of 
China, the United States, or other WTO members, and suggests 
that Chinese central government authorities responsible for 
trade matters are not dedicated to implementing WTO 
transparency commitments.

Industry Development Policies
    China's government has pursued a variety of policies since 
WTO accession to improve the capacity for innovation in Chinese 
industry. These policies and the measures used to implement 
them often exploit broad WTO rules and soft commitments 
requiring systemic changes to China's bureaucracy to favor 
Chinese industry.\820\ Following its long tradition of economic 
planning, China's leaders intervened in these industries to 
generate global competitiveness, often targeting Chinese 
producers lagging significantly behind global competitors.\821\ 
Four particularly noteworthy cases from the past year detailed 
below have been the subject of bilateral discussions between 
the U.S. and Chinese governments with varying degrees of 
success. Some of these cases were resolved using specific 
complaints tied to individual WTO obligations, but in other 
cases, little progress has been made in combating 
discriminatory Chinese policies exploiting vague WTO rules 
despite threats of specific action from China's trading 
partners.
    Chinese government efforts to use industry policies to 
protect or develop Chinese industries at the expense of foreign 
firms may grow more acute as obvious barriers to trade are 
eliminated and more subtle barriers succeed. This shift to more 
defensible or less transparent tactics in industrial policies 
may take several years, as the Chinese still must replace 
specifically WTO-inconsistent development policies built on 
technology transfer and import substitution. U.S. policymakers 
will have to be vigilant to prevent 
discrimination against U.S. products and service providers and 
to ensure that China's WTO obligations are helping China create 
a robust commercial legal system.

            Value added tax rebate on integrated circuits
    Efforts by the United States convinced the Chinese 
government to abandon its value added tax (VAT) rebate policy 
for domestically-produced integrated circuits in July 2004. The 
policy had the potential to devastate the U.S. industry by 
forcing it to relocate both semiconductor fabrication and 
research and development to China to achieve lower production 
costs and gain access to the rapidly expanding Chinese market. 
On March 18, 2004, the United States formally sought 
consultations with China under Articles 1 and 4 of the WTO 
Dispute Settlement Understanding (DSU) regarding the Chinese 
government's practice of providing a partial VAT rebate to 
semiconductor manufacturers designing and fabricating 
integrated circuits (ICs) in China.\822\ This challenge was the 
first invocation of the WTO dispute settlement mechanism 
against China since the latter's accession to the WTO in 
December 2001.
    China established its VAT rebate policy before acceding to 
the WTO through the State Council's promulgation of a Notice on 
June 24, 2000.\823\ This Notice provided that firms 
manufacturing ICs in China should receive a rebate of 11 
percent of China's normal VAT rate of 17 percent, reducing the 
effective VAT rate to 6 percent.\824\ The policy only granted 
rebates to firms manufacturing ICs in China. Chinese tax 
authorities continued to assess the full VAT of 17 percent for 
sales of imported ICs. The United States asserted that the 
policy violated Article III of the General Agreement on Tariffs 
and Trade (GATT 1994), which prohibits the imposition of 
``internal taxes or other internal charges of any kind in 
excess of those applied, directly or indirectly, to like 
domestic products.'' \825\
    Consultations at the WTO between the Chinese and U.S. 
governments began in April 2004. Although the 60-day period 
during which a complaining WTO member cannot seek the formation 
of a panel expired before the end of May, the United States 
refrained from requesting a panel at the June meeting of the 
WTO Dispute Settlement Body and continued consultations with 
the Chinese government on the policy. On July 8, 2004, the 
Chinese government agreed not to certify any additional 
enterprises for preferential treatment and to phase out the 
policy for existing beneficiaries by April 1, 2005.\826\

            Wireless local area network (WLAN) architecture and privacy 
                    infrastructure (WAPI)
    U.S. government action, culminating in the April 21, 2004 
meeting of the U.S.-China Joint Commission on Commerce and 
Trade (JCCT), also prevented a commercially onerous set of 
standards from injuring the U.S. wireless networking industry. 
In this case, the General Administration of Quality 
Supervision, Inspection and Quarantine of the People's Republic 
of China (AQSIQ) sought to implement standards that not only 
deviated from a corresponding set of international standards 
but also had the potential to force the transfer of technology 
from U.S. computer manufacturers to their Chinese competitors 
as a requirement of importation.\827\ In July 2003, AQSIQ and 
the Standards Administration of China (SAC) met and determined 
that after December 1, 2003, wireless networking equipment 
imported, manufactured, or sold in China would have to comply 
with two Chinese standards for wireless local area networks 
(WLAN).\828\ These standards differ from an adopted 
international series of WLAN standards designated 802.11 by the 
International Standards Organization.\829\ Specifically, the 
encryption algorithms for the Chinese standards, known as WLAN 
Architecture Privacy Infrastructure (WAPI), could not function 
with 802.11-compliant hardware or software. Through the WTO 
Agreement on Technical Barriers to Trade (TBT Agreement), China 
committed to use international standards as the basis for 
domestic standards except when ineffective or inappropriate and 
to refrain from adopting more trade-restrictive standards than 
necessary.\830\ Yet, under China's proposed standard, hardware 
products that operate according to internationally accepted 
standards would not function on a network using the Chinese 
standards. Moreover, the implementation by SAC and the State 
Encryption Management Commission (SEMC), a sub-unit of AQSIQ, 
would have required foreign computer manufacturers to provide 
their products to 24 Chinese computer firms for preparation to 
enter the market.\831\ Those Chinese firms would have loaded 
the WAPI algorithms on the foreign firms' hardware and 
controlled the conformity assessment process for the foreign 
firms' equipment.
    Although AQSIQ later adjusted the date the policy would 
take effect from December 1, 2003 to June 1, 2004, the lack of 
transparency and the unpublished algorithm for the standard 
made this policy particularly problematic for foreign computer 
manufacturers. The U.S. government responded to the 
promulgation of this policy by both requesting a delay in 
implementation and seeking its revocation.\832\ At the April 
2004 meeting of the JCCT, Vice Premier Wu Yi agreed that the 
Chinese government would suspend the 
implementation of the new standards indefinitely; work to 
revise the standard and its implementation, taking into account 
the comments provided by a variety of parties; and participate 
in the processes of international standards making bodies 
dealing with wireless encryption.\833\

            Export controls on coke
    In 2004, another potential WTO dispute settlement case 
arose in the context of the Chinese government's export quota 
on coke, a key input in steel production. Although China is the 
world's largest coke producer, it exports only a small 
percentage of its overall output.\834\ This type of export 
restriction, which a WTO member may only impose to remedy a 
critical shortage, to implement a legitimate standard used in 
international trade, or to implement a legitimate environmental 
objective, became a problem in 2004 because China's increased 
demand for raw materials has contributed to steadily rising 
commodity prices globally.\835\ As a result, the Chinese export 
quota has begun to affect U.S. steel producers.
    The European Union apparently reached an agreement with 
China in May 2004 guaranteeing the same level of quota in 2004 
as it received in 2003, but such an arrangement may not 
guarantee enough Chinese coke to satisfy U.S. demand in 
2004.\836\ The U.S. trade agencies continue to negotiate with 
their Chinese counterparts to reach an acceptable resolution of 
this problem.

            Automobile Industry Development Policy
    China's new Automobile Industry Development Policy poses 
serious market access problems for the U.S. automobile industry 
through new controls on in-country investment and a variety of 
obstacles to and discrimination against imports. In 2003, 
China's National Development and Reform Commission (NDRC) 
issued a draft of the Automobile Industry Development 
Policy.\837\ In May 2004, the NDRC issued the final version of 
the policy. Foreign industry complaints about the draft policy 
centered on the requirements that foreign-invested enterprises 
participating in the particular manufacturing covered by the 
policy, including automobile and 
motorcycle assembly and auto parts manufacture, faced high 
minimum capital requirements and a prohibition on majority 
ownership.\838\ While NDRC addressed some of these restrictions 
in the final version, it still presents concerns for small and 
medium-sized U.S. auto parts manufacturers.
    Much of the policy addresses changes designed to create 
Chinese automobile brands through consolidation and higher 
barriers to market entry. This brand-creation part of the 
policy will also have inevitable effects on foreign investment 
in the automobile and motorcycle sectors, as it limits the 
number of joint venture partners available for U.S. firms. 
While not prohibiting automobile imports, the policy places 
significant functional limitations on sales and distribution 
channels for importers by requiring them to establish complete 
distribution networks for their products.\839\ Finally, the 
subsidization of China's automobile industry, mostly through 
loans from China's state-run banking system, changes the 
competitive landscape by bolstering Chinese automobile firms at 
the expense of their foreign competitors.

Intellectual Property Rights: Laws and Enforcement
    The Chinese government has not made progress toward 
effective enforcement of intellectual property rights (IPR). 
After the cancellation of the World Intellectual Property 
Organization (WIPO) summit in 2003 due to the Severe Acute 
Respiratory Syndrome outbreak, China ceased making even 
rhetorical progress toward the goal of improving IPR protection 
in China. After the summit's cancellation, all indications that 
China would make concrete progress by, for example, joining the 
WIPO Copyright and Performances and Phonograms Treaties 
(collectively, WIPO Internet Treaties), evaporated. Instead, 
extremely high rates of piracy and counterfeiting continued in 
2003 and U.S. rightholders noted the resurgence of exports of 
counterfeit goods from China.\840\ In November 2003, the U.S. 
Ambassador to China convened the second annual IPR Roundtable 
in Beijing and the U.S. Embassy in Beijing unveiled its online 
IPR Toolkit to provide advice on protecting intellectual 
property in China.\841\ In spite of these constructive 
overtures by the United States, the Chinese government failed 
to take actions showing a serious intent to reduce 
counterfeiting and piracy, instead disputing the seriousness of 
the problem.\842\
    Beginning at the end of 2003, and continuing through the 
meeting of the JCCT in April 2004, the Chinese government began 
to make the type of personnel assignments and broad commitments 
that have resulted in improved IPR protection in other 
countries.\843\ In November 2003, the Chinese government 
designated Vice Premier Wu Yi the leader of the State Council's 
``Leading Group on IPR Protection.'' \844\ At the JCCT meeting 
in April 2004, Vice Premier Wu committed China to improving 
both the IPR legal regime and government enforcement of 
IPR.\845\ If implemented, these commitments may reduce the rate 
of piracy and counterfeiting in the Chinese market and help 
conform China's IPR protection regime to the commitments in the 
WTO Agreement on Trade-Related Aspects of Intellectual Property 
Rights (TRIPs).\846\ Close vigilance by U.S. trade officials is 
necessary to ensure that China meets these commitments.
    Unfortunately, the central government has not demonstrated 
a capacity or desire to implement these commitments. 
Implementing the commitment to increase the range of IPR 
violations subject to the criminal law, for example, requires 
only that the SPC lower the criminal enforcement threshold, but 
the Court has not yet taken that simple step.\847\ And because 
most infringement occurs far from the center of government in 
Beijing, IPR violators avoid sanction through a combination of 
bureaucratic barriers, local protectionism, and 
corruption.\848\ Moreover, several highly publicized IPR-
related events have attracted the attention of foreign 
observers and caused U.S. businesses to question whether they 
can risk bringing their intellectual property into the China 
market.\849\
    The developing capacity of Chinese courts with respect to 
private IPR cases is a positive sign and worthy of greater U.S. 
attention. In a number of cases, foreign rightholders have 
successfully sued Chinese infringers in intermediate people's 
courts.\850\ While difficult to quantify, the increasing speed 
and reliability of intermediate people's courts in handling IPR 
infringement cases reflect the results of government policies 
seeking to improve judicial competence on IPR law, as well as 
generally rising standards in the Chinese judiciary.\851\

Agricultural Market Access
    China has become one of the largest foreign markets for 
U.S. agricultural products, but market access issues limit this 
important component of U.S.-China trade relations. China's 
administration of its tariff rate quota (TRQ) system raised 
market access concerns almost from the moment China entered the 
WTO.\852\ The Chinese government has sought to address these 
concerns with quota administration, although with mixed 
success. The quota administration authorities adopted a series 
of regulations in 2003 that should have resolved these 
concerns, but renewed complaints in 2004 have called into 
question whether the relevant Chinese authorities are 
implementing the regulations.\853\
    There has also been a lack of progress in resolving 
problems with AQSIQ's administration of the quarantine process 
for plant and animal products. Problems identified by U.S. 
industry have lingered on without satisfactory reason despite 
negotiations between AQSIQ and the U.S. Department of 
Agriculture's Animal and Plant Health Inspection Service 
(APHIS).\854\ The Commission has heard testimony that China's 
failure to use science-based standards in its sanitary and 
phytosanitary inspection process impedes imports of U.S. 
agricultural products.\855\ Specifically, U.S. beef and poultry 
cannot enter China's market if any pathogens are present and 
arbitrarily enforced Chinese quarantine procedures adversely 
affect trade in U.S. soybeans, grains, and oilseeds. The 
American Chamber of Commerce in China asserted that AQSIQ does 
not apply the same stringent standards to China's domestic 
agricultural products.\856\ Although problems with individual 
products are resolved periodically, the glacial pace of 
approvals feeds the impression that AQSIQ uses quarantine as a 
barrier to trade.

Services: Distribution Services and Trading Rights
    Two of China's most important WTO accession commitments 
were pledges to end restrictions on distribution services and 
trading rights.\857\ While other barriers to market access 
still exist, the end of these specific limitations will 
dramatically change the way U.S. and other foreign companies do 
business in China. China's commitments required eliminating the 
restrictions on majority foreign-owned companies to obtain 
trading rights and engage in certain segments of distribution 
services by December 11, 2003, two years after accession.\858\ 
The Ministry of Commerce (MOFCOM) did not complete its draft of 
the Foreign Trade Law, which covers trading rights, or the 
Regulations on Foreign Investment in the Commercial Sector, 
which covers most distribution services, until the spring of 
2004. When the Chinese government published the measures, 
however, it caught up with overdue commitments and, on paper, 
granted trading and distribution rights to wholly foreign-owned 
companies ahead of schedule.\859\ The coming year will tell 
whether the implementation of these measures will have the 
effect of eliminating these significant barriers to trade, 
producing a positive impact for U.S. companies doing business 
in China.

U.S. Government and Other WTO Member Technical Assistance to China
    China has received technical assistance from the United 
States aimed at assuring compliance with WTO commitments and 
requirements. The principal vehicle for this type of assistance 
is a U.S. Commerce Department program that began in September 
2000. Continuing programs focus on WTO commitments where 
China's implementation has lagged, including IPR enforcement. 
In addition to traditional technical assistance programs run by 
the Commerce Department's International Trade Administration 
(ITA), innovative programs such as the U.S.-China Legal 
Exchange and annual Standards Workshops have broadened the 
program to reach different audiences.
    U.S. programs have been overshadowed by other WTO members 
who have committed far greater funds and personnel to their 
systematic technical assistance programs to China than the 
United States. The EU, Japan, and Canada significantly outspend 
the United States, which spends about the same as 
Australia.\860\ The impact of this funding gap is not academic: 
on many trade issues on which the United States disagrees with 
its trading partners, such as the recognition of geographical 
indications (GIs) and the treatment of genetically modified 
organisms (GMOs), the larger presence of other WTO members as 
primary resources for training, source materials, ideas, and 
policy approaches will likely prejudice U.S. companies that 
confront these issues in China.

              V(f) Forced Evictions and Land Requisitions


                                FINDINGS


        <bullet> Forced evictions in urban areas and the 
        requisition of farmland in rural areas are fueling a 
        wave of popular anger at officials and developers and a 
        growing number of citizen petitions, legal disputes, 
        and social protests across China.
        <bullet> Despite strong central government initiatives 
        and some local efforts to curb illegal land 
        transactions and abuses related to land transfers, 
        procedures and compensation standards for the 
        government requisition of land use rights and buildings 
        continue to be weighted heavily in favor of the 
        government and developers.
        <bullet> Existing procedural protections are inadequate 
        to protect the rights and economic interests of urban 
        residents and farmers whose land is requisitioned and 
        to check endemic corruption in the land sector. 
        Petitioners and some legal representatives seeking 
        redress of grievances related to evictions and land 
        requisitions have been detained or harassed.

Land Ownership in China
    Under China's Constitution and the PRC Land Management Law, 
the state owns urban land and peasant collectives own most 
rural and suburban land.\861\ Within the framework of urban 
state ownership, state entities, private entities, and citizens 
may be granted or allocated land use rights.\862\ Although in 
the past, work units assigned housing to most urban residents 
without charge or for nominal rent, in the mid-1990s the 
central government adopted policies that encouraged urban 
residents to purchase apartments from their work units, often 
at heavily subsidized rates or with limited transfer 
rights.\863\ In rural areas, the PRC Rural Land Contracting Law 
gives farmers 30-year land use rights to individual plots of 
land free from local readjustments.\864\ In both urban and 
rural contexts, individuals hold a land use right and may own 
buildings or fixtures, but ownership of the land itself remains 
in the hands of the state or the collective.\865\
    Over the last decade, rapid economic growth, skyrocketing 
land prices, and urban renewal have resulted in the large-scale 
redevelopment and expansion of China's urban centers.\866\ To 
make room for new infrastructure and private developments, 
urban authorities are tearing down older residential areas and 
relocating residents to new housing or providing them with 
nominal compensation. The scale of the redevelopment and 
relocations is enormous. From 1991 to 2003, for example, 
Shanghai city authorities relocated nearly 900,000 households, 
or 1.2 million people.\867\ In 2002 alone, Beijing authorities 
relocated 86,000 people, and city officials plan to displace 
300,000 more in the next several years as they prepare for the 
2008 Olympics.\868\ The same pattern is evident in urban areas 
across China.\869\
    In the countryside, authorities are converting large tracts 
of farmland to accommodate urban expansion and village economic 
initiatives. To proceed with such projects, the state must 
first requisition arable land from and compensate peasant 
collectives according to a detailed legal process set out in 
the Land Management Law and related regulations.\870\ After the 
state compensates the collective for requisitioned land, it may 
then use the land or sell land use rights to private 
developers.\871\ According to official estimates, nearly 5 
percent of the country's arable land has been lost as a result 
of urbanization and development over the past seven years, and 
more than 40 million peasants have been displaced by such 
development over the past 20 years.\872\ This trend has alarmed 
Chinese authorities, who view landless, unemployed peasants as 
a threat to social stability.\873\

Problems in Urban Relocations and Rural Land Requisitions
    Although many relocations take place without incident,\874\ 
a number of problems and abuses have been associated with 
relocations and land requisitions in China. Urban residents are 
supposed to be paid the market value of their land use rights 
and structures.\875\ But most of the value of urban property 
lies in the land itself, which the state owns, and not in the 
dilapidated structures that often stand on it or the limited 
land use rights held by many residents (if they hold any formal 
land use rights at all).\876\ As such, in many cities, 
relocation and resettlement compensation is not sufficient for 
residents to purchase new homes in comparable locations. 
Resettlement housing is often located in distant suburbs, 
detached from the social and business networks in which 
residents have lived and worked for years.\877\ Such 
displacement angers many residents.\878\ In rural areas, 
collectives retain much of the compensation that the state 
provides when it requisitions arable land, and the small amount 
that farmers do receive is significantly less than the economic 
value of the 30-year land use right that the Rural Land 
Contracting Law guarantees to farmers.\879\ As a result, 
farmers end up landless and, once they have exhausted their 
small subsidies, unemployed and without a source of 
income.\880\
    State transfers of land also create significant incentives 
for corruption. Because compensation is low under existing 
legal standards, local government entities can compensate 
residents and farmers or provide resettlement housing at 
nominal cost and then sell land use rights to developers at a 
significant profit.\881\ In some cases, corrupt officials, 
developers, and demolition companies siphon off funds intended 
for compensation or resettlement, fail to provide promised 
resettlement housing, or unfairly reduce compensation amounts 
through fraudulent appraisals or other tactics.\882\ The large 
number of illegal land transactions in China is one indication 
of the extent of such corruption. Last year alone, the 
government identified more than 178,000 illegal or irregular 
land transactions, and in August 2004 it announced that it had 
suspended work on 4,800 illegal development zones.\883\
    Procedures for urban demolitions and rural land 
requisitions lack transparency and are heavily weighted in 
favor of the government and developers. Generally, government 
authorities do not give urban residents an opportunity to 
comment on or challenge general development plans or specific 
demolition decisions before they are made.\884\ In most cases, 
officials simply inform residents that they will be relocated 
and give them a limited time to negotiate compensation and 
move.\885\ Residents may challenge the amount of compensation 
offered, but cannot stop the demolition process once government 
arbitration panels rule on compensation disputes, even if they 
appeal the arbitration decision to a people's court.\886\ In 
many rural areas, courts often refuse to accept land disputes 
altogether.\887\ New regulations obligate land officials to 
hold hearings on a limited range of land requisition decisions, 
and farmers may request a hearing to comment on compensation 
plans or plans to convert agricultural land for non-
agricultural use.\888\ In practice, however, urban and rural 
residents have little chance of overturning a demolition or 
land requisition decision or challenging the purpose for which 
land is taken, and at most can hope only to improve their 
compensation.\889\
    Finally, as documented in Chinese and Western media, 
reports by international human rights organizations, and 
Chinese government circulars, government officials, developers, 
and demolition companies often employ abusive tactics to deal 
with recalcitrant residents. According to such reports, 
developers and demolition personnel have cut off water and 
electricity, used physical threats and other forms of 
intimidation, and resorted to violence to deal with residents 
who refuse to move or who hold out for additional 
compensation.\890\ Although the central government has issued 
stern warnings for such ``uncivilized'' demolitions and land 
seizures to stop and has prosecuted some companies and 
individuals for abuses,\891\ reports of violent evictions and 
coercion continue to emerge.\892\

Social Conflicts Related to Property Takings
    Over the past year, property seizures and relocations in 
China's cities and the requisition of farmland for development 
in rural regions have become two leading causes of social 
discontent in China. According to official statistics, the 
Ministry of Land and Resources received more than 18,620 
complaints related to relocation in the first half of 2004 
alone, compared with 18,071 complaints in all of last 
year.\893\ In December 2003, Supreme People's Court (SPC) 
President Xiao Yang reported that the fastest growing 
categories of administrative lawsuits in China relate to 
``urban construction'' and ``land resources.'' \894\ More 
disturbing to government and Party officials, demonstrations, 
social protests, and violent confrontations 
related to property seizures are on the rise.\895\ In one 
shocking incident last year, several individuals burned 
themselves in Tiananmen Square to protest the demolition of 
their homes.\896\ A leading Chinese social scientist reports 
that property rights have now displaced tax burdens as the 
primary focus of peasant activism.\897\ State Council circulars 
and official statements acknowledge that property protests are 
serious, widespread, and ``influencing social stability and the 
normal order of production and life.'' \898\
    Alarmed by such social unrest, central government leaders 
have expressed growing concern about land abuses and taken a 
series of steps to address the problem and demonstrate sympathy 
with popular grievances. Over the past year, the National 
People's Congress (NPC) adopted a new constitutional amendment 
to enhance the protection of property rights and is reportedly 
working on a Property Law, a Law on the Protection of Peasant 
Rights, and revisions to the Land Management Law.\899\ 
Observers expect these new legislative initiatives to increase 
compensation standards for land requisitions and address some 
of the most common complaints related to relocations. The 
government appointed a high-level policymaker to oversee 
demolition and land requisition reforms and has issued numerous 
regulations and circulars in an attempt to address common 
public complaints about evictions and improve procedures.\900\ 
Central authorities also attempted to rein in land corruption 
by removing the Minister of Land and Resources and undertaking 
a series of investigation and rectification campaigns in both 
urban and rural areas.\901\
    Some local governments and lawyers associations have also 
taken positive steps to address land conflicts. In Shanghai, 
for example, the government has worked to publicize information 
regarding resident rights and re-evaluate local compensation 
standards, while the local lawyers association has introduced a 
city-wide legal assistance project to provide pro bono 
representation for displaced residents.\902\ In July 2004, 
Shanghai also announced that it was raising the minimum 
standard compensation for relocations, although residents have 
complained that even the new compensation level is not in line 
with market standards.\903\
    At the same time, government authorities have used severe 
tactics in an effort to suppress public dissent and unrest 
related to land transactions. For example, central authorities 
issued a directive instructing local officials to keep land 
petitioners out of Beijing during the 2004 NPC session and 
arbitrarily detained or repatriated some petitioners who 
managed to enter the city.\904\ Both the State Council and 
local authorities have instructed the news media to limit 
reporting on relocation disputes to avoid ``intensifying 
conflicts.'' \905\ In some cases, activists and legal advocates 
for displaced residents have also been harassed or 
prosecuted.\906\ In one recent example, a court in Shanghai 
convicted Zheng Enchong, a lawyer who represented evicted 
residents in a sensitive demolition case, of ``disclosing state 
secrets.'' In the wake of Zheng's conviction, Shanghai lawyers 
expressed concern about taking on property rights cases that 
involve direct challenges to the government.\907\ In other 
cases, land petitioners have reportedly been sent to re-
education through labor camps.\908\
    Although central government concern about land abuses 
appears to be genuine,\909\ the many government circulars on 
urban demolitions and rural land requisitions and reports on 
protests suggest that forced evictions continue to be a 
problem. As senior Chinese legislators noted in June 2004, 
local governments are resisting efforts to curb abuses.\910\ 
According to foreign and Chinese experts, additional changes 
will be necessary to address the relocation and land transfer 
problem. First, they argue that more precise guidelines are 
needed for when land can lawfully be taken by the government 
and sold for redevelopment.\911\ Compensation standards, the 
key issue in the majority of relocation disputes, need to be 
enhanced.\912\ Finally, procedures for urban demolitions and 
rural land requisitions remain stacked in favor of the 
government and developers. Chinese experts note that demolition 
and relocation disputes should be resolved through a neutral 
judicial process, and not by administrative agencies with 
connections to developers.\913\ Until the government implements 
such protections, high land values are likely to continue to 
fuel local corruption and further unrest.

                               VI. Tibet


                                FINDINGS


        <bullet> Envoys representing the Dalai Lama visited 
        China in September 2004. This visit, the third in 
        recent years, creates an important opportunity to 
        address obstacles and achieve progress through 
        dialogue.
        <bullet> Chinese leaders misrepresent the Dalai Lama's 
        offer to accept bona fide autonomy under Chinese 
        sovereignty as an attempt to gain independence in a 
        ``disguised form.'' The Dalai Lama has stated that a 
        solution can be based on China's Constitution.\914\
        <bullet> Increasing Han population in Tibetan areas 
        poses a significant challenge to Tibetan culture and 
        heritage. Authorities deny that the ethnic mix is 
        changing, or that there is a negative effect on Tibetan 
        culture.
        <bullet> Most Tibetans live in rural areas where their 
        incomes average one-fifth of those in Tibetan towns and 
        cities. Central government subsidy of development 
        projects in Tibetan areas drives economic growth at a 
        brisk pace, but the Han population benefits 
        disproportionately because most funding is channeled 
        into infrastructure construction or urban development.
        <bullet> Tibet development projects that are discussed, 
        researched, and planned in an open and objective 
        manner, that are based on actual local circumstances, 
        and that take into account the views of the Tibetan 
        stakeholders, will have the best chance to help 
        Tibetans protect their cultural, religious, and 
        environmental heritage.
        <bullet> The rights of Tibetans to constitutionally 
        guaranteed freedoms of speech, religion, and 
        association are subject to strict constraint. 
        Authorities invoke ``state security'' to justify 
        repression or punishment of peaceful expression even 
        when there is no threat to the state. However, emerging 
        patterns suggest that local governments in some Tibetan 
        areas are relatively less repressive than others.

The Status of Discussion between China and the Dalai Lama
    U.S. policy recognizes the Tibet Autonomous Region (TAR) 
and Tibetan autonomous prefectures and counties in other 
provinces to be a part of the People's Republic of China.\915\ 
An important objective of the U.S. government is encouraging 
direct and substantive discussions between the Dalai Lama and 
the Chinese government.\916\
    The Dalai Lama is in an unmatched position to help ensure 
the survival and development of Tibetan culture, and to 
contribute to China's stability and prosperity. Envoys 
representing the Dalai Lama visited China, including Tibetan 
areas, in September 2002 and May 2003. Special Envoy Lodi Gyari 
expressed cautious optimism after the visits but observed that 
disagreements are substantial, and that mutual understanding 
and trust are lacking.\917\ On September 11, 2004, the Tibetan 
givernment-in-exile announced that the envoys would depart for 
China the following day on their third visit.\918\ During the 
past year, Chinese officials have amplified previous criticism 
of political and territorial formulations raised by the Dalai 
Lama or the Tibetan government-in-exile.\919\

Autonomy
    In May 2004, as the Dalai Lama's envoys waited for 
permission to travel to China, Beijing published a White 
Paper\920\ that vigorously defends China's system of ethnic 
autonomy. The timing and tone of the publication may underscore 
Chinese government resolve to keep any discussion of Tibetan 
governance within the parameters of the PRC Regional National 
Autonomy Law.\921\ The White Paper is aimed directly at the 
Dalai Lama and concludes on a note that is blunt and personal:

          It is hoped that the Dalai Lama will look reality in 
        the face, make a correct judgment of the situation, 
        truly relinquish his stand for ``Tibet independence,'' 
        and do something beneficial to the progress of China 
        and the region of Tibet in his remaining years.

    In theory, the Regional National Autonomy Law aims to 
balance central and local interests, and subordination with 
self-government. In fact, the same law that codifies the 
autonomous rights of local self-governments sharply curtails 
them by requiring that they bow to state interests and 
``fulfill the tasks assigned by state organs at higher 
levels.'' \922\ The White Paper declares that ``under the 
unified leadership of the state,'' ethnic minorities in 
autonomous areas exercise ``the right of self-government to 
administer local affairs.'' \923\ The law authorizes local 
people's congresses to enact new laws, as well as 
modifications, partial exemptions, and postponements to 
statutes promulgated by higher levels of government.\924\ 
According to the paper, the TAR legislature has enacted 220 
laws tailored to protect local interests since the region was 
established in 1965, including laws that lower the minimum 
marriage age, create local holidays, and regulate foreign 
mountain climbers.\925\ Examples such as these point to the 
insufficient authority Tibetans have over their social, 
economic, and political environment.
    As the Dalai Lama told Canadian Prime Minister Paul Martin, 
``Tibet should be given autonomy, or self-rule, which the 
Chinese Constitution provided.'' \926\ But the official Chinese 
formulation subordinates local interests to the state: 
``Minorities, organizations, 
associations, localities, etc., apart from being subordinate to 
the leadership of the state, government, or upper-level unit to 
which they belong, exercise definite rights with respect to 
their own general affairs.'' \927\ According to the Times of 
India, Samdhong Rinpoche, the first prime minister elected by 
Tibetans living in exile, said last year that his concept of 
autonomy would provide ``a little more'' than Hong Kong 
citizens are promised under ``one county, two systems.'' \928\ 
The Tibetan government-in-exile expresses support for the Dalai 
Lama's initiatives, but asserts that, ``The Tibetan people, 
both in and outside Tibet, look to the [Tibetan government-in-
exile] as their sole and legitimate government.'' \929\
    Chinese authorities commingle the Dalai Lama's statements 
with other voices in the Tibetan community, including those of 
the Tibetan government-in-exile. They hold the Dalai Lama 
accountable for inevitable contradictions and accuse him of 
seeking ``independence in disguised forms.'' \930\ An official 
in a Tibetan part of China told a Commission staff delegation 
in September 2003, ``In our view, the Dalai and the exiled 
government are part and parcel of the same group. People here 
believe that the exiled government is the same as the Dalai, 
and that the Dalai is the same as the exiled government. They 
are one and the same.'' In Beijing, an official of the CCP's 
United Front Work Department (UFWD) referred to the spectrum of 
views in the exiled Tibetan community and told a Commission 
staff delegation, ``The Central Government doesn't know what's 
on the Dalai Lama's mind.'' \931\ The Dalai Lama, who turns 70 
next year, has said that he wants to meet Chinese officials 
face-to-face in an effort to reduce suspicions.\932\
    Recent statements by the Dalai Lama underscore the extent 
of his efforts to initiate a productive dialogue that takes 
into account the constitutional and geographic framework 
already shaped by Chinese authorities. His remarks focus on 13 
autonomous areas\933\ set up by China where Tibetans are 
entitled, according to Chinese law, to practice local self-
government. According to a 2003 interview with the Voice of 
America, the Dalai Lama does not claim that the entirety of 
territory where Tibetans live was a unified administration 
under Lhasa's control when the People's Liberation Army arrived 
there.\934\ He believes that a case can be made within Chinese 
law for consolidating contiguous areas of Tibetan 
autonomy.\935\ The Dalai Lama proposes improving the system of 
autonomy, not discarding it.

Tibetan Culture and Human Rights
    China has not initiated major new campaigns across Tibetan 
areas in the past year. However, existing policy initiatives 
are gaining momentum, especially the Great Western Development 
program, formulated to accelerate economic development in 
China's western provinces and speed their integration into the 
political and social mainstream.\936\ Government policies that 
favor atheism and promote strict adherence to a national 
identity defined in Beijing discourage Tibetan aspirations to 
maintain their distinctive culture and religion. Rights 
outlined in the Regional National Autonomy Law are weak in 
practice.
    The central government attempts to ensure that policy is 
consistent among the five provinces where Tibetans live, but 
Commission staff and other experts observe that modest 
distinctions may be emerging in local conditions. Current 
levels of known political imprisonment of Tibetans have fallen 
to low levels in Qinghai and Gansu provinces. In Sichuan, the 
opposite is the case. In the TAR, Tibetan culture and religion 
continue to face daunting challenges, although the number of 
known political prisoners is gradually declining.\937\ 
Concurrent with the lower level of political imprisonment in 
Qinghai and Gansu, the apparent conditions for religion and 
education may be relatively less repressive than in Sichuan or 
the TAR.\938\

Culture, Demography, and Development
    A significant number of Tibetans seeking increased 
stewardship over their future avoid the dangers of political 
expression and focus on protecting their culture and natural 
environment, or on developing education and sustainable 
economic resources. Tibetan citizens and NGOs work on the 
periphery of well-funded government programs\939\ that have the 
capacity to undermine or overwhelm Tibetan culture. Individuals 
and NGOs understand the risks of researching, planning, and 
implementing projects that the Party and state could perceive 
as a challenge. Careful planning can make economic development 
and cultural preservation coexist, and not be mutually 
exclusive.
    A USAID rangeland expert emphasized the importance of 
ensuring that development models are sound, sustainable, and 
create real benefits for their target group. He told a 
Commission roundtable in March 2004:

          In my opinion, the key issues for sustainable 
        development in the Tibetan pastoral areas are 
        widespread poverty, rangeland degradation, 
        unsustainable livestock production practices, poor 
        market development, weak community participation, and 
        lack of integration in addressing all of these 
        problems. The development challenge now is determining 
        how to target funding better to address these issues 
        and to ensure that resources allocated for development 
        and poverty reduction actually reach the Tibetan 
        farmers and nomads.\940\

    Almost 90 percent of the Tibetans in China live in rural 
areas and engage in farming and herding.\941\ Their incomes are 
rising, but residents of towns and cities have incomes five 
times higher.\942\ The gap deepens the relative poverty of 
farmers and herders and serves to marginalize them. TAR 
officials briefing Commission staff delegations in September 
2003 and April 2004 said repeatedly that government policy 
seeks ways to boost the income of rural families.
    Tibet's rural areas urgently need significant investment of 
government money, but greater government largesse will not 
resolve the long-term cultural crisis facing Tibetans. A short-
term solution for many rural Tibetans is sending a family 
member to find work in the infrastructure construction boom. At 
the same time, Tibetans encounter intense competition from 
Chinese migrants in those labor markets. Professor Melvyn 
Goldstein told the Commission roundtable:

          With respect to such work, we found widespread 
        frustration and anger in the villages about the 
        difficulties villagers face in finding jobs. Villagers 
        commonly complain that there are not enough jobs for 
        them and that, because their skill levels are low, most 
        of the jobs they find pay poorly. The villagers 
        overwhelmingly lay the blame for this on the 
        unrestricted influx of non-Tibetan migrant laborers.
          Rural Tibetans now find themselves in competition for 
        construction jobs with large numbers of more skilled 
        and experienced Chinese workers, and given the current 
        policy, this competition will certainly increase. How 
        Tibetans will fare in the future, therefore, is less 
        clear. There are some positive signs, but it is hard to 
        be very optimistic. What is really needed is a change 
        in government policy that will give much greater 
        priority to securing jobs for Tibetans, perhaps through 
        a large-scale system of set-aside contracts for them 
        over some period of time.\943\

    Central government spending fills the gaping shortfall 
between local government revenue and expenditure.\944\ Coupled 
with development projects funded by other provinces, this 
spending fuels rising incomes, especially in towns and cities, 
and creates jobs. This situation creates limited opportunities 
for Tibetans and attracts a substantial influx of additional 
Chinese migrants. No infrastructure project is accorded a 
higher priority or larger budget than the Qinghai-Tibet 
railroad,\945\ scheduled for completion in 2007. In April 2004, 
an official involved in the project told Commission staff that 
Tibetans made up 6,000-8,000 of the 30,000 workers in Qinghai 
and the TAR. Last year the figure was 6,000 Tibetans in a total 
of nearly 38,000 workers. Reliable reports also suggest that 
Tibetans earn significantly less than Han workers; an unskilled 
Tibetan might earn about $210 per month, but a Han worker of 
similar skills earns about $700.\946\
    Ragdi (Chinese: Raidi), former head of the TAR People's 
Congress and now a Vice-Chairman of the NPC Standing Committee, 
denied that Chinese influx into Tibetan areas is taking place 
or that Tibetan culture is threatened.\947\ Other senior 
Tibetan officials acknowledge but play down the rise of migrant 
populations. Jampa Phuntsog, chairman of the TAR government, 
observed last year, ``[T]he migrant population in the region is 
increasing with economic development and the construction of a 
railway into the region.'' But, he said, ``bad weather and 
geographical conditions'' will keep them from staying 
permanently, and ``the ratio of ethnic groups in Tibet will not 
change dramatically.'' \948\
    An official in Lhasa responded to a Commission staff 
comment about the apparent understatement of Han population in 
census data.\949\ ``Every day there are more than 200,000 [Han] 
mobile population in all of [the TAR],'' he acknowledged. 
``Their number is highest from June through October.'' Some 
officials were willing to concede that the sustained presence 
of a substantial non-permanent population can convey 
significant impact on an indigenous culture, even if the 
membership of the non-permanent group is in constant flux.
    Tibetans speaking privately often express grave concern 
about the changing population mix. Many fear that the 
completion of the railroad could result in a transformation 
similar to that of Inner Mongolia, where rail links were built 
before the PRC was established,\950\ and Han today outnumber 
Mongols by nearly five to one.\951\ In the TAR, there are 15 
times as many Tibetans as Han, according to the census. Outside 
the TAR there are only three autonomous Tibetan areas that have 
been penetrated by rail lines. In all, the Han population 
surpasses the Tibetan population by multiples.\952\
    Ragdi, a member of the Party Central Committee and an 
honorary president of the newly created Association for the 
Protection and Development of Tibetan Culture,\953\ endorsed 
the White Paper on autonomy and described the changes to the 
TAR and its ``social look'' as ``earth-shaking.'' \954\ If 
Tibetan culture is to withstand the profound transformation, 
Tibetans will need a fully functional role in their future--
from legislation and governance, down to grassroots 
implementation. A USAID expert told the Commission roundtable 
on Tibetan development:

          To date, most Tibetan farmers and nomads have not 
        participated fully in the assessment, planning, and 
        implementation of development programs and the policies 
        that affect their lives. Government development 
        programs have generally taken a top-down approach and, 
        despite many of their good intentions, have often been 
        hampered because Tibetan farmers and nomads were not 
        involved in both the design and implementation of 
        activities.\955\

Human Rights, Law, and Religion
    The Chinese government severely restricts the rights of 
Tibetans to exercise constitutionally guaranteed human rights, 
including the freedoms of speech, press, association, and 
religion. China's constitution also bans actions deemed 
``detrimental to the security, honor and interests of the 
motherland.'' \956\ The state represses or punishes peaceful 
expression by Tibetans deemed to ``endanger state security'' 
\957\ or to be ``splittist,'' \958\ even if the expression is 
non-violent and poses no threat to the state.
    An official in Beijing explained the Chinese view of the 
roles of ``violence'' and ``consequence'' in crime to 
Commission staff in September 2003. ``There is not a distinct 
line between violent and 
non-violent,'' he said. ``A non-violent action can result in 
eventual violence. If someone advocates an idea that could 
later become a threat to the country, then the statement is a 
form of violence, and it is a crime to be punished . . . Social 
consequence determines whether it is a crime (emphasis 
added).'' A provincial official told Commission staff, ``All 
criminal acts must have four elements to be crime.'' One of the 
elements, he said, is ``consequence.'' But he emphasized that 
in the case of Tibetans, ``You have to understand the 
background. It is necessary to take Tibetan history into 
account. Tibetans combine religion and politics.'' Another 
official defended the notion of crimes without consequence 
succinctly: ``Some actions that are crimes have consequences. 
Some don't.'' \959\
    The number of known Tibetan political prisoners serving 
sentences or awaiting disposition of their cases is almost 
unchanged from a year ago, according to a February 2004 report 
by Tibet Information Network (TIN).\960\ According to TIN, a 
surge of Tibetan political imprisonment in Sichuan has offset 
declines elsewhere and stalled the overall decline in political 
prisoner numbers that began in 1997. Two-thirds of the 145 
prisoners listed are monks or nuns. About 60 are serving 
sentences of ten years or longer. In April 2004, an official in 
Lhasa indicated to Commission staff that roughly 75 Tibetans 
are serving sentences in the TAR for endangering state 
security, or counterrevolution for convictions before 
1997.\961\ Most of them are incarcerated in Lhasa's TAR Prison, 
also known as Drapchi, and formerly as TAR Prison No. 1.
    Authorities released Buddhist nun Phuntsog Nyidrol from TAR 
Prison on February 24, 2004, after she served more than 14 
years of a sentence extended from nine to 17 years, which was 
then reduced for good behavior. After she joined other nuns in 
a peaceful demonstration in Lhasa in 1989, an intermediate 
people's court convicted her of counterrevolution. Her sentence 
extension was punishment for helping to smuggle a cassette 
recording of imprisoned nuns singing songs with politically 
tinged lyrics out of the prison. Fourteen nuns received 
sentence extensions for the cassette incident. She was the 
first detained and the last released. According to a report in 
August 2004, she is kept under constant police surveillance and 
is not permitted to leave her home without an escort.\962\
    Commission staff discussed cases of current Tibetan 
political prisoners with provincial officials in the TAR, and 
in Sichuan, Qinghai, and Gansu provinces, during visits in 2003 
and 2004. The level of known political imprisonment in Qinghai 
and Gansu provinces has dropped to pre-1989 levels.\963\ 
Authorities in Qinghai, Gansu, and the TAR provided information 
about the general prison situation and commented on some 
individual cases. Staff discussions with officials in Sichuan 
province were less constructive.
    Buddhist lama Tenzin Deleg (Chinese: A'an Zhaxi) is 
Sichuan's best-known Tibetan political prisoner. In December 
2002, he was sentenced to death along with another Tibetan, 
Lobsang Dondrub (Chinese: Luorang Dengzhu), after a closed 
trial on charges of causing a series of explosions and inciting 
separatism. Authorities executed Lobsang Dondrub a few weeks 
later despite assurances to senior officials of the U.S. and 
other governments that the Supreme People's Court (SPC) would 
review his sentence. SPC officials in Beijing told Commission 
staff that the case was prosecuted in full accordance with 
Chinese law, and dismissed suggestions that evidence may have 
been inadequate and legal procedures were flawed. In Chengdu, 
authorities told Commission staff that China Central Television 
(CCTV) broadcast a show featuring Tenzin Deleg admitting guilt 
and comparing the prosecutors and judges to ``his own mother'' 
since they ``helped him and taught him.'' In September 2003, 
Commission staff requested the assistance of the Sichuan 
authorities to obtain a copy of the alleged CCTV broadcast. The 
Commission has not received a tape or transcript. Authorities 
confirmed that Tenzin Deleg's two-year reprieve of execution 
would expire in January 2005.\964\
    State restrictions on religion, including devotion to the 
Dalai Lama, interfere with the normal practice of religion for 
Tibetans. Suspicious authorities can impute subversive motives 
to Tibetans' dedication to their religion, as well to their 
enthusiasm for Tibetan culture, language, and self-identity. 
Provinces where political imprisonment rates are lower, 
however, also appear to have a somewhat less repressive 
environment for Tibetan culture. Conversely, provinces where 
political detention rates are higher are known to deal with 
Tibetans and their culture more harshly.
    The unrestricted power that the Party and state enjoy to 
characterize peaceful expression as a threat to state security, 
when in fact no threat or consequence to the state is present, 
undermines Tibetan human rights. Modern states regularly update 
assessments of actions that could pose a bona fide threat to 
state security and adjust levels of tolerance and response 
accordingly. Prosecuting and punishing peaceful expression are 
inconsistent with international human rights practices and the 
rule of law. If Chinese 
police, prosecutors, and courts successfully implement China's 
constitutional articles and laws that protect human rights and 
the rule of law, then Tibetans and Chinese will both benefit.

                  VII. North Korean Refugees in China


                                FINDINGS


        <bullet> The Chinese government forcibly repatriates 
        North Korean refugees seeking employment and escape 
        from starvation and repression.
        <bullet> Because China does not classify North Korean 
        migrants as refugees, the Chinese government denies 
        access to this vulnerable population by the United 
        Nations High Commissioner for Refugees (UNHCR).
        <bullet> North Korean refugees deported from China to 
        the Democratic People's Republic of Korea (DPRK) face 
        punishment ranging from detention in labor camps to 
        long imprisonment to execution.
        <bullet> Women are among the most vulnerable of the 
        North Korean refugees in China, at risk of exploitation 
        and abuse at the hands of human traffickers.

Introduction
    An estimated 50,000 to 100,000 North Korean refugees may 
currently live in northeastern China. Observers have noted that 
more precise figures cannot be obtained because China does not 
allow international aid agencies to work in the border 
region.\965\ The Chinese government forbids the U.N. High 
Commissioner for Refugees (UNHCR) office from visiting areas 
thought to have relatively high North Korean populations to 
evaluate and identify genuine refugees among China's growing 
population of North Korean migrants. The government evidently 
fears that granting North Korean migrants refugee status would 
encourage an even greater flood of migrants across the border. 
Instead, authorities on China's side of the border routinely 
force North Koreans to return to the DPRK, where they face 
imprisonment, torture, and sometimes execution.

Chinese Repression of North Koreans
    Although many North Koreans in China have fled political 
persecution and severe food shortages in the DPRK, Chinese 
officials classify them as ``irregular migrants'' or ``economic 
migrants,'' not as refugees. By refusing to grant North Koreans 
refugee status, Chinese authorities deny them the 
internationally recognized right to seek UNHCR assistance. In 
testimony before the U.S. House of Representatives Subcommittee 
on Asia and the Pacific, a U.S. analyst said China's 
classification has no legal basis. He told the subcommittee, 
``There is no principle in refugee law that does what China 
purports to do, which is to declare an entire people as prima 
facie not refugees.'' He called China's treatment of North 
Koreans ``evidence of prohibited discrimination on the basis of 
race and national origin.'' \966\
    As a state party to the 1951 Geneva Convention Relating to 
the Status of Refugees (1951 Convention) and the 1967 Protocol 
Related to the Status of Refugees,\967\ the Chinese government 
is obligated to grant North Korean refugees the following:

        <bullet> Protection from discrimination on the basis of 
        race, religion, or nationality (Article 3).
        <bullet> Freedom to choose a place or residence and to 
        move freely within the territory (Article 26).
        <bullet> Immunity from prosecution for illegal entry 
        for those who came from a territory where their life or 
        freedom was threatened (Article 31).
        <bullet> Protection from expulsion from the country 
        (Article 32).
        <bullet> Protection from forcible return to a territory 
        where life or freedom would be threatened (Article 33).

    Despite these obligations, one witness told a Commission 
roundtable in April 2004 that, ``North Koreans in China are 
extremely vulnerable to arbitrary arrest and deportation back 
to North Korea, where they endure sentences ranging from 
several months in labor training centers to long-term 
imprisonment to execution.'' By arresting and deporting North 
Koreans, China is honoring a treaty obligation with the DPRK. 
However, these repatriations contravene China's obligations as 
a signatory of the 1951 Convention. When a migrant is 
repatriated, DPRK authorities reserve the most severe penalties 
for those who are known to be Christian activists or who 
contact South Koreans about the possibility of reaching the 
South.
    A report by the Committee on International Relations found 
that, ``North Korean women and girls, particularly those who 
have fled into China, are at risk of being kidnapped, 
trafficked, and sexually exploited inside China.'' \968\ And 
one U.S. NGO representative told an April 2004 Commission 
roundtable that, ``Over 50 percent of North Korean women 
[migrants] have been subjected to human trafficking, sold as 
wives to Chinese farmers, sold as sex slaves to brothels, and 
sexually exploited . . . These statistics are now believed to 
be much higher, because now it is not just Chinese that are 
selling North Korean women and young girls but even desperate 
North Koreans are selling their own citizens.'' \969\
    Chinese authorities have detained, arrested and imprisoned 
aid workers who attempt to assist North Korean refugees. In 
December 2003, the Rev. Choi Bong-il was sentenced to nine 
years of imprisonment and Mr. Kim Hee-tae to seven. These 
sentences are likely the longest that Chinese courts have given 
to aid workers for helping North Koreans in China.\970\ The 
International Relations Committee report found that the court 
proceedings did not comply with Chinese law or international 
standards.\971\ In addition, Park Yong-chol, a North Korean, 
was arrested in January 2003 for trying to help other North 
Koreans leave China by boat. Mr. Park was sentenced to two 
years of imprisonment for human trafficking and is incarcerated 
in Weifang Prison in Shandong province. Upon release, he faces 
deportation to North Korea.\972\ His co-defendant, Choi Yong-
hun, a South Korean, was sentenced to five years of 
imprisonment for human trafficking. Choi is also jailed at 
Weifang Prison.\973\ South Korean photojournalist Jae Hyun Seok 
was also 
detained with them and the court gave him a two-year sentence. 
Jae was released in March 2004 and deported to South Korea, but 
Chinese officials have not dropped the charges against 
him.\974\

              VIII. Developments During 2004 in Hong Kong

    The United States continues to have important interests in 
Hong Kong, principally in the areas of trade, investment, 
counter-terrorism, law enforcement cooperation, and human rights. The 
U.S.-Hong Kong Policy Act of 1992 structures U.S. relations 
with the Hong Kong Special Administrative Region (HKSAR).\975\ 
Americans broadly support the principles of the Sino-U.K. Joint 
Declaration and the Basic Law,\976\ and had high hopes that the 
central government in Beijing would take steps to give Hong 
Kong the ``high degree of autonomy'' promised in the latter. 
The United States and China both have an interest in the 
success of the ``one country, two systems'' formula articulated 
in the Joint Declaration and Basic Law.\977\ In addition, the 
United States has long supported a stable, autonomous Hong Kong 
with an open society, open markets, and a strong rule of law. 
In particular, the U.S. government has supported the provisions 
of the Basic Law that provide for universal suffrage for the 
people of Hong Kong.\978\
    In light of these U.S. interests and policy concerns, 
developments in Hong Kong over the past 12 months have been 
troubling. Policies announced by the central government and the 
Hong Kong SAR government's own priorities seem designed to move 
Hong Kong away from the promised ``high degree of autonomy'' 
and to delay developing the democratic institutions that most 
Hong Kong people support. The Hong Kong SAR government's 
October 2003 withdrawal of proposed legislation to implement 
Article 23 of the Basic Law was an important positive step, but 
other developments during the past year have diminished U.S. 
hopes that Hong Kong's leaders soon would be elected by 
universal suffrage. On April 6, 2004, the National People's 
Congress Standing Committee (NPCSC) interpreted the Annexes of 
the Basic Law to give itself overarching power to decide 
whether or not there is a need to amend, and how to amend, 
procedures for selecting the Hong Kong chief executive and 
forming the Hong Kong Legislative Council.\979\ On April 26, 
2004, the NPCSC exercised this power and issued a decision 
dictating that the people of Hong Kong are prohibited from 
electing either the chief executive in 2007 or the members of 
the Legislative Council in 2008 through universal suffrage, and 
mandated that the one-to-one ratio of legislators directly 
elected by geographical constituencies to those elected by 
professional and business groups shall not change in the 2008 
election. The decision added encouragingly that ``the final 
goal will surely be reached . . . that the chief executive will 
be elected through universal suffrage . . .'' \980\ However, 
these recent actions by the central government setting limits 
on constitutional development in Hong Kong are inconsistent 
with the ``high degree of autonomy'' promised by the central 
authorities in the Basic Law and detailed in the Annexes.
    A series of incidents in 2004 suggest that some political 
forces in mainland China and Hong Kong wish to intimidate 
democracy advocates. In mid-spring, PLA Navy vessels sailed 
into Hong Kong's main harbor; many democracy activists saw this 
show of military force as a Chinese government warning about 
excessive zeal for democracy.\981\ In May, several radio talk 
show hosts whose programs favored democratic development 
resigned suddenly, complaining of threats against them and 
their families. And in June, arsonists struck at the office of 
outspoken pro-democracy legislator Emily Lau.\982\ Police said 
tins of gas and alcohol were used in the blaze and a hate 
message saying, ``all traitors must die'' was scrawled on an 
outside wall. Although the Hong Kong police warned that 
resorting to intimidation or damaging property would be 
prosecuted fully,\983\ the attack unsettled democracy 
supporters in Hong Kong.
    Despite this uncertain environment, however, many in Hong 
Kong continue their advocacy of democracy. A poll taken in 
January by a group of university researchers found that nearly 
80 percent of the Hong Kong populace supports direct 
elections.\984\ In January 2004, about 100,000 people marched 
to demand universal suffrage and direct election of the chief 
executive in 2007 and the Legislative Council in 2008, 
conveying the clear message that most people in Hong Kong want 
universal suffrage and a democratic political system.\985\ On 
July 1, 2004, citizens staged another demonstration in Hong 
Kong, taking to the streets to demand greater democracy, 
despite the Chinese government having ruled out direct 
elections for the territory's next chief executive.\986\ 
Organizers of the march estimated the crowd at 530,000, while 
the Hong Kong police estimates put the attendance figure at 
about 200,000.\987\
    In September 2004, a record 1.7 million Hong Kong voters 
went to the polls to elect 30 of the 60 members of the 
Legislative Council directly for the first time. Pro-democracy 
reformers won 18 of the directly elected seats and attracted 
enough support among deputies representing professional groups 
that they now control some 25 seats in the legislature. 
Candidates favoring PRC government policies won 12 of the 
directly elected seats and now control a total of 34 seats in 
the body. An independent holds one seat. Democrats said that 
the results demonstrated that Hong Kong people want democracy, 
but their opponents argued that the people proved at the polls 
that they value stability and harmony first. More broadly, as a 
political matter, the Hong Kong SAR government has not made the 
case to the central government that Hong Kong would thrive with 
a more democratic political system. According to one Hong Kong 
expert, ``The government of Hong Kong isn't presenting a more 
reasonable view of democracy and why people want it. The 
consequence is that the Chinese Government is still hung up on 
a very suspicious view of democracy.'' \988\
    Chinese government officials have attacked some Hong Kong 
democracy advocates on the grounds that they are not 
``patriotic.'' \989\ For example, after longtime democracy 
advocate and opposition legislator Martin Lee, former leader of 
the Democratic Party of Hong Kong, traveled to the United 
States to testify before the Senate Foreign Relations 
Committee, an angry Chinese government statement labeled him a 
traitor.\990\ The same statement admonished the U.S. government 
for interfering in internal Chinese affairs. One senior PRC 
official quoted the late Deng Xiaoping as saying that ``a 
patriot was one who respected his own race,'' and reminded Hong 
Kong citizens that, ``We need to respect and love our race, 
love our country, and love Hong Kong.'' \991\
    The Commission supports the people of Hong Kong and their 
continued efforts to preserve their autonomy and the freedoms 
that accompany it. The United States strongly supports the 
development of democracy in Hong Kong through electoral reform 
and universal suffrage. These reforms are essential to Hong Kong's 
continuing prosperity and stability within the ``one country, 
two systems'' framework.

          IX. Appendix: Commission Activities in 2003 and 2004

Hearings

June 3, 2004       15 Years After Tiananmen: Is Democracy in
                                        China's Future?

                                                Randall Schriver, 
                                                Deputy Assistant 
                                                Secretary of State for 
                                                East Asian and Pacific 
                                                Affairs, Department of 
                                                State
                                                Wang Youcai, Former 
                                                Student Leader and 
                                                founder of the China 
                                                Democracy Party
                                                Lu Jinghua, Former 
                                                Worker's Federation 
                                                Leader
                                                Andrew J. Nathan, 
                                                Professor and Chair of 
                                                the Department of 
                                                Political Science, 
                                                Columbia University
                                                Sharon Hom, Executive 
                                                Director, Human Rights 
                                                in China, and Professor 
                                                of Law Emeritus, City 
                                                University of New York 
                                                School of Law

September 23, 2004 Hong Kong After the Elections: The Future
                                        of One Country, Two 
                                        Systems

                                                Randall Schriver, 
                                                Deputy Assistant 
                                                Secretary of State for 
                                                East Asian and Pacific 
                                                Affairs, Department of 
                                                State
                                                Michael Davis, 
                                                Professor, Notre Dame 
                                                Law School
                                                Veron Hung, Associate, 
                                                China Program, Carnegie 
                                                Endowment for 
                                                International Peace
                                                William H. Overholt, 
                                                Asia Policy Chair, 
                                                Center for Asia and 
                                                Pacific Policy, RAND 
                                                Corporation
Roundtables

October 20, 2003   China's Mounting HIV/AIDS Crisis: How
                                        Should the United 
                                        States Respond?

                                                Amarmath Bhat, 
                                                Director, Office of 
                                                Asia and the Pacific, 
                                                Office of Global Health 
                                                Affairs, U.S. 
                                                Department of Health 
                                                and Human Services
                                                Wan Yanhai, Director, 
                                                Beijing Aizhi Education 
                                                Institute, and World 
                                                Fellow, Yale University
                                                Kevin Robert Frost, 
                                                Vice President, 
                                                Clinical Research and 
                                                Prevention Programs, 
                                                American Foundation for 
                                                AIDS Research
                                                Philip Nieburg, Senior 
                                                Associate, HIV/AIDS 
                                                Task Force, Center for 
                                                Strategic & 
                                                International Studies

October 27, 2003   After the Detention and Death of Sun 
Zhigang:
                                        Prisons, Detention, and 
                                        Torture in China

                                                James Dulles Seymour, 
                                                Senior Research 
                                                Scholar, East Asian 
                                                Institute, Columbia 
                                                University
                                                Murray Scot Tanner, 
                                                Senior Political 
                                                Scientist, RAND 
                                                Corporation

March 19, 2004    Development Projects in Tibetan Areas of
                                        China: Articulating 
                                        Clear Goals and 
                                        Achieving Sustainable 
                                        Results

                                                Daniel Miller, 
                                                Agricultural Officer, 
                                                U.S. Agency for 
                                                International 
                                                Development
                                                Melvyn Goldstein, John 
                                                Reynold Harkness 
                                                Professor of 
                                                Anthropology, Case 
                                                Western Reserve 
                                                University
                                                Arlene M. Samen, 
                                                Founder and Executive 
                                                Director, One 
                                                H.E.A.R.T., and Nurse 
                                                Practitioner, Maternal 
                                                Fetal Medicine 
                                                Division, School of 
                                                Medicine, University of 
                                                Utah

March 26, 2004    China and U.S. Agriculture: Sanitary and
                                        Phytosanitary 
                                        Standards, A Continuing 
                                        Barrier to Trade?

                                                Peter Fernandez, 
                                                Associate 
                                                Administrator, Animal 
                                                and Plant Health 
                                                Inspection Service, 
                                                U.S. Department of 
                                                Agriculture
                                                Merlyn Carlson, 
                                                Director, Nebraska 
                                                Department of 
                                                Agriculture
                                                Paul Dickerson, Vice 
                                                President, Overseas 
                                                Operations, U.S. Wheat 
                                                Associates

April 2, 2004       Influencing China's WTO Compliance and
                                        Commercial Legal 
                                        Reform: Beyond 
                                        Monitoring

                                                Henry Levine, Deputy 
                                                Assistant Secretary for 
                                                Asia Pacific Policy, 
                                                U.S. Department of 
                                                Commerce
                                                Linda Wells, Chief 
                                                Counsel for Commercial 
                                                Law Development, U.S. 
                                                Department of Commerce
                                                Leslie Griffin, 
                                                Director, Asian 
                                                Affairs, U.S. Chamber 
                                                of Commerce

April 19, 2004      The Plight of North Korean Migrants in
                                        China: A Current 
                                        Assessment

                                                Joel Charny, Vice 
                                                President for Policy, 
                                                Refugees International
                                                Suzanne Scholte, 
                                                President, Defense 
                                                Forum Foundation
                                                Kim Sang Hun, Activist 
                                                on Behalf of North 
                                                Korean Refugees

May 17, 2004      Practicing Islam in Today's China: Differing
                                        Realities for the 
                                        Uighurs and the Hui

                                                Jonathan Lipman, 
                                                Professor of History, 
                                                Mount Holyoke College
                                                Gardner Bovingdon, 
                                                Assistant Professor of 
                                                Central Eurasian 
                                                Studies, Indiana 
                                                University at 
                                                Bloomington
                                                Kahar Barat, Lecturer, 
                                                Department of Near 
                                                Eastern Languages and 
                                                Civilizations, Yale 
                                                University

June 21, 2004     Property Seizure in China: Politics, Law, and
                                        Protest

                                                Sara (Meg) Davis, 
                                                Researcher, Asia 
                                                Division, Human Rights 
                                                Watch
                                                Jacques deLisle, 
                                                Professor of Law, 
                                                University of 
                                                Pennsylvania Law School
                                                Roy Prosterman, 
                                                President, Rural 
                                                Development Institute

July 12, 2004      Access to Justice in China

                                                Kevin O'Brien, 
                                                Professor of Political 
                                                Science, University of 
                                                California, Berkeley
                                                Benjamin Liebman, 
                                                Associate Professor of 
                                                Law and Director of the 
                                                Center for Chinese 
                                                Legal Studies, Columbia 
                                                Law School

September 17, 2004 Catholics and Civil Society in China

                                                Janet Carroll M.M., 
                                                Program Associate, U.S. 
                                                Catholic China Bureau
                                                Richard Madsen, 
                                                Professor of Sociology, 
                                                University of 
                                                California at San Diego
Web Resources

    The Commission maintains a Web site at www.cecc.gov, which 
features announcements of upcoming events, topical news items 
on issues within the Commission's mandate, transcripts of 
hearings and roundtables, and basic source materials on human 
rights and the rule of law.
    In addition, the Commission launched a new feature in June 
2004: the CECC Virtual Academy (www.cecc.gov/virtual Acad/
index.phpd). The Virtual Academy provides users with more 
convenient access to a wide array of news, useful Web links, 
and information about China prepared by Commission staff and 
other 
experts. Organized by topic area, the Virtual Academy currently 
has information on freedom of expression; commercial rule of 
law; criminal justice; labor rights; freedom of religion; 
China's Uighur minority; and Tibet. The Virtual Academy also 
provides timely summaries of stories from English and Chinese-
language news media on important developments in human rights 
and rule of law, updated throughout the day. For those 
interested in learning more about China, the Virtual Academy 
includes extensive information on China's history, culture, and 
government. The Commission hopes over time to attract original 
scholarly writing from both U.S. and Chinese sources about 
issues relating to China for the Virtual Academy.

                              X. Endnotes

    <dagger>Voted to approve: Representatives Leach, Dreier, Wolf, 
Pitts, Levin, Kaptur, Brown, and Wu; Senators Hagel, Thomas, Roberts, 
Smith, Baucus, Levin, Feinstein, and Dorgan; Deputy Secretary Law, 
Undersecretaries Dobriansky and Aldonas, and Assistant Secretary Kelly.
    Voted not to approve: Senator Brownback.

    =For sources cited more than once within a lettered subsection, or, 
in the case of Sections II, VI, VII, and VIII, within a numbered 
section, full citation format is used in the first citation, and an 
abbreviated format is used in subsequent citations. Readers who 
encounter a citation in abbreviated format may always find a citation 
in full form within that lettered subsection or, for the sections 
indicated above, numbered section.
    \1\ ``Corrupt Officials' Political Mentality Viewed From Their 
Confessions and Proposal,'' People's Daily Online, 5 November 03 (FBIS, 
5 November 03).
    \2\ See, e.g., Ren Hui-wen, ``New Features of Corruption and New 
Anti-Corruption Moves,'' Hsin Pao, 3 October 03 (FBIS, 17 November 03).
    \3\ Kang Weiping, ``Top Banker Sentenced to 12 Years in Prison,'' 
Finance [Caijing], 26 December 03 (FBIS, 5 January 04). See also Han 
Qiao, ``Judicial Cadres Protest Against Light Punishment of Wang 
Xuebing,'' Cheng Ming, 1 January 04 (FBIS, 1 January 04). Wang Xuebing 
had been general manager of the New York branch of the Bank of China 
from 1988 to 1993. The Treasury Department's Office of the Controller 
of the Currency found that during this time, serious misconduct had 
occurred in the branch, for which it assessed a fine of $20 million.
    \4\ ``Public Trial of Mai Chongkai, Former President of the High 
People's Court of Guangdong Province, Suspected of Taking Bribes,'' 
Xinhua, 19 December 03 (FBIS, 19 December 03). Mai was ultimately 
convicted and sentenced to 15 years for taking more than one million 
yuan in return for favoring donors in his judicial work. ``Former 
Provincial Court President Sentenced to 15 Years in Prison for 
Bribery,'' Xinhua, 24 December 03 (FBIS, 24 December 03).
    \5\ ``PRC Court Sentences Former Official to Death with Reprieve 
for Taking Bribes,'' Xinhua, 19 November 03 (FBIS, 19 November 03). See 
also Guo Nei, ``Further on Ex-Vice-Governor of Anhui Province Sentenced 
To Death,'' China Daily, 29 December 03 (FBIS, 30 December 03).
    \6\ ``In 2003, China Strictly Administers its Officials, Punishing 
One Ranking Official at Provincial-Ministerial Level Every Month,'' 
People's Daily, 29 December 03 (FBIS, 2 February 04).
    \7\ ``Campaign on Corruption Focus of Sessions,'' China Daily, 12 
March 04, <www.chinadaily.com.cn>. An analysis of a survey done by the 
China Social Research Institute [Zhongguo shehui diaochasuo] on the eve 
of the winter 2004 meetings found that the top three concerns of 
respondents in 10 top cities were: jobs, social security, and 
corruption, in that order. The percentage wanting stricter punishment 
of corruption amounted to 94.7 percent. Yan Xiaohong, ``SSIC Opinion 
Research Shows 96.2 Percent of People Are Focusing on the `Two 
Meetings;' '' The `Two Meetings' Affect Public Sentiment'' [SSIC minyi 
diaocha biaoming 96.2% de gongzhong guanzhu `lianghui;' `lianghui' 
qiandong minxin], China Manufacturing Economic News Report [Zhongguo 
chanjing xinwenbao], 05 March 04. See also Mark Magnier, ``Chinese 
Seize Upon a Chance to Sound Off,'' Los Angeles Times, 4 March 04, 
<www.latimes.com>.
    \8\ Transparency International, 2004 Global Corruption Report, 25 
March 04, 177.
    \9\ Wang Yukai, ``Further on How Provincial CPC Committee 
Secretaries should be Supervised: Should Supervision be Conducted 
Through Systems or Self-Restriction? '' News Weekly [Xinwen zhoukan], 
15 September 03 (FBIS, 27 October 03).
    \10\ ``2003 Work Report of Auditor General Li Jinhua,'' [Li jinhua 
shentao zhengzhuo 2003 niandu shentao gongzuo baogao (chuan wen)], 
Xinhua, 23 June 04, <www.xinhuanet.com>.
    \11\ ``Top Procurator Focuses on Job-Related Crimes,'' Xinhua, 10 
March 04, <www.xinhuanet.com>; Supreme People's Procuratorate Work 
Report, 19 March 04.
    \12\ SPP Work Report, March 2004.
    \13\ Ibid.
    \14\ ``Highlights: PRC Legal, Judicial Developments,'' Foreign 
Broadcast Information Service, 26 April 04 (FBIS, 4 May 04).
    \15\ Transparency International's Global Corruption Report 2004 
notes that one response of the Chinese government to the Olympic 
challenge was the passage of the PRC Government Procurement Law, 
enacted 1 January 03.
    \16\ ``China Uncovers Olympic Corruption,'' BBC News, 24 June 04, 
<www.news.bbc.co.uk/>.
    \17\ ``China Sports Officials Misuse 2008 Olympics Funds--Report,'' 
Dow Jones Newswires, 24 June 04, <www.djnewswires.com>. Much of the 
auditing work done in China today is hampered by an inherent lack of 
independent authority. For example, Article 109 of the PRC Constitution 
states that ``[l]ocal auditing bodies at different levels independently 
exercise their power to supervise through auditing in accordance with 
law'' but adds that they ``are responsible to the people's government 
at the corresponding level . . .'' Interestingly, the Beijing Municipal 
Audit Bureau has recently announced its plan to audit nine entities 
involved in construction for the Olympics, not as a result of the 
National Audit's disclosures, but as part of a ``national 
accountability campaign.'' David Fang, ``PRC Government Agencies with 
Access to Beijing Olympics Funds To Undergo Audits,'' South China 
Morning Post, 07 July 04, <www.scmp.com>. Again, these audits will not 
reach the Beijing Olympics Organizing Committee.
    \18\ See infra, Fighting Corruption in a One-Party State: Formal 
Institutions and Political Controls.
    \19\ PRC Constitution, art. 91. See also the PRC Audit Law, enacted 
31 August 94, and Temporary Measures for Inspecting the Audit of the 
Circumstances of the Implementation of the Central Government Budget 
[Zhongyang yusuan zhixing qingkuang jiandu shenji zanxing banfa], 
issued 19 July 95.
    \20\ Li Jinhua, ``Promoting Auditing Work with the Spirit of 
Seeking the Truth and Being Pragmatic,'' Seeking Truth [Qiushi], 01 May 
04 (FBIS, 3 June 04). PRC Constitution, arts. 91 and 109; PRC Audit 
Law; and Temporary Measures for Audit and Supervision of the 
Implementation of the Central Government Budget. The 1982 Constitution 
provided for the establishment of auditing bodies at the central and 
local levels, and auditing offices have existed since 1983. See infra, 
Fighting Corruption in a One-Party State: Formal Institutions and 
Political Controls for further discussion of the audit system.
    \21\ Zhong Xuebing, ``National Audit Administration Plans for 
Reform to Publish Audit Reports on All Projects in the Future--Two 
Premiers Both Lay Stress on Audit Work; They Never Delete or Change Any 
Parts of Audit Reports,'' China Youth Daily [Zhongguo qingnian bao], 06 
July 04 (FBIS, 07 July 04). Not long after this report, however, an 
unnamed source in the Audit Office seemed to draw back from the promise 
to publish by noting that the Office is part of the government, and 
therefore less arms-length than similar reviews in the United States. 
Jane Cai, ``State Auditor's Probes to Remain `Family Business,' '' 
South China Morning Post, 08 July 04, <www.scmp.gov>.
    \22\ ``China to Audit More State-Funded Institutions to Curb 
Corruption,'' Xinhua, 06 July 04 (FBIS, 07 July 04).
    \23\ Joseph Kahn, ``Expose of Peasants' Plight Is Suppressed by 
China,'' New York Times, 09 July 04, <www.nytimes.com>.
    \24\ The Tangshan case has been a topic of frequent bulletins from 
Human Rights in China. See, e.g., Human Rights in China Press Release, 
``Journalist Pursued for Aiding Peasants,'' 12 July 04, and ``Tangshan 
Petitioners Persecuted,'' 2 July 04.
    \25\ Zhou Hailiang, ``Do the People's Disasters Become Money Trees 
for Local Governments? '' [Baixing huonan chengwei difang zhengfu 
yaoqianshu?], People's Daily [Renmin ribao], 2 July 04, <http://
zg.people.com.cn/>.
    \26\ Ibid.
    \27\ Liu Weifeng, ``7 Provincial Officials May Face Trial for 
Alleged Educational Fund Abuse,'' China Daily, 7 July 04 (FBIS 7 July 
04).
    \28\ Zhang Liwei, ``The Collapse of Zhou Zhengyi's `Shanghai 
Empire' '' [Zhou zhengyi `shanghai wangguo' bengta], China Business 
Post [Caijing shibao], 7 June 04, <www.caijingshibao.com.cn>.
    \29\ Ling Huawei, ``The Rise and Fall of Zhou Zhengyi,'' [Zhou 
zhengyi xing shuai], Finance [Caijing], 20 Jun 03, 
<www.caijing.com.cn>.
    \30\ Human Rights in China Press Release, ``Lawsuit Alleges 
Corruption in Shanghai,'' 30 May 03. Their suit was eventually 
dismissed, but it may have helped bring Zhou Zhengyi's legal 
improprieties to the attention of the authorities.
    \31\ Commission Staff Interview.
    \32\ Some details about the court's judgment against Zheng are 
included in Human Rights in China Press Release, ``HRIC's Statement on 
the Conviction of Zheng Enchong,'' 5 November 03. Although Zheng had 
copied the information in the fax from a Xinhua report, the procuracy 
charged him with ``illegally obtaining state secrets'' and transmitting 
them to foreigners. The procurator offered as proof the fact that the 
report was part of a Xinhua product called Selected Internal Briefing, 
and Zheng had himself described the information as such by writing on 
the fax: ``Xinhua News Agency, Internal Draft.'' However, as noted in 
an opinion submitted to the court by the defense team, a regulation 
issued jointly by the Ministry of Public Security and the Bureau of 
State Secrets in 1995 provides for a clear distinction between matters 
relating to police work that are ``internal'' and those that qualify as 
state secrets. Regulation on the Specific Scope of Public Security Work 
in State Secrets and Secrets Classification [Gongan gongzuo zhong 
guojia mimi ji qi miji juti fanwei de guiding], issued 20 February 95, 
art. 3.
    \33\ Regulation on the Specific Scope of Public Security Work in 
State Secrets and Secrets Classification, art. 6.
    \34\ Measures for Supervisory Organs' Work in Receiving Reports 
[Jiancha jiguan jubao gongzuo banfa], issued 28 March 03.
    \35\ Measures for Supervisory Organs' Work in Receiving Reports, 
art. 20 (3).
    \36\ Supervision scholar Li Yongzhong discussed the shuanggui 
system in an interview in ``Two Summons: A Special Organizational 
Procedure and Investigative Tool'' [Shuanggui: teshu de zuzhi cuoshi he 
diaocha shouduan], China News Net [Zhongguo xinwen wang], 19 October 
03, <www.chinanews.com.cn>. See also the Notice issued by the General 
Office of the Central Disciplinary Inspection Commission on the 
Temporary Measures on the Method for Disciplinary Inspection Organs to 
Use the `Two Summons,' [Zhongyang jiwei bangongting guanyu yinfa 
`Guanyu jiwei jiguan shiyong `lianggui' cuoshi de banfa (shixing)' de 
tongzhi], issued 20 January 00.
    \37\ Temporary Measures on the Method for Disciplinary Inspection 
Organs to Use the ``Two Summons,'' art. 7.
    \38\ Chinese Communist Party's Inner-Party Supervision Regulations 
[Zhongguo gongchandang dangnei jiandu tiaoli (shixing)], issued 17 
February 04, art. 34.

    Notes to Section III(a)--Rights of Criminal Suspects and Defendants
    \39\ Josephine Ma, ``Falun Gong Still Biggest Threat, Says 
Minister,'' South China Morning Post, 03 August 04 (FBIS, 3 August 04) 
(citing Central Party School article which identified ``rapid increase 
in crime'' as a major threat to social stability). See also Randall 
Peerenboom, ``Out of the Frying Pan and into the Fire: Well-Intentioned 
but Misguided Recommendations to Eliminate All Forms of Administrative 
Detention in China,'' 98 Northwest University Law Review 991, 1049 
(2003). For examples of reports on rising crime rates in 2003, see Chow 
Chungyan, ``Guangdong Blames Crime Surge on Migrants,'' South China 
Morning Post, 22 July 04 (FBIS, 22 July 04); Leu Siew Ying, ``Extra 
Police for Crime-hit Guangzhou,'' South China Morning Post, 9 September 
03 (FBIS, 9 September 03); ``Official Crime Rate Still High in China,'' 
Xinhua, 22 December 03 (FBIS, 22 Dec 03); Chow Chungyan, ``More Police 
Promised As Crime Rate Soars 57 percent in Shenzhen,'' South China 
Morning Post, 14 January 04 (FBIS, 14 January 04); Leu Siew Ying, 
``Guangzhou Police Rue Passive Role on Migrants,'' South China Morning 
Post, 8 October 04, <www.scmp.com>; Shi Jiangtao, ``Rethink Police 
Vagrancy Powers,'' South China Morning Post, 13 January 04 (FBIS, 13 
January 04); Josephine Ma, ``Falun Gong Still Biggest Threat, Says 
Minister,'' South China Morning Post, 03 August 04 (FBIS, 3 August 04).
    \40\ See, e.g., Zhu Daqiang, ``China Goes All Out to Safeguard 
Social Stability,'' Zhongguo Xinwen She, 24 December 03 (FBIS, 24 
December 03)(noting that a recent execution had ``demonstrated China's 
determination to intensify the `Strike Hard' campaign''); ``Chinese 
Courts to Go on `Striking Hard' Serious Crimes,'' Xinhua, 10 March 04 
(FBIS, 10 March 04)(claiming that ``Chinese courts in 2004 will adhere 
to the principle of `striking hard,''); and Zhang Qizhi and Shen Lutao, 
``At National Conference on Work of Comprehensive Management of Public 
Security, Luo Gan Stresses: Do an Earnest Job in Work of Investigating, 
Ascertaining, and Handling Contradictions and Disputes and Create a 
Harmonious and Stable Social Environment for Reform and Development,'' 
Xinhua, 12 June 04 (FBIS, 12 June 04)(citing Zhou Yongkang, Minister of 
Public Security, as urging departments to implement the ``strike hard'' 
principle).
    \41\ Susan Trevaskes, ``Courts on the Campaign Path in China: 
Criminal Court Work in the `Yanda 2001' Anti-Crime Campaign,'' 42 Asian 
Survey 673-93 (September/October 2002); Craig S. Smith, ``Chinese Fight 
Crime With Torture and Executions,'' New York Times, 9 September 01, 
<www.nytimes.com>.
    \42\ An August 2003 article in the People's Daily argues that that 
the leadership should transform ``strike hard'' from a periodic 
campaign into a continuously applicable general principle, suggesting 
that this change is intentional. Du Yonghao, ``Strike Hard Should 
Embody the Sprit of Rule of Law'' [Yanda geng ying tixian fazhi 
jingsheng], People's Daily [Renmin ribao], 25 August 03, 
<www.people.com.cn>. See also, Yu Bin, ``New Arrangements for Public 
Security Prevention and Control,'' Outlook [Liaowang], 9 February 04 
(FBIS, 18 February 04).
    \43\ For examples of references to localized or periodic 
crackdowns, see Zhang Changfeng, ``Public Security Work Should Adhere 
to the Guiding Ideology of `Waging an Active War,' '' Security Studies 
[Gongan yanjiu], 10 December 2003 (FBIS, 9 October 03); Zheng Caixiong, 
``Guangdong Solves Thousands of Crimes,'' China Daily, 29 March 04, 
<www.chinadaily.com.cn>; ``China Set to Crack Down on Muslim 
Northwest,'' Reuters, 24 September 03.
    \44\ Shi Jiangtao, ``Legal Scholars Have Diverse Interpretations of 
Figures,'' South China Morning Post, 11 March 04 (FBIS, 11 March 04). 
According to Xinhua, Minister of Public Security Zhou Yongkang ordered 
police to stop using arrest quotas in July 2003. ``Zhou Yongkang Tells 
Police to End Arrest Quotas, Shed Business Interests,'' Xinhua, 31 July 
03 (FBIS, 31 July 03).
    \45\ According to public security officials in one major city, 
recent increases in the number of vagrants and beggars on the streets 
have led to public complaints that police are not doing their jobs 
effectively. Commission Staff Interview. The number of indigents 
increased following the repeal of a controversial form of 
administrative detention called custody and repatriation that police 
had often employed to detain such individuals. [See infra, Arbitrary 
Detention--Repeal of the Custody and Repatriation System]. In Beijing, 
66 percent of respondents in an online survey expressed dissatisfaction 
with police, while only 2 percent approved of the work of judicial 
departments. ``Poll Shows Overwhelming Numbers of Beijingers 
`Dissatisfied' with Government,'' Agence France-Presse, 21 November 03 
(FBIS, 21 November 03). Reactions to several notable cases illustrate 
the level of public frustration with law enforcement.
    <bullet> In November 2003, five officials were sacked for 
negligence after police in Henan finally caught a serial killer who had 
kidnapped and tortured 17 high school students over the course of three 
years. Reports that police had ignored pleas from parents about their 
missing children for two years sparked public outrage, and more than 
40,000 citizens reportedly gathered outside of the courthouse on the 
day of the alleged killer's trial. ``Five Officials Punished for 
Negligence in Serial Murder Case,'' Xinhua, 29 November 03 (FBIS, 29 
November 03); Irene Wang, ``Trial of Suspected Serial Killer to 
Begin,'' South China Morning Post, 9 December 03, <www.scmp.com>; ``Up 
to 50,000 Gather Outside Court for Trial of Chinese Serial Killer,'' 
Agence France-Presse, 9 December 03 (FBIS, 9 December 03).
    <bullet> In late 2003, authorities reopened the case of a Harbin 
woman who was given a suspended sentence for ``accidental traffic 
disturbance'' after she hit and killed a farmer's wife. Witnesses 
reported that the woman became enraged after her BMW was damaged by the 
farmer's cart. The light sentence fueled a storm of public anger and 
rumors that the woman had an influential husband who had secured 
lenient treatment for her. Jim Yardley, ``Chinese Go Online in Search 
of Justice Against Elite Class,'' New York Times, 16 January 04, 
<www.nytimes.com>. In March 2004, a local court upheld the sentence. 
Irene Wang, `` `BMW Incident' Sentence Upheld,'' South China Morning 
Post, 29 March 04, <www.scmp.com>.
    <bullet> In July 2004, more than 15,000 Qingdao residents 
reportedly surrounded a people's court to protest the lenient treatment 
of a provincial official's son in a murder case. Hai Feng, ``More than 
10,000 People Surround Qingdao City People's Court,'' Cheng Ming, 16 
July 04 (FBIS, 11 August 04).
    \46\ In the fall of 2003, a Shenyang court commuted the death 
sentence of notorious mafia boss Liu Yong after finding that the 
confession of a key government witness had been coerced. In response to 
a flood of public outrage over the decision, the Supreme People's Court 
retried the case and reinstated the death sentence, which was carried 
out immediately. Legal scholars lamented that the case had ``set reform 
of the criminal justice system back 10 years.'' John Pomfret, 
``Execution Reveals Party's Grip on China,'' Washington Post, 23 
December 03, <www.washingtonpost.com>; Yan Xizao, ``Investigation Vital 
To Rebuild Confidence,'' China Daily, 22 December 03, 
<www.chinadaily.com.cn>.
    \47\ Trevaskes, ``Courts on the Campaign Path in China,'' 673-93; 
Peerenboom, ``Out of the Frying Pan and into the Fire,'' 1049.
    \48\ Trevaskes, ``Courts on the Campaign Path in China,'' 687-90. 
Chinese scholars who have studied past campaigns conclude that they 
have had little impact on crime rates. Craig S. Smith, ``China's 
Efforts Against Crime Make No Dent,'' New York Times, 26 December 01, 
<www.nytimes.com>.
    \49\ For an interesting domestic discussion of the problems faced 
by public security and concerns about the deteriorating relationship 
between law enforcement agencies and the public, see Yu Bin, ``New 
Arrangements for Public Security Prevention and Control.''
    \50\ Supreme People's Court Work Report, 19 March 04.
    \51\ Supreme People's Procuratorate Work Report, 19 March 04. 
According to the report, 18,515 ``major'' cases of corruption, 
embezzlement, and bribery were investigated in 2003. 9,720 
administrative law enforcement and judicial personnel and 14,844 
employees of state-owned enterprises were investigated for corruption. 
1,408 state employees were investigated for abuses of power such as 
torture, illegal extended detention, and interfering in elections, and 
7,160 state employees were investigated for dereliction of duty and 
abuse of power that resulted in safety related incidents.
    \52\ SPC Work Report, March 2004.
    \53\ ``Serious Crimes in China in 2003 Are Down Compared to Last 
Year [2003 nian zhongguo yanzhong xingshi fanzui anjian bi qiannian 
yousuo jianshao],'' Xinhua, 23 February 04, <www.xinhuanet.com>; 
``Corruption, Bribery Cases Drop 2.2 Percent Over 2003,'' People's 
Daily [Renmin ribao], 8 January 04, <www.peopledaily.com.cn>.
    \54\ ``Dismal Record of China's Police Force Made Public,'' Agence 
France-Presse, 12 June 04 (FBIS, 12 June 04). The official blamed poor 
investigation work, rising crime rates, official corruption, and new 
restraints on police as factors.
    \55\ PRC Constitution, art. 35.
    \56\ Crimes of endangering state (or national) security are found 
in the PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 25 
December 99, 31 August 01, 29 December 01, and 28 December 02, arts. 
102-113. The most notable are Article 105, which prohibits organizing, 
plotting, or carrying out a scheme to subvert state power or overthrow 
the socialist system or inciting others to do the same, and Article 
103, which prohibits organizing, plotting, or carrying out a scheme to 
split the state or undermine the unity of the country or inciting 
others to do the same.
    \57\ A recent article published by the Central Party School 
reportedly ranked Falun Gong, ethnic, and religious activities ahead of 
terrorism and the rapid increase in crime as threats to social 
stability. Josephine Ma, ``Falun Gong Still Biggest Threat, Says 
Minister.''
    \58\ PRC Criminal Law. Articles 101-113 deal with ``endangering 
state security.''
    \59\ Ibid., art. 105.
    \60\ Ibid., art. 103.
    \61\ Jilin Province, Changchun City Intermediate People's Court, 
Criminal Judgment in the Case of Luo Yongzhong, 14 October 03 (on file 
with the Commission).
    \62\ PRC Criminal Law, art. 13.
    \63\ Wang Youcai, a founding member of the China Democracy Party, 
was serving a 12-year sentence for ``endangering state security.'' He 
was released on medical parole and flown to the United States in March 
2004. Phuntsog Nyidron, one of the ``singing nuns of Lhasa,'' was 
serving a sentence for ``counterrevolutionary propaganda and 
incitement.'' She was released on medical parole and flown to the 
United States in February 2004. Liu Di, the ``stainless steel mouse,'' 
had been held in detention for more than one year in connection with a 
series of Internet essays she had written. In November 2003, 
prosecutors ordered her released on the grounds of insufficient 
evidence for prosecution.
    \64\ See infra, Arbitrary Detention: Disappearances, Security 
Sweeps, and House Arrests.
    \65\ Commission Staff Correspondence. For the estimate of one such 
analyst, see After the Detention and Death of Sun Zhigang: Prisons and 
Detention in China, Staff Roundtable of the Congressional-Executive 
Commission on China, 27 October 03, Testimony of James Dulles Seymour, 
Senior Research Scholar, East Asia Institute, Columbia University. Note 
that this estimate is highly qualified by a variety of unknowns and 
uncertainties.
    \66\ For the removal of the crime of counterrevolution from the PRC 
Criminal Code, see Lawyers Committee for Human Rights, Wrongs and 
Rights: A Human Rights Analysis of China's Revised Criminal Law, 
December 1998, 2930, 41-45.
    \67\ Commission Staff Interview.
    \68\ Supreme People's Court, Notice on ``Regulations on Certain 
Concrete Practical Questions Related to Sentence Reduction and 
Parole,'' [Zuigao renmin fayuan yinfa ``Guanyu banli jianxing, jiajie 
anjian juti yingyong falu ruogan wenti de guiding'' de tongzhi], issued 
29 October 97. Under the 1997 Notice, sentence reduction and parole for 
all cases involving crimes of ``endangering state security'' are to be 
``strictly handled.'' Although the notice superceded a 1991 SPC notice 
that required sentence reduction and parole for crimes of 
``counterrevolution'' to be ``strictly handled,'' the SPC argues that 
because the crime of endangering state security is equivalent to the 
crime of counterrevolution, the new notice should continue to apply to 
individuals serving sentences for counterrevolution. Commission Staff 
Interviews.
    \69\ The corollary to this argument is that the SPC notice on 
``strictly handling'' sentence reduction and parole for crimes of 
endangering state security should not be applied to prisoners convicted 
of a crime that no longer exists.
    \70\ Commission Staff Interviews.
    \71\ United Nations Commissioner for Human Rights, Fact Sheet #26, 
The Working Group on Arbitrary Detention, <www.unhchr.ch/html/menu6/2/
fs26.htm#IV>. The Working Group's mandate ``extends to deprivation of 
freedom either before, during or after the trial (a term of 
imprisonment imposed following conviction), as well as deprivation of 
freedom in the absence of any kind of trial (administrative detention). 
The Group also regards as forms of detention measures of house arrest 
and rehabilitation through labor, when they are accompanied by serious 
restrictions on liberty of movement.''
    \72\ International Covenant on Civil and Political Rights, arts. 
9(3) and 9(4).
    \73\ Philip P. Pan, ``China Gives Prison Term To Dissident Based in 
U.S.,'' Washington Post, 14 May 04, <www.washingtonpost.com>. For a 
discussion of Yang's pre-trial detention, see Congressional-Executive 
Commission on China, 2003 Annual Report, October 2003, 17.
    \74\ Congressional-Executive Commission on China, Zhang Jianzhong 
Case Update, March 2004, <www.cecc.gov>; Congressional Executive 
Commission on China, Defense Lawyers Turned Defendants, Zhang Jianzhong 
and the Criminal Prosecution of Defense Lawyers in China, 27 May 03.
    \75\ ``Recently Released PRC Dissident Liu Di Told Not the Meet 
With Foreign Journalists,'' Agence France-Presse, 1 December 03 (FBIS, 
1 December 03); ``Held for Over a Year, Procuratorate Rejects Public 
Security Bureau Position for Lack of Evidence,'' World Journal [Shijie 
ribao], 7 November 03, <www.worldjournal.com>.
    \76\ Chinese official sources define ``illegal extended detention'' 
as the detention of criminal suspects and defendants by law enforcement 
agencies or courts beyond domestic statutory time limits for handling 
criminal cases.
    \77\ ``China's Public Prosecutors Crack Down on Illegal Prolonged 
Detention,'' Xinhua, 22 July 03 (FBIS, 22 July 03); Zhu Daqiang ``China 
Moves Against Extended Detention,'' China News Agency [Zhongguo xinwen 
she], 3 August 03 (FBIS, 3 August 03).
    \78\ Supreme People's Court, Supreme People's Procuratorate, and 
Ministry of Public Security, Notice on Strictly Enforcing the Criminal 
Procedure Law and Rectifying Extended Detention in Practice [Zuigao 
renmin fayuan, zuigao renmin jianchayuan, gonganbu guanyu yange zhixing 
xingshi susongfa, qieshi jiufang chaoqi jiya de tongzhi], issued 11 
November 03. Supreme People's Court, Notice on Issues Related to 
Clearing Cases of Extended Detention [Zuigao renmin fayuan guanyu 
qingli chaoqi jiya anjian youguan wenti de tongzhi], issued 29 July 03. 
Authorities publicly expressed frustration with the persistence of the 
extended detention problem, which they blamed on lack of legal 
consciousness on the part of police, prosecutors, and judges. Cui 
Zhenping, ``Two Yuan Jointly Answer Reporters Questions on the `Notice 
on Rectifying Extended Detention,' '' [Liang yuan yibu jiu `jiufang 
chaoqi jiya tongzhi' da jizhe wen], People's Court Daily [Fayuan 
ribao], 12 November 03.
    \79\ Among other things, the Notice prohibits manipulating criminal 
provisions on ``supplementary investigation'' and withdrawals of 
prosecution or jurisdiction transfers to extend detention in 
``disguised form,'' calls on law enforcement organs to make full use of 
provisions on bail and residential surveillance where time limits for 
detention have expired by investigation or adjudication is incomplete, 
and stresses that defendants must be released if a crime cannot be 
proven or a judgment cannot be reached within the legal time limits. 
Note, however, that investigators and courts may apply to the SPC or 
SPP for an ``interpretation'' of the Notice in complex or foreign-
related cases or cases involving the crime of endangering state 
security.
    \80\ The man, a farmer from Guangxi, had initially been detained in 
1974 on suspicion that he possessed an ``enemy'' leaflet. ``Chinese 
Peasant Detained Without Charges for 28 Years,'' Agence France-Presse, 
26 June 03 (FBIS, 26 June 03), citing Southern Weekend [Nanfang 
zhoumo]. A public security investigation found 64 cases involving 
extended custody that exceeded three years. ``All of the Extended 
Custody Cases in the Public Security System Rectified in 2003'' [2003 
nian gongan xitong suoyou chaoqi jiya anjian quanbu dedao jiuzheng], 
Xinhua, 20 January 04, <www.xinhua.org>.
    \81\ SPC Work Report, March 2004; SPP Work Report, March 2004. The 
SPP reported that it had handled 25,181 cases of extended detention. 
The SPC reported that it had handled 4,100 cases of extended detention 
involving 7,658 individuals. It is possible that there is some overlap 
between the cases handled by the SPC and the SPP. The SPC claimed that 
a few cases of extended detention remained unresolved for ``legal 
reasons.'' A January report in Xinhua suggested that there were still 
91 outstanding cases. ``Except for 91 Cases, All Cases of Extended 
Detention Have Been Cleared Up,'' [Chu 91 jian anjian wai, quanguo 
suoyou chaoqi jiya anjian ruqi xingli wanbi], Xinhua, 1 January 04, 
<www.news.xinhuanet.com>.
    \82\ SPC Work Report, March 2004; SPP Work Report, March 2004.
    \83\ Commission Staff Interview.
    \84\ Commission Staff Interviews. See also ``China Rounds Up 
Disgruntled Petitioners, Herds Them to Gym and Stadium,'' Agence 
France-Presse, 9 March 04 (FBIS, 9 March 04); Human Rights in China 
Press Release, ``Dissidents Detained and Beaten as NPC Opens,'' 5 March 
04; Josephine Ma, ``Petitioners Rounded Up in Police Raids,'' South 
China Morning Post, 11 March 04, <www.scmp.com>.
    \85\ Joe McDonald, ``China Mobilizes to Silence Dissent,'' 
Associated Press, 11 March 04; Ralph Jennings, ``PRC Police Block 
National Complaint Office,'' Kyodo World News Service, 10 March 04 
(FBIS, 10 March 04).
    \86\ Matt Pottinger, ``Petitioning Beijing,'' Wall Street Journal, 
10 September 04, A11; Human Rights in China Press Release, ``Massive 
Crackdown on Petitioners in Beijing,'' 8 September 04.
    \87\ For an overview of Jiang's activities, see ``SARS 
Whistleblower Urges Reassessment of Tiananmen Massacre,'' South China 
Morning Post, 8 March 04, <www.scmp.com>. His letter urging an official 
reassessment of the verdict on the Tiananmen demonstrations is 
available at <http://journalism.berkeley.edu/projects/chinadn/en/
archives/002276.html#more>. Jiang and his wife went missing on June 1. 
Chan Siusin, ``Joint Appeal for Doctor's Release,'' South China Morning 
Post, 11 June 04, <www.scmp.com>. His wife was released on June 16 and 
Jiang was released in late July. According to Commission sources, Jiang 
was taken by public security to an undisclosed location for 
``discussions'' regarding his June 4 activism.
    \88\ Ralph Jennings, ``China Police Lodge Troublemakers at Resorts 
to Foil Protests,'' Kyodo World Service, 11 March 04 (FBIS, 11 March 
04); Human Rights in China Press Release, ``Mass House Arrests Before 
June 4,'' 28 May 04; Audra Ang, ``Dissidents Detained as Tiananmen 
Anniversary Approaches,'' South China Morning Post, 28 May 04; 
``Leading AIDS Activist and Tiananmen Dissident Roughed Up by Chinese 
Police,'' Agence France-Presse, 2 June 04 (FBIS, 2 June 04). Some 
dissidents were instructed to leave Beijing or their home cities, 
prevented from moving freely, or otherwise harassed.
    \89\ Jonathan Hecht, ``Reforming Re-education Through Labor,'' 
October 2003 (draft manuscript on file with the Commission); Veron Mei-
ying Hung, ``Improving Human Rights in China: Should Re-Education 
Through Labor Be Abolished,'' 41 Columbia Journal of Transnational Law 
303 (2003). But see Peerenboom, ``Out of the Frying Pan and into the 
Fire,'' 1010-1046 (note that Peerenboom disputes the basis for these 
contentions and argues that in many cases, RETL detainees would be 
worse off in the formal criminal justice system). Although re-education 
through labor subjects in theory have the legal right to request 
judicial review of their detention by a people's court under the PRC 
Administrative Litigation Law, such review rarely takes place in 
practice. Hung, ``Improving Human Rights in China,'' 317-23.
    \90\ Hecht, ``Reforming Re-education Through Labor.''
    \91\ After the Detention and Death of Sun Zhigang, Written 
Statement of James D. Seymour, Senior Research Scholar, Weatherhead 
East Asian Institute, Columbia University; Hecht, ``Reforming Re-
education Through Labor''; Hung, ``Improving Human Rights in China,'' 
303; Peerenboom, ``Out of the Frying Pan and into the Fire,'' 999.
    \92\ Hecht, ``Reforming Re-education Through Labor.'' For an 
excellent study on the growing number of social protests in China, see 
Murray Scott Tanner, ``China Rethinks Unrest,'' 27 Washington Quarterly 
137 (2004).
    \93\ Commission Staff Interview.
    \94\ Philip Pan, ``Easing of Penal System Part of Change in 
China,'' Washington Post, 18 January 04, <www.washingtonpost.com>. 
According to one government source cited by Pan, a subcommittee on 
reforming RETL suspended its work after the government's campaign 
against Falun Gong was launched in 1999.
    \95\ Hecht, ``Reforming Re-education Through Labor.''
    \96\ In the fall of 2003, six members of the Guangdong CPPCC 
Provincial Committee reportedly submitted a proposal questioning the 
legality of the RETL system and calling for it to be abolished in 
Guangdong. Guo Guosong, ``Members of the CPPCC Guangdong Provincial 
Committee Point Out that the Country's Re-education Through Labor 
System Lacks Legal Basis,'' Southern Weekend [Nanfang zhoumo], 4 
September 03 (FBIS, 8 September 03). According to one Commission 
source, legal scholars filed a petition with the NPC Standing Committee 
last year arguing that regulations on RETL should be repealed as 
unconstitutional. Reportedly, the NPC Standing Committee denied the 
petition and authorities barred the Chinese media from reporting on it. 
In another instance, the South China Morning Post reported that 
dissident Li Guotao was detained in September 2004, prior to the Party 
Central Committee meeting in Beijing, for organizing a petition drive 
calling for the abolition of RETL. Bill Savadove, ``Petition Sees 
Dissident Put Under House Arrest,'' South China Morning Post, 14 
September 04, <www.scmp.com>. For RETL reform discussions, see also 
``Several Problems in the Reform of Judicial Administration'' [Sifa 
xingzheng gaige de ruogan falu wenti], Legal Daily [Fazhi ribao], 12 
August 04, <www.legaldaily.com.cn>.
    \97\ See, e.g., ``Husbands and Wives of Laojiao Detainees Can Enjoy 
the Pleasure of Being Fish in Water,'' [Laojiaosuo nei fuqi ke 
xiangyushuihuan], Southern Metropolitan Daily [Nanfang dushibao], 22 
October 03, <www.nanfangdaily.com.cn>; Liang Jie, ``Preliminary Results 
Achieved in Special Work for Re-education Through Labor'' [Laojiao you 
tese gongzuo chujian chengxiao], Guangming Daily [Guangming ribao], 17 
November 03, <www.gmw.com.cn>; ``Beijing Public Security Organs Hold 
the Country's First Public Question and Answer for a Re-Education 
through Labor Subject'' [Beijing gonganju zai guonei shouci duini 
laojiaoren juxing gongkai lingxun], Xinhua, 5 September 03, 
<www.news.xinhuanet.com>. In August 2003, the Ministry of Public 
Security issued regulations reforming the procedures for handling RETL 
and other administrative detention cases. Regulations on Procedures for 
Public Security Handling of Administrative Cases [Gongan jiguan banli 
xingzheng anjian chengxu guiding], issued 26 August 03, art. 26.
    \98\ ``Standardizing the Re-Education Through Labor System: The NPC 
Drafts a New Law'' [Guifan laojiaozhi: renda qicao xinfa], World 
Journal [Shijie ribao], 9 March 04, <www.worldjournal.com>; ``The Re-
Education Through Labor System Is to Be Transformed in a Major Way'' 
[Laojiao zhidu jiang zuo zhongda biange], Southern Metropolitan Daily 
[Nanfang dushibao], 8 March 04, <www.nanfangdaily.com.cn>.
    \99\ Pan, ``Easing of Penal System Part of Change in China.''
    \100\ According to both mainland Chinese and Hong Kong reports, the 
Internal and Judicial Affairs Committee of the NPC is considering a new 
``Law on Security Administration Publishments'' to replace the 1987 
Security Administration Punishment Regulations. ``China is Mulling Over 
the Abolition of Re-education Through Labor,'' Tai Yang Pao, 29 July 04 
(FBIS, 30 July 04); Li Yan, ``Security Punishments Expected to Abolish 
Re-education Through Labor,'' [Zhian chufa youwan quxiao laojiao], 
Southern Metropolitan Daily [Nanfang dushibao], 28 July 04, 
<www.nanfangdaily.com.cn>. The State Administration Punishment 
Regulations permit authorities to detain individuals for up to 15 days 
for a wide variety of minor public order offenses. PRC Security 
Administration Punishment Regulations [Zhian guanli chufa tiaoli], 
issued 5 September 86. Some violators may be subject to RETL under the 
regulations and local rules for repeat offenders.
    \101\ Enshrining RETL in a national statute, as opposed to an 
administrative regulation, would undermine the arguments that the 
domestic legal basis for RETL is flawed. At least one Western China 
scholar argues that calls for repeal are misguided. Peerenboom, ``Out 
of the Frying Pan and into the Fire,'' 991. Others note that if the new 
law provides RETL detainees with rights to judicial review, legal 
representation, and other protections that are in theory afforded to 
criminal defendants, it would still be a significant positive step. 
Commission Staff Interview.
    \102\ CECC, 2003 Annual Report, Section III(a).
    \103\ Commission Staff Interview.
    \104\ Human Rights in China, Forced Psychiatric Treatment 
Threatened for AIDS Activist Hu Jia, 9 June 04; Chan Siusin, ``Activist 
Fears Being Put in Mental Home,'' South China Morning Post, 11 June 04, 
<www.scmp.com>.
    \105\ See CECC, 2003 Annual Report, Sections III(e) and V(e), for a 
discussion of custody and repatriation and the reasons for its repeal.
    \106\ Approximately 80 percent of the aid centers are converted C&R 
centers, while 20 percent are newly constructed. In several large 
cities such as Shanghai and Chengdu, civil affairs departments have 
established a network of small feeder centers in the city center and 
larger facilities on the city outskirts. The feeder centers accept aid 
recipients and transfer them to the larger centers if they want to 
receive housing and aid there. Commission Staff Interviews.
    \107\ Pan Congwu, ``Four Big Problems Vexing Aid Stations'' [Si da 
nanti kunrao jiuzhuzhan], China Legal Publicity [Zhongguo pufa wang], 
18 August 04, <www.legalinfo.gov.cn>. For increases in indigent 
populations, see also Li Xueju (Minister of Foreign Affairs), ``New 
Social Relief System To Emphasize Voluntary Acceptance of Assistance, 
Put Equal Stress on Aid and Management,'' Seeking Truth [Qiushi], 1 
April 04 (FBIS, 15 April 04); Pan Haixia, ``Beggars Can't be Choosers 
of Shelters,'' China Daily, 12 January 04, <www.chinadaily.com.cn>; 
Josephine Ma, ``Beijing Ponders How to Tackle Surge in Beggars,'' South 
China Morning Post, 9 October 03, <www.scmp.com>; Shi Jiangtao, 
``Rethink Police Vagrancy Powers.'' Some civil affairs officials 
complain that one of the biggest problems with the new aid system is 
that of repeat and ineligible visitors and acknowledge the growing 
number of indigents. Commission Staff Interviews. For a contrary view 
on the new aid measures, see American Federation of Labor and Congress 
of Industrial Organization, Section 301 Petition before the United 
States Trade Representative, 34.
    \108\ Li Xueju, ``New Social Relief System To Emphasize Voluntary 
Acceptance of Assistance, Put Equal Stress on Aid and Management''; Leu 
Siew Ying, ``Guangzhou Police Rue Passive Role on Migrants''; Shi 
Jiangtao, ``Rethink Police Vagrancy Powers.'' According to officials in 
some Chinese cities, the begging problem has become so pervasive that 
the public is criticizing police and aid centers for failing to do 
their jobs. Commission Staff Interview; Pan Congwu, ``Four Big Problems 
Vexing Aid Stations.'' Although some Chinese newspapers expressed 
concern about a backlash and the possibility that C&R would be re-
instituted in a different form, Chinese scholars and officials 
expressed confidence that the old system of coercive repatriation would 
not be re-instated. Commission Staff Interviews.
    \109\ Public security officials in at least one major Chinese city 
told Commission staff that even unregistered migrant laborers are 
largely being left alone unless they commit crimes. Commission Staff 
Interview.
    \110\ PRC Criminal Law, arts. 247-248; PRC Criminal Procedure Law, 
enacted 1 July 79, amended 17 March 96, art. 43.
    \111\ According to Murray Scot Tanner, an American political 
scientist who tracks domestic reporting and debate on public security 
and in particular on the issue of torture, torture is a problem that 
``even many [Chinese] law enforcement officials concede is pervasive.'' 
After the Detention and Death of Sun Zhigang: Prisons and Detention in 
China, CECC Roundtable, Testimony and Written Statement of Murray Scot 
Tanner. One recent Procuratorial Daily article, while noting that only 
a ``minority'' of investigators participate in torture, nonetheless 
called it a ``chronic disease'' that elicited ``serious negative 
reaction from the populace.'' Fu Kuanzhi, ``The Three Factors That Must 
be Present to End the Extortion of Confessions Through Torture'' [Jujue 
xingxun bigong xu jubei san ge yinsu], Procuratorial Daily [Jiancha 
ribao], 11 August 04, <www.jcrb.com.cn>.
    \112\ See, e.g., Cheng Honggen, ``Former Deputy Director of a Sub-
bureau Under the Hebei City Public Security Bureau Gets a 13-Year Jail 
Term on Charges of Torturing and Causing the Death of a Person,'' 
Xinhua, 16 May 04 (FBIS, 17 May 04); ``A Wenzhou `Criminal Sentenced to 
Death' Who Sat in Jail For Eight Years Wants State Compensation'' 
[Wenzhou yi ``sixingfan'' chuzuo ba nian dajian tichu yao guojia 
peichang], Xinhua, 14 April 03, <www.xinhuanet.com>; ``Chongqing 
Resident Obtains 130,000 in State Compensation for Wrongful Murder 
Judgment and Seven Years in Prison'' [Chongqing yi shimin bei cuopan 
sharenzui fuxing qi nian huo guojia peichang shisanwan], Procuratorial 
Daily [Jiancha ribao], 10 November 03, <www.jcrb.com.cn>; Irene Wang, 
``Police Officers Jailed Over Torture Deaths,'' South China Morning 
Post, 17 December 03, <www.scmp.com> (citing a story in a Shenyang 
paper describing the death of two detainees); Chen Lei, ``Dialing 110 
Unexpectedly Invites Fatal Accident; Bengbu's Barbarous Patrolmen 
Publicly Beat to Death Man Making Police Report,'' China News Service, 
29 August 03 (FBIS, 29 August 03); Chen Hong, ``Police, Prosecutors 
Have Image Problem,'' China Daily, 22 July 04, <www.chinadaily.com.cn>.
    \113\ See, e.g., ``Chinese Police Officer Gets Death for Killing, 
Secretly Burying Detainee,'' Agence France-Presse, 26 June 04 (FBIS, 26 
June 04); Wang Chien-min, ``Reflecting on Prisoner Abuse by US Forces, 
Beijing Will Strictly Investigate Savage Torture,'' Asia Weekly [Yazhou 
zhoukan], 30 May 04 (FBIS, 20 May 04); Chan Siu-sin, ``Injured Man's 
Family Seeks Payout,'' South China Morning Post, 21 November 03, 
<www.scmp.com>; ``Deceased Tibetan Monk Leaves Letter Detailing 
`Torture' by Chinese Jailers,'' Agence France-Presse, 7 October 03 
(FBIS, 7 October 03); Chi Shuo-ming, ``Case Outside Disputed Case of 
British Espionage Involving Xinhua News Agency,'' Asia Weekly [Yazhou 
zhoukan], 30 May 04 (FBIS, 28 May 04); Amnesty International, Executed 
According to Law--The Death Penalty in China, 17 March 04; Irene Wang, 
``New Twist in Convicted Killers' Fight for Justice,'' South China 
Morning Post, 7 August 04, <www.scmp.com>. Falun Gong affiliates 
actively report on alleged cases of torture. See, e.g., ``62 Cases of 
Falun Gong Practitioners Killed from Torture, Abuse Reported in April 
and May 2004,'' Falun Dafa Information Center, 9 June 04, 
<www.faluninfo.net>; ``Death of 25 Falun Gong Practitioners Verified in 
March,'' Falun Dafa Information Center, 20 April 04, 
<www.faluninfo.net>; ``30 Torture and Severe Abuse-Related Deaths of 
Falun Gong Practitioners Reported in February,'' Falun Dafa Information 
Center, 25 March 04, <www.faluninfo.net>; ``64 Falun Gong Deaths from 
Torture in China Reported in Three Months,'' Falun Dafa Information 
Center, 12 February 04, <www.faluninfo.net >.
    \114\ Ibid. For an alleged castration case, see Chan Siu-sin, 
``Injured Man's Family Seeks Payout,'' South China Morning Post, 21 
November 03, <www.scmp.com>.
    \115\ ``Violations of Law by Administrative Law Enforcement 
Officials Result in More Than 650 Million Yuan in Losses and 460 
Deaths'' [Xingzheng zhifa renyuan fanzui zaocheng sunshi 6.5 yi duo 
yuan siwang 460 ren], Xinhua, 10 October 03, <www.xinhuanet.com>.
    \116\ Chan Siusin, ``Authorities Responsible for 4,000 Cases of 
Abuse,'' South China Morning Post, 27 May 04, <www.scmp.com>.
    \117\ Commission Staff Interview.
    \118\ See infra, Reform Initiatives and Public Discussion of the 
Criminal Justice System.
    \119\ Chen Honggen, ``Former Deputy Director of a Sub-bureau''; 
``Guangdong Baishi Police Substation Ordered to Pay 56,000 Yuan in 
Compensation for Extorting a Confession from Art Student Through 
Torture'' [Guangdong baishi paichusuo xingxun bigong yixiao xuesheng 
bei panpei 5.6 wan yuan], Information Times [Xinxi shibao], 15 November 
03, reprinted in <www.sohu.com>.
    \120\ Murray Scot Tanner, ``Shackling the Coercive State: China's 
Ambivalent Struggle Against Torture,'' Problems of Post-Communism XV, 
No. 5 (September/ October 2000), 13-30. After the Detention and Death 
of Sun Zhigang, Testimony and Written Statement of Murray Scot Tanner; 
Commission Staff Interview.
    \121\ Regulations on Procedures for Public Security Handling of 
Administrative Cases [Gongan jiguan banli xingzheng anjian chengxu 
guiding], issued 26 August 03, art. 26. Local governments also 
announced new measures against torture.
    \122\ Article 26, clause 2 of the new regulation states, ``It shall 
be strictly forbidden to extort confessions by torture and to collect 
evidence by threat, enticement, deceit, or other unlawful means. 
Evidence obtained through unlawful measures may not be taken as the 
basis for determining a case.''
    \123\ Supreme People's Court, Interpretation on Several Issues 
Regarding Implementation of the PRC Criminal Procedure Law [Zuigao 
renmin fayuan guanyu zhixing zhonghua renmin gongheguo xingshi susongfa 
ruogan wenti de jieshi], issued 29 June 98.
    \124\ Provisions on Application of Continuing Interrogations by 
Public Security Organs [Gongan jiguan shiyong jixu panwen guiding], 
issued 12 July 04. For a description of the new regulations, see Xin 
Wen, ``The Ministry of Public Security Promulgates `Provision on the 
Application of Continuing Interrogations by Public Security Agencies,'' 
Ministry of Public Security, 3 August 04 (FBIS, 11 August 04); and 
Zhang Weina, ``If a Person Being Interrogated Commits Suicide the 
People's Police Officer Directly Responsible Must Be Dismissed'' [Bei 
panwenren zisha yao kaichu zhijie zeren minjing], China Court Net 
[Zhongguo fayuan wang], 4 August 04, <www.chinacourt.org.cn>.
    \125\ Provisions on Application of Continuing Interrogations by 
Public Security Organs, art. 39.
    \126\ See, e.g., ``Zhejiang: Public Security Officers Who Extort 
Confessions Through Torture in Handling Cases to be Dismissed Without 
Exception'' [Zhejiang: Gongan minjing zai ban'an guocheng zhong xingxun 
bigongzhe yi lu kaichu], Xinhua, 22 September 03, <www.xinhuanet.com>.
    \127\ Yan Yang, ``Why It Is So Difficult to Convict Someone for 
Extorting Confessions Through Torture,'' [Xingxun bigong weihe nanyi 
xingzui], Legal Daily [Fazhi ribao], 23 October 03, <http://
news.china.com>. A similar discussion based on comments by Chinese 
judges and scholars may be found in Wang Chien-min, ``Reflecting on 
Prisoner Abuse by US Forces.'' One Chinese scholar quoted in this 
article refers to the ``stinking bean curd'' theory of torture that is 
prevalent in Chinese judicial circles. This type of bean curd ``stinks 
but tastes good when you eat it.'' Law enforcement officials may view 
torture as unseemly, but they find it useful and like the results.
    \128\ Yan Yang, ``Why It Is So Difficult to Convict Someone for 
Extorting Confessions Through Torture.''
    \129\ Fu Kuanzhi, ``The Three Factors That Must be Present to End 
the Extortion of Confessions Through Torture.''
    \130\ After the Detention and Death of Sun Zhigang, Testimony and 
Written Statement of Murray Scot Tanner.
    \131\ ``China Lets UN Rights Expert Visit Detention Centers,'' Wall 
Street Journal, 31 March 04, <www.wsj.com>.
    \132\ ``UN Rights Expert's Visit Postponed,'' Xinhua, 16 June 04 
(FBIS, 16 June 04).
    \133\ ``Shanghai Seeks to Curb Illegal Organ Trade,'' South China 
Morning Post, 17 January 2004, <www.scmp.com>.
    \134\ ``Gansu Prisoners on Death Row Forced to `Donate' Organs,'' 
Tai Yang Pao, 24 September 03 (FBIS, 24 September 03) (citing the 
Lanzhou Morning News). The Dunhuang case is significant as a judicial 
recognition of rules relating to organ harvesting. In 1984, the Chinese 
government issued the ``Temporary Rules Concerning the Utilization of 
Corpses of Organs from the Corpses of Executed Prisoners.'' These 
regulations provided for the use of organs of executed criminals if no 
one claims the corpse, the family consents to the use of the corpse, or 
the executed criminal voluntarily donates his organs, but stipulated 
that, ``Where the executed criminal has volunteered to have his corpse 
provided to a medical treatment unit for use, there should be a formal 
written certificate or record signed by the criminal and deposited at 
the people's court where it can be inspected.'' Temporary Rules 
Concerning the Utilization of Corpses of Organs from the Corpses of 
Executed Prisoners [Guanyu liyong sixing zuifan shiti huo shiti qiguan 
de zanxing guiding], issued 9 October 84, clause 3.
    \135\ ``Law Urged on Organ Transplant,'' China Net [Zhongguo wang], 
15 November 03, <http://china.com.cn>; ``Shanghai Seeks to Curb Illegal 
Organ Trade,'' South China Morning Post, 17 January 04, <www.scmp.com>.
    \136\ ``Shenzhen: First Domestic Regulations Passed on the Donation 
and Transplantation of Human Organs'' [Shenzhen: Guonei shoubu renti 
ziguan sunxian yizhi tiaoli huo tongguo], People's Daily [Renmin 
ribao], 22 September 03, <www.people.com.cn>.
    \137\ PRC Criminal Procedure Law, art. 33.
    \138\ PRC Criminal Procedure Law, art. 34; Regulations on Legal Aid 
[Falu yuanzhu tiaoli], issued 16 July 03, art. 12.
    \139\ PRC Criminal Procedure Law, art. 34; Regulations on Legal 
Aid, chapter 2.
    \140\ In 2002, 180,000 out of a total 600,000 applicants for all 
types of cases were granted legal aid. Yan Ting, ``New Regulation 
Standardizes Legal Aid,'' South China Morning Post, 1 August 03, 
<www.scmp.com>. According to official statistics, courts appointed 
counsel for 77,199 criminal defendants in 2003 (11,864 blind, deaf, or 
mute defendants, 28,868 minor defendants, 24,052 defendants facing the 
death penalty, and 12,415 other defendants). Legal aid organizations 
approved applications for an additional 8,991 criminal defendants. 
Ministry of Justice Legal Aid Center, 2003 Annual Report on Legal Aid 
Work [2003 Falu yuanzhu gongzuo nianbao], January 2004, 25. The total 
number of legal aid applications for 2003 is not available. However, 
official statistics indicate that courts nationwide imposed sentences 
on 933,967 criminal defendants in 2003. SPC Work Report, March 2004. 
For a detailed description of legal aid in China, see Section V(c)--
Access to Justice and Legal Aid.
    \141\ The Legal Daily, a newspaper published by the Ministry of 
Justice, reported in January 2003 that the percentage of criminal 
defendants represented by counsel dropped from 40 percent in 1996 to 30 
percent in 2001. Cha Qingjiu, ``Lawyers Turn Pale at the Mention of 
Defending Criminal Suspects--Worries Arising from the Decreasing 
Percentages of Criminal Cases with Defense Lawyers [Lushi tan xingbian 
er sebian, xingshi anjian bianhu lu xiajiang zhi you],'' Legal Daily 
[Fazhi ribao], 13 January 03, <www.legaldaily.com.cn>. A professor at 
the National Judicial College confirms that in many courts, fewer than 
30 percent of criminal defendants are represented by counsel. Wang Jin, 
``Are Defense Lawyers Able to Enjoy `Special Rights,' '' [Xingshi lushi 
nengfou hengshou `tequan'] Beijing Youth Daily [Beijing qingnianbao], 
22 May 01. Surprisingly, the percentage of criminal defendants 
represented by counsel dropped between 1996 and 2002, even as the 
number of attorneys in China increased by over 20 percent.
    \142\ Commission Staff Interviews; Wang Jin, ``Are Defense Lawyers 
Able to Enjoy `Special Rights' '' (noting that in some areas, the 
percentage of defendants represented by counsel is as low as 10 
percent). According to Minister of Justice Zhang Fusen, 206 counties in 
China do not have a single lawyer at all. Li Weiwei, ``206 Counties in 
My Country Do Not Have a Single Lawyer'' [Wo guo 206 ge xian meiyou 
yiming lushi], Xinhua, 23 March 04, <www.chinacourt.org>. At a recent 
national meeting of Chinese justice officials, one commentator 
identified lack of access to lawyers in rural and minority areas as an 
especially pressing problem. ``Several Problems in the Reform of 
Judicial Administration,'' Legal Daily.
    \143\ PRC Criminal Procedure Law, arts. 36, 47, 96
    \144\ See CECC, 2003 Annual Report, Section III(a)--Criminal 
Justice, Access to Counsel; CECC, 2002 Annual Report, Criminal Justice.
    \145\ In the case of dissident Yang Jianli, for example, Chinese 
officials refused his lawyer's repeated requests to meet with him until 
July 2003, a year and a half after his detention. Yang Jianli, Closing 
Statement in Court, 4 August 03 (on file with the Commission). Alleged 
spy Chen Yulin was reportedly held for nearly one year before being 
permitted to meet with his lawyer. Chi Shuoming, ``Case Outside 
Disputed Case of British Espionage Involving Xinhua News Agency,'' Asia 
Weekly [Yazhou zhoukan], 30 May 04 (FBIS, 28 May 04). When suspects are 
permitted to meet with a lawyer, their conversations are often 
monitored and recorded by authorities.
    \146\ Commission Staff Interviews. In the Yang Jianli case, Yang 
was only permitted to meet with his defense attorneys three times, and 
each of these meetings was recorded. Prosecutors had nearly a year and 
a half to prepare their case against Yang. Yang Jianli, Closing 
Statement in Court, 4 August 03 (on file with the Commission).
    \147\ See, e.g., ``Several Problems in the Reform of Judicial 
Administration,'' Legal Daily; ``New Rules Enshrine Rights of Lawyers 
in Criminal Cases,'' Xinhua, 4 March 04 (FBIS, 5 March 04); ``Chinese 
Procuratorate Moves to Protect the Rights of the Accused,'' Xinhua, 11 
March 04 (FBIS, 11 March 04).
    \148\ Commission Staff Interviews.
    \149\ Commission Staff Interviews; Ping Yu, ``Glittery Promise vs. 
Dismal Reality: The Rule of a Criminal Defense Lawyer in The People's 
Republic of China After the 1996 Revision of the Criminal Procedure 
Law,'' 35 Vanderbilt Journal of Transnational Law 827 (2002).
    \150\ CECC, Zhang Jianzhong Case Update.
    \151\ CECC, Defense Lawyers Turned Defendants, Zhang Jianzhong and 
the Criminal Prosecution of Defense Lawyers in China.
    \152\ Xiao Yang, ``Scrapping Article 306 Would Make Law Fairer,'' 
China Daily, 12 April 04. Chinese judicial officials also publicly 
acknowledged the problem in August 2004. ``Several Problems in the 
Reform of Judicial Administration,'' Legal Daily.
    \153\ Provisions on People's Procuratorates Safeguarding Lawyers 
Carrying Out Professional Work According to Law During the Criminal 
Process [Guanyu renmin jianchayuan baozhang lushi zai xingshi susong 
zhong yifa zhiye de guiding], issued 30 December 03.
    \154\ For example, the new provisions require prosecutors to inform 
defense attorneys when a suspect has been detained and of the place of 
detention, and to ``arrange'' a meeting between lawyers and clients 
within 48 hours of a request by either party.
    \155\ Xiao Yang, ``Scrapping Article 306 Would Make Law Fairer''; 
``New Rules Enshrine Rights of Lawyers in Criminal Cases,'' Xinhua; 
``Chinese Procuratorate Moves to Protect the Rights of the Accused,'' 
Xinhua; ``Several Problems in the Reform of Judicial Administration,'' 
Legal Daily.
    \156\ See, e.g., Xiao Yang, ``Scrapping Article 306 Would Make Law 
Fairer.''
    \157\ Prosecutors conduct initial investigations in only a limited 
number of cases. This function is usually carried out by public 
security. The Ministry of Public Security is reportedly drafting a 
similar set of regulations, but it is unclear when these regulations 
will be released. ``China in Need of More Good Lawyers,'' Xinhua, 23 
March 04 (FBIS, 23 March 04). Several attorneys complained that the 
regulations have had no impact in practice.
    \158\ For example, prosecutors undermine the spirit of the 
provision on client access by concluding ``arrangements'' for a client 
meeting within 48 hours but setting the actual date for meetings much 
later. Chinese attorneys suggested to Commission staff that the 
regulations have not yet had a meaningful impact in practice. 
Commission Staff Interviews.
    \159\ In 2003, Chinese courts imposed sentences on 933,967 criminal 
defendants and declared 4,835 defendants not guilty. SPC Work Report, 
March 2004. A conviction rate of 99 percent raises obvious questions 
about the fairness of criminal trials. High conviction rates are not 
uncommon in other parts of Asia. For example, police in Japan report 
very few suspects who are not convictable, and about 99 percent of 
those who are prosecuted are convicted. However, defendants in Japan 
are treated with extraordinary leniency. According to one expert, 
defendants are often punished with only minor fines, and courts suspend 
criminal sentences in almost 50 percent of cases. John Owen Haley, 
Authority Without Power, Law and the Japanese Paradox (Oxford: Oxford 
University Press, 1991), 125-33, 135-38, reprinted in John Henry 
Merryman, David S. Clark, John Owen Haley, eds. The Civil Law Tradition 
(Charlotesville: Michie, 1994), 1119-21.
    \160\ Shi Jiangtao, ``Legal Scholars Have Diverse Interpretations 
of Figures.'' One particularly egregious example of the presumption of 
guilt was described in the Beijing Youth Daily. A criminal named Wang 
Youen was tried and retried a total of four times for murder. At his 
third trial, the judge was reported to have asked, ``What evidence do 
you have that you didn't commit the murder? '' Six years after he was 
first detained, Wang was finally exonerated by the Heilongjiang High 
People's Court. Amnesty International, Executed According to Law, 
(citing ``Condemned Prisoner wins 140,000 in compensation,'' Beijing 
Youth Daily, 28 April 02).
    \161\ In 2000, for example, people's courts of first instance 
nationwide handled a total of 560,111 criminal cases, while courts of 
second instance handled 86,619 cases (giving a rough appeal rate of 
approximately 15 percent). 2001 China Law Yearbook [2001 Zhongguo falu 
nianjian], (Beijing: Legal Press, 2001), 1256, 1258. In 2001, people's 
courts of first instance nationwide handled a total of 623,792 criminal 
cases, while courts of second instance handled 98,157 cases (also a 
rough appeal rate of approximately 15 percent). 2002 China Law Yearbook 
[2002 Zhongguo falu nianjian], (Beijing: Legal Press, 2002), 1,238 and 
1,240. These figures provide only a rough estimate of the rate of 
defendant appeals. Not all of the second instance cases handled in a 
year correspond to first instance cases handled that same year. 
Moreover, in China, prosecutors have the right to appeal a verdict of 
not guilty. Chinese law also permits ``private prosecutions'' in some 
cases and allows private prosecutors to appeal not guilty verdicts. PRC 
Criminal Procedure Law, arts. 180-1. Overall, the SPC places the rate 
of appeal in China at about 12 percent for all cases (civil, criminal, 
and administrative). ``Chinese Grassroots Courts Adjudicate 5.2 Million 
Cases Each Year,'' Xinhua, 6 July 04 (FBIS, 6 July 04). In December 
2003, dissident Yang Jianli declined to exercise his right to appeal, 
arguing in a written statement that the process was a sham. ``U.S.-
Based Dissident Yang Refuses to Appeal Sentence for Espionage 
Charges,'' Agence France-Presse, 25 May 04 (FBIS, 25 May 04). In 
February 2004, serial killer Yang Xinhai waived his right to appeal 
after an hour-long trial, despite the fact that he had been sentenced 
to death. ``Death for China's Serial Killer,'' BBC News, 2 February 04, 
<www.news.bbc.co.uk>.
    \162\ PRC Criminal Procedure Law, arts. 181, 203-207. Although 
decisions by appeals courts are supposed to be ``final,'' provisions on 
``adjudication supervision'' in the Criminal Procedure Law require 
people's courts to retry cases when prosecutors find a ``definite error 
in a legally effective judgment or order'' and protest to the court. In 
fact, China's State Compensation Law creates a perverse incentive for 
prosecutors to continue appealing, as a verdict of not guilty may 
subject them to criminal compensation liability for wrongful arrest and 
prosecution. State Compensation Law, adopted 12 May 94, art. 15. 
Chinese scholars have noted this unintended effect of the State 
Compensation Law. De Hengbei, ``An Analysis of Basic Concepts in the 
Controversy over Seeking the Criminal Liability of Lawyers.''
    \163\ There are numerous examples of trials in sensitive or complex 
cases that lasted only hours or a day, including those of Internet 
dissident Du Daobin (20 minutes), serial killer Yang Xinhai (one hour), 
democracy activist He Depu (two hours), entrepreneur Sun Dawu (six 
hours), Zhang Jianzhong (one day), dissident Yang Jianli (one day), and 
resident activist and advocate Zheng Enchong (one day). While the 
length of a trial alone cannot be taken as the sole indicator of 
fairness, such short trials in key cases, when considered along with 
the many other problems and statistics raised in this section, suggest 
that trials are little more than a formality.
    \164\ Under Article 152 of the Criminal Procedure Law, all criminal 
cases of first instance, except those involving ``state secrets,'' the 
``private affairs of individuals,'' or minors, are required to be held 
in public. If a case is not to be held in public, the court must 
announce the specific reason at the proceeding. Authorities sometimes 
restrict access to trials not falling within such exceptions. For 
example, the trials of Zhang Jianzhong and the officials charged with 
dereliction of duty in the death of Sun Zhigang were restricted, 
despite the fact that these cases did not involve state secrets.
    \165\ Human Rights in China Press Release, ``Internet Activist Du 
Daobin Goes to Trial,'' 17 May 04.
    \166\ Ibid.
    \167\ Shi Jiangtao, ``Legal Scholars Have Diverse Interpretations 
of Figures.''
    \168\ City of Beijing, Bureau of National Security Opinion 
Recommending Prosecution, 4 June 03; Defense Statement in Trial of 
First Instance of Yang Jianli, 4 August 03 (on file with the 
Commission).
    \169\ Shanghai No. 2 Intermediate Court, Criminal Judgment in the 
Case of Zheng Enchong, 28 October 03; Defense Statement in Trial of 
First Instance of Zheng Enchong, 28 August 03 (on file with the 
Commission).
    \170\ Shao's conviction appears to have been based primarily on a 
Judicial Accounting Audit commissioned by public security, Shao's 
alleged confession, and the statements of other witnesses, including 
two import agents who themselves were implicated in the case. Both Shao 
and a panel of legal experts have raised compelling questions about the 
reliability of the Judicial Accounting Audit. Shao denies confessing to 
any crimes, and the police interrogation record produced at trial 
reportedly contained no record of his confession. Police have refused 
to release the original interrogation records. According to the trial 
court judgment, several witnesses who were also charged with crimes and 
who implicated Shao were given lenient treatment for their cooperation. 
Shao maintains that he was prosecuted because he refused to pay bribes 
to local tax auditors. An extensive collection of documents relevant to 
the case, including the indictment and the trial court judgment, is on 
file with the Commission.
    \171\ Under Article 46 of the Criminal Procedure Law, ``Confession 
by the defendant only, without other evidence, cannot be used to 
determine that the defendant is guilty and to make any sentencing.''
    \172\ See, e.g., ``A Wenzhou `Criminal Sentenced to Death' Who Sat 
in Jail For Eight Years Wants State Compensation,'' Xinhua. In the 
Wenzhou case, Dong Wenlie was sentenced to death for drug crimes. He 
reportedly confessed after two days of torture. No witnesses appeared 
at his trial and no documentary evidence of his crimes was submitted to 
the court. See also, ``Chongqing Resident Obtains 130,000 in State 
Compensation for Wrongful Murder Judgment and Seven Years in Prison,'' 
[Chongqing yi shimin bei cuopan sharenzui fuxing qi nian huo guojia 
peichang shisanwan], Procuratorial Daily [Jiancha ribao], 10 November 
03, <www.jcrb.com.cn> (citing the case of Dong Liming, who was 
convicted for murder and sentenced to death on questionable evidence 
and confessions that were later withdrawn), and Pan, ``Easing of Penal 
System Part of Change in China'' (citing the case of Li Ping, a migrant 
worker convicted of murder and sentenced to death on the basis of a 
confession obtained through torture and later released by authorities); 
Irene Wang, ``New Twist in Convicted Killers' Fight for Justice,'' 
South China Morning Post, 7 August 04, <www.scmp.com>.
    \173\ Peerenboom, ``Out of the Frying Pan and into the Fire,'' 
1,034.
    \174\ CECC, 2003 Annual Report, Section V(e).
    \175\ One Chinese legal scholar recently decried the influence of 
Political-Legal Committees on the judiciary. ``Scholar Accuses 
Political-Legal Committees of Obstructing the Independence of the 
Judiciary--The Courts Sink to the Level of `Prisoners' and 
Constitutional Violations Should be Eliminated,'' Ming Pao, 30 July 03 
(FBIS, 30 July 03).
    \176\ John Pomfret, ``Child's Death Highlights Problems in Criminal 
Justice,'' Washington Post, 3 July 03, <www.washingtonpost.com>.
    \177\ John Pomfret, ``Execution Reveals Party's Grip on China,'' 
Washington Post, 23 December 03, <www.washingtonpost.com>.
    \178\ PRC Criminal Law. Yang Shilong, ``How Much Longer Until China 
Abolishes the Death Penalty'' [Zhongguo li feichu sixing haiyou duo 
yuan?], Huanqiu [Globe], 1 June 04 (an interview with scholar Liu 
Renwen). According to one recent NGO report, there is some disagreement 
among scholars on the exact number of capital offenses in China. 
Amnesty International, Executed According to Law, 10. The majority of 
offenses for which individuals may be subject to the death penalty are 
non-violent economic offenses. ``Is There a Limit to Deterrence of 
Corruption? Experts Say We Can Consider Abolishing the Death Penalty 
for Economic Crimes,'' [Fubai weishe you xian? Zhuanjia cheng ke kaocha 
feizhi jingji fanqui sixing], China News Net [Zhongguo xinwen wang], 10 
August 04, <www.news.china.com>.
    \179\ Amendment III to the PRC Criminal Procedure Law, adopted 29 
December 01. Supreme People's Court, Supreme People's Procuratorate, 
Interpretation on Several Questions Related to Specific Law to Be 
Applied in Handling Criminal Cases Involving the Illegal Production, 
Sale, Transport, and Storage of Strong Rat Poison and Other Prohibited 
Deadly Chemicals [Zuigao renmin fayuan, zuigao renmin jianchayuan, 
guanyu banli feifa zhizao, maimai, yunshu, chucun dushuqian deng jinyun 
judu yuaxueping xingshi anjian juti yingyong falu ruogan wenti de 
jieshi], issued 29 August 03. Supreme People's Court, Supreme People's 
Procuratorate, Interpretation on Certain Problems of Concretely 
Applying the Law in Handling Criminal Cases Involving Impairment of the 
Prevention or Control of Outbreaks of Contagious Diseases and Epidemics 
and Other Disasters [Zuigao renmin fayuan, zuigao renmin jianchayuan 
guanyu banli fanghai, kongzhi tufa zhuanranbing yiqing deng zaihai de 
xingshi anjian juti yingyong falu ruogan wenti de jieshi], issued 13 
May 03.
    \180\ Yang Shilong, ``How Much Longer Until China Abolishes the 
Death Penalty''; Guo Guangdong, ``The Death Penalty: Keep It or Abolish 
It? '' [Sixing: Baoliu? Feichu?], People's Daily [Renmin ribao], 10 
January 03.
    \181\ Peerenboom, ``Out of the Frying Pan and into the Fire,'' 1050 
(citing various polls taken between 1995 and 2001 indicating public 
support for heavy punishments and the death penalty). In December 2002, 
one scholar tracked messages posted to an Internet chat room in 
response to media stories about a scholarly conference on the death 
penalty. According to the scholar, more than 80 percent of the 
respondents supported the death penalty, while 76 percent called for 
the number of capital crimes to be increased. Reportedly, only 13 
percent of the submissions favored abolishing capital punishment. 
``Death Row Lawyer Heads China's Execution Debate,'' Reuters, 4 
February 02, <www.asia.cnn.com>. The strong public outcry in response 
to the decision by a Shenyang court to change the death sentence of 
mafia boss Liu Yong also suggests strong support for capital 
punishment. See supra, China's ``Strike Hard'' Anti-Crime Campaign and 
the accompanying note on the Liu Yong case. For one recent article that 
reflects mainstream views on the efficacy on the death penalty, see 
``Death Sentences in Major Corruption Cases Terrify Corrupt 
Individuals'' [Jutan bei pan sixing ran fubazhe danzhanxinjing], Legal 
Evening News [Fazhi wanbao], 26 August 04. In August 2004, Reuters 
reported that more than 50 individuals in Xinjiang were executed as 
part of a government crackdown on separatists and alleged terrorists. 
John Ruwitch, ``China Convicts 50 to Death in `Terror Crackdown,' '' 13 
September 04. Chinese scholar Liu Renwen contends that public support 
of the death penalty is problematic, however. If the public were 
informed about the number of executions and wrongful judgments 
involving death sentences, experts were allowed to discuss materials 
and problems related to the death penalty openly, and the public was 
not constantly bombarded with propaganda about the positive impact of 
the death penalty, he argues, the public would likely have a different 
view. Yang Shilong, ``How Much Longer Until China Abolishes the Death 
Penalty.''
    \182\ ``Is There a Limit to Deterrence of Corruption? Experts Say 
We Can Consider Abolishing the Death Penalty for Economic Crimes,'' 
China News Net. Even senior Chinese officials who oppose abolition of 
the death penalty now acknowledge that the trend is for capital 
punishment to be phased out. Commission Staff Interview.
    \183\ ``PRC Foreign Ministry Spokesman Defends Keeping PRC 
Execution Statistics Secret,'' Agence France-Presse, 5 February 04 
(FBIS, 5 February 04).
    \184\ Amnesty International, Executed According to Law, 1.
    \185\ Huang Yong, ``Forty-One National People's Congress Deputies 
Submit a Joint Proposal Calling on the Supreme People's Court To 
Reclaim the Power To Examine and Approve Death Sentences'' [41 daibiao 
lianming jianyi zuigao renmin fayuan shouhui sixing hezhunquan], China 
Youth Daily [Zhongguo qingnianbao], 12 March 04. According to the 
report, the NPC delegate also stated that China executes five times the 
total in all other countries combined each year.
    \186\ It is possible that the delegate could have been referring to 
cases in which death sentences were handed down as opposed to cases in 
which death sentences were actually carried out. Some death sentences 
are suspended for two years or commuted to life imprisonment.
    \187\ John Kamm of the Dui Hua Foundation estimated in 2003 that 
there are at least 10,000 executions in China each year. Disidai [The 
Fourth Generation], a book purportedly written by an internal Chinese 
government source, cites a Party dossier on Luo Gan as indicating that 
15,000 people a year were executed between 1998 and 2002. Andrew Nathan 
and Bruce Gilley, China's New Rulers: The Secret Files, NYREV, Inc., 
2003.
    \188\ Benjamin Kang Lim, ``China Security Czar Orders Fewer 
Executions,'' Reuters, 9 March 04. Luo is reported to have issued a 
directive stating that ``If it's possible to execute fewer people, then 
execute fewer people'' and ``If it's possible not to execute people, 
then don't execute people.'' One Chinese expert confirms that while 
this is the policy on paper, it is not concrete enough to affect 
practice, particularly in the context of the leadership's ``strike 
hard'' effort.
    \189\ Yang Shilong, ``How Much Longer Until China Abolishes the 
Death Penalty.''
    \190\ Congressional-Executive Commission on China, The Execution of 
Lobsang Dondrub and the Case Against Tenzin Deleg: The Law, the Courts, 
and the Debate on Legality, 10 February 03, 5-10.
    \191\ SPC Work Report, March 2004. According to the work report, of 
300 cases involving the review of death sentences, the original 
sentence was sustained in 182 cases, the sentence was changed in 94 
cases, and 24 cases were remanded to lower level courts for retrial. 
One Chinese scholar reports that the annual rate of reversal for death 
sentences reviewed by the SPC fluctuates between 20 percent and 29 
percent. Yang Shilong, ``How Much Longer Until China Abolishes the 
Death Penalty'' (citing Liu Renwen as putting the range from 20 to 29 
percent). See also, Pan, ``Easing of Penal System Part of Change in 
China'' (citing Chen Xinliang as placing the rate between 25 percent 
and 30 percent).
    \192\ Yang Shilong, ``How Much Longer Until China Abolishes the 
Death Penalty''; Pan, ``Easing of Penal System Part of Change in 
China.''
    \193\ Huang Yong, ``Forty-One National People's Congress Deputies 
Submit a Joint Proposal,'' ``Response to the Delegates' Motion to Take 
Back the Power to Approve Death Sentences: The Supreme People's Court 
is Considering Establishing Branch Chambers to Review Death Sentences'' 
[Huiying daibiao shouhui sixing yian: zuigao renmin fayuan kaocha 
shefenyuan zhuanhe sixing], Southern Metropolitan Daily [Nanfang 
dushibao], 12 March 04, <www.nanfangdaily.com.cn>. There is some debate 
as to whether the SPC can do this unilaterally or whether the NPC 
Standing Committee must approve the change. ``Who Should Determine 
Whether to Recall the Power of Death Penalty Review'' [Shouhui sixing 
hezhunquan ying shui shuo le suan], Procuratorial Daily [Jiacha ribao], 
17 March 04, <www.jcrb.com.cn>. A senior judicial official interviewed 
by Commission staff indicated that the NPC would have to resolve the 
issue. Commission Staff Interview.
    \194\ Response to the Delegates' Motion to Take Back the Power to 
Approve Death Sentences,'' Southern Metropolitan Daily; Pan, ``Easing 
of Penal System Part of Change in China.''
    \195\ A People's Court Daily article listed ``benefits to China's 
international human rights struggle'' as one of the four principal 
reasons the SPC is considering the move to take back review of death 
sentences. Wang Lianying, ``Give the Power to Review and Approve Death 
Sentences Back to the Supreme People's Court'' [Jiang sixing anjian 
hezhunquan shougui zuigao fayuan], People's Court Daily [Renmin 
fayuanbao], 12 March 04. This and other reform proposals were announced 
shortly before the UN Human Rights Commission met in Geneva in April 
2004.
    \196\ See, e.g., Chow Chung-yan, ``Mainland Police Vow to Open Up 
to Media,'' South China Morning Post, 3 January 04; Liu Renwen, 
``Social Order Information Disclosure System: Public's Right to Know 
About Situation,'' Study Times, 19 January 04 (FBIS, 23 January 04); 
Sun Chingwen, ``Academics Expect CPC Central Committee to Institute 
Spokesman System,'' Ta Kung Pao, 12 October 03 (FBIS, 13 October 03); 
``Supreme People's Procuratorate Sets Up Spokesman System for Quarterly 
News Briefings,'' Xinhua, 23 July 03 (FBIS, 23 July 03); Li Xu, 
``Beijing Municipal Procuratorate Unveils `Extended Custody Reporting 
Telephone Hotline,' '' Xinhua, 2 August 03 (FBIS, 2 August 03); 
``China's Supreme Peope's Procuratorate Establishes Hotlines to Hear 
Human Rights Complaints,'' Xinhua, 27 June 04 (FBIS, 27 June 04).
    \197\ Under the program, citizen supervisors participate in the 
investigation of cases involving procuratorial misconduct, review case 
files and charging decisions upon the request of a defendant, submit 
opinions on the handling of cases, and appeal to higher level 
procuratorial organs in cases of concern. Wu Huanqing, ``3000 Citizen 
Supervisors Begin Work in 10 Provinces'' [3000 ming renmin jianduyuan 
10 sheng shanggang], Xinhua, 30 October 03; ``200 Cases Are Subjected 
to Monitoring Procedure by People's Monitors'' [Erbai yu anjian jinru 
renmin jianduyuan jiandu chengxu], Guangming Daily [Guangming ribao], 
12 December 03, <www.gmw.com.cn>. In March 2004, the SPP reported that 
a total of 4,944 citizen supervisors had handled nearly 500 cases. SPP 
Work Report, March 2004. One leading defense lawyer critical of other 
reform efforts expressed optimism about the citizen supervisor program. 
Commission Staff Interview.
    \198\ Regulations on Disciplinary Measures for Prosecutors 
[Jianchayuan jilu chufen tiaoli], issued 21 June 04. For a brief 
introduction to the measures, see ``Disciplinary Punishment Rules for 
Prosecutors,'' Xinhua, 13 August 04, (FBIS, 13 August 04).
    \199\ In the summer of 2003, Minister of Public Security Zhou 
Yongkang launched a campaign to address a backlog of citizen complaints 
about public security organs and to investigate the ``seven major 
problems in public security.'' ``The Ministry of Public Security Will 
Concentrate on Settling the Backlog of Seven Major Complaints About 
Public Security'' [Gonganbu jiang jizhong qingli fanying gongan zi da 
wenti de jubao jiyajian,'' Xinhua, 13 August 03, <www.xinhuanet.com>. 
According to official reports, public security organs at all levels 
dispatched more than 20,000 inspection teams to root out abuses. 
``China Sacks 387 Policemen for Misconduct in 2003,'' Xinhua, 15 
January 04 (FBIS, 15 January 04).
    \200\ ``China Sacks 387 Policemen for Misconduct in 2003''; Chow 
Chungyan, ``Thousands of Rogue Police Officers Sacked,'' South China 
Morning Post, 8 January 04, <www.scmp.com>; ``PRC State Councilor Zhou 
Yongkong Calls For Police Force,'' Xinhua, 9 April 04 (FBIS, 9 April 
04).
    \201\ ``China Punishes 972 Court Staff for Violating Discipline, 
Law,'' Xinhua, 15 December 03 (FBIS, 15 December 03).
    \202\ New initiatives announced include work release programs, 
legal aid for prisoners, degree equivalency and other professional 
training, limited remuneration for prison laborers, spousal visits, 
societal rehabilitation programs, and programs to improve production 
safety for prison laborers. ``In Jail But Helped by Society,'' Xinhua, 
28 December 04 (FBIS, 28 December 04); Verna Yu, ``Extension of 
Community Service Scheme Applauded,'' South China Morning Post, 30 July 
04 (FBIS, 30 July 04); ``China Holds First Seminar On Protecting 
Prisoners' Rights,'' Xinhua, 10 September 03 (FBIS, 10 September 03); 
``China Pays Salary to Prisoners at Labor Camp,'' Xinhua, 25 September 
04, (FBIS, 25 September 04); Alice Yan, ``Prison Initiative Gives Ex-
Convicts a Helping Hand in Finding Work,'' South China Morning Post, 27 
January 04, <www.scmp.com>; ``Work of the Ministry of Justice Unit on 
Prison Production Safety'' [Sifabu bushu jianyu anquan shengchan 
gongzuo], Legal Daily [Fazhi ribao], 18 February 04, 
<www.legaldaily.com.cn>; ``Legal Assistance Provided to Prisoners in 
Beijing,'' Xinhua, 19 March 04 (FBIS, 19 March 04); ``Convict 
`Hearings' Come to China's Prisons'' [Fanren ``tingzhenghui'' zoujin 
zhongguo jianyu], Procuratorial Daily [Jiancha ribao], 30 March 04, 
<www.jcrb.com.cn>.
    \203\ ``China's Top Judicial Body Sets Timetable for Curbing Prison 
Irregularities,'' Xinhua, 24 May 04 (FBIS, 24 May 04), ``Addressing 
Concerns on Treatment of Prisoners,'' China Daily, 19 May 04 (FBIS, 19 
May 04). In June 2004, the SPC announced a nationwide review of parole 
and sentence reduction decisions
    \204\ Sun Haifeng, ``National Procuratorial Investigation Reveals: 
13, 961 Sentence Reductions Illegal'' [Quanguo jiancha jiguan qingcha 
faxian: 13,961 ren jianxing shuyu weifa], Xinhua, 10 September 04. The 
authors note that problem illegal sentence reductions has been a major 
flashpoint for public anger.
    \205\ Chan Siusin, ``Authorities Responsible for 4,000 Cases of 
Abuse,'' South China Morning Post, 27 May 04, <www.scmp.com>; 
``Protecting Human Rights,'' China Daily, 1 July 04, 
<www.chinadaily.com.cn>.
    \206\ ``China in Need of More Good Lawyers,'' Xinhua, 23 March 04 
(FBIS, 23 March 04).
    \207\ Commission Staff Interviews. For an example of some of the 
broad ranging changes to the Criminal Procedure Law that have been 
proposed by one Chinese legal scholar, see Yan Xianghua, Han Hongxing, 
``The Time is Already Ripe for Another Revision to the Criminal 
Procedure Law'' [Xingshi susongfa zai xiugai shiji yijing chengshu], 
Procuratorial Daily [Jiancha ribao], 17 December 03, <www.jcrb.com.cn>.
    \208\ In April 2004, a university graduate named Sun Zhigang was 
mistakenly detained by police in Guangzhou and beaten to death while in 
custody. The case sparked a national outcry and forced the government 
to repeal a controversial form of administrative detention called 
custody and repatriation that had been applied in Sun's case. CECC, 
2003 Annual Report, Sections III(a) and V(e). In July 2003, a three-
year old girl named Li Siyi died of thirst or starvation when public 
security officials sent her mother to a drug detoxification center and 
ignored the mother's pleas that her daughter was home alone. Pomfret, 
``Child's Death Highlights Problems in Chinese Justice.'' The story 
caused public outrage when it broke. In the wake of the Sun Zhigang and 
Li Siyi cases, stories of law enforcement abuses and public criticism 
of authorities proliferated in domestic Chinese media and in Internet 
chatrooms. Commission Staff Monitoring. In mid-2003, as the law 
enforcement public relations campaign was launched, Minister of Public 
Security Zhou Yongkang admonished police officers nationwide to 
``resolutely stop malignant violations that offend the heavens and 
reason and stir up public indignation.'' Hu Kui, Sun Zhan, ``A Powerful 
Drive To Exercise Management Over the Police,'' News Weekly [Xinwen 
zhoukan], 4 August 03 (FBIS, 11 August 03). According to one Chinese 
government report, the public provided only 6,073 tips on crimes in 
2003 (as opposed to 216,000 in 1983), a development Chinese analysts 
attributed in part to corruption and ``unhealthy trends'' in law 
enforcement. Yu Bin, ``New Arrangements for Public Security Prevention 
and Control.'' For official acknowledgement of public anger at and 
distrust of law enforcement agencies, see also Chen Hong, ``Police, 
Prosecutors Have Image Problem,'' China Daily, 22 July 04, 
<www.chinadaily.com.cn>; Xin Wen, ``The Ministry of Public Security 
Promulgates `Provisions on the Application of Continuing Interrogations 
by Public Security Agencies,'' Ministry of Public Security, 3 August 04 
(FBIS, 16 August 04).
    \209\ On August 20, banner headlines on Xinhua's Chinese-language 
Web site lauded recent reforms as symbols of ``new governance'' and the 
government's concern for the lives of average citizens. ``Focusing 
China's `New Governance': Taking People as the Basis, Paying Attention 
to People's Lives'' [Zhujiao zhongguo `xin zheng': yi ren wei ben, 
guanzhu rensheng], Xinhua, 8 August 03, <www.xinhuanet.com>. Wen 
Jiabao's work report to the National People's Congress in March 2004 
stressed these populist themes. PRC Government Work Report, 5 March 04. 
For external analysis of Hu and Wen's motives, see ``Congress to Reveal 
Leaders' Way Forward,'' South China Morning Post, 5 March 04, 
<www.scmp.com>; and ``China's Hu Jintao Begins Working on Image in 
Quest To Consolidate Power,'' Agence France-Presse, 20 October 03 
(FBIS, 20 October 03).
    \210\ Commission Staff Monitoring.
    \211\ In some programs, Chinese counterparts held mock Chinese 
trials to demonstrate Chinese procedure to visiting American scholars 
and officials. According to Commission sources, mock hearings and 
trials encouraged an atmosphere of mutual exchange and generated 
significant interest and goodwill on the part of Chinese counterparts.
    \212\ Seventeenth International Penal Law Conference Opens in 
Beijing'' [Di shiqi jie guoji xingfa dahui zai jing zhaokai], Legal 
Daily [Fazhi ribao], 13 September 04, <www.legaldaily.com.cn>.
    \213\ Commission Staff Interviews. Commission staff were struck by 
the unanimity of Chinese scholars and reformers on this issue and the 
enthusiasm with which they encouraged further exchange.
    \214\ Commission Staff Interviews.

    Notes to Section III(b)--Protection of Internationally Recognized 
Labor Rights
    \215\ Boris Cambreleng, ``Roaring Demand For Coal Exacts Steep 
Price in Human Lives,'' South China Morning Post, 20 April 04, 
<www.scmp.com>.
    \216\ Active Society in Formation: Environmentalism, Labor, and the 
Underworld in China, Program of the Woodrow Wilson Center, 18 May 04, 
Paper and Speech of Ching Kwan Lee, Professor at the University of 
Michigan.
    \217\ ``U.S. Secretary of Labor Elaine L. Chao and the USDOL 
Delegation Meet with Chinese Academic Experts to Discuss Chinese Labor 
Laws,'' U.S. Department of Labor Web site, 6 June 04, <www.dol.gov>.
    \218\ These eight conventions (available at <www.ilo.org>) are:
    <bullet> No. 29 Concerning Forced or Compulsory Labor
    <bullet> No. 87 Concerning Freedom of Association and Protection of 
the Right to Organize
    <bullet> No. 98 Concerning the Application of the Principles of the 
Right to Organize and to Bargain Collectively
    <bullet> No. 100 Concerning Equal Remuneration for Men and Women 
Workers for Work of Equal Value
    <bullet> No. 105 Concerning the Abolition of Forced Labor
    <bullet> No. 111 Concerning Discrimination in Respect of Employment 
and Occupation
    <bullet> No. 138 Concerning Minimum Age for Admission to Employment
    <bullet> No. 182 Concerning the Prohibition and Immediate Action 
for the Elimination of the Worst Forms of Child Labor.
    \219\ The United States has ratified only two of the eight ILO Core 
Conventions. U.S. State Department officials point out that, even 
without ratification, the Conventions largely are already present 
within U.S. law.
    \220\ ``China and the ILO,'' China Labour Bulletin, Issue No. 58, 
Jan-Feb 2001, <http://www.china-labour.org.hk>.
    \221\ Thomas Lum, Congressional Research Service, Workplace Codes 
of Conduct in China and Related Labor Conditions, 23 April 03, 3.
    \222\ PRC Trade Union Law, enacted 3 April 92, amended 27 October 
01, art. 11.
    \223\ Anita Chan, ``China and the International Labour Movement,'' 
15 August 04, <www.gbcc.org.uk>.
    \224\ Gerard Greenfield and Tim Pringle, ``The Challenge of Wage 
Arrears in China,'' International Labor Organization Labor Education 
2002/3, No. 128, 31-3 <www.ilo.org>.
    \225\ Hong Kong Confederation of Trade Unions, Chinese Labour and 
the WTO, June 2004, 33-43 (discussing the role of the ACFTU).
    \226\ Phillip P. Pan, ``When Workers Organize, China's Party-Run 
Unions Resist,'' Washington Post, 15 October 02, A11.
    \227\ Commission Staff Interview.
    \228\ Ibid.
    \229\ ``Six Textile Workers Formally Arrested for Alleged 
Involvement in 8 February Mass Workers Protest in Suizhou, Hubei,'' 
China Labour Bulletin, 28 February 04, <www.china-labour.org.hk>.
    \230\ Four other detained workers were released in April 2004, and 
one women detainee was released because of ill health. ``Criminal 
Trials of the Detained Tieshu Workers Begins: Two Tried, Two More 
Awaiting Trial,'' China Labour Bulletin, 24 April 04, <www.china-
labour.org.hk>.
    \231\ ``Petitioners Attempt Mass Suicide in Beijing,'' Radio Free 
Asia, 12 July 04, reprinted in Asian Labour News, 14 July 04, 
<www.asianlabour.org/>. Their central complaint was that the mining 
bureau had distributed only a quarter of the $10,000 per worker set 
aside for layoffs.
    \232\ ``Beijing Police Turn Back Hundreds of Heilongjiang Miners,'' 
Radio Free Asia, 19 July 04, reprinted in Asia Labour News, 20 July 04, 
<www.asianlabour.org/>.
    \233\ Murray Scott Tanner, ``China Rethinks Unrest,'' 27 Washington 
Quarterly 141 (2004).
    \234\ Ibid., 147.
    \235\ David Fang, ``Industrial Accidents on Mainland Drop 13PC,'' 
South China Morning Post, 14 June 04, <www.scmp.com.>
    \236\ Ibid.; Tony Fung Kam Lam, ``Occupational Safety and Health in 
China,'' Asia Monitor Resource Center, November 2000, 
<www.amrc.org.hk>.
    \237\ John Fabian Witt, ``Can China Improve Work Safety? '' Bangkok 
Post, 8 May 04.
    \238\ Shi Jiangtao, ``Industrial Safety Still a Distant Dream,'' 
South China Morning Post, 19 April 04, <www.scmp.com>.
    \239\ David Fang, ``Industrial Accidents on Mainland Drop 13PC.''
    \240\ Peter S. Goodman, ``In China, Miners Pay a High Toll,'' 
Washington Post, 22 March 04, A1.
    \241\ David Fang, ``Industrial Accidents on Mainland Drop 13PC.''
    \242\ ``News Review: Reported Coal Mine Accidents in March 2004,'' 
China Labour Bulletin, 2 April 04, <www.china-labour.org.hk>.
    \243\ ``Mine Owners Arrested Over `Cover-Up','' China Labour 
Bulletin, 14 June 04, <www.china-labour.org.hk>.
    \244\ Regulations on Insurance for Occupational Injuries [Gongshang 
baoxian tiaoli], issued 27 April 03.
    \245\ Ibid., art. 2.
    \246\ ``China to Establish Work Safety Indexes this Year,'' Xinhua, 
24 February 04, reprinted in China Net, <www.china.org.cn>.
    \247\ The State Administration of Work Safety will issue indexes 
for seven categories: the national death toll from industrial 
accidents, the death rate per 100,000 yuan of GDP, the death rate per 
100,000 people, the death rate for industrial accidents per 100,000 
people, the death toll per 100,000 for industrial enterprises, and the 
death toll for coal mines and the death rate per one million tons of 
coal. The death tolls and rates will be published every quarter. Ibid.
    \248\ ``U.S. China to Broaden Cooperation on Safety, Workers' 
Rights,'' U.S. Department of State Web site, 21 June 04, <http://
usinfo.state.gov/>. Under one agreement, relevant agencies will broaden 
their cooperation on wage and hours regulations, the enforcement of 
wage and hours laws, and the analysis of wage and hour enforcement 
data. In another agreement on mine safety and health, the governments 
pledged to broaden cooperation in emergency responses to coal mine 
accidents. The third agreement assures the broadened cooperation in 
areas of occupational health and safety, particularly regarding the 
handling of hazardous chemicals, emergency response procedures in 
workplace accidents, private insurance promoting health and safety, and 
the collection of data and analysis of occupational safety and health. 
The fourth agreement covers administration and oversight of pension 
programs.
    \249\ ``Minimum Wage System Set Up,'' Xinhua, 26 July 04, 
<www.xinhuanet.com>.
    \250\ National Labor Committtee, Putting a Human Face on the Global 
Economy, 15 August 04, <www.nlcnet.org.>. One survey shows that full 
time beggars in Beijing average more than 600 yuan per month. Leil a 
Fernandez-Stembridge and Richard Madsen ``Beggars in the Socialist 
Market Economy,'' in Popular China, eds. Perry Link, Richard Madsen, 
and Paul Pickowicz (Lanham: Rowman & Littlefield, 2002), 215.
    \251\ Gerard Greenfield and Tim Pringle, ``The Challenge of Wage 
Arrears in China,'' 31-3.
    \252\ Ibid., at 32.
    \253\ Anthony Kuhn, ``A High Price to Pay For a Job,'' Far Eastern 
Economic Review, 22 January 04, <www.feer.com>.
    \254\ Ibid. Some experts estimate that as many as 90 percent of 
Chinese migrants work without contracts. ``Scheme to Help Recover Back 
Pay,'' South China Morning Post, 19 March 04 (FBIS, 19 March 04). Other 
sources provide even higher numbers. Anthony Kuhn, ``Migrant Workers 
Are Owed Billions in Unpaid Wages, Sparking Demand for Justice,'' Wall 
Street Journal, 19 January 04 (FBIS, 19 January 04).
    \255\ Josephine Ma, ``Workers Face a Long Wait For Justice,'' South 
China Morning Post, 21 January 04, <www.scmp.com>.
    \256\ ``Five Thousand Workers Besiege Hong Kong Factory in Buji,'' 
Tai Yang Pao, 6 June 04 (FBIS, 6 June 04).
    \257\ ``Jiangxi SOE Workers Protest Prohibition on Appealing to 
Higher Authorities,'' Ming Pao, 17 September 03 (FBIS, 17 September 
03).
    \258\ Numerous localities are preparing legislative responses. The 
Beijing city government has prepared local regulations on the payment 
of wages. Under the new regulations, to take effect January 22, wage 
payments are not to be delayed more than 30 days. ``Beijing: Back Wages 
May Not Be Delayed More Than 30 Days'' [Beijing: tuo qian gongzi bu dei 
chaoguo 30 tian], China Youth Daily [Zhonghua qingnian bao], reprinted 
in Xinhua, 27 December 03, <http://news.xinhuanet.com>. The Guangdong 
vice-governor has set a three-year timeframe for resolving the back-
wage issue. ``Province Will Resolve Back Wages Within Three Years'' 
[Quansheng sannian jiejue gongcheng kuan], Southern Metropolitan Daily 
[Nanfang dushi bao], 10 December 03, <www.nanfangdaily.com.cn>. For one 
illustrative case that required eight years and the intervention of Wen 
Jiabao himself to resolve, see ``Hundreds of Migrants Chase Wages for 8 
Years'' [Shubai mingong 8 nian zhuixin], Southern Metropolitan Daily 
[Nanfang dushi bao], 10 December 03, <www.nanfangdaily.com.cn>. The 
issue has attracted the attention of top leaders. One member of the 
Political Bureau of the CPCC and vice premier of the State Council has 
publicly emphasized the importance of the issue and criticized the 
slowness with which certain localities have been addressing it. ``Zeng 
Peiyan: Firmly Grasp [the Goal of] Returning Last Year's Migrant Back 
Wages in the Construction Sector'' [Zeng Peiyan: Zhua jin duixian 
jianshe lingyu qunian tuoqian de mingong gongzi], Xinhua, 2 January 04, 
reprinted in Sina.com, <http://news.sina.com.cn>.
    \259\ Josephine Ma, ``Workers Face a Long Wait For Justice'' 
(citing the Chinese Minister of Construction as stating that various 
levels of government account for at least a quarter of debts owed to 
construction companies).
    \260\ Critical voices have emerged in the Chinese media, raising 
key questions of accountability and oversight for government 
construction projects, many of which are undertaken to raise prestige. 
``Curing the Problem of Migrant Back Wages, Challenging the Career 
Development Model'' [Genzhi nongmingong qianxin nanti, tiaozhan zhengji 
fazhan moshi], 21st Century Business Herald [21 shiji jingji baodao], 
17 January 04, <www.nanfangdaily.com.cn/>.
    \261\ PRC State Council Decision on Amending the ``State Council 
Regulations on Work Hours for Laborers'' [Guowuyuan guanyu xiugai 
``guowuyuan guanyu zhigong gongzuo shijian de guiding'' de jueding], 
issued 25 March 95, arts. 1 and 2.
    \262\ Verite, Inc., A Persistent Problem: Excessive Overtime in 
Chinese Supplier Factories Worker and Management Perceptions of the 
Causes and Impacts, July 2004, 4, <www.verite.org>.
    \263\ Ibid., 21.
    \264\ Commission Staff Interview.
    \265\ Thomas Lum, Workplace Codes of Conduct in China and Related 
Labor Conditions, 10.
    \266\ China Labour Bulletin, Child Labour in China: Causes and 
Solutions, 26 November 03, <www.china-labour.org.hk>.
    \267\ In 2001, 42 people, many children as young as eight, perished 
in an explosion in a rural school in Jiangxi province that had forced 
the students to manufacture fireworks to earn money to support the 
school. ``China's `Fireworks School' Yields Its Dead,'' CNN Web site, 7 
March 01, <www.cnn.com>; ``China Announces New Crackdown on Dangerous 
Fireworks Production,'' Associated Press Worldstream, 26 November 03. 
See also ``Private Schools Organize New Students to Engage in Child 
Labor'' [Minban xuexiao zuzhi xinsheng jiti zuo tonggong], New Beijing 
News [Xin jingbao], 15 September 04, <www.thebeijingnews.com>.
    \268\ ``Focus 13 June Reports on Knitting Mill Illegally Hiring 
Child Workers, CCTV Beijing, 13 June 04 (FBIS, 13 June 04).
    \269\ ``Fujian Company Fined in Child Labor Case,'' Xinhua, 13 
January 03, <www.peopledaily.com.cn>. The local Labor Supervision 
Detachment fined the company 30,000 yuan. Ibid.
    \270\ See, e.g., reports published on the Laogai Research 
Foundation Web site at <www.laogai.org>.
    \271\ World Organization to Investigate the Persecution of the 
Falun Gong, WOIPFG Report on Products Practitioners Are Forced to 
Manufacture in China's Labor Camps, 16 October 03, 
<www.upholdjustice.org>; China: The 15th Anniversary of the Tiananmen 
Square Crackdown, Hearing of the Congressional Human Rights Caucus, 3 
June 04, Testimony of Erping Zhang, Executive Director, Association of 
Asian Research (noting ``over 100,000 Falungong practitioners serving 
in labor camps, jails, and mental institutions'').
    \272\ ``China to Reform Prisons; `Productive Units' Separated From 
Prisons,'' ANSA English Media Service, 22 September 03 (FBIS, 22 
September 03).
    \273\ U.S.-China Economic and Security Review Commission, Policy 
Paper on Prison Labor and Forced Labor in China, U.S--China Economic 
Security Commission Report, 2002, <www.uscc.gov/researchreports/2000--
2003/reports/pris--02.htm.>.
    \274\ Bilateral Trade Policies and Issues Between the United States 
and China, Hearing of the U.S.-China Economic and Security Review 
Commission, 2 August 01, Testimony of Charles Winwood, Customs 
Commissioner on Chinese Prison Labor.
    \275\ 22 USC Sec. 501.

    Notes to Section III(c)--Freedom of Religion
    \276\ ``Chinese Communist Party Policy on Religion Outlined by 
Party Paper,'' People's Daily [Renmin ribao], 14 November 03 (BBC 
Monitoring, 26 November 03).
    \277\ Ibid.
    \278\ Jiang perfected the solution, but the formulation traces its 
roots to Deng Xiaoping. In 1982, China's Constitution was amended to 
protect ``normal religious activities,'' a guarantee that would provide 
``sufficient'' religious freedom for the five faiths officially 
recognized by the Chinese government (Buddhism, Taoism, Islam, 
Catholicism, and Protestantism) while enlarging the Party's mass base 
of support. Deng's new thinking was designed to energize the productive 
capacity of religious believers by tempering the unrelenting hostility 
toward religion that had grown out of the Cultural Revolution. The new 
Party policy on religion was laid out in the 1982 document, ``The Basic 
Viewpoint and Policy on the Religious Question during Our Country's 
Socialist Period (Document 19).'' Mickey Spiegel, ``Control and 
Containment in the Reform Era,'' in God and Caesar in China: Policy 
Implications of Church-State Tensions, eds. Jason Kindopp and Carol 
Hamrin (Washington, D.C.: Brookings Institution Press, 2004); Pitman B. 
Potter, ``Belief in Control: Regulation of Religion in China,'' 174 
China Quarterly 317, 319-321 (2003).
    \279\ Sun Chengbin, ``During Hebei Inspection, Jia Qinglin 
Emphasizes Commanding Religions Work Through the Important Thinking of 
the `Three Represents,' Leading Masses of Religious Believers to Devote 
Themselves to Comprehensively Building Well-off Society,'' Xinhua, 10 
November 03 (FBIS, 10 November 03).
    \280\ Chen Songshao, ``Ruling Party and Religion: An Extremely 
Important Theoretical Issue,'' China Religion [Zhongguo zongjiao], 26 
January 04 (FBIS, 29 April 04).
    \281\ Ibid.
    \282\ Ma Xuejun, ``Do a Good Job of Religious Work in the New 
Period,'' Gansu Daily [Gansu ribao], 30 June 04 (FBIS, 2 July 04).
    \283\ Ibid.
    \284\ Ambiguity has challenged Party policy on religion from the 
start. Even Mao commended the anti-religious activities of peasants, 
while he warned that ``it is wrong'' for anyone to ``cast aside the 
idols'' or ``pull down the temples'' of others. Mao Zedong, ``An 
Investigation into the Peasant Movement in Hunan,'' in Selected Works 
of Mao Tse-tung, Vol. 1 (Beijing: Foreign Languages Press: 1975), 23-
29. See also, Michael A. Lev, ``China Touts New Churches, But Rules 
Crimp Faithful; Government Still Controls Religion,'' Chicago Tribune, 
3 March 04.
    \285\ Wang Yan, ``Uphold the Use of Important Thinking of the 
`Three Represents' to Lead Religious Work,'' Heilongjiang Daily 
[Heilongjiang ribao], 25 May 04 (FBIS, 28 May 04); Ma Xuejun, ``Do a 
Good Job of Religious Work in the New Period''; Hu Shaojie, ``Together 
They Strike Up the Magnificent Melody of Religious Work,'' China 
Religion [Zhongguo zongjiao], 26 March 04 (FBIS, 10 June 04).
    \286\ China's current ``socialist religious theory'' is routinely 
attributed to the third generation leadership, specifically Jiang 
Zemin, in the Chinese press. At the same time, China's fourth 
generation leadership under President and General Secretary Hu Jintao 
has embraced the theory, and ``stressed using the important thinking of 
the `Three Represents' to command religion work.'' ``Study Session of 
Provincial Leading Cadres on Religious Work Opens in Beijing,'' Xinhua, 
3 June 04 (FBIS, 3 June 04).
    \287\ The official Party line pursued during the Cultural 
Revolution, the elimination of religion, stands out as an aberration in 
an otherwise consistent policy focus on ``control of religion'' since 
the early 1950s. Holmes Welch surveyed the role of the religious 
affairs bureaucracy as it was created and institutionalized in the 
early 1950s. Although the title of the national-level organization has 
now changed to the State Administration for Religious Affairs, little 
else regarding doctrinal hostility toward religion or SARA's 
implementing guidelines has changed. See, in particular, Homes Welch, 
Buddhism Under Mao (Cambridge, Mass.: Harvard University Press, 1972), 
35.
    \288\ See, e.g., regulations posted on the Hunan Provincial 
Religious Affairs Bureau Web site, <http://zjsw.hunan.gov.cn>, and the 
United Front Work Department's Web site, <www.zytzb.cn>.
    \289\ ``Chinese Religious Leaders Condemn U.S. Religious Freedom 
Report,'' Xinhua, 21 May 04 (FBIS, 21 May 04).
    \290\ ``China Foreign Ministry Spokesman Refutes U.S. Accusations 
Against Religious Policy,'' Xinhua, 14 May 04 (FBIS, 14 May 04).
    \291\ These laws and regulations include: Implementing Measures on 
Managing the Registration of Religious Social Organizations [Zongjiao 
shehui tuanti dengji guanli shishi banfa], issued 6 May 91; Regulations 
on Managing Places for Religious Activities [Zongjiao huodong changsuo 
guanli tiaoli], issued 31 January 94; Measures for the Registration of 
Places for Religious Activities [Zongjiao huodong changsuo dengji 
banfa], issued 13 April 94; Provisions on Managing the Religious 
Activities of Aliens in China [Zhonghua renmin gongheguo jingnei 
waiguoren zongjiao huodong guanli guiding], issued 31 January 94; 
Measures for the Annual Inspection of Places of Religious Activities 
[Zongjiao huodong changsuo niandu jiancha banfa], issued 30 July 96; 
and Detailed Rules on Implementing the Provisions on Managing the 
Religious Activities of Aliens in the People's Republic of China 
[Zhongguo jingnei waiguoren zongjiao huodong guanli guiding shishi 
xize], issued 26 September 00. For an in-depth analysis of the Chinese 
legal structure controlling religion, see Potter, ``Belief in Control: 
Regulation of Religion in China.'' Also see the CECC Web site, 
www.cecc.gov, for a more complete listing of these laws and 
regulations, with translations.
    \292\ Ye Xiaowen's statement as referenced in, Magda Hornemann, 
``China: Religious Freedom and the Legal System: Continuing Struggle,'' 
Forum 18 News Service, 28 April 04, <www.forum18.org>.
    \293\ Potter, ``Belief in Control: Regulation of Religion in 
China.''
    \294\ ``PRC Official on `Three Represents' Commanding Religion in 
China,'' Xinhua, 3 June 04 (FBIS, 3 June 04), Ma Xuejun, ``Do a Good 
Job of Religious Work in the New Period.''
    \295\ Yu Kai, ``Hubei Holds Forum on `Cults' in Wuhan, Remarks 
Against Falungong, Li Hongzhi,'' Hubei Daily [Hubei ribao], 3 Jul 04 
(FBIS, 6 July 04).
    \296\ For an extensive treatment of PRC government abuses against 
Falun Gong practitioners, see Bureau of Democracy, Human Rights, and 
Labor, U.S. Department of State, Country Reports on Human Rights 
Practices--2003, China (including Tibet, Hong Kong and Macau), 25 
February 04.
    \297\ For an analytical treatment of the impact of the Party's 
handling of the Falun Gong movement on criminal justice reform in 
China, see Ronald C. Keith and Lin Zhiqiu, ``The `Falun Gong Problem': 
Politics and the Struggle for the Rule of Law in China,'' 175 China 
Quarterly 623 (2003).
    \298\ ``Beijing Steps up Campaign Against `Cults' in Rural Areas,'' 
Foreign Broadcast Information Service, 21 May 04 (FBIS, 21 May 04). See 
in particular the FBIS reference to a Politiburo-level commentator in 
the 17 April 2004 edition of People's Daily calling for more localities 
to enforce the crackdown.
    \299\ See analytical comments in ``Beijing Steps up Campaign 
Against `Cults' in Rural Areas,'' Foreign Broadcast Information 
Service. See, in particular, the FBIS description of an article on the 
Web site of the Beijing Association of Science Technology referencing a 
central directive titled ``Circular on Launching Anti-Cult Warning 
Education in Rural Areas Throughout the Country.''
    \300\ Xu Hong, ``China Anticult Association Holds Ninth Public 
Lecture and Academic Symposium in Chengdu to Discuss Ways to Prevent 
Cults From Breeding and Infesting Rural Villages,'' Sichuan Daily 
[Sichuan ribao], 30 May 04 (FBIS, 02 June 04). See analytical comments 
in ``Beijing Steps up Campaign Against `Cults' in Rural Areas,'' 
Foreign Broadcast Information Service. See in particular FBIS 
description of an article on the Web site of the Beijing Association of 
Science Technology referencing a central directive titled ``Circular on 
Launching Anti-Cult Warning Education in Rural Areas Throughout the 
Country.''
    \301\ The U.S.-based Falun Dafa Information Center reported that 
one of the highest tolls in official violence and indoctrination 
against China's Falun Gong practitioners occurred in April 2004. ``62 
Cases of Falun Gong Practitioners Killed from Torture, Abuse Reported 
in April and May 2004,'' Falun Dafa Information Center, 9 June 04, 
<www.faluninfo.net>.
    \302\ See analytical comments in ``Beijing Steps up Campaign 
Against `Cults' in Rural Areas,'' Foreign Broadcast Information 
Service. See, in particular, the FBIS reference to a Politiburo-level 
commentator in the 17 April 2004 edition of People's Daily identifying 
Falun Gong as a target of the campaign, and the FBIS description of an 
article posted on the PRC Ministry of Agriculture Web site outlining 
the campaign. The crackdown in Deqing county, Zhejiang province 
resulted in 10 small churches and 392 temples being closed between 
September and October 2003. ``Deqing County in Zhejiang Province Has 
Closed Down 392 Temples and 10 Churches,'' Hong Kong Information Center 
for Human Rights and Democracy, 8 November 03 (FBIS, 12 November 03).
    \303\ Ma Xuejun, ``Do a Good Job of Religious Work in the New 
Period.''
    \304\ Wu Qingcai, ``Beijing Experts Call for Emphasis on Education 
in Scientific Atheism Directed at Youth,'' China News [Zhongguo 
xinwen], 31 May 04 (FBIS, 2 June 04).
    \305\ Ibid.
    \306\ Ibid. See also, Tian Yu, ``It is the Good Spring Time in 
Jiaodong--What I Have Seen and Heard About the Anti-Cult Education 
Campaign Through Admonition and Instruction in the Rural Areas of 
Yantai City, Shandong Province,'' Xinhua, 16 April 04 (FBIS, 21 April 
04).
    \307\ Ghupur Reshit, ``Reflections on the Work of Cultivating 
Patriotic Religious Personnel,'' Social Sciences in Xinjiang [Xinjiang 
shehui kexue], 25 November 03 (FBIS 08 January 04).
    \308\ Tian Yu, ``It is the Good Spring Time in Jiaodong--What I 
Have Seen and Heard About the Anti-Cult Education Campaign Through 
Admonition and Instruction in the Rural Areas of Yantai City, Shandong 
Province.''
    \309\ Ma Xuejun, ``Do a Good Job of Religious Work in the New 
Period.''
    \310\ Yue Zong, ``Constantly Raise the Level of Religious Work and 
Resist Foreign Religious Infiltration,'' Southern Metropolitan Daily 
[Nanfang dushibao], 22 May 04 (FBIS, 22 May 04); Chen Songchao, 
``Ruling Party and Religion--An Extremely Important Theoretical 
Issue,'' China Religion [Zhongguo zongjiao], 26 January 04 (FBIS, 29 
April 04).
    \311\ Yu Kai, ``Hubei Holds Forum on `Cults' in Wuhan, Remarks 
Against Falungong, Li Hongzhi.''
    \312\ ``Chinese Communist Party Policy on Religion Outlined by 
Party Paper,'' People's Daily.
    \313\ Wang Yan, ``Uphold the Use of Important Thinking of the 
`Three Represents' to Lead Religious Work.''
    \314\ For a more extensive treatment of this subject, see the CECC 
2003 Annual Report. See also infra, Religious Freedom for Tibetan 
Buddhists and Religious Freedom for China's Muslims.
    \315\ TAR Leading Committee for Patriotic Education in Monasteries, 
TAR Patriotic Education for Monasteries Propaganda Book No. 4. Handbook 
for Education in Policy on Religion, May 2002, Section 2, 14(d). (The 
International Campaign for Tibet obtained an official Tibetan-language 
version as distributed in the monasteries. English translation by ICT 
on file with the Commission.)
    \316\ Commission Staff Interviews. An official in the TAR said 
there are 46,000 monks and nuns in the TAR, and that this figure 
``accounts for two percent of the Tibetan population.'' (46,000 would 
be about 1.9 percent of the TAR's 2.43 million Tibetans in 2000.) An 
official in Qinghai said there are about 21,000 Tibetan monks and nuns 
in the province. (21,000 would be about 1.9 percent of Qinghai's 1.09 
million Tibetans in 2000.) An official in Gansu said there are about 
10,000 Tibetan monks and nuns. (10,000 would be about 2.3 percent of 
Gansu's 443,000 Tibetans in 2000.)
    \317\ TAR Patriotic Education for Monasteries Propaganda Book No. 
4, Section 1, Question 7.
    \318\ Ibid., Question 8(i).
    \319\ Propaganda Department of the Committee of the Communist Party 
of the TAR, A Reader for Advocating Science and Technology and Doing 
Away with Superstitions, 2002, Section 1, Question 17. (The 
International Campaign for Tibet obtained an official Chinese-language 
version of the Reader after it had been distributed to county-level 
Education Offices in the TAR. English translation by ICT on file with 
the Commission.)
    \320\ TAR Leading Committee for Patriotic Education in Monasteries, 
TAR Patriotic Education for Monasteries Propaganda Book No. 2. Handbook 
for Education in Anti-Splittism, May 2002, Section 2, 2(d). (The 
International Campaign for Tibet obtained an official Tibetan-language 
version as distributed to monasteries. English translation by ICT on 
file with the Commission.)
    \321\ The Gelug sect's spiritual head is the Dalai Lama. There are 
three other major sects of Tibetan Buddhism: the Kagyu, Sakya, and 
Nyingma.
    \322\ The Dui Hua Foundation, ``Criminal Verdict of the Sichuan 
Province Ganzi Tibetan Minority Autonomous Prefecture Intermediate 
People's Court, 2000. Ganzi Intermediate Court Verdict No. 11,'' in 
Selection of Cases from the Criminal Law, August 2003, 42-55. Dui Hua's 
translation of the official sentencing document shows that the court 
agreed that Sonam Phuntsog had not explicitly called for ``Tibetan 
independence,'' but nonetheless sentenced him for inciting splittism 
because he ``incited the masses to believe in the Dalai Lama.''
    \323\ TAR Patriotic Education for Monasteries Propaganda Book No. 
4. Handbook for Education in Policy on Religion, Section 3, Question 
29: ``How should the internal management of monasteries be 
strengthened? '' The answer, in part: ``Monasteries are not permitted 
to impose any burden on ordinary people by whatever means.'' Section 4, 
Question 42: ``What is the general procedure for diligently guiding the 
adaptation of Tibetan Buddhism to Socialist society in the Tibet 
region? '' The answer, in part: ``The monks and nuns in general became 
self-sufficient workers in the Socialist family, and the economic 
burden on the masses was reduced by an ascertained measure.'' (The 
International Campaign for Tibet obtained an official Tibetan-language 
version as distributed to monasteries. English translation by ICT on 
file with the Commisison.)
    \324\ Entry fees are rising rapidly. ``New Metal Barricades in 
Lhasa's Jokhang Control Access to Inner Temple,'' Tibet Information 
Network, 12 May 04, <www.tibetinfo.net>. Lhasa's Jokhang Temple, 
Tibetan Buddhism's oldest and most important temple, charges 70 yuan 
for entry, 10 yuan more than Beijing's Forbidden City. Metal barricades 
have been erected to control Tibetan worshippers and ensure that non-
Tibetans, including Han, pay the steep fee.
    \325\ ``Tibet Receives More Tourists in First Half,'' Xinhua, 31 
July 04, <http://news.xinhuanet.com>. 505,000 tourists visited the TAR 
in the first half of 2004. 470,000 were from elsewhere in China; 37,000 
were from ``overseas regions and countries.'' (Tourists from inside 
China outnumbered those from outside China by nearly 13 to 1.)
    \326\ In the late 1950s, the Chinese government organized the 
Catholic Patriotic Association (CPA), gave it control of all Church 
property, and convinced a small group of bishops and priests to 
proclaim their independence from the Holy See and subordinate 
themselves to the CPA. Since that time, the government has worked to 
persuade and coerce Catholic clergy and laity to register with this 
``official Church.'' The majority refused to do so and went 
``underground,'' where, persisting in their fidelity to the Holy See, 
they refused to attend Masses offered by priests of the ``official 
Church.'' China today has an estimated 8 million unregistered and 4 
million registered Catholics.
    \327\ ``Beijing Says the Bishop Went Abroad Illegally,'' AsiaNews, 
11 March 04, <www.asianews.it>; Bernardo Cervellera, P.I.M.E., ``New 
Churches Built to Destroy Even More,'' AsiaNews, 4 February 04, 
<www.asianews.it>; Teresa Ricci, ``Forced Demolitions: an Attempt on 
Man and Culture,'' AsiaNews, 2 March 04, <www.asianews.it>; ``Dramatic 
Account of a Church Destroyed in Zhejiang,'' AsiaNews, 26 February 04, 
<www.asianews.it>. Li Junru interview with Chen Songshao, ``Ruling 
Party and Religion-an Extremely Important Theoretical Issue'' 
[Zhizhengdang yu zongjiao: Yi ge ji qi zhongyao de lilun wenti zuanfang 
zhonggong zhongyang dangxiao fuxiaozhang li junru], China Religion 
[Zhongguo zongjiao], 26 January 04.
    \328\ Cardinal Kung Foundation, ``Prisoners of Religious Conscience 
for the Underground Roman Catholic Church in China,'' 27 May 04, 
<www.cardinalkungfoundation.org>; ``In Custody: People Imprisoned for 
Their Religious Beliefs,'' China Rights Forum, No. 4, 2003, 93-123; 
Cardinal Kung Foundation, ``Underground Bishop of the Roman Catholic 
Church in China `Lost' for More than 6 Years Found Very Ill in 
Government Detention,'' 19 November 03, 
<www.cardinalkungfoundation.org>; Cardinal Kung Foundation, 
``Approximately A Dozen Underground Roman Catholic Priests and 
Seminarians Were Arrested and Another Church Was Demolished in China,'' 
26 October 03, <www.cardinalkungfoundation.org>; Cardinal Kung 
Foundation, ``Another Arrest of an Underground Catholic Bishop,'' 8 
March 04, <www.cardinalkungfoundation.org>; Cardinal Kung Foundation, 
``Another Arrest of an Underground Catholic Bishop,'' 6 April 04, 
<www.cardinalkungfoundation.org>; Cardinal Kung Foundation, ``Arrest of 
Two Young Underground Roman Catholic Priests,'' 16 May 04, 
<www.cardinalkungfoundation.org>.
    \329\ The documents, entitled A Management System for Catholic 
Dioceses in China, Work Regulations for the Catholic Patriotic 
Association and The System for the Joint Conference of Chairpersons of 
the Chinese Catholic Patriotic Asociation and of the Bishops Conference 
of the Catholic Church in China, are available in Tripod XXIII, No. 130 
(Autumn 2003), <www.hsstudyc.org.hk>.
    \330\ On the control of registered Catholics, see ``Year 2003 
Witnesses Greater Control Over Open Church,'' UCAN, 29 December 03, 
<www.ucanews.com>; Bernardo Cervellera, P.I.M.E., Missione Cina: 
viaggio nell'impero tra mercato e repressione (Milan: Ancora, 2003), 
157ff. On Catholic charitable activity see the Web site of Beifang 
Jinde Catholic Social Service Center at <www.chinacatholic.org>; Angelo 
Lazzarotto, ``Mature Laity in the Faith: an Urgent Matter in the 
Chinese Church,'' AsiaNews, 3 December 04, <www.asianews.it>. On Web 
sites, see ``Catholic Web sites Flourish Depite Obstacles,'' UCAN, 11 
August 03, <www.ucanews.org>. On Feng Xinmao see, ``First Bishop 
Ordained in Decades With Graduate Degree,'' AsiaNews, 8 January 04, 
<www.asianews.it>. The Commission has received reliable private reports 
of CPA corruption.
    \331\ John Paul II, ``Message of His Holiness Pope John Paul II for 
the Fourth Centenary of the Arrival in Beijing of the Great Missionary 
and Scientist Matteo Ricci, S.J.,'' 24 October 01, <www.vatican.va>. 
Nailene Chou Wiest, ``U.S. Cardinal Tests Water on Visit to Beijing,'' 
South China Morning Post, 2 August 03, <www.scmp.org >; ``Chinese and 
U.S. Catholic Leaders Meet in Beijing,'' Xinhua, 30 July 03, 
<www.xinhuanet.com/english>; Theodore Cardinal McCarrick, ``China,'' 
Catholic Standard, 31 July 03, <www.catholicstandard.org>.
    \332\ ``Holy See Statement on Bishop Arrested in China,'' Vatican 
Information Service, 10 March 04; ``Bishop Wei Jingyi released last 
March 14,'' AsiaNews, 16 March 04, <www.asianews.it>; ``Press Office 
Statement on Bishop Imprisoned in China,'' Vatican Information Service, 
7 April 04; ``Underground Bishop Julius Jia Zhiguo Released,'' 
AsiaNews, 14 April 04, <www.asianews.it>; Sandro Magister, ``The Bishop 
of Xi'an's Long March from Beijing to Rome,'' L'espresso Online, 15 
March 04, <www.chiesa.espressoonline.it>; Cardinal Kung Foundation, 
``Prisoners of Religious Conscience for the Underground Roman Catholic 
Church in China''; Cardinal Kung Foundation, ``Underground Bishop of 
the Roman Catholic Church in China `Lost' for More than 6 Years Found 
Very Ill in Government Detention''; Cardinal Kung Foundation, 
``Approximately A Dozen Underground Roman Catholic Priests and 
Seminarians Were Arrested and Another Church Was Demolished in China''; 
Cardinal Kung Foundation, ``Another Arrest of an Underground Catholic 
Bishop''; Cardinal Kung Foundation, ``Arrest of Two Young Underground 
Roman Catholic Priests.''
    \333\ ``Abducted Bishops Forced to Obey Government and Not Pope,'' 
AsiaNews, 25 June 04, <www.asianews.it>.
    \334\ ``C'e un risveglio religioso in Cina? '' La Civilta Cattolica 
155, no. 3689 (6 March 04) (every line of this authoritative Vatican 
journal is approved by the Secretary of State prior to publication).
    \335\ ``Allegiance to Peter at All Costs: an Interview with Anthony 
Li Du'an, Bishop of Xi'an,'' in Sandro Magister, ``The Bishop of 
Xi'an's Long March from Beijing to Rome.''
    \336\ ``First Catholic Named Vice Chairman of National People's 
Congress,'' UCAN, 8 April 03, <www.ucanews.com>.
    \337\ ``Re-election of the Jiang Zemin Era Leadership at the 
National Congress of Catholics,'' AsiaNews, 15 July 04, 
<www.asianews.it>; ``National Catholic Congress Re-elects Top `Open' 
Church Leaders,'' UCAN, 13 July 04, <www.ucanews.com>.
    \338\ Joseph Han Zhihai, Bishop of Lanzhou, ``Letter to my 
Friends,'' published in Tripod XXIII, No. 131 (winter 2003), 
<www.hsstudyc.org.hk>; ``A Time for Reconciliation,'' Hong Kong Sunday 
Examiner, 21 March 04, <sundayex.catholic.org.hk>; `` `Open' and 
`Underground' Communities Hold Separate Services Side-by-Side,'' UCAN, 
16 April 04, <www.ucanews.com>; ``Division in Church Pains Both `Open' 
and `Underground' Communities,'' UCAN, 22 January 04, 
<www.ucanews.com>.
    \339\ See, e.g., ``Chairman Simayi Tieliwaerdi Promotes National 
Unity Education Month Drive,'' Xinjiang Daily [Xinjiang ribao], 09 May 
04 (FBIS, 22 June 04) and Ma Pinyan, ``A Study of Xinjiang's Opposing 
Illegal Religious Activities,'' Social Sciences in Xinjiang [Xinjiang 
shehui kexue], 25 August 03 (FBIS, 1 December 03).
    \340\ The Xinjiang Regional Government issued a ``special 
regulation'' in 1988 ``strictly prohibiting underground Koran schools 
and classes on the Koran.'' Ma Pinyan, ``A Study of Xinjiang's Opposing 
Illegal Religious Activities.''
    \341\ Practicing Islam in Today's China: Differing Realities for 
the Uighurs and the Hui, Testimony of Jonathan Lipman, Professor of 
History, Mount Holyoke College.
    \342\ The Provisional Regulations for Controlling Religious 
Activity in the Xinjiang Uyghur Autonomous Region state, ``professional 
religious personnel cannot engage in missionary activity across 
prefectures, municipalities or counties without the approval of the 
religious affairs bureau of the government.'' Ma Pinyan, ``A Study of 
Xinjiang's Opposing Illegal Religious Activities.''
    \343\ Zhao Zhiyun, ``Ismail Tiliwaldi: Actively Protect Stability, 
Guide Religion for The Benefit of the Country,'' Tianshan Net [Tianshan 
wang], 15 July 03 (FBIS, 26 July 03).
    \344\ Ibid.
    \345\ ``Hui Liangyu Speech at China Islamic Association's 50th 
Founding Anniversary,'' China Religion [Zhongguo zongjiao], 26 November 
03 (FBIS, 20 January 04). See also, Practicing Islam in Today's China, 
Testimony of Kahar Barat, Lecturer in Near Eastern Languages and 
Civilizations, Yale University.
    \346\ Ma Pinyan, ``A Study of Xinjiang's Opposing Illegal Religious 
Activities.''
    \347\ These include Provisional Regulations for Managing Venues for 
Religious Activities in the Xinjiang Uyghur Autonomous Region, issued 
1988, Provisional Regulations for Managing Religious Activity in the 
Xinjiang Uyghur Autonomous Region, issued 1990, Provisional Regulations 
for Managing Religious Professional Personnel in the Xinjiang Uyghur 
Autonomous Region, issued 1990, and Ordinances for Managing Religious 
Affairs in the Xinjiang Uyghur Autonomous Region, issued 1990. Ma 
Pinyan, ``A Study of Xinjiang's Opposing Illegal Religious 
Activities.''
    \348\ Ma Pinyan, ``A Study of Xinjiang's Opposing Illegal Religious 
Activities.''
    \349\ These activities are governed by the Regulations on the 
Control of the Religious Activity of Foreigners Within the Territory of 
the People's Republic of China. Ma Pinyan, ``A Study of Xinjiang's 
Opposing Illegal Religious Activities.''
    \350\ Ma Pinyan, ``A Study of Xinjiang's Opposing Illegal Religious 
Activities.''
    \351\ Ibid.
    \352\ Ghupur Reshit, ``Reflections on the Work of Cultivating 
Patriotic Religious Personnel.''
    \353\ Ma Pinyan, ``A Study of Xinjiang's Opposing Illegal Religious 
Activities.''
    \354\ This document is cited in Ma Pinyan, ``A Study of Xinjiang's 
Opposing Illegal Religious Activities.''
    \355\ Ibid.
    \356\ Practicing Islam in Today's China, Testimony of Gardner 
Bovingdon, Assistant Professor of Central Eurasian Studies, Indiana 
University at Bloomington.
    \357\ Ibid.
    \358\ Robert Marquand, ``Pressure to Conform in West China,'' 
Christian Science Monitor, 29 September 03.
    \359\ Nicholas Becquelin, ``Criminalizing Ethnicity: Political 
Repression in Xinjiang,'' China Rights Forum No. 1, 2004, 39.
    \360\ Hui Liangyu, ``Inheriting Fine Traditions and Writing a New 
Chapter of History,'' China Religion [Zhongguo zongjiao], 26 November 
03 (FBIS, 20 January 04).
    \361\ Dru C. Gladney, ``Islam in China: Accomodation or 
Separatism,'' 174 China Quarterly 451, 457 (2003).
    \362\ For information on a crackdown against house church members 
in Guangxi Autonomous Region in November 2003, see ``Christians Sent to 
Chinese Labor Camps for Owning Bibles,'' Agence France-Presse, 25 
November 03 (FBIS, 25 November 03). For information on a crackdown 
launched against the ``Little Flock'' in Zhejiang province in December 
2003 and the Tu Du Sha Church in June 2003, see Bill Savadove, ``Little 
Flock is Resisting State Control From Pastures New,'' South China 
Morning Post, 1 December 03 (FBIS, 20 January 03), and ``Chinese 
Government Officials Bulldoze God's House,'' AgapePress, 24 February 
04, <www.agapepress.org>. For information on Henan province house 
church arrests during January, March, and August 2004, see ``Three 
Christian Leaders Arrested in China in Crackdown,'' Wall Street 
Journal, 16 February 04; ``House Church Leader Zeng Guangbo Re-
Arrested; Deborah Xu Confirmed in Custody,'' ChinaAid, 10 March 04, 
<www.chinaaid.org>; ``More Than 100 House Church Leaders Arrested in 
Henan,'' ChinaAid, 06 August 04, <www.chinaaid.org>. For information on 
the arrest and later release of a house church pastor in Anhui province 
during May 2004 and earlier arrests in February 2004, see Center for 
Religious Freedom, ``China Releases Some Christian Leaders,'' 1 June 
04, <www.freedomhouse.org> and ``One Chinese House Church Leader on the 
Run, Three Others Formally Prosecuted,'' ChinaAid, February 04, 
<www.chinaaid.org>. For information on the arrest and later release of 
China Gospel Fellowship members in Hubei province, see ``More Than 100 
More House Church Leaders Arrested: High Level Government Meeting in 
Religion Reported,'' ChinaAid, 13 June 04, <www.chinaaid.org>. For 
information on the arrest and beating death while in custody of a house 
church member in Guizhou province in July 2004, see ``Chinese Woman 
Beaten to Death After Arrest for Handing Out Bibles,'' Agence France-
Presse, 4 July 04. For information on a mass arrest of Christians in 
Xinjiang Autonomous Region during July 2004, see ``Relatives Arrested 
in Henan; One More Leader Held in Anhui,'' ChinaAid, 18 August 04, 
<www.chinaaid.org> and ``More than 100 House Church Leaders Arrested in 
Xinjiang; Once Arrested Leader Tortured in Henan,'' ChinaAid, 20 July 
04, www.chinaaid.org.
    \363\ Rooting out ``foreign infiltration'' is a particular goal of 
the campaign. Note the Heilongjiang reference in Wang Yan, ``Uphold the 
Use of Important Thinking of the `Three Represents' to Lead Religious 
Work.''
    \364\ Potter, ``Belief in Control: Regulation of Religion in 
China,'' 334.
    \365\ For more information on the development of sectarianism in 
rural house churches, see Daniel H. Bays, ``Chinese Protestant 
Christianity Today,'' 174 China Quarterly 488, 493-497 (2003).
    \366\ In 1998, a number of house church leaders produced a document 
calling on the government ``to change the definition of a `cult' from 
meaning simply any Christian group that didn't register with the Three 
Self . . . (and) to stop attacking the house churches.'' David Aikman, 
Jesus in Beijing: How Christianity Is Transforming China and Changing 
the Global Balance of Power (Washington, D.C.: Regnery Publishing, 
2003), 90. See also Daniel H. Bays, ``Chinese Protestant Christianity 
Today.''
    \367\ Magda Hornemann, ``China: For Religious Freedom, Patience May 
Be a Virtue,'' Forum 18 News Service, 31 March 04, <www.forum18.org>.
    \368\ ``Zhang Sentenced to Two Years in Labor Camp,'' Voice of the 
Martyrs News, 3 November 03, <www.persecution.com>.
    \369\ Ibid.
    \370\ China Aid Association, 2 April 04, ``The Life of Imprisoned 
House Church Pastor in Danger: Just Come Pick Up My Corpse,'' 19 May 
04, <www.chinaaid.org>.
    \371\ ``A Christian in Shandong Was Beaten to Death by the Public 
Security Personnel,'' Hong Kong Information Center for Human Rights and 
Democracy, 4 November 03 (FBIS, 5 November 03).
    \372\ Human Rights in China Press Release, ``Christians Face Long 
Sentences in Secret Trial,'' 16 March 04, <www.hrichina.org>.
    \373\ Ibid.
    \374\ The Committee for Investigation on Persecution of Religion in 
China, China: Crackdown on a Million-Member House Church--The Leader 
Kidnapped, Over 50 Co-Workers Arrested, and One Tortured to Death, 14 
May 04, <www.china21.org>.
    \375\ Ibid.
    \376\ Jason Kindopp, ``Policy Dilemmas in Chinas Church-State 
Relations: An Introduction,'' 3.
    \377\ For a more detailed discussion of the Three-Self Patriotic 
Movement and the China Christian Council, see Yihua Xu, ``Patriotic 
Protestants: The Making of an Official Church,'' and Jason Kindopp, 
``Fragmented Yet Defiant: Protestant Resilience under Chinese Communist 
Party Rule,'' in God and Caesar in China, eds. Jason Kindopp and Carol 
Lee Hamrin.
    \378\ David Aikman, Jesus in Beijing, 175.
    \379\ Jeff M. Sellers, ``Crushing House Churches: Chinese 
Intelligence and Security Forces Attack Anew,'' Christianity Today, 13 
January 04, <www.christianitytoday.com>.
    \380\ Ibid.

    Notes to Section III(d)--Freedom of Expression
    \381\ The only exception to the licensing requirement for 
publishers is non-commercial Internet publishers, which are only 
required to register with the government. However, such publishers are 
prohibited by law from reporting news unless explicitly licensed to do 
so, and Chinese authorities continue to shut down non-commercial Web 
site operators who become known for being critical of the Communist 
Party and the central government.
    \382\ ``Li Changchun Goes to See the `Focus' Program Group, 
Emphasizes Continuously Raising the Level of Public Opinion 
Supervision, Centering Round the Central Task and Serving the Overall 
Situation,'' Xinhua, 16 April 04 (FBIS, 16 April 04).
    \383\ See, e.g., Jamie P. Horsley, ``Shanghai Advances the Cause of 
Open Government Information in China,'' Yale China Law Center, 20 April 
04, <http://chinalaw.law.yale.edu>. See also ``More Light Need To Reach 
a Secret World,'' South China Morning Post, 27 January 04 (FBIS, 27 
January 04).
    \384\ See, e.g., ``China Establishes a Training System for Media 
Spokespersons, Plans to Train One Thousand Individuals'' [Woguo jiang 
jianli sanji xinwen fayanren zhidu peixun shu qian ren], Xinhua, 3 June 
03, <http://news.xinhuanet.com>.
    \385\ In July, the head of Shenzhen's Propaganda Department issued 
``5 Demands'' to television news anchors during a government mandated 
training session, including the demand that reporters must ``respect 
the government spokesperson system.'' He also told them that there are 
separate but parallel lines of authority for issuing government 
statements and carrying out government administration, and reporters 
should not try approach the incorrect party when trying to get 
information. ``Shenzhen Requests Media Spokespeople: Don't Issue 
Accurate but Useless Statements'' [Shenzhen yaoqiu xinwen fayanren: bu 
shuo zhengque dan meiyong de feihua], China Youth Daily [Zhongguo 
qingnian bao], 14 July 04, reprinted in People's Daily [Renmin ribao] 
<www.people.com.cn>.
    \386\ Gao Shan, ``All of China's Publishing Houses Other than the 
People's Publishing House, are Becoming Private Enterprises'' [Quanguo 
suoyou chubanshe chu renmin chubanshe wai dou jiang zhuanxing wei 
qiye], China Youth Daily [Zhongguo qingnian bao], 6 April 04, reprinted 
in Sina.com [Xinwen zhongxin], <http://news.sina.com.cn>
    \387\ ``China Gives Green Light To Private Publication Dealers,'' 
Xinhua, 31 December 02 (FBIS, 31 December 02). But see ``Private 
Bookstores Seek Equal Footing,'' Xinhua, 25 February 04, <http://
fpeng.peopledaily.com.cn> (``Because it is privately run, a [private] 
bookstore has to go through more red tape and is bound by more 
restrictions than state-run outlets such as Xinhua'').
    \388\ ``China Gives Green Light To Private Publication Dealers,'' 
Xinhua: ``Although private publishers are forbidden, a number of 
private publication companies have cooperated with state-owned 
publishers in commissioning and marketing publications.'' See also 
``Developments in PRC Central, Provincial Media,'' Foreign Broadcast 
Information Service, 12 February 04 (FBIS, 12 Feb 04) (citing Economic 
Daily [Jingji ribao], 17 February 04, as stating that in any media 
enterprise which breaks up operations to attract investment, the state 
must maintain ``absolute holding'').
    \389\ See, e.g., Li Xiguang, Deformed Press [Jibian de meiti] 
(Shanghai: Fudan University Press, 2003), 49.
    \390\ See, e.g., Xu Jigang, Editor-in-Chief, Su Qian Daily, ``Carry 
Out the `Three Represents' and Strengthen Supervision of Public 
Opinion'' [Shixian ``sange daibiao'' qianghua yulun jiandu], Su Qian 
Daily [Suqian ribao], 15 October 02, <www.sqdaily.com>, stating that 
some contradictions and problems are subject to the limitations and 
restrictions of objective and practical conditions, and not only do the 
masses have opinions and perspectives that the leaders also know about, 
but they are difficult to resolve at the time because of practical 
conditions. With regard to [this] situation, supervision should not be 
carried out, because supervision cannot resolve the problem, and will 
only add to the discontent of the masses, and will interfere with the 
normal working order of the leaders at the local levels and in the 
units.
    \391\ ``[E]nsure that literature and art fit well into the whole 
revolutionary machine as a component part, that they operate as 
powerful weapons for uniting and educating the people and for attacking 
and destroying the enemy, and that they help the people fight the enemy 
with one heart and one mind.'' Mao Zedong ``Talks at the Yenan Forum on 
Literature and Art, Mao Zedong Selected Works, Vol. III, (May 1942), 
70.
    \392\ ``Our country's press, radio, television, and so on are the 
mouthpiece of the party, the government, and the people. This not only 
defines the nature of journalistic work, but also defines its extremely 
important status and role in the work of the party and the state.'' Xu 
Guangchun (deputy head of Central Propaganda Department and Director of 
State Administration of Radio, Film, and Television), ``Core Content of 
Jiang Zemin Thinking on Journalism,'' Xinwen Zhanxian, 1 February 04 
(FBIS, 1 February 04).
    \393\ ``Publishing businesses shall adhere to the path of serving 
the people and serving socialism, adhere to the guidance of Marxism, 
Leninism, Mao Zedong Thought and Deng Xiaoping Theory, promulgate and 
accumulate scientific technology and cultural knowledge that is 
advantageous to economic development and social progress, honors 
outstanding culture, promotes international cultural exchange and 
enriches and enhances the spiritual lives of the people.'' Regulations 
on the Administration of Publishing [Chuban guanli tiaoli], issued 25 
December 01, art. 3. English translations of other selected provisions 
of China's publishing regulations are available on the CECC Virtual 
Academy at <www.cecc.gov/pages/virtualAcad/exp/explaws.php.>
    \394\ Article 11 of the Regulations on the Administration of 
Publishing states that publishing units must have a sponsoring unit and 
a managing unit recognized by the State Council's publishing 
administration agency.
    \395\ For an illustration of this, see the flow chart illustrating 
publishing restrictions in China on the CECC Virtual Academy 
<www.cecc.gov/pages/virtualAcad/exp/bookflow.php>.
    \396\ ``Directing public opinion toward the correct direction is 
the primary task for our propaganda . . . We must pay attention to hot 
topics and take the initiative in guiding reports on sudden incidents 
for the sake of social stability . . . we should constantly direct 
public opinion in the correct direction by answering questions from the 
masses and removing doubts.'' Wang Shaoxiong (member of the Sichuan 
Provincial CPC Committee and Director of the Propaganda Department), 
``Persisting in the `Three Close-To's and Serving the Building of a 
Well-Off Society,'' Seeking Truth [Qiushi], 1 January 04 (FBIS, 1 
January 04).
    \397\ Propaganda Department of the Chinese Communist Party Central 
Committee, ``Notice Regarding the Publication of the `Summary Findings 
of the Propaganda Department's News Research Group,'' 6 March 1989, 
quoted in Wei Chao, ``The Negative Impact of Shallow Reporting'' 
[Qianxi jieru shi baodao de ``fu xiangying''], China Journalism Review 
[Zhongguo xinwen chuanbo xue pinglun], 22 September 03, 
<www.zjol.com.cn>.
    \398\ ``News work must uphold the principle of leading correct 
public opinion, continue to rouse enthusiasm for unity and stability 
and squarely face the guiding principle of propaganda,'' President Hu 
Jintao, quoted in ``China's President Stresses Importance of Control 
over Public Opinion,'' Channel News Asia, 8 December 03, 
<www.channelnewsasia.com>.
    \399\ ``Capital's Media Instructed to Toe the Line on Reports,'' 
South China Morning Post, 7 February 04, <www.scmp.com>. Other examples 
include the war in Iraq and Falun Gong.
    \400\ Regulations on the Protection of Secrets in News Publishing 
[Xinwen chuban baomi guiding], issued 13 June 92. For example, in April 
2003, two editors at the Xinhua news agency were fired for publishing a 
news report about SARS that had been classified as secret. ``Two 
Chinese Editors Sacked over Confidential SARS Document,'' South China 
Morning Post, 29 April 2003, <www.scmp.com>.
    \401\ The Xinhua news agency is an institution directly under the 
State Council. See the CECC Virtual Academy, <www.cecc.gov/pages/
virtualAcad/gov/statestruct.php>.
    \402\ ``China: Keep Government, Party Organs Away from Press 
Distribution,'' Xinhua, 15 February 04, <http://
english1.peopledaily.com.cn>.
    \403\ ``Joint Efforts Between the Procuratorate and the Media to 
Root Out Bad Media Reporting Are Now Considered as Criminal Evidence 
Gathering'' [Jianchayuan yu meiti lianshou fan fu meiti jubao bei 
liewei zhencha xiansuo], People's Daily [Renmin ribao], 17 January 04, 
<www.people.com.cn>.
    \404\ ``The Procuratorate Issues Regulations on How to Handle Leads 
from News Organizations'' [Jianchayuan chutai shouli xinwen danwei 
yisong anjian xiansuo guize], Xinhua, 26 February 04, <http://
news.xinhuanet.com>.
    \405\ ``Reporters, Police, Miners are the Three Most Hazardous 
Occupations'' [Jizhe, jingcha, kuanggong tong lie san da weixian 
zhiye], People's Daily [Renmin ribao], 19 January 04, 
<www.people.com.cn>, stating that, along with coal mining and police 
work, journalism was among the top three most dangerous professions in 
China.
    \406\ For a description of the GAPP and its responsibilities, see 
the CECC Virtual Academy, <www.cecc.gov/pages/virtualAcad/exp/
expcensors.php>.
    \407\ ``Web site on Chinese Reporters Opens, 4 Xinhua Journalists 
Blacklisted'' [Zhongguo jizhe wang kaitong si ming xinhuashe jizhe 
shang le heimingdan], People's Daily [Renmin ribao] [Beijing yule 
xinbao] , 2 January 04, <www.people.com.cn> (citing Star Daily).
    \408\ Qu Zhihong, ``China Launches Comprehensive Effort to Clean-up 
Publishers'' [Quanguo baokan she jizhe zhan qingli zhengdun gongzuo 
quanmian zhankai], Xinhua, reprinted in China Youth Daily [Zhongguo 
qingnian bao], 14 January 04, <http://zqb.cyol.com>. According to 
reports, reporter stations that have been set up without government 
approval will be shut down, and journalist licenses will not be re-
issued to the reporters working at local reporter stations during the 
campaign.
    \409\ See, e.g., transcripts of the online discussion on ``Freedom 
of Expression in the Internet Space'' held by the Chinese Academy of 
Social Sciences on 3 September 03, available at <http://
news.xinhuanet.com/newmedia/2003-10/09/content--1115386.htm>. The 
introduction to the transcript states that the discussion was moderated 
by three senior CASS scholars and was intended to cover the ``value of 
freedom of expression; how big the Internet space for freedom of 
expression is; the international standard for freedom of expression in 
the Internet space; and problems with China's Internet and freedom of 
expression.'' While the transcript covered over 20 pages, there was no 
discussion of how prior restraints influence freedom of expression, nor 
any mention of the large number of Internet writers imprisoned for 
expressing their opinions on the Internet.
    \410\ In early 2003, authorities replaced the deputy editor of 
Southern Metropolitan Daily with the former head of Guangdong Communist 
Party Propaganda Department and shut down the 21st Century Global 
Herald.
    \411\ Yu Huafeng and Li Minying were sentenced to prison terms of 
12 and 10.5 years, respectively. Wu Jun and Dong Faxuan, ``Two Southern 
Metropolitan Weekend Editors are Convicted of Corruption and Bribery'' 
[Nanfang dushi bao liang zhubian yin tanwu, shouhui bei panxing], 
Xinhua, 19 March 04, <www.xinhua.org>. Yu was convicted of embezzling 
$200,000 of the company's money, and Li was convicted of bribery. On 
appeal, these sentences were reduced to 8 and 6 years, respectively. 
Cheng Yizhong was released on August 28, 2004, after the procuratorate 
issued a `no indictment' decision allowing him to go free after five 
months in detention. The charges were not reported on the Web site of 
the parent of the Southern Metropolitan Daily until one week after 
their arrests. ``Southern Metropolitan Daily Editor Cheng Yizhong 
Arrested on Suspicion of Corruption'' [Nanfang dushi bao Cheng Yizhong 
yin shexian tanwufanzui bei yifa daibu], People's Daily [Renmin ribao], 
9 April 04, <www.people.com.cn> (citing Nanfang wang).
    \412\ See, e.g., Xu Zhiyong, ``What We Cannot Run Away From--An 
Explanation Regarding the Southern Metropolitan Daily Case'' [Women 
wufa taobi--guanyu nanfang dushi bao shijian de shuoming], Open 
Constitution Initiative, 10 April 04, <www.oci.org.cn>.
    \413\ ``The Open Constitution Initiative'' <www.oci.org.cn/>, 
<www.nandushijian.org> and <wangshengs.tongtu.net>.
    \414\ Chinese authorities set up a Web site for this campaign: 
<www.shdf.gov.cn>.
    \415\ ``China Opens up a Phone Hotline as Part of its Campaign to 
Crackdown on Pornography, Offering Ample Rewards to Those Who Provide 
Helpful Information'' [Quanguo saohuang da fei jubao dianhua kaitong 
jubao yougong zhe you zhongjiang], Xinhua, reprinted in China Legal 
Publicity [Zhongguo pufa wang], 16 January 04, <www.legalinfo.gov.cn>.
    \416\ ``Public Told to Report Radical Chat Rooms,'' South China 
Morning Post, 28 February 04, <www.scmp.com>.
    \417\ ``Jiangxi Employs 100 Individuals as Media Supervisors'' 
[Jiangxi pin bai ren jiandu meiti], World Journal [Shijie ribao] 
(citing Nanchang News [Nanchang xun]), 25 March 04, 
<www.worldjournal.com>. See also ``43 Accept Job Offers as Media 
Supervisors in Wuhan Yesterday'' [43 ming xinwen xing feng jiandu yuan 
zuo shoupin], Wuhan Evening News [Wuhan wanbao], reprinted in Sina.com 
[Xin wen zhong xin], 18 March 04, <http://news.sina.com.cn>.
    \418\ Article 11 of China's Publishing Regulations specifically 
requires that anyone wishing to publish a newspaper or magazine must 
have registered capital of at least RMB 300,000 (about US$35,000), a 
prohibitive amount of money in China, where the workers make less than 
US$100 a month. See Regulations on the Administration of Publishing.
    \419\ For example, when the government shut down the 21st Century 
Global Herald in March 2003 after the paper published an article 
referring to democracy in China as ``fake'' democracy, it revoked the 
newspaper's license on the grounds that the publication had exceeded 
its license in publishing on domestic issues, because the license only 
permitted it to publish stories on international issues. Commission 
Staff Interview.
    \420\ The campaign was carried out pursuant to the Notice 
Concerning the Abuse and Misuse of Administrative Power in the 
Circulation of Periodicals, Lessening the Burden on Rural Farmers 
[Guanyu jinyibu zhili dangzheng bumen baokan san lan he liyong zhiquan 
faxing, jianqing jiceng he nongmin fudan de tongzhi], issued July 2003. 
See ``China Closes 677 State Newspapers, Saving 1.8 Billion Yuan,'' 
Xinhua, 15 March 04 (FBIS, 15 March 04). The justification for this 
campaign was that these publications had shown they could not support 
themselves commercially and represented a burden on Chinese citizens by 
requiring various agencies to subscribe to them. While it seems this 
was a problem, the manner in which Chinese authorities solved this 
problem demonstrates that China's government is willing and able to use 
the publishing licensing regulatory system to exercise direct control 
over who gets to publish. As one Chinese scholar who hailed the 
campaign as representing ``the most profound transformation in the 
press since the market economy of socialism came into China in 1992'' 
conceded, ``the plan to `separate operations from management' has 
ensured that the media will continue to be led by the Communist 
Party.'' Chen Lidan, ``A Look at the Effects of Recent Reforms of Party 
and Government Newspapers and Periodical Publications, and the Example 
They Set for Domestic Press Reform'' [Zuijin zhili dangzheng bumen 
baokan dui woguo baokan tizhi gaige de qishi], Ruanzixiao.myrice.com, 4 
January 04, <http://ruanzixiao.myrice.com>.
    \421\ Circular on Strengthening Management of Separating the 
Management From Operation of Newspapers and Periodicals and 
Dissociating Operation of Newspapers and Periodicals [Guanyu dui guan 
ban li he huazhuan baokan jiaqiang guanlide tongzhi], issued 6 February 
04.
    \422\ Liu Yang, ``50 Companies Awarded Licenses to Publish on the 
Internet, Three Major Internet Portals are Included'' [Shoupi 50 
jiagong huo wangluo chubanquan san da menhu wangzhan minglie qizhong], 
Shanghai Morning Post [Xinwen chenbao], reprinted in Xinhua, 7 January 
04, <http://news.xinhuanet.com>.
    \423\ Interim Provisions on the Administration of Internet 
Publishing [Hulianwang chuban guanli zanxing guiding], issued 1 August 
02, art. 6.
    \424\ ``Court Refuses to Hear Suit Against Telecommunications 
Office for Closure of Civil Rights Web site'' [Zhuanggao tongxin 
guanliju zao bohui wei quan wang bei leling guanbi], Beijing News [Xin 
jingbao], reprinted in Tech.tom.com, 18 January 04, <http://
tech.tom.com>.
    \425\ ``GAPP Announces List of 19 Dictionaries That Do Not Meet 
Standards'' [Zhongguo guojia xinwen chuban zongshu baoguang 19 zhong 
buhege cishu (mingdan)], China News Services [Zhongguo xinwenshe], 17 
October 03, <http://chinanews.com>.
    \426\ Ji Yanan, ``Thirty Periodical Publishers Are Punished for 
Illegally Using Non-locally Registered Publication Numbers'' [30 jia 
liyong jingwai zhuce kanhao de feifa chuban qikan bei qudi], Guangming 
Daily [Guangming ribao], 14 July 04, <www.gmw.cn>.
    \427\ ``Write Poems Yourself, Publish Yourself; Two `Poets' Are 
Sentenced'' [Ziji xie shi ziji chuban liang `shiren' bei panxing], 
People's Daily [Renmin ribao], 17 January 04, <www.peopledaily.com>.
    \428\ Alice Yan, ``Officials Loosen Grip on Movie Producers,'' 
South China Morning Post, 4 November 03, <www.scmp.com>. In addition, 
during the past year, SARFT issued the ``Temporary Measures for the 
Qualifications To Be Allowed To Produce, Distribute and Display 
Movies,'' [Dianying zhipian, faxing, fanying jingying zige zhunru 
zhanxing guiding], issued 29 October 03, which restricts the right to 
produce movies to enterprises with a registered capital of at least 
100,000 yuan.
    \429\ Zhang Dongcao, ``Administration of Weather Forecast Reporting 
and Broadcasting: Media Outlets who Violate Norms on Publishing Weather 
Reports are Subject to Fines up to 10,000 Yuan'' [Zhongguo qixiang ju: 
meiti bu guifan kanbo qixiang qubao zuigao fa wanyuan], China Youth 
Daily [Zhongguo qingnian bao], reprinted in People's Daily [Renmin 
ribao] 2 February 04, <www.people.com.cn>.
    \430\ Elaine Kurtenbach, ``China Extends Text Message 
Surveillance,'' Washington Post, 2 July 04, <www.washingtonpost.com>.
    \431\ ``Bware, SMS Unda Ctrl [sic],'' Reporters Without Borders, 1 
July 04, <www.rsf.org>.
    \432\ ``Central Group To Inspect Work To Improve Publications in 
Localities,'' Xinhua, 22 October 03 (FBIS, 22 October 03).
    \433\ ``Computer Game Cracked Down on for Discrediting China's 
Image,'' Xinhua, 19 March 04 (FBIS, 19 March 04).
    \434\ Robert Marquand, ``China Mutes Online News,'' Christian 
Science Monitor, 10 March 04, <www.csmonitor.com>.
    \435\ Wu Yi, ``Speech from the National SARS Prevention Televised 
Teleconference'' [Zai quanguo yufang feidian gongzuo dianshi dianhua 
huiyi shangde jianghua], People's Daily [Renmin ribao], 9 October 03, 
<www.peopledaily.com.cn>.
    \436\ Beijing City People's Government, Opinion on Carrying Out the 
Work of Housing and Demolition Well to Safeguard Social Stability 
[Beijing shi renmin zhengfu guanyu zuohao fangwu chaiqian gongzuo weihu 
shehui wending de yijian], issued 10 November 03.
    \437\ Joseph Kahn, ``Chinese Gave Cheney Speech Their Own Form of 
Openness'' New York Times, 19 April 04, <www.nytimes.com>.
    \438\ See, e.g., an article posted on the People's Procuratorate 
Daily's Web site entitled ``Human Rights Watch Claims U.S. Violating 
International Law in Iraq,'' 15 January 04, <http://www.jcrb.com>.
    \439\ Wei Yongzheng, ``Rules Prohibiting the Publication of Remarks 
Contrary to Court Decisions Cannot Stand'' [Zhun fabiao `yu panjue 
xiangfan pinglun' de guiding bugongzipo], MediaChina.net [Zhonghua 
chuanmei wang], reprinted in Xinhua, 9 September 03, <http://
news.xinhuanet.com>.
    \440\ Notice Regarding Guiding the Publication of Books on 
Reforming the Constitution [Guanyu jiaqiang dui sheji xiugao xianfa 
fudao duwu chuban guanli de tongzhi], issued 19 Jan 04.
    \441\ ``China Censures Tibetan TV Station,'' New York Times, 26 
March 04, <www.nytimes.com>.
    \442\ Yi Lan, ``Publication of Mao Yuanxin's New Reminiscences 
Banned,'' Cheng Ming, 1 March 04 (FBIS, 1 March 04).
    \443\ Chiang Hsun, ``The Crux of Li Peng's `The Crucial Moment,' '' 
Yazhou Zhoukan, 28 March 04 (FBIS, 28 March 04).
    \444\ ``Arrest Warrants Approved for Three Evicted Families in 
Jiahe County'' [Jiahe san chaiqianhu bei pibu], Beijing News [Xin 
jingbao], reprinted in Guangming Daily [Guangming ribao], 17 May 04, 
<www.gmw.com.cn>.
    \445\ Josephine Ma, ``Economist Baffled by Ban on his Book,'' Asia 
Pacific Media Network (citing South China Morning Post), 24 July 04, 
<www.asiamedia.ucla.edu/>. Other examples of censorship in the last 
year include:
    <bullet> According to the Tibet Information Network, in March, 
Chinese authorities banned Notes on Tibet, a book written in Chinese by 
the Tibetan author Oser. ``London-based Rights Group Says China Banned 
Book by Tibetan Author Oser,'' Agence France-Presse, 17 March 04 (FBIS, 
17 March 04).
    <bullet> In March, Chinese authorities arrested two people for 
publishing a Communist Party handbook without authorization. ``Two 
Detained for Violating Copyrights of Two Recent Communist Party 
Regulations,'' Xinhua, 27 March 04 (FBIS, 27 March 04).
    \446\ ``Seven Media Heavyweights Make a Self-Discipline Pact'' [Qi 
dameiti dingding zilu gongyue], World Journal [Shijie xinwen wang], 7 
November 03, <www.worldjournal.com>.
    \447\ Compare the following two Xinhua stories: English version: 
Han Qiao, ``Foreign Journalists See Room for Improvement for PRC 
Spokesman System,'' Xinhua, 22 May 04 (FBIS, 22 May 04). ``Chinese 
spokesmen of different ministries are getting better, but still need to 
improve,'' said Philip Pan, a journalist with the Washington Post. 
Chinese version: Han Qiao and Zhao Lei, ``Change is Happening: China's 
New Spokesperson System in the Eyes of Foreign Reporters'' [Bianhua 
zhengzai fasheng: waiguo jizhe yanzhong de zhongguo xinwen fayanren], 
Xinhua, 24 May 04, <http://news.xinhuanet.com>. According to Philip Pan 
of the Washington Post, ``The situation now is much better than when I 
first arrived in China, it is a step forward that the government is 
establishing a news spokesperson system.''
    \448\ Commission staff interviews with authors who have published 
books in China.
    \449\ ``China Admits Censoring Hillary,'' BBC News, 27 September 
03, <http://news.bbc.co.uk>. As a result, Former President Bill Clinton 
insisted on the right to review and reject any Chinese translation of 
his forthcoming memoirs as a condition of agreeing to publish in China. 
``Clinton Insists on Conditions for Memoirs,'' South China Morning 
Post, 8 January 04, <www.scmp.com>.
    \450\ Commission Staff Interview.
    \451\ See, e.g., the series Internet Law Review [Wanglu falu 
pinglun], published by the Law Press [Falu chuban she], which carries 
articles discussing almost every issue relating to Internet law--
intellectual property, privacy rights, defamation, e-commerce--but 
nothing regarding how China's government blocks Web sites or imprisons 
Internet essayists.
    \452\ See, e.g., Chen Huanxin, Legal Protections for Freedom of 
Expression [Fabiao ziyou de falu baozhang] (Beijing: China Social 
Science Press, 2003).
    \453\ The Qinghua University Media School web page 
(www.media.tsinghua.edu.cn/) regularly posts articles by Chinese and 
foreign authors critical of the way foreign governments infringe on 
freedom of the press, but as far as the CECC has been able to 
determine, that site has never carried any article expressing similar 
concerns about the restrictions China's government imposes on foreign 
journalists.
    \454\ See, e.g., Li Xiguang, Deformed Press [Jibian de meiti] 
(Shanghai: Fudan University Press, 2003), a book that discusses the 
most urgent problems facing China's media without ever addressing 
China's prior restraint system or the government's intimidation of 
journalists.
    \455\ See, e.g., Yao Lijun, A Comparison of Sino-Western News 
Writing [Zhong xi xinwen xiezuo bijiao] (Beijing: China Television 
Broadcast Press, 2002).
    \456\ See, e.g., Gu Qian, Chinese and Western News Broadcasting: 
Conflicts, Combinations, and Co-existance [Zhong xi fang xinwen 
chuanbo: chongtu, jiaorong, gongcun] (Shanghai: Fudan University Press, 
2003).
    \457\ See, e.g., Chen Lidan, A Summary of Marxist News Thought 
[Makesi zhuyi xinwen sixiang gailun] (Shanghai: Fudan University Press, 
2003).
    \458\ ``Internet Tutors Employed in North China Province To Improve 
Cafe Service,'' Xinhua, 4 April 04 (FBIS, 4 April 04).
    \459\ ``Major Chinese News Web sites Reach an Agreement on Family 
Standards for Publishing'' [Woguo hulianwang xinwen xinxi chuanbo ye 
dingli jiagui], People's Daily [Renmin ribao], 9 December 03, 
<www.people.com.cn>.
    \460\ Commission Staff Testing.
    \461\ Commission Staff Testing. ``Google-Yahoo Battle Threatens 
Freedom of Expression,'' Reporters Without Borders, 26 July 04, 
<www.rsf.org>; Bill Xia, ``Google Chinese News Censorship 
Demonstrated,'' Dynamic Internet Technology, Inc., 16 September 04, 
available at www.dit-inc.us/report/google200409/htm.
    \462\ ``Unswervingly Unfold `Fight Against Pornography and Illegal 
Publications' and Create A Fine Social and Cultural Environment for 
Building A Well-Off Society In An All-Round Way,'' Xinhua, 15 January 
04 (FBIS, 15 January 04).
    \463\ ``Implementation Program for Television and Movies 
Strengthening and Improving the Establishment of Moral Thought for 
Minors'' [Guangbo yingshi jiaqiang he gaijin weichengnianren sixiang 
daode jianshe de shishi fangan], issued 13 May 04.
    \464\ Felix Corley and Magda Hornemann, ``China: Government Blocks 
Religious Web sites,'' Forum 18 News Service, 21 July 04, 
<www.forum18.org>.
    \465\ Commission Staff Testing. See also ``China Blocks Chinese Web 
sites of Wall Street Journal, Deutsche Welle,'' Agence France-Presse, 
11 March 04 (FBIS, 11 March 04).
    \466\ For example, in September the People's Liberation Daily told 
readers that ``International and overseas spy organizations use the 
Internet as an important means to get intelligence; they frequently set 
online ``traps'' to obtain intelligence. Although we have set up `fire 
walls' and other measures to ward off such harmful information, there 
is some information we cannot `ward off' or `fend off.' '' Dai Yongjun, 
``Build a Firm Ideological `Fire Wall','' [Zhu lao sixiang shangde 
`fanghuoqiang'], PLA Daily [Jiefangjun bao], 27 September 03, 
<www.pladaily.com.cn>.
    \467\ ``GAPP Deputy Director States GAPP Has Not Allowed Foreign 
Magazines to Publish in Chinese in China'' [Xinwen chuban zongshu fushu 
shuzhang: mei pizhun guo yi jia guowai zazhi zhongwenban], China-
media.com.cn [Zhonghua xinwenban], reprinted in Xinhua, 30 September 
03, <http://news.xinhuanet.com>.
    \468\ Vivien Cui, ``Paper is Probed Before It Appears,'' South 
China Morning Post, 9 January 04, <www.scmp.com>.
    \469\ ``China Eases Ban on Foreign TV Investment,'' Washington 
Post, 9 February 04, <www.washingtonpost.com>.
    \470\ Ibid.
    \471\ ``Jamming of BBC Must Stop: British Minister Tells China,'' 
Agence France-Presse, 18 December 03 (FBIS, 18 December 03).
    \472\ Regulations for the Management of Ground Satellite Television 
Broadcasting Receptors [Weixing dianshi guangbo dimian jieshou sheshi 
guanli guiding], issued 5 October 93. English translations of the 
relevant provisions are available on the CECC Virtual Academy at 
<www.cecc.gov/pages/virtualAcad/exp/explaws.php>.
    \473\ Measures on the Administration of Foreign Satellite 
Television Channel Reception [Jingwai weixing dianshi pindao luodi 
guanli banfa], issued 4 December 03. English translations of the 
relevant provisions are available on the CECC Virtual Academy at 
<www.cecc.gov/pages/virtualAcad/exp/explaws.php>.
    \474\ Weblogs have become increasingly popular among Internet users 
around the world as a means for individuals to express their views on 
any topic that interests them. Weblog technology enables every Internet 
user to become a private publisher.
    \475\ Juliana Liu, ``China Shuts Down Two Internet `Blog' Sites,'' 
Reuters, 18 March 04, <www.reuters.com>.
    \476\ Commission staff testing indicates that Chinese authorities 
continue to block Blogspot.com.
    \477\ ``GAPP Plans to Invest 50 Million into Strengthening Media 
Supervision'' [Xinwen chuban shu jiaqiang hulianwang jianguan jihua 
touru wu qianwan], Mediainchina.org.cn (Zhongguo jizhe wang), 9 
February 04, <www.mediainchina.org.cn>.
    \478\ ``Public Told To Report Radical Chat Rooms,'' South China 
Morning Post, 28 February 04, <www.scmp.com>.
    \479\ ``Shanghai Cameras Spy on Web Users,'' BBC, 22 April 04, 
<http://news.bbc.co.uk>.
    \480\ Regulations on Customs' Administration of Printed Materials 
and Audio/Visual Materials Imported or Exported by Individuals Via 
Carriage or Post [Haiguan dui geren xiedai he youji yinshuapin ji 
yinxiang zhipin jinchu jing guanli guiding], issued 10 July 91. English 
translations of the relevant provisions are available on the CECC 
Virtual Academy at <www.cecc.gov/pages/virtualAcad/exp/explaws.php>. In 
one incident reported in China's media last year, Customs authorities 
confiscated a book from a returning Chinese citizen. The citizen, a 
professor, took the Customs Office to court claiming that they had 
violated Chinese law by failing to provide him with grounds for 
confiscating book. A lower court found for the Customs Office, but a 
higher court overturned that decision and said that the Customs Office 
was obliged to provide an explanation of the facts and legal basis for 
confiscating the book. ``The Story of a Banned Book's Journey Through 
Customs'' [`Jinshu' guoguan susong shimo], Xinmin Weekly [Xinmin 
zhoukan], reprinted in Sina.com [Xinwen zhongxin], 25 September 03, 
<www.sina.com.cn>.
    \481\ Commission Staff Interviews.
    \482\ Commission Staff Interviews.
    \483\ Detailed information regarding these laws can be found in the 
Commission's 2003 Annual Report, the Commission's topic paper 
``Information Control and Self-Censorship in the PRC and the Spread of 
SARS,'' and on the CECC Virtual Academy at <www.cecc.gov/pages/
virtualAcad/exp/expsecurity.php>.
    \484\ For example, Wang Youcai, Wu Yiran, Liu Di, Li Yibin, Ma 
Shiwen, and Fang Jue.
    \485\ Huang Huo, ``Chen Shumin and Others Sentenced for Using a 
Cult to Jeopardize the Enforcement of the Law'' [Chen Shuming deng 
liyong xiejiao zuzhi pohuai falu shishi bei panxing], Xinhua, 
<www.cq.xinhuanet.com>.
    \486\ ``China Formally Charges Two Christians With `Revealing State 
Secrets,' '' Agence France-Presse, 25 February 04 (FBIS, 25 February 
04). ``Activists Who Tracked Crackdown on Churches Face Secrets 
Charges,'' South China Morning Post, 26 February 04, <www.scmp.com>.
    \487\ Zhang Tao and Ping Song, ``Three Teachers Involved in Leaking 
Fourth Grade English Exams Are Sentenced to Three and Two Year 
Sentences'' [Xielou yingyu si ji shijuan: 3 ming she an jiaoshi bei 
panxing 3 nian he 2 nian], People's Daily [Renmin ribao], 3 June 04, 
<www.people.com.cn>.
    \488\ For example, the government posted security officers outside 
the house of Liu Di (also known as the ``Stainless Steel Mouse'') 
during the annual meeting of the National People's Congress and on 15th 
anniversary of the Tiananmen massacre. Jim Yardley, ``A Chinese 
Bookworm Raises Her Voice in Cyberspace,'' New York Times, 24 July 04, 
<www.nytimes.com>.
    \489\ For example, according to his wife, Dr. Jiang Yanyong was 
under a gag order not to speak with reporters. Benjamin Kang Lim, 
``China SARS Hero Freed After Weeks in Custody,'' Reuters, 20 July 04, 
<www.reuters.com>.

    Notes to Section III(e)--Economic, Social, and Cultural Rights
    \490\ Jia Ling, ``Women More Likely than Men to Succeed as 
Entrepreneurs,'' Xinhua, 19 May 04, <www.xinhuanet.org>. The survey of 
entrepreneurs was published in the ``Success Rate of Female 
Entrepeneurs Higher Than That of Males'' [Zhongguo de nu qiyejia de 
chenggonglu gao yu nanxing], Workers' Daily [Gongren ribao], 17 May 04, 
<www.grrb.com.cn>.
    \491\ ``Success Rate of Female Entrepreneurs Higher Than That of 
Males,'' Workers' Daily.
    \492\ Ibid.
    \493\ Population Census Office under the State Council and 
Department of Population, Social, Science and Technology Statistics, 
National Bureau of Statistics of China, Tabulation on the 2000 Census 
of the PRC [Zhongguo 2000 nian quanguo renkou pucha ziliao], (Beijing: 
China Statistics Press, 2002), 599. Among all Chinese people with 
higher education degrees, half again as many men earned degrees than 
women (17,320,758 to 11,664,728), but among 20 to 24 year olds, the 
figures were much more equal: 2,531,419 men compared to 2,409,749 
women.
    \494\ ``PRC Official Says Gender Birthrate Disparity `Serious' 
Threat to Well-Off Society,'' China Daily, 8 July 04, 
<www.chinadaily.com.cn>. However, current reforms, particularly fiscal 
efforts to reduce farmers' burdens, are likely to increase the number 
of families sending their daughters to school. Zheng Chao, ``One Fee 
System To Be Carried Out in Nationwide Compulsory Education'' [Quanguo 
yiwu jiaoyu tuixing ``yi fei zhi'' zhi shou zafei bu shou xuefei], 
Beijing Star Daily [Beijing yule xinbao], 2 March 04, 
<www.stardaily.com.cn>. Bai Xu and Gan Lu, ``Education Brings Hope for 
Rural Girls,'' China Daily, 1 June 04, <www.chinadaily.com.cn>.
    \495\ In the village studied, there were a number of families who 
practiced a form of marriage in which a daughter's husband moved in and 
became part of her family (as opposed to the standard Chinese pattern 
of daughters moving into their husbands' families). The decision not to 
allocate land to these live-in sons-in-law was made by ``village 
leaders,'' who explained that they feared that both daughters and sons 
would stay in the village and the population would grow too rapidly. 
Laural Bossen, Chinese Women and Rural Development: Six Years of Change 
in Lu Village, Yunnan (New York: Rowman & Littlefield, 2002), 95-8.
    \496\ PRC Rural Land Contracting Law, enacted 29 August 02.
    \497\ Alice Yan, ``Dramatic Rise in Violence Against Women Revealed 
in New Study,'' South China Morning Post, 19 November 03, 
<www.scmp.com>. Medical researchers have begun to focus on violence 
against pregnant and postpartum women. A recent study examined 12,044 
mothers in Tianjin City and in Liaoning, Henan, and Shaanxi provinces. 
The researchers found an abuse rate of 12.6 percent for periods before, 
during, and after pregnancy, and in most cases the abuse was an ongoing 
phenomenon in the marriage. The researchers concluded that screening 
for domestic abuse should be made routine in maternity clinics. Guo 
Sufang, Wu Jiuling, Wu Chuanyan, and Yan Renying, ``Domestic Abuse on 
Women in China Before, During and After Pregnancy,'' 117 Chinese 
Medical Journal, 2004, 331-6.
    \498\ ``Domestic Violence Rises Over Holidays,'' China Daily, 3 
February 04, <www1.chinadaily.com.cn/>. Unisumoon and Daragh Moller, 
``Domestic Violence Law Urged,'' 26 November 03, Chinanews, 
<www1.china.org.cn>.
    \499\ ``Domestic Violence on Rise in China,'' Xinhua, 19 September 
03, <news.xinhuanet.com/>.
    \500\ In one case, a people's mediator boasted of having persuaded 
a woman to save her marriage by apologizing to the husband who had 
beaten her regularly for years. Personal visit, 1983. In a 1998 case 
handled by the Center for Women's Legal Research and Services at 
Beijing University, a woman's husband, enraged at seeing her come home 
late, had poured gasoline on her and set it alight. When she later 
asked the police for help, they refused, saying that he had suspected 
her of infidelity, so the problem must be a family affair. ``Domestic 
Violence Is Not a Family Dispute'' [Jiating baoli bushi jiawu jiufen], 
28 July 03, <www.woman-legalaid.org.cn>.
    \501\ Zheng Chenying, ``Several Issues Relating to the Amendment of 
the Law on the Protection of Women's Rights and Interests'' [Guanyu 
xiugai funu quanyi baozhangfa de jige wenti], Chinese Women's Movement 
[Zhongguo fuyun], No. 3, 2004, 37-9,32.
    \502\ For example, Section 260 was the basis for a 1999 Shanghai 
case holding a husband guilty of rape of his former wife after their 
divorce had been granted but before the effective date of the decree 
and a Heilongjiang case in which a man was sentenced to three years for 
raping his wife. ``How Much Marital Rape is there in Modern Life? '' 
[Xiandai shenghuo you duoshao hunnei qiangjian?], Sina, 12 July 04, 
<www.sina.com.cn>.
    \503\ Liu Duanduan, ``Marital Rape Constitutes What Crime? '' 
[Hunnei `qiangjian' gai dang he zui], People's Procuratorate Daily 
[Jiancha ribao], 6 July 04, <www.jcrb.com/>.
    \504\ These directives identify domestic violence as a problem 
affecting the entire society and strongly urge state and social 
institutions to promote prevention programs. In Heilongjiang Province, 
the city and county-level governments must provide aid and rescue for 
victims of domestic violence. Heilongjiang Province People's Congress 
Standing Committee's Decision on Preventing and Stopping Domestic 
Violence [Heilongjiang sheng renmin daibiao dahui changwu weiyuanhui 
guanyu he zhizhi jiating baoli de jueding], issued 20 June 03, art. 12. 
Some of these directives indicate that the scope of domestic violence 
can be expanded to include psychological abuse like threats and 
insults. Shaanxi Province People's Congress Standing Committee's 
Decision on Preventing and Stopping Domestic Violence [Shanxi sheng 
renmin daibiao dahui changwu weiyuanhui guanyu yufang he zhizhi jiating 
baoli de jueding], issued 27 September 03, art. 1; Hunan Province 
People's Congress Standing Committee's Decision on Preventing and 
Stopping Domestic Violence [Hunan sheng renmin daibiao dahui changwu 
weiyuanhui guanyu he zhizhi jiating baoli de jueyi], issued 31 March 
03, art. 23; Anhui Province People's Congress Standing Committee's 
Decision on Preventing and Stopping Domestic Violence [Anhui sheng 
renmin daibiao dahui changwu weiyuanhui guanyu he zhizhi jiating baoli 
de jueyi], issued 20 February 04. Other provincial decisions focus on 
education initiatives to inform women of domestic violence laws and 
sources of assistance. In Ningxia and Heilongjiang, regulations provide 
legal assistance to victims of domestic violence and require a fair 
division of property in related divorce cases. Hebei province 
established the first judicial chamber in China to specifically hear 
domestic violence cases. ``Courtroom Set up to Hear Domestic Violence 
Cases,'' People's Daily, 8 March 04. In addition, by May 2003, 
authorities had accredited more than 11,000 officials from women's 
federations around the nation to sit as people's assessors in domestic 
violence cases. ``Domestic Violence Facing Social Scrutiny in China,'' 
People's Daily, 22 August 03, <www.chinaorg.cn>.
    \505\ However, in more remote areas, victims have limited means of 
response and self-protection; most go to relatives or village leaders 
for mediation, some take revenge, and very few report the abuse to law 
enforcement.
    \506\ Liu Li, ``City's First Harassment Case Heard,'' China Daily, 
7 November 03, <www.chinadaily.com.cn>. Wang Huiming, ``Glancing Back: 
10 Important Cases of Sexual Harassment in 2003'' [Jin shi huimou: 2003 
nian shi da xing saorao an], 9 January 04, Jinshi wang <www.jxgdw.com/
>. See also the summary of cases in Chen Xinxin, ``Sexual Harassment--A 
Matter of Social Concern,'' China Today, 3 December 03, 
<www.chinadaily.com.cn>.
    \507\ Chen Xinxin, ``Sexual Harassment--A Matter of Social 
Concern.''
    \508\ Ibid.
    \509\ Li Haixia, ``Say `No' to Sexual Harassment'' [Xiang xing 
saorao shuo `bu'], Journal of Sichuan Police College [Sichuan jingguan 
gaodeng zhuanke xuexiao xuebao], No. 15, 2003, 63-5; Cao Lihui, 
``Sexual Harrasment On Legislative Docket for the First Time'' 
[Xingsaorao shouci jinru lifa chengxu], Guangzhou Daily [Guangzhou 
ribao], 15 June 03, <www.gzdaily.dayoo.com>.
    \510\ M. Ulric Killian, ``Post-WTO China: Quest for Human Right 
Safeguards in Sexual Harassment Against Working Women,'' 12 Tulane 
Journal of International and Comparative Law 201 (2004).
    \511\ Jin Yihong, ``Organizations of the All-China Women's 
Federation: Accepting the Future's Challenge'' [Fu lian zuzhi: tiaozhan 
yu weilai], Collection of Women's Studies [Funu yanjiu luncong], No.2, 
March 2000, 28-32, as cited in Xu Yushan, ``A Preliminary Analysis of 
the Relationship between the Women's Federation and Other Women's 
Organizations'' [Qianxi fulian yu qita funu zuzhi de guanxi], 
Collection of Women's Studies [Funu yanjiu luncong], No. 2, March 2004, 
44-8.
    \512\ Xu Yushan, ``A Preliminary Analysis of the Relationship 
Between the Women's Federation and Other Women's Organizations.''
    \513\ Ibid.
    \514\ Zhuang Ping, ``Non-Governmental Organizations and Women's 
Development'' [Fei zhengfu yu funu fazhan], Shandong University Paper--
Philosophy and Sociology Edition [Shandong daxuexuebao--Zhixue shehui 
kexue ban], No. 2, 2004, 139-46.
    \515\ Wang Jinling, ``The Present Conditions of the Course of 
Female Sociology on Chinese Mainland, and its Trend of Development'' 
[Zhongguo dalu nuxing shehuixue kecheng jianshe xianzhuang yu fazhan 
qushi], Collection of Women's Studies [Funu yanjiu luncong], No. 2, 
2004, 39-43.
    \516\ ``Trafficking of Women is a Severe Problem in China'' 
[Zhongguo guaimai funu wenti yanzhong], Voice of America Mandarin 
Service, 22 April 02, <www.rfa.org>.
    \517\ Ibid.
    \518\ John Hopkins School of Advanced International Studies 
Protection Project, A Human Rights Report on Trafficking of Persons, 
Especially Women and Children: China, 2002, 
<www.protectionproject.org>.
    \519\ ``Trafficking of Women is a Severe Problem in China,'' Voice 
of America Mandarin Service.
    \520\ Big cases of infant trafficking have recently been broken by 
local procuratorates in Yunnan's Honghe Hani and Yi minority areas, 
Guanxi's Yulin City, Hohhot in Inner Mongolia, and in central Henan. 
``A Yunnan Court Begins Hearing the Nation's Largest Trafficking Case'' 
[Yunnan kaiting shenli chuanguo zui da guaimai renkou an], People's 
Procuratorate Daily [Jiancha ribao], 20 August 04, <www.jcrb.com.cn>; 
``Baby Traffickers Sentenced to Death, Life Imprisonment,'' China 
Daily, 24 July 04, <www.chinadaily.com.cn>; Huang Mu, ``Country's 
Largest Human Trafficking Case Solved, 150 Women and 27 Children Were 
Harmed'' [Quan guo zuida renkou an gaopo--150 ming funu 27 ming ertong 
shou hai], Beijing Star Daily [Beijing yule xinbao], 15 November 03; 
``China Halts Baby Trafficking Ring,'' BBC News, 13 July 2004, <http://
news.bbc.co.uk>; ``Woman Sentenced to Death in China for Trafficking in 
Babies,'' Agence France-Presse, English, 19 June 2004 (FBIS, 21 June 
2004).
    \521\ ``Guangxi Province Yulin City's Large Child Selling Case is 
Decided'' [Guangxi yulin teda fanyingan zhong shenpanjue-fanying 
zhenxiang dabai tianxia], Xinhua, 24 July 04. <www.xinhua.org>.
    \522\ ``Baby Business,'' Beijing China Daily (Hong Kong edition), 
English version, 28 October 03, http://www.chinadaily.net/.
    \523\ Ibid.
    \524\ State Department Office to Monitor and Combat Trafficking in 
Persons, 2003 Report on Human Trafficking, 11 June 03, <www.state.gov>. 
China is currently classified as a Tier 2 country by the State 
Department, meaning it has not complied with the minimum standards 
stipulated in Section 108 of the Act (22 USC 7106), but is making 
significant efforts to do so.
    \525\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 25 
December 99, 31 August 01, 29 December 01, 28 December 02, arts. 240-
241; Decision Concerning Severely Punishing Criminals for The Abduction 
and Kidnapping of Women and Children [Quanguo renmin daibiao dahui 
changwu weiyuanhui guanyu yancheng fuaimai, cangjia funu, ertong de 
fanzuifenzi de jueding], issued 4 September 91.
    \526\ Zhu Jianmei, ``Several Problems in the Criminal Statute 
against Trafficking in Women and Children'' [Guaimai funu, ertong zui 
de jige wenti], Journal of Jiangsu Police Officer College [Jiangsu 
jingguan xueyuan xuebao], Vol. 19, No.2, March 2004.
    \527\ From 2001 to 2003, 20,360 cases were solved involving 42,215 
trafficking victims. ``20,000 Cases Involving Female and Children 
Trafficking are solved, 40,000 victims are set free'' [Zhongguo san 
nian po guaimai funu ertong an yue liangwan qi, si wan duo ren huo 
jiejiu], China News, 3 March 03, <www.chinanews.org.cn>.
    \528\ Johns Hopkins School of Advanced International Studies 
Protection Project, A Human Rights Report on Trafficking of Persons.
    \529\ State Department Office to Monitor and Combat Trafficking in 
Persons, 2003 Report on Human Trafficking.
    \530\ ``Chinese Women Sold Into the Sex Industry-Police Go to South 
Africa For Arrest'' [Zhonggong qingnian bei guaimai congshi seqingye-
jingfang yuan fu nanfei zhui bu], New People's Evening Newpaper [Xinmin 
wanbao], 12 April 04, <www.xmwb.com.cn>.
    \531\ ``Demand from China Fuels Women Trafficking from Vietnam,'' 
Deutsche Press-Agentur, 22 June 04.
    \532\ In particular, China participated in a research symposium 
with officials from Vietnam and NGOs in March 2003. Li Qiaoping, ``The 
Current Situation and Related Questions for Sino-Vietnamese Prevention 
of Transnational Trafficking of Women and Children'' [Zhong yue shuang 
bian yufang kuaguo guaimai funu ertong gongzuo shishi qingkuang ji 
xiangguan gongzuo], Southeast Asia Review [Dongnanya zongheng], No. 6, 
2004, <http://www.gxi.gov.cn>. On June 3, 2004, China and Vietnam 
announced a joint campaign with UNICEF to combat trafficking. ``China, 
Vietnam, UN Team Up to Fight Human Trafficking,'' UN Wire, 3 June 04.
    \533\ Congressional Executive Commission on China, 2003 Annual 
Report, 2 October 03, 46.
    \534\ Commission Staff Interview.
    \535\ Zhang Zizhuo, ``Yunnan AIDS Prevention and Control Law to 
Take Effect in March,'' Spring City Daily [Chuncheng ribao], 05 
February 04, <www.china-aids.org/>.
    \536\ ``China Sets First AIDS Legal Research Center,'' People's 
Daily, 07 April 04, <http://english.peopledaily.com.cn/>.
    \537\ ``State Council Circular Concerning Effective Strengthening 
of AIDS Prevention and Control,'' Xinhua, 9 May 04, (FBIS, 12 May 04). 
The circular also mandates that middle schools and colleges offer 
education in HIV/AIDS, public transportation departments publicize AIDS 
prevention and control to passengers, entertainment venues distribute 
and display printed HIV/AIDS education materials to clients, and 
medical workers routinely advise their patients on HIV/AIDS prevention 
and condom use.
    \538\ Chan Siu-sin, ``Four Residents of Henan AIDS Village 
Obstructed from Petitioning Beijing,'' South China Morning Post, 04 
July 04, <www.scmp.com>.
    \539\ In 2003, CECC staff traveled to Xinjiang Province to 
investigate the HIV/AIDS epidemic and its implications for human 
rights. In particular, staff focused on central government AIDS policy, 
central and local resources, and whether assistance was reaching remote 
areas like Xinjiang, where reports had indicated the need for action 
was particularly acute.
    \540\ ``280,000 Chinese Die of Hepatitis B Each Year,'' Xinhua, 5 
May 04, <www.xinhuanet.org>.
    \541\ ``Court Confirms Rights of Hepatitis B Carrier,'' China 
Daily, 3 April 04, <www.chinadaily.com.cn>.
    \542\ See, e.g., ``Explanation'' on the ``Regulation on the 
Specific Scope of the National State Secrets Law and Classification of 
State Secrets in Health Work'' [Weisheng gongzuo zhong guojia mimi ji 
qi miji juti fanwei de guiding], issued jointly by the Ministry of 
Health and the Bureau of State Secrets, enacted 1 March 91.
    \543\ Wenran Jiang, ``Prosperity Based on Poverty and Disperity 
[sic],'' China Review Magazine, 28 Spring 04, <www.gbcc.org.uk/>.
    \544\ Duncan Hewitt, ``China Rural Health Worries,'' BBC News, 4 
July 02, <http://news.bbc.co.uk>.
    \545\ ``China Invests One Billion Yuan in Rural Health Care,'' 
Xinhua, 23 May 04, <www.chinadaily.com>.
    \546\ CECC, 2003 Annual Report, 47.
    \547\ PRC Population and Family Planning Law, enacted 29 December 
01, art. 41.
    \548\ ``Fines to be Imposed for Illicit Births,'' Xinhua, 3 
February 04, <www.xinhuanet.com>.
    \549\ Bureau of Democracy, Human Rights and Labor, U.S. Department 
of State, Country Reports on Human Rights: China: 2003, 25 February 04.
    \550\ Yong Da, ``Two Children Good as One, For Some People,'' China 
Daily, 13 April 04 (FBIS, 13 April 04); ``Shanghai Makes it Easier to 
Have a Second Child,'' People's Daily, 7 November 03, <http://
english.people.com.cn>.
    \551\ Qiu Quanlin, ``Fund Urged to Compensate One-Child Parents,'' 
China Daily, 14 June 04 (FBIS June 14); Jia Chun and Zheng Hua, ``Agree 
to Have One Child? Get a Nice Cash Reward,'' China Daily, 9 June 04 
(FBIS, 9 June 04); ``Government to Pay Bonus to Villagers for Family 
Planning,'' Xinhua, 3 February 04 (FBIS, 3 February 04).
    \552\ Ren Yuan, ``From Lowering Fertility to Stabilizing Low 
Fertility: A Research on Factors Associate[d] with Fertility Rate and 
Policy Implications in Context of Negative Natural Increase in 
Shanghai'' [Cong jiangdi shengyu shuai dao wending de shengyu shuai], 
10 Market and Economic Analysis [Shichang yu jingji fenxi], No.1, 2004, 
48-54.
    \553\ Nancy E. Riley, ``China's Population: New Trends and 
Challenges,'' 59 Population Bulletin 2, 17-8 (2004). Riley's report 
includes unpublished data from the 2000 Census.

    Notes to Section III(f)--Freedom of Residence and Travel
    \554\ The Commission's 2003 report contains a thorough review of 
China's hukou regime. Congressional-Executive Commission on China, 2003 
Annual Report, 2 October 03, 50-3. For even more comprehensive 
treatment as to the origins of reforms to the hukou system, at least 
through the late 1990s, see Kam Wing Chan and Li Zhang, ``The Hukou 
System and Rural-Urban Migration in China: Processes and Changes,'' 160 
China Quarterly 818 (1999).
    \555\ AFL-CIO, Section 301 Petition of American Federation of Labor 
and Congress of Industrial Organizations, 16 March 04, 38, 
<www.aflcio.org/>.
    \556\ Wang Gang, ``How Should the Law Address the `Village Within 
the City' Dispute Over Division of Interest? '' [Falu ruhe yingdui 
`chengzhongcun' liyi fenpei jiufen?], Shaanxi Daily [Shaanxi ribao], 18 
November 03, <www.sxdaily.com.cn/>. The situation is further 
complicated by local village committees, which often take actions 
legitimizing discrimination against migrants who leave the village. 
Local residents who remain in the village often support these actions. 
This creates tensions between ensuring the right to village self-rule 
on one hand (according to the 1998 Organic Law on Village Committees) 
and, on the other, protecting the legal rights of migrants. Chinese 
courts find it particularly difficult to negotiate these competing 
interests. Ibid. For the views and proposed treatment of one local 
Shaanxi court, see Yang Kesheng, ``Analytical Discussion Regarding 
Disputes Over the Division of Allocated Amounts in the Countryside'' 
[Guanyu nongcun fenpei kuan jiufen anjian de fenxi tantao], 8 July 03, 
<www.court-shaanxi.gov.cn>.
    \557\ Guangdong Province Legal Aid Regulations [Guangdong sheng 
falu yuanzhu tiaoli], issued 20 August 99, article 10(1); Zhejiang 
Province Legal Aid Regulations [Zhejiang sheng falu yuanzhu tiaoli], 
issued 29 October 00, article 7; Shaanxi Province Legal Aid Regulations 
[Shaanxi sheng falu yuanzhu tiaoli], issued 25 September 01, article 8.
    \558\ Hua Hua, ``Migrant Population Deserves Better,'' China Daily, 
18 November 03 (FBIS, 18 November 03).
    \559\ ``Of 1000 Migrant Workers, Less Than 3 Percent Are Actually 
Able to Receive Legal Aid'' [1000 Waidi mingong zhong, zhenzheng 
nenggou huode falu yuanzhu de buzu 3 percent], Xinhua, 12 January 04, 
<http://news.xinhuanet.com>. Numerous other factors are responsible for 
the problems migrants face in obtaining legal aid as well, including 
difficulties collecting evidence and problems getting migrant 
plaintiffs to sign power-of-attorney forms. Ibid. In comparison, 
official Chinese statistics give an approval rate of 75 percent for all 
civil legal aid applications. MOJ Legal Aid Center, 2003 Annual Report 
on Legal Aid Work, 29. Officials in Chengdu legal aid centers estimate 
that about one-third of applicants are able to receive aid. Jiang Hua, 
``6 Cents to Change Destiny'' [Gaibian mingyun de 6 fen qian], Southern 
Daily [Nanfang ribao], 13 November 03, <www.nanfangdaily.com.cn>.
    \560\ The Chinese media has taken note of this problem. ``The 
Migrant Workers' Exodus,'' China Daily, 30 July 04 (FBIS, 30 July 04). 
Although American national and local regulations often condition 
receipt of social services, barring non-residents or non-citizens (as 
is the case with federally-funded legal aid programs), they are much 
less likely than their Chinese counterparts to create permanently 
excluded sub-classes. American public schools, for example, often 
require extremely limited and easily-established proof of residency, 
but not proof of citizenship. Sean Salai and Matthew Cella, ``Schools 
Will Not Report Illegals,'' Washington Times, 9 June 04, 
<www.washingtontimes.com>. Federal funding for hospitals would require 
inquiries as to immigrants' status, but does not condition emergency 
services on the responses. Robert Pear, ``U.S. is Linking Immigrant 
Patients' Status to Hospital Aid,'' New York Times, 10 August 04, 
<www.nytimes.com>.
    \561\ Regulations on Legal Aid [Falu yuanzhu tiaoli], issued 21 
July 03.
    \562\ Despite the national legal aid regulations, many local legal 
aid centers still appear to condition receipt of legal aid on the 
applicant's residence status. See, e.g., the Xiamen government Web site 
<www.xm.gov.cn/xminfo/flzh/default.asp?id=8&id2=39> (referencing local 
regulations requiring a local hukou or temporary residence permit as a 
prerequisite for receiving legal aid).
    \563\ Zhang Feng, ``Improved Rural Medical Care Still Far Away,'' 
China Daily, 17 March 04, (FBIS, 17 March 04).
    \564\ For information on such a plan in Guangdong, see ``Nanhai 
Peasants Will Enjoy Health Insurance Coverage'' [Nanhai nongmin 
xiangshou yibao], Southern Rural Daily [Nanfang nongcun bao], 25 
December 03, <www.nanfangdaily.com.cn>. Under the plan, rural residents 
are required to contribute up to 57 yuan a year of their own money, 
with village and township government providing the remainder. Ibid.
    \565\ Human Rights in China, ``China's Education System: Reading 
Between the Lines,'' in China Rights Forum, No. 1, 2004, 49. The local 
government in the place where a family has hukou registration has 
traditionally had responsibility for primary and secondary education of 
the children. The HRIC report also contains a very thorough discussion 
of the general problems faced by migrant children in terms of 
education.
    \566\ ``Almost 20 Milion Migrant Children, Only Half in School'' 
[Liudong ertong jin 2000 wan, banshu wei ruxue], World Journal [Shijie 
ribao], 7 November 03, <www.worldjournal.com>.
    \567\ Some seek to close these often ill-equipped schools out of 
honest concern for health and safety code violations. Others use these 
arguments as pretexts to rid their neighborhoods of the perceived 
``evils'' of migrant youth. Wan Lixia, ``Where Have Beijing's Schools 
For Migrant Youth Gone? '' [Beijing dagong zidi xuexiao dao nali qu 
le], 21st Century Business Herald [21 shiji jingji baodao], 18 February 
04, <www.nanfangdaily.com.cn>.
    \568\ State Council Notice on the Opinion of the Education and 
Other Ministries Relating to Further Work on Migrant Children's 
Compulsory Education [Guowuyuan bangongting zhuanfa jiaoyubu deng bumen 
guanyu jin yibu zuohao jincheng wugong jiuye nongmin zinu yiwu jiaoyu 
gongzuo yijian de tongzhi], issued 17 September 03.
    \569\ Zhou Yang, ``Compulsory Education For Migrant Children Will 
Receive `Urban Resident' Treatment'' [Mingong zinu yiwu jiaoyu jiang 
huo `shimin daiyu'], 21st Century Business Herald, [21st shiji jingji 
baodao], 14 January 04, <www.nanfangdaily.com.cn>.
    \570\ ``Do Migrant Children Suffer `Apartheid' in Education? '' 
[Mingong zinu shangxue zaoyu ``geli zhengce? ''], Southern Weekend, 
[Nanfang zhoumo], 3 June 04, <www.nanfangdaily.com.cn>. Central 
government pressure on local schools to meet national targets may also 
result in local schools barring easily identifiable, and poorer-
performing, migrant children from participating in educational testing 
in order to boost school scores. Ibid.
    \571\ ``Hangzhou Eliminates Migrant Sweeps'' [Hangzhou quxiao 
wailai renkou qingcha xingdong], Southern Metropolitan Daily [Nanfang 
dushi bao], 31 October 03, <www.nanfangdaily.com>.
    \572\ The new PRC Law of Citizen Identification Cards [Zhonghua 
renmin gongheguo shenfenzheng fa], issued 28 June 03, bars private 
organizations and individuals from requiring individuals to display 
their ID cards. Ibid, art. 15. The police are allowed to check 
identification in certain designated situations. Ibid.
    \573\ According to news reports, over half of Chinese provincial-
level administrative regions have undertaken some form of hukou reform. 
``China Reforms Household Registration System To Bridge Urban-Rural 
Gap,'' Xinhua, 4 December 03 (FBIS, 4 December 03).
    \574\ Wuhan Will Eliminate Temporary Residence Permits, Specific 
Implementation Plans Are Being Prepared [Wuhan jiang quxiao 
zanzhuzheng, juti shishi fang'an shang zai yunniang], Wuhan government 
Web site, 2 September 04, <www.wuhan.gov.cn>; Hua Keji and Lu Bingbing, 
``Shenzhen `Blue Book' Issued, Temporary Residence Permit System For 
Migrants to be Gradually Eliminated'' [Shenzhen ``lanpishu'' wenshi, 
wailai renkou jiang zhubu quxiao zanzhuzheng], Southern Daily [Nanfang 
ribao], 11 May 04, <www.nanfangdaily.com.cn>; Zhang Jing, ``Shenyang 
Eliminates Temporary Residence Permits'' [Shenyang quxiao zanzhuzheng], 
Sina, 22 July 03, <www.sina.com.cn>.
    \575\ For information on the content of some of these reforms, see 
``Can Get Urban Hukou With a Fixed Place of Residence'' [You guding 
zhusuo ke ban chengzhen hukou], Southern Metropolitan Daily [Nanfang 
dushi bao], 21 October 03, <www.nanfangdaily.com.cn>; ``Why Unified 
Urban-Rural Residence Status Faces an Uphill Battle,'' [Cheng xiang 
tongyi huji weihe lengchang], Finance [Caijing], 19 June 04, 
<www.caijing.com.cn>. Granting urban residence permits to individuals 
in small urban areas possessing a ``fixed place of residence'' and a 
``stable source of income'' has been government policy since 2001. Joe 
Young, ``Hukou Reform Targets Rural-Urban Divide,'' The China Business 
Review, May-June 2002.
    \576\ Nanjing City Issues Regulations on Implementation Details for 
Residence Permit System Reforms'' [Nanjing shi chutai huji zhidu gaige 
xiangxi guiding], Sina, 24 June 04, <www.sina.com.cn>.
    \577\ Li Zhanyong, ``Hebei Releases Implementation Details on 
Residence Status Reform'' [Hebei chutai huji gaige shishi xize], 
People's Daily [Renmin ribao], 26 September 03, <www.people.com.cn/>.
    \578\ National government policy supports extending urban hukou 
status to highly educated individuals. ``Decision of the CPC Central 
Committee and State Council on Further Strengthening Work Concerning 
Skilled Personnel,'' Xinhua, 26 December 03 (FBIS, 9 January 04) 
(urging promotion of skilled workers and liberalizing hukou 
restrictions as applied to them).
    \579\ Examples include Chengdu, ``Large Revisions to Chengdu 
Residence Permit Policy, From June 1, Barrier to Entering the City Will 
Be Relaxed'' [Chengdu huji zhengce da tiaozheng 6 yue 1 ri qi jincheng 
menlan jiangdi], 30 May 03, Xinhua, <www.xinhua.com.cn>; Guangzhou, 
``Beginning Next Year, Guangzhou's Residence Permit System Will Have 
Major Changes'' [1 yue 1 ri Guangzhou huji zhidu gaige zai mai da bu], 
23 December 03, Xinhua, <www.xinhua.com.con>; Shanghai, ``As of 
October, Shanghai Residence Permits Will Expand to Include `Ordinary' 
Non-Locals'' [Shanghai juzhuzheng 10 yue qi kuoda dao putong wailai 
renyuan], China Youth Daily [Zhongguo qingnian bao], 3 September 04, 
<www.cyd.com.cn>. The frequent description in Chinese media of the 
``elimination'' of rural and urban hukou divisions is somewhat 
misleading. The reform measures described above and in the text are 
shifting the residence permit system away from one based on rural/urban 
labels to one based on specific place of residence. However, 
registration criteria such as that described above still hinders the 
ability of rural migrants to actually obtain both local hukou in the 
urban areas they move to and unfettered access to the social services 
available there.
    \580\ ``Guangdong: Temporary Residence Permit Not Amenable to 
Elimination'' [Guangdong: zanzhuzheng buyi quxiao], Southern 
Metropolitan Daily [Nanfang dushi bao], 20 October 03, 
<www.nanfangdaily.com.cn>.
    \581\ ``China Expects First Ever Farmer Protection Law,'' People's 
Daily [Renmin ribao], 12 July 04, <www.people.com.cn>.
    \582\ The Chinese government's own White Paper on its human rights 
record touts the drafting of a ``Law on the Protection of Peasants 
Rights.'' Chinese Government White Paper, ``2003 Progress in Chinese 
Human Rights Work,'' [2003 Nian zhongguo renquan shiye de jinzhan], 
<www.china-un.ch>. See also ``This Year Will See Drafting of Law on the 
Protection of Peasant's Rights'' [Jinnian jiang qicao nongmin quanyi 
baohu fa], Beijing Youth Daily [Beijing qingnian bao], 15 March 04, 
<www.lawyerstep.cn/>; ``Five Long Years for `Law on the Protection of 
Peasant Rights': To Give Peasants the Rights of Citizens? '' [``Nongmin 
quanyi baohu fa'' wu nian changpao: gei nongmin guomin daiyu?], 21st 
Century Business Herald [21 shiji jingji baodao], 3 March 04. The 
content of these proposals appears to vary wildly. Some represent 
grandiose promises of total equality of treatment between urban 
residents and migrants, others specific efforts to redirect monetary 
compensation for land seizures to local governments to pay for social 
services. Ibid. Other proposals appear to condition a change in hukou 
status on the exhaustion of social service benefits in migrants' home 
areas. Chen Kencheng and Shu Ying, ``Landless Peasants Increase by 20 
Million Every Year--Shanghai Social Welfare Chief Submits Proposal to 
NPC'' [Shidi nongmin nianzeng 200 wan shanghai shebao juzhang tijiao 
renda yian], 21st Century Business Herald [21 shiji jingji baodao], 3 
March 04, <www.nanfangdaily.com.cn/>.
    \583\ Many of these administrative notices do attempt to curb local 
abuses associated with the hukou system. Zhao Cheng and Liu Zheng, ``9 
National Ministries Jointly Issue Notice to Clean Up and Wipe Out 
Discriminatory Regulations Directed at [Migrants] Coming Into the City 
to Work'' [Guojia 9 buwei lianhe xiafa tongzhi, qingli quxiao zhendui 
jincheng wugong nongmin de qishixing guiding], Xinhua, 4 August 04. 
However, such directives fail to give migrants legal rights they can 
assert against discrimination. They also do not address the basic 
social seperation created by the hukou labels.
    \584\ ``Five Long Years For `Law on the Protection of Peasant 
Rights': To Give Peasants the Rights of Citizens? '' 21st Century 
Business Herald.

    Notes to Section V(a)--Constitutional Reform
    \585\ The NPC made only three minor changes to the text of the 
amendments approved at the Third Plenum of the 16th CCP Central 
Committee in October 2003.
    \586\ A chart detailing the amendments and the minor changes made 
by the NPC is available at <www.cecc.gov/pages/virtualAcad/rol/
NPCApproveConstAmendChart.pdf>.
    \587\ According to the Theory of Three Represents, the Party must 
represent advanced productive forces, advanced culture, and the 
fundamental interests of the majority of China's citizens. It is 
intended to provide a theoretical basis for incorporating the 
entrepreneurs into the Party. The other guiding ideologies of the state 
are Marxism-Leninism, Mao Zedong Thought, and Deng Xiaoping Theory. 
Notably, Jiang Zemin is not mentioned by name in the amendment.
    \588\ Commission Staff Interviews; Yin Jinhua, ``There Will be No 
Political Civilization in the Absence of the Rule of Law,'' Study Times 
[Xuexi ribao], 16 February 04 (FBIS, 3 April 04).
    \589\ See, e.g., Robert Saiget, ``Scholars Say Amendments to PRC 
Constitution Fall Far Short of Expectation,'' Agence France-Presse, 12 
October 03 (FBIS, 12 October 03); Freda Wan, ``Changes Could Be Just 
Symbolic, Observers Fear,'' South China Morning Post, 15 March 04, 
<www.scmp.com>; Veron Hung, ``China's Constitutional Amendment Is 
Flawed,'' International-Herald Tribune, 4 March 04, <www.iht.com>.
    \590\ Commission Staff Interviews.
    \591\ Commission Staff Interview. China signed the ICCPR in 1998, 
but the National People's Congress has yet to ratify it. The scholar 
predicts that the NPC will ratify the ICCPR within two years.
    \592\ According to CECC sources, the Propaganda Department issued a 
directive banning discussion of the ``three unmentionables,'' 
(constitutional amendments, political reform, and June 4) in news 
reports and in unapproved ``academic papers or forums on constitutional 
amendment.'' Authorities reportedly harassed vocal constitutional 
reform advocates such as Cao Siyuan and Jiang Ping in the wake of the 
directive. Jiang Xun, ``Scholar Put Under Round-the-Clock Watch for 
Voicing Opinion of Constitutional Reforms,'' Asia Weekly [Yazhou 
zhoukan], 26 October 03 (FBIS, 22 October 03); Jason Leow, `` `Banned' 
Economist Returns to China,'' The Straits Times, 13 July 04 (FBIS, 13 
July 04). In January, the General Administration on Press and 
Publication issued a directive explicitly prohibiting the unauthorized 
publication of books, articles, and audio or video materials concerning 
``amendment of the Constitution.'' Notice on Strengthening the 
Administration of Guidance Over Published Material Relating to 
Constitutional Amendment [Guanyu jiaqiang dui sheji xiugai xianfa fudao 
duwu chuban guanli de tongzhi], issued 21 January 04.
    \593\ Kathy Chen, ``China Cracks Down on Growing Debate Over 
Political Reform,'' Wall Street Journal, 24 September 03, 
<www.wsj.com>.
    \594\ Zhuang Huining, ``Include Important Theoretical Viewpoints, 
Principles, and Policies Established at the 16th CPC National Congress 
Into the Constitution; Play a Better Role of the Basic Law of the 
Country--Three Noted Legal Experts on Constitutional Amendments,'' 
Outlook [Liaowang], 20 October 03 (FBIS, 28 October 04); Hua Hua, 
``Balance Between Consistency, Adaptability,'' China Daily, 30 October 
03 (FBIS, 30 October 03).
    \595\ Ji Weidong, ``From Emphasizing Private Property Rights to 
Improving Governance: Interpreting the Draft of the Fourth Amendment of 
the Constitution,'' Finance [Caijing] (English Edition), 12 January 04, 
<www.caijing.com.cn>; Hu Jianmiao, Jin Chengdong, ``The Predicament of 
a Right to Call for Review of Laws and Regulations for Constitutional 
Violations'' [Fagui weixian shencha jianyiquan de kunjing], Legal Daily 
[Fazhi ribao], 12 February 04, <www.legaldaily.com.cn>. Although more 
reserved, the China Daily also called for a more robust system of 
constitutional review. ``Laws Must Fit Constitution,'' China Daily, 16 
January 04, <www.chinadaily.com.cn>. See also Chen Feng, ``Rights 
Without Guarantees Are Worthless'' [Meiyou baozhang de quanli dengyu 
ling], China Youth Daily [Zhongguo qingnian bao], reprinted in 
Guangming Daily [Guangming ribao], 17 October 03. Although the China 
Youth Daily article discussed the failure to respect the rights of 
criminal suspects and not specifically constitutional reform, it closed 
with a general warning that ``Rights without guarantees are worthless. 
We need to strengthen our effort to perfect mechanisms for 
[challenging] violations of rights. Only if we do this will the rights 
of citizens be more than `rights on paper.' ''
    \596\ Commission Staff Interviews. See, e.g., Li Yajing, ``China 
Stands At the Entrance of the Constitutional Age'' [Zhongguo zhan zai 
xianzheng jieduan menkou], Southern Metropolitan Daily [Nanfang 
dushibao], 31 July 04 (discussing the ideas of Professor Cai Dingjian, 
a leading constitutional scholar). Professor Cai believes that four 
forces will push forward the development of constitutionalism in China: 
(1) the challenges of judicial practice and the need for constitutional 
review; (2) a high degree of spontaneous, direct participation by 
citizens; (3) participation by the media and public debates as checks 
on government power; and (4) local experiments with democracy.
    \597\ The Open Constitution Initiative is a non-profit law center 
established by a Beijing legal scholar. The Web site was shut down in 
June 2004 following a series of aggressive stories on the prosecution 
of reporters from the Southern Metropolitan Daily [see Section III(d)--
Freedom of Expression]. The site has been reposted at 
www.xianzheng.org.
    \598\ Commission Staff Interview; ``Retired Hangzhou Teacher 
Detained for 10 Days for `Promoting the Constitution' '' [Hangzhou 
tuixiu laoshi shenchuan bai dagua xuanchuan xianfa bei juliu 10 tian], 
Peacehall Web site, 25 January 04, <www.peacehall.com>; ``Resisting 
Demolition and Relocation, 38 Residents Bring Out the Constitution'' 
[Ju chaiqian, 38 hu jumin banchu xianfa], Chengdu Evening News [Chengdu 
wanbao], 30 April 04; Bao Limin, ``An Old Man in Beijing Defies 
Relocation Order with a Copy of the Constitution in Hand,'' China Youth 
Daily, 5 April 04 (FBIS, 6 April 04); ``Guangdong Homeowners Use 
Constitution to Fight Eviction,'' Agence France-Presse, 5 April 04 
(FBIS, 5 April 04). Some Chinese scholars have expressed concern that 
in the wake of the constitutional amendments on property rights, the 
PRC Land Administration Law and other statutes conflict with the 
Constitution. Ye Xinfeng, Gu Xiuyan, Gong Chang, ``How to Link the 
Amended Constitution and the `Land Administration Law' '' [``Tudi 
guanli fa'' zenme yu xiuxian xianan], Theoretical Exploration [Lilun yu 
tansuo], No. 5, 2004, 28-9.
    \599\ For example, the Chengdu Evening News and China Youth Daily 
stories cited above painted such protests in a positive light.
    \600\ Jim Yardley and Chris Buckley, ``Chinese Reformers Petition 
for Review of Subversion Law,'' New York Times, 1 February 04, 
<www.nytimes.com>. The petitions are available at <http://
sky.prohosting.com/liudiorg/DuDaobin01e.htm>.
    \601\ Congressional-Executive Commission on China, Annual Report 
2003, 2 October 03, Section V(e).
    \602\ Commission Staff Interviews. In April 2004, Commission staff 
members also completed a survey of Chinese scholarly articles on 
constitutional enforcement mechanisms published in 2002 and 2003. A 
list of such articles is available on the Commission Web site at 
<www.cecc.gov/pages/virtualAcad/rol/JournalArticlesIndex.pdf>.
    \603\ Commission Staff Interviews. One criticism of such a 
committee is that it is unlikely that citizens would be able to compel 
review. See also Liu Yunlong, ``On Constitutional Lawsuits and Their 
Application to China'' [Yelun xianfa susong ji qi zai woguo de 
yingyong], Law Review [Faxue pinglun], No. 13, 2002, 21-2. One 
prominent constitutional law scholar suggests that if such a committee 
is formed, it is likely to evolve into a German-style constitutional 
court in the long term. Commission Staff Interview.
    \604\ Wang Chenbo and Sun Zifa, ``An Interview with Lin Bocheng, 
Secretary General, China Foundation for Human Rights Development--Where 
Does the Road of Human Rights in China Lead After These Rights Are 
Written Into China's Constitution?,'' China News Agency [Zhongguo 
xinwen she], 11 March 04.
    \605\ This story was published during the NPC meetings and could 
have been intended to deflect criticism that the constitutional 
amendments adopted at the meeting were merely symbolic. The Chinese 
government could also have been posturing to create the impression that 
it was making progress on human rights in the run-up to the meeting of 
the UN Human Rights Commission in Geneva in April, 2004. According to 
China law expert Randall Peerenboom, several Asian countries have 
established national human rights commissions, including Thailand, 
Indonesia, India, the Philippines, and Sri Lanka, but on the whole, the 
effectiveness of such domestic commissions in enforcing human rights 
protections has been mixed. Randall Peerenboom, Posting to China Law 
Net, 1 June 04 (cited with permission of author).
    \606\ Meng Yan, ``New Agency to See to Constitution Application,'' 
China Daily, 21 June 04, <www.chinadaily.com.cn>; ``China Sets Up New 
Agency to See to Constitutional Application,'' Xinhua, 21 June 04 
(FBIS, 21 June 04). Reports differ on the number of staff members that 
the panel will have. The China Daily reports that the panel will have 
10 staff members. The Xinhua report puts the number at 50.
    \607\ Commission Staff Interviews. In 2001, the Supreme People's 
Court authorized a court in Shandong province to rely on constitutional 
provisions on the right to education in deciding a case. Shen Kui, ``Is 
it the Beginning or the End of the Era of the Run of the Constitution? 
Reinterpreting China's First Constitutional Case,'' 12 Pacific Rim Law 
& Policy Journal 200, 209-10 (January 2003). Although it was considered 
a potentially precedent-setting case on judicial application of the 
Constitution, the case involved a tort claim between two private 
parties and not a claim against the government or an effort to overturn 
a law or regulation. The power to directly apply constitutional 
provisions in the absence of concrete implementing legislation has not 
been given to the courts generally.
    \608\ The Human Rights Legal Research Center at Sichuan University 
in Chengdu and the Constitutional Law and Civil Rights Center at 
Qinghua University in Beijing are both involved in such work. The 
Qinghua center operates in cooperation with the Constitutional and 
Human Rights Committee of the Beijing Lawyers Association. Commission 
Staff Interviews.
    \609\ Commission Staff Interviews. At least two height 
discrimination cases have been filed, one in Sichuan against a branch 
of the People's Bank, and one against the Supreme People's 
Procuratorate. ``Authentic Records of the Court Hearing for China's 
First Constitutional Equal Protection Case'' [Zhongguo xianfa 
pingdengquan diyi an tingshen shilu], China Lawyer Net [Zhongguo lushi 
wang], 12 December 02, <www.chineselawyer.com.cn>; Commission Staff 
Interviews.
    \610\ The Sichuan height discrimination case was dismissed on the 
grounds that the plaintiff had no standing to sue under the 
Administrative Litigation Law. The SPP case is pending. A Hepatitis B 
case in Anhui is currently being appealed. At least six other 
provinces, including Zhejiang, Guangdong, Guizhou, Sichuan, Jiangxi, 
and Hunan, have lifted bans on hiring non-infections Hepatitis B 
carriers. Commission Staff Interviews; ``One More Chinese Province 
Discontinues Hepatitis Discrimination in Civil Service,'' Xinhua, 17 
May 04 (FBIS, 17 May 04); Alice Yan, ``Hunan Lifts Ban on Hiring 
Hepatitis B Carriers,'' South China Morning Post, 5 March 04, 
<www.scmp.com>. The Chinese government is reportedly drafting 
guidelines on health qualifications for employment that would bar 
discrimination against Hepatitis B and C carriers. Liang Chao, ``Law 
Drafted to Help Fight Discrimination,'' China Daily, 11 August 04 
(FBIS, 11 August 04).
    \611\ Commission Staff Interviews.
    \612\ For a description of the case, see Meng Yan, ``Judge Sows 
Seeds of Lawmaking Dispute,'' China Daily, 24 November 03 (FBIS, 24 
November 04); Guo Guosong, ``A Judge Declares a Local Regulation 
Invalid: Violating the Law or Upholding the Law'' [Faguan pan 
difangxing fagui wuxiao: weifa haishi hufa] Southern Daily [Nanfang 
ribao], 20 November 03.
    \613\ Judge Li's presiding judge status was revoked by the court 
Party committee, and she was eventually dismissed from her job. After 
an outcry from legal experts and calls for leniency, however, she was 
quietly invited back to work in early 2004. According to Commission 
sources, she declined to return. Commission Staff Interview.
    \614\ See, e.g., Cheng Jie, ``How to Understand LPC Supervision 
Over the Courts--Some Thoughts on the Li Huijuan Case'' [Ruhe lijie 
difang renda dui fayuan de jiandu--li huijian shijian falu sikao zhi 
san], 21st Century Economic Herald [21 shiji jingji baodao], 3 December 
03, <www.nanfangdaily.com.cn>; He Weifang, ``NPC Supervision and 
Judicial Independence'' [Renda jiandu yu faguan duli shenpan], China 
Lawyer Net [Zhongguo lushi wang], 4 December 03, 
<www.chineselawyer.com.cn>. Legal scholars at Qinghua University held a 
conference to discuss the implications of the case. ``Qinghua 
Conference: Many Scholars Discuss the Judge Li Huijuan Incident'' 
[Qinghua huiyi: zhong xuezhe fenshuo ``li huijian faguan'' shijian], 
21st Century Economic Herald [21 shiji jingji baodao], 26 November 03, 
<www.nanfangdaily.com.cn>.
    \615\ Tian Yi, Wang Yin, ``Four Lawyers Petition the National 
People's Congress to Examine a Local Regulation'' [Si lushi shangshu 
quanguo renda shencha difang fagui], 21st Century Business Herald [21 
shiji jingji baodao], 24 November 03, <www.nanfangdaily.com.cn>. Under 
Article 90 of the PRC Legislation Law, citizens have the right to 
petition the National People's Congress for review of administrative 
regulations that conflict with national law or the Constitution. PRC 
Legislation Law, enacted 15 March 00, art. 90.
    \616\ Chinese legal scholars praised the government for creating 
the new panel, but suggested that the NPC consider creating a 
constitutional committee or constitutional court to undertake a 
function similar to that of judicial review in the United States and 
Great Britain. ``NPC Body to Address Conflicts,'' China Daily, 21 June 
04, <www.chinadaily.com.cn>.
    \617\ Harry Doran, ``Beijing Rules Out Constitutional Court,'' 
South China Morning Post, 22 May 04, <www.scmp.com>.
    \618\ In its 2003 Annual Report, the Commission reported that the 
Party, the NPC, and the SPC were studying reforms related to 
constitutional review. According to Commission sources, however, no 
concrete proposals are likely to be made in the near future.
    \619\ Communique of the Third Plenum of the 16th Central Committee 
of the Chinese Communist Party, approved 14 October 03. Specifically, 
the amendments are intended to ``be helpful in strengthening and 
improving the Party's leadership, bringing into play the superiority of 
the socialist system, mobilizing the enthusiasm of the broad masses of 
the people, maintaining national unity, ethnic unity, and social 
stability, and promoting economic development and overall social 
progress.''
    \620\ See the introduction to the Commission's 2003 Annual Report 
for a summary of the evolving Party stance toward ``human rights.'' 
CECC, 2003 Annual Report, October 2003, 5-10.
    \621\ Commission Staff Interviews. In Chengdu, for example, public 
security officials cited the new amendment on human rights as 
justification for loosening controls on migrant workers.
    \622\ Last year, for example, reformers deftly seized on public 
anger over the death in custody of a young man named Sun Zhigang, 
government rhetoric promoting the rule of law, and an embryonic legal 
mechanism for NPC Standing Committee review of legislative conflicts to 
create pressure that led the State Council to abolish a controversial 
form of administrative detention called custody and repatriation. CECC, 
2003 Annual Report, October 2003, Section V(e).
    \623\ Chen Feng, ``Rights Without Guarantees Are Worthless.''

    Notes to Section V(b)--Nongovernmental Organizations and the 
Development of Civil Society
    \624\ Congressional-Executive Commission on China, Annual Report 
2003, 2 October 03, 54-7; Sharon Liang, ``Walking the Tightrope: Civil 
Society Organizations in China,'' China Rights Forum, No. 3, September 
2003, 11-5. Although the discussion in the text focuses on broad 
trends, the Commission continues to monitor individual issues and cases 
related to Chinese civil society. Although the general trend has been 
toward less government intervention in civil society, examples of 
arbitrary government control do exist. ``Three National Social 
Organizations Suspended'' [Sange quanguoxing shetuan bei tingzhe], 
Southern Metropolitan Daily, [Nanfang dushi bao], 12 November 03, 
<www.nanfangdaily.com.cn> (reporting that the Ministry of Civil Affairs 
(for the first time since 1950) suspended three national social 
organizations--the Chinese Behavorial Law, Life Sciences, and 
Decorative Architecture Associations--for establishing unauthorized 
sub-branches).
    \625\ Regulations on the Management of Foundations [Jijinhui guanli 
tiaoli], issued 8 March 04. They represent a revision of the prior, 
relatively vague 1988 rules on the same topic. Rules on the Management 
of Foundations [Jinjinhui guanli banfa], issued 27 September 88.
    \626\ Companion regulations on social organizations (shehui tuanti) 
(SOs) and non-governmental, non-commercial enterprises (minban feiqiye 
danwei) (NGNCEs) were issued in 1998. Regulations on the Registration 
and Management of Social Organizations [Shehui tuanti dengji guanli 
tiaoli], issued 25 September 98; Temporary Regulations on the 
Registration and Management of Non-Governmental, Non-Commercial 
Enterprises [Minban fei qiye danwei dengji guanli zanxing tiaoli], 
issued 6 November 98. SOs are voluntary associations such as academic 
or professional groups, while NGNCEs are nongovernmental service 
providers, such as schools, hospitals, sports organizations, or 
employment service organizations. See, e.g., To Serve the People: NGOs 
and the Development of Civil Society in China, Staff Roundtable of the 
Congressional-Executive Commission on China, 24 March 03, Written 
Statement of Qiusha Ma, Assistant Professor, East Asian Studies, 
Oberlin College.
    \627\ For an extensive discussion of the Foundation Regulations and 
their content, see Carl Minzner, ``New Chinese Regulations on 
Foundations,'' International Journal of Civil Society Law, April 2004, 
110-5.
    \628\ Regulations on the Management of Foundations, art. 9. In 
Chinese, sponsor organizations are ``yewu zhuguan danwei.'' The prior 
1988 rules provided for industry supervision of foundation activities 
by the People's Bank of China. However the sponsor requirement language 
in the Regulations has been imported from the prior 1998 regulations on 
SOs and NGNCEs.
    \629\ The Foundation Regulations technically allow State Council 
bureaus and organizations ``so authorized'' by the State Council to 
serve as sponsor organizations. Regulations on the Management of 
Foundations, art. 7. Similar language exists in the SO and NGNCE 
regulations. Chinese sources indicate the only actual approved sponsor 
organizations are government bureaus and mass organizations. The 2003 
annual review of approved national social organizations lists their 
corresponding sponsor organizations and illustrates the party/
government links with Chinese civil society organizations. Ministry of 
Civil Affairs (MOCA), ``Report on the 2003 Annual Review of National 
Social Organizations,'' [Quanguoxing shehui tuanti 2003 niandu jiancha 
qingkuang gonggao], 3 June 2004, <www.chinanpo.gov.cn>.
    \630\ Regulations on the Management of Foundations, art. 35.
    \631\ Commission Staff Interview.
    \632\ Sponsorship creates other difficulties for Chinese civil 
society as well. The bureaucratic difficulty of finding a sponsor 
constrains the formation of completely apolitical organizations (i.e., 
bird-watching associations). It also raises problems of corruption by 
giving government and Party organs a political tool to extract money or 
favors from organizations they sponsor. Wealthy organizations, such as 
industry associations in eastern China, are able to capitalize on their 
economic clout to purchase or extort a measure of independence from 
their sponsors and the local government. Industry associations around 
Shanghai have been successful in gradually shaking free of government 
restrictions. ``Shanghai: China's Largest NGO Reform'' [Shanghai: 
quanguo zui da guimo NGO gaige], Southern Weekend [Nanfang zhoumo], 25 
March 04, <www.nanfangdaily.com.cn>. In contrast, weaker organizations, 
or those unable or unwilling to find sponsors, must either register as 
businesses or operate as illegal, unregistered groups.
    \633\ According to Chinese news reports, although initial MOCA 
drafts of the Regulations omitted the sponsorship requirement, the 
Legal Affairs Office of the State Council expressly insisted on its 
inclusion. ``Who is Stopping China's Wealthy From Becoming 
Philanthropists? '' [Shei zuai le zhonguo furen chengwei cishan jia], 
21st Century Business Herald [21 shiji jingji baodao], 1 March 04, 
<www.nanfangdaily.com.cn>; Commission Staff Interview.
    \634\ More specifically, prior regulations bar the registration of 
multiple SO or NGNCE seeking to address the same problem in a 
particular administrative area, theoretically allowing but one 
environmental SO to be registered for a particular province, for 
example. The Commission's 2003 Annual Report noted that such ``type-
locality'' limits posed a significant impediment to further 
developments of Chinese civil society. CECC, Annual Report 2003, 56.
    \635\ Regulations on the Management of Foundations, art. 13. Many 
foreign NGOs present in China, including foundations, have long 
operated in a grey legal zone, since MOCA has long been unwilling to 
register foreign NGOs without general regulations about how to manage 
them. This has been MOCA practice since at least 1990. Response of 
MOCA's Social Organization Management Division Regarding the 
Establishment of a Japanese Social Organization in Beijing [Minzheng bu 
shetuan guanli si guanyu riben ren zai jing chengli riben ren huishi de 
dafu], issued 20 February 90 (stating that MOCA will ``maintain 
contact'' with organizations consisting of non-Chinese nationals 
operating ``publicly'' and will not ``actively'' seek to make contact 
with organizations which are ``not yet operating publicly'' as long as 
they respect relevant Chinese laws). Such organizations are to be 
informed that they cannot yet register as social organizations, but 
that relevant regulations are in the process of being drafted. Ibid. 
Some foreign NGOs have registered as for-profit corporations and some 
have been granted specific individual approval for their registration, 
while others operate without any official registration. Commission 
Staff Interview.
    \636\ Regulations on the Management of Foundations, art. 7. How the 
Chinese government will actually apply this requirement remains to be 
seen. MOCA may conceivably play the role of both sponsor and 
registration organ for foreign foundations. Commission Staff Interview.
    \637\ According to Chinese sources, this should encompass revisions 
to the 1998 regulations governing both SOs and NGNCEs. Commission Staff 
Interview.
    \638\ Commission Staff Interview. Whether these proposed revisions 
will also apply the sponsor requirement to foreign NGOs is currently 
unclear.
    \639\ Project Team on ``Reform of China's Public Institutions and 
Development of China's Non-Profit Organizations,'' ``Reform of China's 
Public Institutions,'' International Journal of Civil Society Law, 
January 2004, 7-8. Examples include hospitals, schools, arts groups, 
and academic research organs. As state-sponsored, state-funded service 
providers, they technically differ from the SOs and NGNCEs, the latter 
being theoretically independent of the state (but in reality heavily 
influenced via the system of sponsorship). In reality, the decrease in 
state funding for public institutions and their increasingly 
independent behavior has meant that the border between them and NGNCEs 
(which are privately operated service providers) is increasingly vague. 
The division between China's public and private schools is a good 
example. Many Chinese public schools manage NGNCE schools on the side 
in order to earn money.
    \640\ Ibid., 8.
    \641\ Ibid., 9-12.
    \642\ ``Xi'an Public Institution Reform: Members of the Yisu Troupe 
Search For the Future'' [Xi'an shiye danwei gaige: yisushemen xunzhao 
weilai], 21st Century Business Herald [21 shiji jingji baodao], 21 
April 04, <www.nanfangdaily.com.cn>.
    \643\ Ibid.
    \644\ Project Team, ``Reform of China's Public Institutions,'' 14.
    \645\ Joshua Muldavin, ``China's Poor Left Behind,'' International 
Herald Tribune, 8 May 03, <www.iht.com>.
    \646\ For a discussion of some possible alternatives, see Ge 
Yunsong, ``Nonprofit Organizations and the Reform of China's Public 
Institutions,'' International Journal of Civil Society Law, January 
2004, 33-8; Fan Hengshan, ``Smoothly and Orderly Promoting the Reform 
of China's Public Institutions'' [Pingwen youxu tuijin zhongguo shiye 
danwei gaige], Finance [Caijing], 20 April 04, 82-4.
    \647\ Qiusha Ma, ``Classification, Regulation, and Managerial 
Structure: A Preliminary Enquiry on NGO Governance in China,'' July 02, 
28-30, <www.jhu.edu/istr/conferences/capetown/volume/ma.pdf>.
    \648\ Commission Staff Interview. Organizations seeking to support 
the growth of Chinese civil society might attempt to address these 
issues through training programs that provide both structure and 
responsibility to nascent Chinese NGOs.

    Notes to Section V(c)--Access to Justice
    \649\ Ethan Michelson, ``Causes and Consequences of Grievances in 
Rural China,'' (draft manuscript on file with the Commission), 28 March 
04, 26. Other studies on China find the percentage to be even lower. 
Studies on the United States have found that approximately 10 percent 
of U.S. grievances involve lawyers. Survey data from Beijing suggest 
that 10 percent of ``disputes'' end up in court. Ibid. This suggests a 
somewhat greater importance of formal legal institutions in Chinese 
urban areas.
    \650\ Even in Beijing, only 9 percent of civil cases brought to 
court have legal representation. Ethan Michelson, ``How Much Does Law 
Matter in Beijing,'' 28 May 02, <www.indiana.edu/emsoc/Publications/
Michelson--HowMuchDoesLawMatter.PDF>.
    \651\ Different English terms are often used to translate the 
Chinese term shangfang. ``Petitioning'' captures its mixed legal and 
political dimensions, and its traditional roots, most closely.
    \652\ John R. Watt, The District Magistrate in Late Imperial China 
(New York: Columbia University Press, 1972), 11-13.
    \653\ Ibid., 11-13, 212-213.
    \654\ Jonathan Ocko, ``I'll Take it All the Way to Beijing: Capital 
Appeals in the Qing,'' 47(2) Journal of Asian Studies 291, 292, 298-
299.
    \655\ For one such vivid example, see Guangyuan Zhou, ``Illusion 
and Reality in the Law of the Late Qing,'' 19(4) Modern China 427 
(1993).
    \656\ Jonathan Ocko, ``I'll Take it All the Way to Beijing: Capital 
Appeals in the Qing,'' 294.
    \657\ Guangyuan Zhou, ``Illusion and Reality in the Law of the Late 
Qing.''
    \658\ Laura Luehrmann, ``Facing Citizen Complaints in China, 1951-
1996,'' 43(5) Asian Survey 845, 849, 852 (2003). Although eliminated 
during the Cultural Revolution, xinfang offices re-emerged in the late 
1970s with additional responsibilities: the redress of grievances 
accumulated during the prior decade and the rehabilitation of ``class 
enemies.'' Ibid., 854-6; Andrew Nathan, Chinese Democracy (Los Angeles: 
University of California Press, 1986), 26.
    \659\ ``National Xinfang Bureau Chief: 80 percent of Petitioners 
Are Correct'' [Guojia xinfang juzhang: 80 percent de shangfang you 
daoli], Bimonthly Discussion [Banyue tan], 20 November 03, 
<www.china.org.cn/>; Supreme People's Court Work Report, 10 March 04. 
``Petitions'' here is used as a shorthand for all xinfang items, both 
letters and visits.
    \660\ Supreme People's Court Work Report, 11 March 03. The 2004 
work report lists total ``litigation-related'' (shesu) letters or 
visits for the entire Chinese court system as 3,970,000 for the year, 
compared to 5,687,905 decided cases. SPC Work Report, March 2004. 
Naturally, such statistics must be evaluated carefully.
    \661\ Ibid.
    \662\ ``NPC Xinfang Bureau Releases Issues of Public Concern'' 
[Renda xinfang ju gongbu minyi jiaodian], Southern Metropolitan Daily 
[Nanfang dushi bao], 29 February 04, <www.nanfangdaily.com.cn/>; 
Supreme People's Procuratorate Work Report, 10 March 04.
    \663\ National regulations give an expansive definition to xinfang 
activities, including any opinion, suggestion, or demand made of a 
government office, as well as criticism or revelation of illegal 
behavior on the part of government organs and workers and accusations 
of violation of ones own legal rights. Regulations on Letters and 
Visits [Xinfang tiaoli], issued 28 October 95, arts. 7-8. Petitioning, 
however, has become heavily dominated by the expression of violations 
of individual or collective rights.
    \664\ For a vivid film portrayal of individual petitioning 
activity, see ``The Story of Qiu Ju,'' Zhang Yimou (1992). For an 
example of slightly more organized, but still small-scale, petitioning 
activity, see ``Retired Hanzhou Teacher Wears White Coat, Promotes the 
Constitution, and Is Detained 10 Days'' [Hangzhou tuiyi jiaoshi 
shenchuan baidapao xuanchuan xianfa bei juliu 10 tian], Boxun, 25 
January 04, <www.peacehall.com/>.
    \665\ Kevin J. O'Brien and Lianjiang Li, ``The Politics of Lodging 
Complaints in Rural China,'' 143 China Quarterly 756, 758 (1995).
    \666\ Ibid., 759.
    \667\ Kevin O'Brien and Lianjiang Li, ``Suing the Local State: 
Administrative Litigation in Rural China,'' 51 China Journal 75, 77 
(2004).
    \668\ Such activities often go by the Chinese name of ``yuanzhang 
jiedairi'' (Court President Reception Day), or more simply 
``jiedairi,'' and offer the opportunity for at least some petitioners 
to speak directly with higher-court officials. Received petitions are 
often converted into formal cases, if appropriate. Citizen complaints 
regarding existing cases are also heard. For the relevant court 
regulations of one intermediate people's court, see Beijing First 
Intermediate People's Court, Work Measures Regarding Court President 
and Tribunal Heads Receiving the Visits of the Masses [Beijing shi diyi 
zhongji renmin fayuan yuan, tingzhang jiedai qunzhong laifang gongzuo 
banfa], August 1998, <www.bj148.org/firstcourt/>.
    \669\ This is generally accomplished by applying for the extremely 
flexible procedure of trial supervision (zaishen, tishen), which give 
courts wide ability to reopen and review closed cases upon the 
discovery of new evidence, legal error, or judicial misconduct. See, 
e.g., PRC Civil Procedure Law, enacted 9 April 91, arts. 177-92. These 
channels are frequently the targets of individual or group petitioning 
activity. Commission Staff Interview. Some idea of the overlap between 
xinfang activity and the zaishen/tishen procedures is evident in the 
2004 SPC Work Report statement that, of the 120,000 letters and visits 
handled by the SPC in 2003, the SPC reviewed 2,089 cases of shensu and 
zaishen, in accordance with basic principles of xinfang work. This not 
only suggests the tight linkage between the xinfang process and court 
zaishen activity, but also provides an intriguing numerical comparison 
with the 3,587 appeals handled by the SPC in 2003. SPC Work Report, 
March 2004.
    \670\ Cai Dingjian, ``The Basic Situation of LPC Individual Case 
Supervision'' [Renda ge'an jiandu de jiben qingkuang], Academic 
Research Nework Of People's University [Renda yanjiu xueshu qikan 
wang], <www.rdyj.com.cn>.
    \671\ Commission Staff Interview.
    \672\ Access to Justice, Staff Roundtable of the Congressional-
Executive Commission on China, 12 July 04, Testimony of Kevin O'Brien, 
Professor of Political Science, University of California, Berkeley.
    \673\ Regulations on Letters and Visits, arts. 24 (instructing 
xinfang bureaus to operate as a ``tripwire'' for explosive issues) and 
36 (instructing higher level organs to generally review issues raised 
by xinfang bureaus); Laura Luehrmann, ``Facing Citizen Complaints in 
China, 1951-1996,'' 43(5) Asian Survey 845, 858 (2003); Isabelle 
Thireau and Hua Linshan, ``The Moral Universe of Aggrieved Chinese 
Workers: Workers' Appeals to Arbitration Committees and Letters and 
Visits Offices,'' 50 China Journal 83, 87 (2003). Young Nam Cho, 
``Symbiotic Neighbor or Extra-Court Judge? '' 176 China Quarterly 1068, 
1075 (2003).
    \674\ Verna Yu, ``Pay Day at Last After Premier Aids a Peasant,'' 
South China Morning Post, 29 October 03, <www.scmp.com/>.
    \675\ In reality, as Chinese commentators themselves note, the 
chance of success through the xinfang system is akin to that of winning 
the lottery. Zhao Lisha, ``Liaowang: How Can Popular Opinion Smoothly 
Come Up [to the central government]? Bottlenecks In the Xinfang System 
Await a Breakthrough'' [Liaowang: minyi ruhe shunchang shangda? xinfang 
tizhi pingjin dai tupo], Shenzhen News Network [Shenzhen xinwen wang], 
12 October 03, <www.sznews.com/>. Those few individuals desperate, 
persistent, or lucky enough to get central attention may receive 
redress and compensation, while the vast majority of petitioners find 
nothing but disappointment and repression.
    \676\ Regulations on Letters and Visits. Xinfang regulations often 
specify that bureaus may investigate (jiancha), supervise and urge 
(ducu), and guide (zhidao) the process. Actual decision-making power is 
absent. See, e.g., Zhejiang Province Letters and Visits Regulations 
[Zhejiang sheng xinfang tiaoli], issued 16 January 04, art. 19.
    \677\ Xinfang bureaus are significantly less open to exchanges with 
outside organizations (Chinese or foreign) than other government 
agencies. Commission Staff Interview. Contact information for xinfang 
bureaus is often quite difficult to obtain. Addresses and phone numbers 
for national government organs and local Beijing district bureaus are 
available at: <www1.cei.gov.cn/serve/doccopy/wnjgml/b/ba/010/bad/
bad001.htm.> Identical information is also available on the Virtual 
Academy portion of the Commission's Web site, <www.cecc.gov>.
    \678\ Regulations on Letters and Visits, art. 22; Emergency Notice 
on National Land Resources Letters and Visits Work During the NPC 
Session [Guanyu lianghui qijian guotu ziyuan xinfang gongzuo de jinji 
tongzhi], issued 11 February 04, art. 7.
    \679\ Compare Regulations on Letters and Visits, art. 12 (limiting 
groups of petitioners to no more than five individuals) with art. 5 
(instructing the heads of government organs to personally receive 
``important'' petitions and receive ``important'' groups of 
petitioners).
    \680\ More ominously, it also appears to create a class of 
individuals adept at petitioning and organized protest activity, 
creating an escalating use of increasingly organized protest tactics to 
resolve local problems. Observers have noted an increase in the 
frequency and scale of recent petitioning activity. Access to Justice, 
Testimony and Prepared Statement of Kevin O'Brien.
    \681\ For national protection of petitioner rights, see Regulations 
on Letters and Visits, arts. 8, 29. Additional examples of various 
problems and abuses associated with the xinfang system include: (1) 
Violent police repression of thousands of Hubei petitioners seeking 
back wages from state-owned companies. ``Over 20 Workers Detained in 
Bloody Clash after Massive Protests Continue in Tieshu Textile Group 
Factory,'' China Labor Action Express, 12 February 04, <www.cld.org.hk/
>. (2) National banning of a book detailing the suffering of 
petitioners protesting a hydroelectric dam on the Xiao River in 
southwest China. Kelly Haggart and Yang Chongqing, ``Reservoirs of 
Repression,'' 4 China Rights Forum Journal 26, 28 (2002). The full text 
of author Ying Xing's work, ``A Tale of Migrants Displaced by the Dahe 
Dam,'' (Dahe yimin shangfang de gushi), The Three Gorges Probe is 
available at <www.threegorgesprobe.org/>. (3) Self-immolations of 
aggrieved petitioners seeking adequate compensation for the demolition 
of their houses. Cindy Sui, ``AFP Examines PRC Media Coverage of Two 
Recent Self-Immolation Protests,'' 17 September 03 (FBIS, 17 September 
03); ``Behind the Self-Immolation of Zhu Zhengliang in Beijing'' [Zhu 
zhengliang beijing zifen zhi hou], Southern Metropolitan Daily [Nanfang 
dushi bao], 23 September 03, <www.nanfangdaily.com/>. (4) RETL 
sentences for petitioners posting their grievances on the Internet. 
Human Rights in China Press Release, ``Petitioner Sentenced for 
Internet Postings,'' 31 March 04.
    \682\ Robert Saiget, ``Chinese Finding It Harder to Find Justice, 
Despite Human Rights Guarantee,'' South China Morning Post, 15 April 
04, <www.scmp.com>; `` `Thousands' of `Disgruntled Petitioners' Rounded 
Up in Beijing During NPC,'' Agence France-Presse, 9 March 04 (FBIS, 9 
March 04); Adina Matisoff, ``News Update Mid-February-Early May 2004,'' 
Human Rights in China, <http://iso.hrichina.org/>; ``Massive Crackdown 
on Petitioners in Beijing,'' Human Rights in China, 8 September 04, 
<http://iso.hrichina.org/>.
    \683\ Shaanxi schoolteacher Ma Wenlin was arrested and served a 4-
year prison term in the process of petitioning for a group of over 
10,000 peasants seeking a reduction in their tax burden. A local court 
convicted him of disturbing the social order for playing a recording of 
a public national State Council circular urging a reduction in the tax 
burden at an assembly of peasants. ``Shaanxi Peasants Request Release 
of Their Legal Representative'' [Shaanxi nongmin yaoqiu shifang falu 
daiyanren], Voice of America, 6 June 02, <www.voa.gov/>. Ray Cheung, 
``PRC Teacher Jailed for Helping Farmers, Petitions Court To Clear 
Name,'' Sunday Morning Post, 6 October 03 (FBIS, 6 October 03).
    \684\ ``SCMP: Four Residents of Henan AIDS Village Obstructed From 
Petitioning Beijing,'' South China Morning Post, 14 July 04 (FBIS, 14 
July 04).
    \685\ ``Investigation Into the Arrest of Village Petitioners'' 
[Cunmin shangfang bei zhua shijian diaocha], Xinhua, 16 April 03, 
<http://news.xinhuanet.com/>.
    \686\ Speeches by government leaders include vague references to 
assisting petitioners in using legal channels to uphold their 
interests. Shen Lutao, ``National Xinfang Work Discussion Session Opens 
In Beijing'' [Quanguo xinfang gongzuo zuotanhui zai jing zhaokai, wang 
gang, hua jian min jianghua], Xinhua, 13 May 04, <http://
news.xinhuanet.com>. Conceivable reform measures might include shifting 
the xinfang offices into a system of administrative courts or 
regularizing xinfang appeals to the LPCs into more clear legislative 
constituent service functions.
    \687\ Regulations on Letters and Visits, art. 9.
    \688\ Beijing First Intermediate People's Court, Work Measures 
Regarding Court President and Tribunal Heads Receiving the Visits of 
the Masses. Other scattered local reforms of various kinds are also 
taking place. In some cities, a single building houses both the 
municipal xinfang bureau and a legal services office, with efforts 
being made to direct more cases to the latter. Commission Staff 
Interview. Guangdong has begun rotating newly appointed deputy-
directors of various government bureaus to three-month stints at 
various xinfang bureaus in an effort to improve handling of complaints. 
``System Beefed Up to Help Those Who Have a Beef,'' China Daily, 1 
March 04 (FBIS, 1 March 04).
    \689\ Access to Justice, Written Statement of Benjamin Liebman, 
Associate Professor and Director of the Center for Chinese Legal 
Studies, Columbia Law School.
    \690\ PRC Lawyer's Law, enacted 15 May 96, arts. 2, 4, and 42.
    \691\ Figures on Chinese lawyers for 1989 and 2001 are provided in 
the 1990 and 2002 China Law Yearbook [1990, 2002 Zhongguo falu 
nianjian], (Beijing: Legal Publishing House, 1990, 2002), 1009 and 
1253, respectively.
    \692\ According to U.S. government statistics, there were 516,220 
lawyers in 2003. Bureau of Labor Statistics, U.S. Department of Labor, 
May 2003 National Occupational Employment and Wage Estimates, May 03, 
<www.bls.gov>. The total number employed in legal occupations, 
including judges, paralegals, and law clerks, is 951,510. Ibid.
    \693\ Zhu Suli, Sending Law to the Countryside [Songfa xia xiang], 
(Beijing: Chinese University of Politics and Law Press, 2000), 301-6. A 
survey of Chinese townships (xiang/zhen), found but one licensed 
lawyer, who was in the process of leaving to take a position at the 
county seat. Ibid., at 308; ``National Lack Of Lawyers, 206 Counties 
Have No Lawyers'' [Quanguo zhiye lushi duanque, 206 xian meiyou lushi], 
Southern Daily [Nanfang ribao], 24 March 04, <www.nanfangdaily.com.cn>.
    \694\ Benjamin Liebman, ``Legal Aid and Public Interest Law in 
China,'' 34 Texas Journal of International Law 211, 217-18 (1999); 
Access to Justice, Written Statement Submitted by Benjamin Liebman; Zhu 
Suli, Sending Law to the Countryside, 301-6.
    \695\ Basic-level legal service workers are often self-taught in 
the law, while some have gained experience through working in the local 
justice bureau. Local courts often provide some training as well. 
Ibid., 304-312.
    \696\ Access to Justice, Written Statement of Benjamin Liebman, 
Commission Staff Interview.
    \697\ Zhu Suli, Sending Law to the Countryside, 305.
    \698\ Ibid., 305-6. In urban areas, basic level legal workers 
constitute competition for registered lawyers. As a result, the Chinese 
bar has been pressing for limitations on their role, with some success. 
Access to Justice, Written Statement Submitted by Benjamin Liebman. 
There are approximately 27,000 legal services offices nationwide, 
compared with around 10,000 law firms. Ibid. 2002 China Law Yearbook, 
1,253.
    \699\ Workers in local judicial bureaus are commonly known as 
judicial assistants (sifa zhuliyuan). According to Chinese statistics, 
they numbered 48,682 in 2001, down from 57,029 in 1997. 2002 China Law 
Yearbook, 1,253.
    \700\ A view into the diverse responsibilities of county-level 
judicial bureaus (sifaju), and their subordinate township organs 
(sifasuo), is available at the following Web sites: Sangzhi county, 
Hunan: <www.sangzhi.gov.cn/zfbm/sfj.htm>, Yongjia county, Zhejiang: 
<www.yongjia.org.cn/government/zffw/zffw--1--sfj--2.asp>; Haizhu 
district, Guangdong city: <www.hzpf.net/main/sifasuo.htm>; Yunnan 
province: <www.sft.yn.gov.cn/details.asp?ARTID=1026&COLID=109>.
    \701\ Zhu Suli, Sending Law to the Countryside, 306. The 
privatization of judicial functions is not an isolated trend. 
Substantial government functions in rural China are being transferred 
from the hands of government authorities to those of private actors. 
This includes presumably core public functions such as the provision of 
security. To take one example, local police stations and village 
assemblies in a rural Shaanxi county found themselves overwhelmed with 
a (relative) crime wave in the late 1990s, with significant vandalism 
of hydroelectric works, farm structures, and orchards. In response, the 
local village assembly put the protection of these assets out to public 
bid, with private individuals and groups assuming the contractual 
responsibility of providing for their protection. The successful bidder 
signs a contract with the village assembly, witnessed by the police, 
and turns over a certain amount of collateral, presumably to be 
forfeited in case of the asset being stolen or damaged. In return, the 
contractor receives an ongoing salary for the protection of the asset. 
Qin Hua, ``Dali County Institutes `Pay for Protection' Security 
System'' [Dali xian shishi zhian fangfan youchang chengbao zeren zhi], 
Shaanxi Daily [Shaanxi ribao], 13 January 04, <www.sxdaily.com.cn/>. In 
numerous Chinese villages, similar developments have led to the capture 
of local government power by local strongmen or criminal gangs. For a 
vivid example, see the discussion of Daqiu village in United States 
Institute of Peace, Anne Thurston, Muddling Toward Democracy: Political 
Change in Grassroots China, August 98, <www.usip.org/>.
    \702\ Zhu Suli, Sending Law to the Countryside, 306.
    \703\ Ibid., 307.
    \704\ For an excellent general treatment, see Benjamin Liebman, 
``Legal Aid and Public Interest Law in China,'' 218-22. See also The 
Asia Foundation, Allen Choate, Legal Aid In China--Working Paper #12, 
April 2000.
    \705\ According to one Western scholar, China had established 180 
legal aid centers as of 1998. Benjamin Liebman, ``Legal Aid and Public 
Interest Law in China,'' 212. 2003 statistics from the Legal Aid Center 
of the Chinese Ministry of Justice list 445 centers as of 1998. MOJ 
Legal Aid Center, 2003 Annual Report on Legal Aid Work [Falu yuanzhu 
gongzuo nianbao], 17. Certain well-off local governments, such as 
Guangzhou, independently developed legal aid organs even prior to the 
issuance of the Lawyer's Law. Benjamin Liebman, ``Legal Aid and Public 
Interest Law in China,'' 225.
    \706\ Commission Staff Interview.
    \707\ Ibid. Some such legal aid organs are run by quasi-government 
organizations. The Qianxi Women's Law Center, for example, operates 
under the umbrella of the All-China Women's Federation, to provide 
legal aid to poor rural women. Other legal aid organizations are 
affiliated with universities, such as the Wuhan University Center for 
the Protection of Disadvantaged Citizens, <www.cprdc.org>, and the 
Center for Women's Law Studies and Legal Services at Peking University 
<www.woman-legalaid.org.cn>. A large number of student-run legal aid 
organizations operate at Chinese law schools, with varying degrees of 
teacher involvement. These organizations often take a corporatist 
approach (unlike U.S. NGOs) to promoting change. Some scholars have 
found this effective. Michael Dowdle, ``Preserving Indigenous Paradigms 
in an Age of Globalization: Pragmatic Strategies for the Development of 
Clinical Legal Education in China,'' 24 Fordham International Law 
Journal 56, 78-82 (2000). Numerous U.S.-based organizations have been 
involved in various legal aid projects in China. The Asia Foundation 
has an ongoing legal aid project in China, the Ford Foundation is 
managing a substantial clinical legal education program, and the 
American Bar Association has sponsored several related trainings. The 
U.S. State Department, Bureau of Democracy, Human Rights, and Labor, 
has also funded several legal aid initiatives.
    \708\ Regulations on Legal Aid, [Falu yuanzhu tiaoli], issued 16 
July 03.
    \709\ Ibid., art. 4. Provincial and local MOJ branches bear the 
responsibility for organizing legal aid efforts within their 
jurisdictions. Ibid. On the national level, the MOJ's Legal Aid Center 
carries out general drafting, research, and training related to legal 
aid. MOJ Legal Aid Center Introduction [Sifa bu falu yuanzhu zhongxin 
jieshao], China Legal Publicity [Zhongguo pufa wang], 26 November 03, 
<www.legalinfo.gov.cn/flyz/2003-11/26/content--61744.htm>.
    \710\ Commission Staff Interview. The central government has 
established a National Legal Aid Foundation, which has just recently 
begun active fundraising efforts. Ibid.
    \711\ Ibid.
    \712\ In civil cases, individuals may apply for legal assistance in 
claims involving state compensation, government benefits, support 
payments, labor compensation, or other undefined measures in the public 
interest. Regulations on Legal Aid, art. 10. In criminal cases, 
defendants may apply for legal assistance: (1) after the first 
interrogation; (2) after a case of public prosecution has been 
transferred to the procuratorate for review and prosecution; (3) in 
cases of private prosecution, after the case has been accepted (li an) 
by a people's court. Ibid., art. 11. The Regulations only represent 
minimum guidelines. They expressly allow local authorities to issue 
regulations regarding civil legal aid that are more expansive than the 
national ones. Ibid., article 10. A few provincial regulations (most of 
which pre-date the national regulations) do explicitly define broader 
contours for legal aid than those of the national regulations. For 
example, regulations from Heilongjiang and Shaanxi delineate ``women 
upholding their legal rights,'' (Heilongjiang Provincial Legal Aid 
Regulations [Heilongjiang sheng falu yuanzhu tiaoli], issued 26 
December 01, art. 7(6)) and ``women seeking tort compensation'' 
(Shaanxi Provincial Legal Aid Regulations [Shaanxi sheng falu yuanzhu 
tiaoli], issued 26 September 01, art. 11(3)) as included within the 
scope of legal aid. However, these are exceptions. Most provincial 
legal aid regulations differ slightly, if at all, from the national 
regulations. This is particularly true as to criminal defense. It is 
worth noting that Article 11 of the national regulations does not 
contain language explicitly allowing lower-level governments to create 
more expansive rules for legal aid in criminal cases, as article 10 
does for civil cases.
    \713\ Regulations on Legal Aid, art. 5.
    \714\ Ibid., art. 12.
    \715\ This standard differs significantly between areas, from 500 
yuan per month in Guangdong to less than 180 a month in Shaanxi. 
``Things to Know About Legal Aid'' [Falu yuanzhu xuzhi], Guangzhou 
Legal Aid Center Online [Guangzhou fayuan zaixian], <www.gzlac.net.cn/
>; Commission Staff Interview.
    \716\ Commission Staff Interview. Chinese judges themselves have 
raised issues with the quality of mandatory pro bono services, noting 
that many private lawyers compelled to provide services do not provide 
adequate representation. See Jiang Hua, ``The Last Rights of Two 
Prisoners Sentenced to Death'' [Liangge sixing fan de zui hou quanli], 
Southern Weekend [Nanfang zhoumo], 13 November 03, 
<www.nanfangdaily.com.cn/>.
    \717\ Commission Staff Interview. Young attorneys seeking to make a 
name for themselves often handle more. Ibid.
    \718\ Regulations on Legal Aid, arts. 24, 26(2). Compensation 
varies between regions. In Guangzhou, lawyers receive between 400 and 
600 yuan for each criminal case they handle, and between 500 and 700 
for each civil case. Guangzhou City Temporary Measures Legal Aid Case 
Work Subsidy [Guangzhou shi falu yuanzhu anjian gongzuo butie fafang 
zanxing banfa], <www.gzlac.net.cn/>. In Shaanxi, subsidies range from 
300 are 500 yuan per case. Commission Staff Interviews.
    \719\ Commission Staff Interviews.
    \720\ An additional institutional problem faced by Chinese legal 
aid efforts is administrative divisions within MOJ. Basic legal service 
workers have historically been managed by the MOJ Basic Level Work 
Supervision Department (Jiceng gongzuo zhidao si), a separate, but 
administratively co-equal, entity from the Legal Aid Center. Revisions 
under discussion aim at shifting responsibility for basic legal service 
workers to other MOJ departments, but it remains to be seen if this 
represents a coherent response to rural legal needs. Ibid.
    \721\ The annual budget for the Xi'an municipal legal aid center is 
roughly 300,000 yuan, roughly the same amount as that of the Shaanxi 
provincial legal aid office. Commission Staff Interviews. For further 
information on one such relatively developed center, see the Web site 
of the Guangzhou legal aid center, <www.gzlac.net.cn/>. Guangdong, an 
exceptionally well-developed province, has considerable resources to 
carry out legal aid work. According to one report, Guangdong has 588 
full-time staff workers in legal aid bureaus, 9,000 private lawyers, 
and 4,000 basic-level legal workers. ``Legal Aid in Guangdong'' [Falu 
yuanzhu zai guangdong], China Legal Publicity [Zhongguo pufa wang], 27 
February 04, <www.legalinfo.gov.cn>.
    \722\ The Xi'an legal aid center, for example, has a 12-person 
staff conducting a wide range of activities associated with legal aid, 
including monitoring pro bono representation by private attorneys, 
client representation, editorializing in the local papers, and 
collective participation with other government agencies in legislative 
drafting and dispute resolution. Commission Staff Interview.
    \723\ Commission Staff Interviews. The Regulations on Legal Aid 
only require the establishment of legal aid centers at the county level 
and higher. However, the National Legal Aid center has been encouraging 
county legal aid centers to establish ``legal aid work stations'' (falu 
yuanzhu gongzuo zhan). These stations are often staffed by personnel of 
the local judicial bureau (sifasuo) and assume some case 
responsibilities (including conducting initial interviews and 
referrals). However, MOJ officials indicate that they transfer cases to 
the county legal aid centers for formal ``handling'' (ban'an). Ibid.
    \724\ Zhu Suli, Sending Law to the Countryside, 304-6; Commission 
Staff Interview.
    \725\ Jiang Hua, ``6 Cents to Change Destiny'' [Gaibian mingyun de 
6 fen qian], Southern Daily [Nanfang ribao], 13 November 03, 
<www.nanfangdaily.com.cn.>. These numbers paint a very different 
picture from official Chinese statistics, which assert that 75 percent 
of applications for civil legal aid are approved. MOJ Legal Aid Center, 
2003 Annual Report on Legal Aid Work, 24. No corresponding statistics 
are given for criminal cases.
    \726\ MOJ Legal Aid Center, 2003 Annual Report on Legal Aid Work. 
Consultations (zixun) numbered 1,936,675. The MOJ statistics provide no 
clear distinction in terms of definition between cases and 
consultations. However, the Work Report provides an approval rate of 75 
percent for civil legal aid applications and places the total number of 
such applications at 135,929. Ibid. Using these figures generates a 
number of approvals of approximately 100,000, a number quite close to 
the MOJ statistics for total civil legal aid ``cases.'' This suggests 
that MOJ may count the number of formal higher-level approvals in order 
to determine case statistics, regardless of whether the case goes to 
trial. ``Zixun'' presumably covers all other forms of contact with 
legal aid bureaus. According to official statistics, legal aid cases 
totaled 166,433 in 2003, while Chinese courts handled 5,687,905 cases 
in 2004. Ibid., 23; SPC Work Report, March 2004.
    \727\ According to MOJ statistics, out of 9,457 full-time employees 
engaged in legal aid work, 4,555 have a lawyer's license. MOJ Legal Aid 
Center, 2003 Annual Report on Legal Aid Work, 23. Those lacking legal 
qualifications often receive special certification by local courts or 
justice bureaus to handle legal aid cases. Commission Staff Interview.
    \728\ Chinese statistics report an 89 percent victory rate in the 
56,619 represented civil cases which went to trial. MOJ Legal Aid 
Center, 2003 Annual Report on Legal Aid Work, 24.
    \729\ MOJ statistics list a total of 90,406 ``received'' (shouli) 
criminal cases. Of ``concluded'' cases, the opinions of legal aid 
lawyers were ``completely accepted'' (quanbu caina) by the court in 
24,447 cases, ``partially accepted'' (bufen caina) in 30,602, and ``not 
accepted'' (wei caina) in 12,758. No further information is given. 
Ibid., 25.
    \730\ Cases involving wages or support payments account for over 
half of the total number of civil cases approved for legal aid, while 
criminal cases involving minors and death penalty cases each account 
for about 30 percent of the total number of ``accepted'' (shouli) 
criminal legal aid cases. Ibid.
    \731\ MOJ Statistics list a total of 166,433 ``closed'' cases 
(jiean) (95,053 civil, 67,807 criminal, and 3,573 administrative) for 
2003. Ibid.
    \732\ In this, China's government-funded legal aid organizations 
resemble more closely their contemporary American counterparts, rather 
than either current independent American public interest law 
organizations or the early American government-funded legal aid groups 
of the 1960s. Individual victories are numerous. In Beijing, lawyers 
providing legal aid assisted 500 migrant workers recover over 5 million 
yuan ($600,000) in back wages from an Anhui construction company. 
``2003 Large Legal Aid Cases Announced'' [2003 Nian shi da falu yuanzhu 
anjian gongbu, Southern Network [Nanfang wang], 15 January 04, 
<www.southcn.com>. In Guangdong, legal aid lawyers working through the 
local women's federation aided a worker suffering leukemia as a result 
of chemical exposure at her employer's plant to recover medical 
expenses. `` `I Found New Life in the Midst of [Others'] Care' The Hand 
of Legal Aid Extends to Women'' ['Wo zai guan'ai zhong huode xinsheng' 
falu yuanzhu zhi shou shen xiang kunnan funu], Southern Daily [Nanfang 
ribao], 1 March 04, <www.nanfangdaily.com.cn>. In Sichuan, court-
appointed lawyers successfully won a suspended death sentence for a 
murder suspect in the face of what the trial judge characterized as 
overwhelming community support for his immediate execution. Jiang Hua, 
``The Last Rights of Two Prisoners Sentenced to Death'' [Liangge sixing 
fan de zui hou quanli], Southern Daily [Nanfang ribao], 13 November 03, 
<www.nanfangdaily.com.cn>.
    \733\ Commission Staff Interview. As another example of legal aid 
programs being used to further government goals, note that legal aid 
lawyers won the labor law victory cited in the previous footnote in the 
middle of a sustained government campaign to clean up debts owed to 
migrant workers before the beginning of the Chinese New Year holiday.
    \734\ Commission Staff Interview.
    \735\ See discussion above on quasi-independent legal aid 
organizations and accompanying notes.
    \736\ Commission Staff Interview. MOJ materials list several 
meetings in 2003-4 to ``study'' the newly-issued Regulations on Legal 
Aid, but the only practical training sessions appear to have been in 
conjunction with foreign NGOs. MOJ Legal Aid Center, 2003 Annual Report 
on Legal Aid Work, 6-15.
    \737\ Such programs might also help address the inadequate central 
funding of legal aid programs by requiring the MOJ to bear a 
significant amount of the cost. Procedurally, programs might usefully 
focus not on ``training the trainer,'' but rather on ``training the 
trainer on how to train,'' since the organizational ability to run 
practical skills training programs for any Chinese legal professional 
(not just public interest lawyers) is almost non-existent. Self-
identified needs by Chinese legal aid organizations include: (1) 
knowledge of Chinese law; (2) training on how to deal with clients; and 
(3) training on techniques of handling cases. Commission Staff 
Interview.
    \738\ The Regulations on Legal Aid explicitly encourage the 
involvement of civil society organizations in providing of legal aid. 
Regulations on Legal Aid, arts. 8-9; Access to Justice, Testimony of 
Benjamin Liebman.
    \739\ Scholars have questioned whether any legal aid program based 
solely on representation by lawyers can successfully address China's 
rural needs. Ibid. See also the interview with Mo Shenxian, director of 
the Wuhan Center For the Protection of the Rights of the Disadvantage, 
in Shen Ying, ``Legal Aid Needs Legal Aid'' [Falu yuanzhu xuyao 
yuanzhu], Southern Weekend [Nanfang zhoumo], 13 November 03, 
<www.nanfangdaily.com/>.

    Notes to Section V(d)--China's Judicial System
    \740\ In Chinese, ``cuo'an zeren zhidu.'' Chinese names for the 
responsibility systems differ by court and region. One alternative name 
is ``cuo'an zeren zhuijiu zhidu.''
    \741\ In Chinese, case closure rates are known as ``jiean lu.''
    \742\ Chen Xiangjun, ``On The Court's Responsibility System For 
Wrongfully Decided Cases'' [Lun renmin fayuan cuo'an zeren zhuijiu 
zhi], Sunshine Net [Yangguang wang], <www.jc.gov.cn/personal/ysxs/
fnsx3/fnsx2980.htm>.
    \743\ Note that such systems often also apply to other organs such 
as the procuratorate and the public security bureaus. Hainan Province 
Regulations on the Courts, Procuratorate, and Public Security Organs 
Responsibility System for Wrongfully Decided Cases [Hainan sheng geji 
fayuan, renmin jianchayuan, gongan jiguan cuoan zhuijiu zeren zhuijiu 
tiaoli], issued 22 October 97, art. 2; Huainan City Regulations on the 
Judicial Organs Responsibility System for Wrongfully Decided Cases 
[Huainan shi sifa jiguan zhuijiu cuo'an zeren tiaoli], issued 27 
December 94, amended 26 July 97, art. 6.
    \744\ Wu Yumiao and Li Yongwen, ``Six Chongqing Judges Face 
Criticism [Punishment] for Spelling Errors In Opinions'' [Panjueshu 
shang xiecuo zi chongqing liuming faguan ai chufa shou tongbao piping], 
Xinhua, 12 March 04, <www.hicourt.gov>; Hu Dongqiang, Bu Shihui, and Su 
Dan, ``Chongqing, Hechuan (City) Implements [System Where] Judges Face 
Impeachment If They Have Three Wrong Cases in a Year'' [Chongqing 
hechuan shixing faguan yinian bancuo sanqi anjian jiu yao zao bamian], 
Chongqing Evening Post [Chongqing wanbao], 26 March 04, <http://
news.rednet.com>.
    \745\ Ibid; Implementation Details for the Responsibility System 
for Illegal [Behavior] of Trial Officers of the Beijing City First 
Intermediate People's Court [Beijing shi di yi zhongji renmin fayuan 
shenpan renyuan weifa shenpan zeren zhuijiu shishi xize (shixing)], 7 
April 99, <www.bj148.org/firstcourt/>; Commission Staff Interview.
    \746\ ``A Shandong Court Experiments With Clean Government, Trial 
Responsibility Fund System'' [Shandong yi fayuan changshi lianzheng, 
shenpan zeren jijin zhidu], 21st Century Business Herald [21 shiji 
jingji baodao], 2 February 04, <www.nanfangdaily.com.cn>. Particularly 
noteworthy, in addition to the text of the local court rules, is the 
statement of one local Shandong court official that, ``Under this 
current judicial system, the only feasible method is the use of higher 
court decisions to make determinations of `wrongfully decided cases,' 
even though the higher court decision, from a theoretical standpoint, 
is not always correct.'' Ibid. For other references to the use of 
responsibility systems to discipline judges for legal error reversed on 
appeal, see Shaanxi Provincial Regulations on Courts, Procuratorate, 
and Public Security Organs Responsibility System for Wrongfully Decided 
Cases [Shaanxi sheng geji fayuan, renmin jianchayuan, gongan jiguan 
cuoan zhuijiu zeren zhuijiu tiaoli], issued 27 March 96, art. 2, and 
the report of Ma Shuanzhi, ``Shaanxi Hight People's Court Report on 
Work Regarding Trial Supervision and Responsibility for Illegal 
[Behavior]'' [Shaanxi sheng gaoji renmin fayuan guanyu shenpan jiandu 
shenpan jiandu gongzuo he weifa shenpan zeren zhuijiu gongzuo qingkuang 
de baogao], 20 November 02, <www.sxrd.gov.cn/> (identifying cases 
reversed on appeal, ``reversed cases which the lower court disagrees 
with,'' ``cases identified by higher leaders,'' and ``cases receiving 
an intense reaction from media or parties to the case'' as four key 
types of cases at which the local responsibility system is directed.)
    \747\ Ibid. Not surprisingly, lower court judges will often excuse 
their colleagues from serious punishment for errors of law if they 
disagree with an appellate ruling or feel the issues raised are 
particularly difficult. Commission Staff Interview.
    \748\ Commission Staff Interview.
    \749\ This problem is not simply an artifact of Chinese civil law 
tradition. The German judiciary, which also has a highly administrative 
structure analogous to the Chinese system, protects judicial activity 
within the ``core decisional process'' from disciplinary measures, 
while ``sanctions can be applied against a judge who fails to apply a 
well-known general statute, who applies a formally repealed statute, or 
who ignores a binding decision from the Federal Constitutional Court.'' 
David Clark, ``The Selection and Accountabilty of Judges in West 
Germany,'' 61 Southern California Law Review 1,795, 1,840 (1988). 
Despite the recent SPC guidelines discussed below, most Chinese court 
responsibility systems appear to lack this degree of clarity in 
practice.
    \750\ Chinese commentators criticize the responsibility system for 
contributing to judges' failure to apply express legal protections for 
individuals in a number of fields, from divorce to criminal law, for 
fear of possible consequences should their decisions be reversed. Yao 
Yong, ``Divorce Courts, Mistresses, and Domestic Violence'' [Lihun 
chengben, bao er nai, jiating baoli], <www.lib.pku.edu.cn/>; Li Fujin, 
``Difficulties and Responses on Deepening of the Reform of the Trial 
System'' [Shenhua shenpan fangshi gaige de nandian ji duice], Eastern 
Legal Observer Web site [Dongfang fayan], 18 November 03, 
<www.dffy.com/>.
    \751\ Qiang Shigong and Zhao Xiaoli, ``Legal Interpretation Under 
the Dual Institutional System-A Survey of 10 Chinese Judges'' 
[Shuangchong jigouhua xia de falu jieshi-dui shi ming zhongguo faguan 
de diaocha], in Explanation of Legal Problems, ed. Liang Zhiping 
(Beijing: Law Press), <www.usc.cuhk.edu/>.
    \752\ SPC Responsibility System for Illegal [Behavior] of Trial 
Officers of the People's Courts (Experimental) [Renmin fayuan shenpan 
renyuan weifa shenpan zeren zhuijiu banfa (shixing)], issued 4 
September 98, art. 22.
    \753\ Guangdong Provincial High People's Court Implementation 
Details for the Responsibility System for Illegal [Behavior] of Trial 
Officers (Experimental) [Guangdong sheng gaoji renmin fayuan guanyu 
weifa shenpan zeren zhuijiu de caozuo xize (shixing)], issued 26 
December 03, <www.gdcourts.gov.cn>, Implementation Details for the 
Responsibility System for Illegal [Behavior] of Trial Officers of the 
Beijing City First Intermediate People's Court (Experimental).
    \754\ For example, the 2003 Shandong court rules cited above appear 
to directly conflict with the SPC guidelines. ``A Shandong Court 
Experiments With Clean Government, Trial Responsibility Fund System,'' 
21st Century Business Herald.
    \755\ Implementation Details for the Responsibility System for 
Illegal [Behavior] of Trial Officers of the Beijing City First 
Intermediate People's Court (Experimental), art. 10.
    \756\ Li Xuan, ``[Use of] the `Annual Case Closure Ratio' Should Be 
Halted'' ['Nianzhong jiean lu' yingdang xiu yi], Legal Daily [Fazhi 
ribao], 30 December 03, <www.legaldaily.com.cn/>.
    \757\ Tonghai County People's Court Reward and Punishment System 
for Target Goals [Tonghai xian renmin fayuan gangwei mubiao guanli 
zeren zhi ban'an jiangcheng kaohe banfa], issued 25 November 02, 
<http://fy.tonghai.gov.cn/fygg/fyggnr4.htm> (setting annual case 
closure targets of 98 percent, 95 percent, and 70 percent for the 
criminal, civil/administrative, and enforcement tribunals, 
respectively. Failure to reach these targets results in loss of the 
annual salary bonus for the entire tribunal).
    \758\ For two examples of court aggressiveness in meeting target 
goals, see 2004 Yanling County [Hunan Province] People's Court Work 
Report [2004 Yanling xian renmin fayuan gongzuo baogao], 9 February 04, 
<www.yanlingnet.com/> (reporting a case closure rate of 99.95 percent, 
627 out of 633 cases [note that on this data, the actual percentage 
should be 99.05 percent]); 2004 Yantian [Guangdong Province] Basic 
People's Court Work Report [2004 Yantian jiceng fayuan gongzuo baogao], 
11 March 03, <www.yantian.gov.cn/>, (reporting a case closure rate of 
99.6 percent, or 1,274 out of 1,280 cases [note that for this data, the 
actual percentage should be 99.53 percent]).
    \759\ Li Xuan, ``[Use of] the `Annual Case Closure Ratio' Should Be 
Halted''; Commission Staff Interview.
    \760\ Ibid.
    \761\ Xu Guanghui and Xi Xiaofeng, ``Don't Chase `Annual Case 
Closure Rate' '' [Bu ying zhuiqiu `nianzhong jiean lu'], People's Court 
Daily [Renmin fayuan bao], 10 June 04, <http://rmfyb.chinacourt.org/>.
    \762\ Zhu Suli, ``Sending Law to the Countryside,'' 72-77. Qingshi 
practices are many and varied. In some cases internal to the court, 
they involve nothing more than briefly consulting the head of the 
tribunal or the court president to sound out their opinion. More 
formally, lower-level courts also submit qingshi requests to higher 
courts with a brief factual description of the case, then pose the 
problem they seek assistance in resolving. According to Chinese 
sources, formal responses (pifu or dafu) to qingshi come in a variety 
of forms. These include entirely secret instructions, instructions to 
the tribunal, entirely open responses that have heavy persuasive value 
for lower courts, and formal judicial interpretations. Commission Staff 
Interview.
    \763\ Commission Staff Interview. Courts also use qingshi requests 
to determine how to handle politically sensitive cases such as the 
Ouyang Yi case. ``Rights Group Says Sentencing of Cyber-Dissident 
Delayed Over Lack of Evidence,'' Agence France-Presse, 16 December 03 
(FBIS, 16 December 03).
    \764\ Results generated by searching for ``qingshi'' in www.law-
lib.com/law/.
    \765\ Hainan Provincial High People's Court, Regulations on 
Appellate Hearings of Civil and Economic Cases [Hainan sheng renmin 
fayuan di er shen minshi jingji shenpan guizhang], issued 17 October 
95, amended 9 July 97, arts. 57(2), 65, <www.hicourt.gov.cn/>.
    \766\ Hainan Provincial High People's Court, Temporary Regulations 
Regarding Supervision of Time Limits for Trying Cases [Hainan sheng 
renmin fayuan, shenpan anjian shenxian jiandu zanxing guiding], issued 
10 May 00, art. 6(3), <www.hicourt.gov.cn/>.
    \767\ See, e.g., the description of the research bureau of the 
Intermediate People's Court of Tongliao, Inner Mongolia, ``Work 
Status'' [Gongzuo dongtai], 15 November 02, <www.tongliao.gov.cn/>; 
Commission Staff Interview.
    \768\ Commission Staff Interview.
    \769\ Ibid.
    \770\ Li Quanyi and Zhu Geyang, ``A Brief Discussion of the 
Internal Qingshi [Process] of the People's Courts and Its Defects'' 
[Qianyi taolun renmin fayuan neibu anjian qingshi ji biduan], Criminal 
Law Watch Web site [Xingshi falu liaowang], <www.clreview.com/
artiview.asp?editid=516>.
    \771\ The Chinese Constitution, the Organic Law of the People's 
Courts, and the Judge's Law guarantee Chinese courts and judges the 
independent exercise of judicial power, ``not subject to interference 
from administrative organs, public organizations, or individuals.'' PRC 
Constitution, art. 126; PRC Organic Law of the People's Courts 
[Zhonghua renmin gongheguo renmin fayuan zuzhi fa], enacted 1 July 79, 
amended 2 September 83, arts. 4, 8(2); PRC Judge's Law [Zhonghua renmin 
gongheguo faguan fa], enacted 28 February 95, art. 8(2). Both the PRC 
Constitution and the Organic Law of the People's Courts subject lower 
courts to a relatively undefined ``supervision'' by higher courts. PRC 
Constitution, art. 127; Organic Law of the People's Courts, art. 16. 
However, Chinese judges, scholars, and observers frequently express the 
view that the excessive use of the qingshi process to carry out such 
supervision (as opposed to reliance on ordinary appellate procedure) 
violates basic principles of judicial independence. See the China court 
bulletin board, supervised by the Supreme People's Court of China, 
<http://bbs.chinacourt.org/index.php?showtopic=53483>; Bi Dongsheng, 
``On Internal Court Supervision'' [Lun fayuan neibu jiandu], Window on 
Chinese Judges (Web site) [Zhongguo faguan zhi chuang] 
<www.chinajudge.com/0710/lfynbjd.htm>; Li Quanyi and Zhu Geyang, ``A 
Brief Discussion of the Internal Qingshi [Process] of the People's 
Courts and Its Defects''; Commission Staff Interviews.
    \772\ This also increases the workload of higher courts, which 
often complain about the inability of lower courts to resolve issues 
themselves.
    \773\ Supreme People's Court Notice on Promoting 10 Rules to 
Practically Prevent the Occurance of New Cases of Extended Detentions 
[Zuigao renmin fayuan guanyu tuixing shi xiang zhidu qieshi fangzhi 
chansheng xin de chaoqi jiya de tongzhi], issued 1 December 03, clause 
4. For critical Chinese media commentary on the qingshi system, see 
``Eliminating Internal Qingshi Helps Fairness in Judicial Decisions'' 
[Quxiao neibu qingshi youli gongzheng panjue], Southern Metropolitan 
Daily [Nanfang dushibao], 3 December 03, reprinted in Sina.com, 
<www.sina.com.cn>. Some experts have suggested that broader limits on 
qingshi system may be planned. Commission Staff Interview. This, 
however, would require a significant willingness on the Chinese 
authorities to address serious institutional issues regarding the role 
of the judiciary.
    \774\ According to Chinese media, one Intermediate People's Court 
in Jiangsu ordered subordinate Basic People's Courts to halt the use of 
qingshi, except in certain cases involving the application of law. 
``Yangzhou Takes Lead in Eliminating `Individual' Internal Qingshi'' 
[Yangzhou shuaixian quxiao ``ge'an'' neibu qingshi], China Jiangsu Net 
[Zhongguo jiansu wang], 8 March 04, <www.jschina.com.cn/>. Note that, 
according to the article, this is the first decision of its kind in the 
entire province.
    \775\ Even in tribunals that have experimented with eliminating or 
limiting the sweep of the responsibility systems, some Chinese tribunal 
heads (tingzhang) complain that junior judges continue to seek their 
advice. Reasons given include: (1) a lack of trust in higher assurances 
that they would not suffer ill-effects for reaching particular 
decisions, and (2) an inability to independently reach conclusions in 
difficult legal cases. Commission Staff Interview.
    \776\ Several types of external interference, including that of the 
Communist Party, are discussed in the Commission's 2003 Report. 
Congressional-Executive Commission on China, Annual Report 2003, 2 
October 03, 65-6.
    \777\ In Chinese, individual case supervision is often referred to 
as ge'an jiandu. LPC supervision of the courts is permitted under the 
PRC Constitution. PRC Constitution, arts. 3, 104.
    \778\ Cai Dingjian, ``The Basic Situation of LPC Individual Case 
Supervision'' [Renda ge'an jiandu de jiben qingkuang], Academic 
Publication Research Net of People's University [Renda yanjiu xueshu 
qikan wang], <www.rdyj.com.cn/>.
    \779\ Ibid.
    \780\ Commission Staff Interview.
    \781\ Cai Dingjian, ``The Basic Situation of LPC Individual Case 
Supervision.'' Cai identifies 1,140 such cases raised by NPC delegates 
with the SPC in 2002. Local LPCs apparently have similar requirements 
as well. Ibid.
    \782\ Cai divides LPC interference into four types: (1) rote 
transfers of petitions to the courts; (2) requests for status reports 
on the handling of a cases; (3) independent case investigations 
conducted by LPC staff resulting in suggestions on how the case should 
be handled and pressure on the courts; (4) formal supervision carried 
out by the full LPC or its Standing Committee. Statistics for cases 
falling in the second category range from 3 to 18 percent of petitions 
to given LPCs involving the courts. Only a handful of cases appear to 
fall in the third and fourth category. Cai argues that only these 
latter categories constitute LPC individual case supervision (ge'an 
jiandu) because (1) the first category merely represents cases being 
transferred to courts to handle and (2) courts often ignore requests 
for status reports (figures indicated that courts respond to only 20-50 
percent of such requests). Ibid. This is consistent with Commission 
sources who have indicated a substantial difference in treatment of 
``ordinary LPC requests'' with regard to individual cases and ``VIP'' 
requests. For the purposes of evaluating judicial independence, this 
suggests the true problem posed by LPC interference is not one of 
frequent interference in routine case management. Rather, the 
difficulty arises from (1) specific LPC intervention in high-profile 
cases and (2) a relatively regularized framework for intervention which 
engenders self-censorship on the part of Chinese judges.
    \783\ Fan Qing, ``Media Supervision and Judicial Independence'' 
[Yulun jiandu yu duli shenpan], Legal Daily [Fazhi ribao], September 
2003, <www.legaldaily.com.cn>. For further discussion of media 
influence on court decisions, see Benjamin Liebman, ``Watchdog or 
Demagogue? The Media in the Chinese Legal System,'' Columbia Law 
Review, (forthcoming January 2005), 60-80. Liebman notes that 
individual citizen petitions to the media which are referred over to 
the courts do not tend to generate pressure on judges. Ibid., 96.
    \784\ Ibid., 19-21, 106-110.
    \785\ CECC, 2003 Annual Report, 65-66, footnote 323. ``Supreme 
Court To Help Train Judges in Western China,'' Xinhua, 17 February 04 
(FBIS, 17 February 04).
    \786\ Local Chinese judges express skepticism that ambitious 
central goals can be met. Commission Staff Interviews.
    \787\ A vast disparity exists in the actual day-to-day work of 
different Chinese courts. As Chinese scholars have noted, basic-level 
Chinese courts outside of major urban areas rely heavily on a variety 
of less-formal practices and place very heavy emphasis on mediating 
disputes. Zhu Suli, ``Sending Law to the Countryside,'' 316-21. Even at 
the level of the Baoji Intermediate People's Court in Shaanxi province, 
judges estimate that approximately half of their time is spent out of 
the courtroom and in the community meeting with parties, conducting 
site visits, and mediating disputes. Commission Staff Inteview. In 
contrast, the work at the high people's court level is much more 
formal. Ibid.
    \788\ Commission Staff Interview.
    \789\ ``Shujiyuan Can No Longer Transition to Become Judges'' 
[Shujiyuan bu neng zai guodu wei faguan], Southern Metropolitan Daily 
[Nanfang dushi bao], 28 October 03, <www.nanfangdaily.com.cn/>. 
Although the term shujiyuan is often translated as ``judicial clerk,'' 
it is translated here as ``judicial secretary'' to distinguish the post 
from the newly created ``faguan zhuli'' discussed below.
    \790\ For criticism of this practice, see He Weifang, ``Shujiyuan 
Will No Longer Be `Judicial Reserves' '' [Shujiyuan bu zai shi faguan 
de yubei dui], Southern Weekend [Nanfang zhoumo], 30 October 03, 
<www.nanfangdaily.com.cn/>.
    \791\ ``Shujiyuan Can No Longer Transition to Become Judges,'' 
Southern Metropolitan Daily.
    \792\ ``China's Courts To Hold Stricter Standards for Judges,'' 
Xinhua, 27 October 03 (FBIS, 27 October 03).
    \793\ CCPC Organization Bureau, Personnel Bureau, and SPC Notice 
Regarding `Management Rules for Judicial Secretaries in the People's 
Courts (Experimental)' [Zhonggong zhongyang zuzhi bu, renshi bu, zui 
gao renmin fayuan guanyu yinfa `shujiyuan guanli banfa (shixing)'], 
issued 20 October 03. See also ``Shujiyuan Can No Longer Transition to 
Become Judges,'' Southern Metropolitan Daily.
    \794\ According to one estimate, roughly 20 percent of the 45,714 
judicial secretaries might be able to pass the judicial examination and 
become judges, 60 percent would transfer to the new (and undefined) 
position of ``judicial clerk,'' (faguan zhuli), and the remaining 20 
percent would either remain as judicial secretaries or leave the 
judiciary entirely. Ibid. The precise definition of how the judicial 
clerk position might differ from the current judicial secretary 
position is unclear. At least some have suggested it might involve the 
analytical and writing responsibilities currently assumed by more 
senior judicial secretaries, but without the secretarial duties. 
Commission Staff Interview. It may also represent an alternative career 
track for judges. Whether these changes will actually be implemented 
remains to be seen. As of the spring of 2004, some local Chinese courts 
were unaware of the change in policy. Commission Staff Interview. A 
similar move toward erasing some of the administrative hierarchy 
present in the Chinese judiciary is found in the efforts of at least 
one Beijing High Court, which announced the creation of the post of 
``senior judge,'' with benefits and responsibilities similar to those 
of the court president and tribunal heads. Qiu Wei, ``Beijing Court 
Will Establish Senior Judge System This Year'' [Beijing fayuan jinnian 
jiang jianli zishen faguan zhidu], Xinhua, 1 March 03, 
<www.chinacourt.org/>. Questions do exist as to how this change will be 
implemented in rural China. In many rural courts, the post currently 
serves as an apprenticeship for younger personnel to learn practical 
legal skills not taught in Chinese law schools, such as mediation.
    \795\ ``Taking Notice of the Trend of `Judges Arising Out of 
Experienced Lawyers' '' [Guanzhu: ``faguan you zishen lushi chu'' de 
qushi], Yanzhao Metropolitan Daily [Yanzhao dushi shixun], 5 June 04, 
<www.yzdsb.com.cn>; Commission Staff Interview.
    \796\ For a detailed discussion of the nature of judicial work in 
the basic level courts, see Zhu Suli, Sending Law to the Countryside, 
316-321.
    \797\ Qiang Shigong and Zhao Xiaoli, ``Legal Interpretation Under 
the Dual Institutional System--A Survey of 10 Chinese Judges''; 
Commission Staff Interviews.
    \798\ CECC, 2003 Annual Report, 64-5.
    \799\ For Beijing, see <http://bjgy.chinacourt.org>; Shanghai, 
<www.hshfy.sh.cn/>; Hainan, <www.hicourt.gov.cn/court/>.
    \800\ Jing Bo, ``Beijing Courts To Begin Gradually Making Opinions 
Public'' [Beijing fayuan caipan wenshu jiang zhubu gongkai], 3 November 
03, <www.hicourt.gov.cn/>; see also <http://bjgy.chinacourt.org/cpws/>.
    \801\ Commission Staff Interviews.

    Notes to Section V(e)--Commercial Rule of Law and the Impact of the 
WTO
    \802\ The Beijing High People's Court Web site (<http://
bjgy.chinacourt.org/cpws/>) publishes all IP-related decisions and many 
other decisions from Beijing's two intermediate people's courts and 
from the Beijing High People's Court itself.
    \803\ ``Establishing a WTO-compatible Judicial Review System: An 
Empirical Study on the Role of the Chinese Judiciary in Implementing 
the Law of the WTO,'' (draft manuscript on file with the Commission) 
Section II.1.
    \804\ Commission Staff Interview.
    \805\ Ibid.
    \806\ Commission Staff Interviews.
    \807\ Ibid.
    \808\ ``Internet Helps Public Affairs Decision-making,'' Xinhua, 
reprinted in China Daily Online, 28 January 04, 
<www.chinadaily.com.cn>.
    \809\ Commission Staff Interview.
    \810\ The Guangdong People's Congress has detailed regulations. 
Several cities within the province, such as Guangzhou, Shenzhen, and 
Shantou, have their own regulations on public hearings. The Sichuan 
Standing Committee Legal Affairs Commission has established regulations 
to set up procedures for hearings that explain how to select 
participants, how to select attendees, how records from hearings are to 
be published, and how to report the results of the hearing so that the 
Standing Committee may consider the hearing contents in its 
deliberations. The Standing Committee then invites citizens to attend 
its meetings, on a first-come, first-served basis. In spite of all the 
regulations, the Guandong People's Congress and the Sichuan People's 
Congress have actually held only one hearing each. Some of the cities 
have held more. Guangzhou has held three, and Shenzhen has held four or 
five. Commission Staff Interviews.
    \811\ Chongqing Industrial Business Administrative Management 
Office Web site [Chongqing gongshang xingzheng jingli ju wangzhan], 
<www.cqgs.cn/index.asp>.
    \812\ ``Internet Helps Public Affairs Decision-making,'' Xinhua.
    \813\ Xiao Liang, ``System for People to Oversee City Hall,'' China 
Daily, reprinted in China Daily Online, 23 February 04, 
<www.chinadaily.com.cn>.
    \814\ Commission Staff Interviews.
    \815\ U.S.-China Trade: Preparations for the Joint Commission on 
Commerce and Trade, Hearing of the Subcommittee on Commerce, Trade and 
Consumer Protection of the House Committee on Energy and Commerce, 31 
March 04, Testimony of Charles Freeman, Deputy Assistant USTR for 
China.
    \816\ China and the WTO: Compliance and Monitoring, U.S.-China 
Security and Economic Review Commission, 5 February 04, Testimony of 
Terence Stewart, Managing Partner, Stewart and Stewart Law Offices. 
Also, the U.S.-China Business Council reported in its assessment of 
China's second year in the WTO that transparency was one of the bright 
areas in a year in which there seemed to have been a loss of momentum 
among the Chinese leadership. China and the WTO: Compliance and 
Monitoring, U.S.-China Security and Economic Review Commission, 5 
February 2004, Testimony of Robert A. Kapp, President, U.S.-China 
Business Council. But see Trade Policy Staff Committee Hearing, 10 
September 03, Testimony of Robert A. Kapp, President, U.S.-China 
Business Council (noting the loss of momentum and decrying the 
continued transparency problems). Interestingly, when GAO sought to 
determine the areas of implementation that U.S. businesses were most 
interested in, they found that the importance placed on implementation 
of transparency commitments fell in an 18-month period from the third 
most important concern to the ninth most important concern out of 
twenty-six concerns with implementation. Compare General Accounting 
Office, World Trade Organization: Selected U.S. Company Views about 
China's Membership, GAO-02-1056, 23 September 02, 9 with General 
Accounting Office, World Trade Organization: U.S. Companies' Views on 
China's Implementation of Its Commitments, GAO-04-508, 24 March 04, 10.
    \817\ Protocol, WT/L/432, Part I.18, 11.
    \818\ Trade Policy Staff Committee Hearing, Testimony of Robert A. 
Kapp, 5.
    \819\ U.S.-China Trade, Testimony of Charles Freeman; Office of the 
United States Trade Representative, 2003 Report to Congress on China's 
WTO Compliance, 10.
    \820\ Soft commitments, as the term is used in this report, are 
general, systemic requirements for which the Chinese government must 
develop a capacity throughout the bureaucracy. Soft commitments present 
the greatest challenge to both the Chinese government (as it seeks to 
implement them) and the U.S. government's trade bureaucracy (as it 
seeks to use these commitments to guarantee market access for U.S. 
firms). The Chinese government frequently finds, however, that it lacks 
the capacity to implement the soft WTO commitments both effectively and 
promptly.
    \821\ In 2003 and 2004, the Chinese government continued to issue 
and enforce rules governing investment and participation in specific 
industries that limited market access for foreign firms by placing 
restrictions or conditions on personnel or financing decisions. 
Industries affected include automobile financing, construction, and 
construction design. In each of these industries, high prudential 
requirements, large minimum investments, and the requirement that 
significant foreign management staff be resident in China limit market 
access, especially for small and medium size firms.
    \822\ China-Value-Added Tax on Integrated Circuits-Request for 
Consultations by the United States, WT/DS309/1, 23 March 04.
    \823\ State Council Notice Concerning the Issuance of Certain 
Policies Encouraging the Development of the Software and Integrated 
Circuit Industries [Guowuyuan guanyu yinfa guli ruanjian chanye he 
jicheng dianlu chanye fazhan ruogan zhengce de tongzhi], issued 24 June 
00.
    \824\ Ibid., art. 41. The policy was adjusted to provide a 14 
percent rebate to firms that designed and manufactured ICs in China 
while the 11 percent rebate was maintained for firms that designed ICs 
in China but, due to lack of capacity, manufactured outside China. 
Notice of the Ministry of Finance and the State Administration of 
Taxation Regarding Furthering Tax Policies to Encourage the Development 
of the Software Industry and Integrated Circuit Industry [Caizhengbu 
guojia shuiwu zongju guanyu jinyibu guli ruanjian chanye he jicheng 
dianlu chanye fazhan shuishou zhengce de tongzhi], issued 10 October 
02; Notice of the Ministry of Finance and the State Administration of 
Taxation Regarding Tax Policies for Imports of Integrated Circuit 
Products Domestically Designed and Fabricated Abroad [Caizhengbu guojia 
shuiwu zongju guanyu bufen guonei sheji guowai liupian jiagongde 
jicheng dianlu chanpin jinkou shuishou zhengce de tongzhi], issued 25 
October 02.
    \825\ General Agreement on Tariffs and Trade (1994) [hereinafter 
GATT], art. III.2. Many GATT and WTO panel decisions have analyzed the 
meaning of ``like products.'' See, e.g., WTO Appellate Body Reports in 
Korea--Taxes on Alcoholic Beverages, WT/DS75/AB/R and WT/DS84/AB/R, 18 
January 99, Sec.  118; Canada--Certain Measures Involving Periodicals, 
WT/DS31/AB/R, 30 June 97, 21-25; and Japan--Taxes on Alcoholic 
Beverages, WT/DS8/AB/R, WT/DS10/AB/R, and WT/DS11/AB/R, 4 October 96, 
18-24.
    \826\ China-Value-Added Tax on Integrated Circuits--Joint 
Communication from China and the United States, WT/DS309/7, 16 July 04. 
In the agreement by which WTO dispute settlement was avoided, China 
also agreed to eliminate the policy granting a partial rebate to firms 
designing ICs in China but manufacturing abroad before October 1, 2004.
    \827\ Technology transfer requirements as a condition of 
importation are proscribed by commitments China made in its WTO 
accession documents. Working Party Report on the Accession of the 
People's Republic of China, WT/MIN(01)/3 [``Working Party Report''], 
Sec. Sec.  49, 203; Protocol on the Accession of the People's Republic 
of China, WT/L/432 [``Protocol''], Part I.7.3, 5.
    \828\ The two standard were issued by the Standards Administration 
of China, a part of the State Council, after review by the Ministry of 
Information Industries, on May 12, 2003. Notice No. 2003-110 Concerning 
the Implementation of Mandatory Wireless Local Area Network National 
Standards [Guanyu wuxian juyuwang qiangzhixing biaozhun shishi de 
gonggao], issued 26 November 04.
    \829\ A series of 802.11 standards govern different parts of the 
hardware and software puzzle with earlier versions designated by the 
addition of early letters of the alphabet and later versions designated 
by later letters of the alphabet. The IEEE has addressed the different 
parts of the puzzle and submitted its standards to ISO for adoption. 
For a complete technical discussion of the 802.11 standard and its 
development, see the IEEE 802.11 Working Group Web site at <http://
grouper.ieee.org/groups/802/11>.
    \830\ WTO Agreement on Technical Barriers to Trade [``TBT 
Agreement''], arts. 2.2, 2.4.
    \831\ Those 24 companies were announced in three tranches during 
December 2003. Wang Yichao and Zhang Fan, ``The WAPI Battle: Who Caused 
Us to Fall into a Double Loss Situation?'' [Hai yuan WAPI zhi zheng: 
shei shi women xianru shuang shu zhi ju], Finance [Caijing], 5 April 
04, <www.caijing.com.cn>.
    \832\ AQSIQ granted an extension to the effective date that 
permitted companies to continue to ship some hardware to China after 
December 1, 2003 until June 1, 2004. AQSIQ and the State Certification 
and Accredidation Administration (CNCA) Notice 2003-113. This was later 
mooted by the indefinite suspension of the policy.
    \833\ Office of the United States Trade Representative, The U.S.-
China JCCT: Outcomes on Major U.S. Trade Concerns, 21 April 04, 1, 
available at <www.ustr.gov>. Following JCCT, AQSIQ, the Certification 
and Accreditation Administration of the PRC (CNCA), and SAC issued a 
notice indefinitely postponing implementation of the standards. 
Announcement No. 2004-44 [Gonggao], issued 29 April 04.
    \834\ In 2003, China produced 190 million tons of coke and exported 
only 14.75 million tons of that production. China's coke exports in 
2003 included 4.4 million tons to the countries in the EU and 910,000 
tons to the United States. ``Sino-European Coke Export Crisis'' [Zhong 
ou jiaotan chukou pei'e fengbo], Finance [Caijing], 29 May 04, 
<www.caijing.com.cn>.
    \835\ GATT, Arts. XI.1, XI.2, XX.
    \836\ In the first 5 months of 2004, exports of Chinese coke to the 
United States increased 14.9 percent over the same period in 2003, 
according to Chinese customs statistics. ``China's Coke Export 
Statistics for the First Five Months of 2004'' [2004 nian 5 fen woguo 
jiaotan chukouliang tongji], Customs Consolidated News and Information 
Network [Haiguan zonghe xinxi zixun gang], 21 June 04, <www.china-
customs.com>.
    \837\ NDRC as a government entity under the State Council is the 
new name of the slightly reorganized State Development and Planning 
Commission, the entity responsible for formulating the plan in the 
socialist part of the economy.
    \838\ Automobile Industry Development Policy [Qiche chanye fazhan 
zhengce], issued 21 May 04, arts. 47, 48.
    \839\ Automobile Industrial Development Policy, art. 34. See also 
Article 59, which proscribes imports for waste metal reclamation 
purposes.
    \840\ International Intellectual Property Alliance, 2004 Special 
301 Report: China, 15 February 04, 31.
    \841\ IPR Toolkit, <www.usembassy-china.org.cn/ipr/>.
    \842\ Proceedings of Ambassador Randt's Second Annual IPR 
Roundtable, contributions of Chinese government officials, 18 November 
03.
    \843\ Improvement in economies such as Hong Kong have occurred when 
the government has provided significant resources to an organized 
enforcement effort and pursued criminal enforcement against the 
organized infringers reaping significant profits from the infringement. 
Office of the United States Trade Representative, Special 301 Report, 3 
May 04, 35-44. Compare International Intellectual Property Alliance, 
2004 Special 301 Report: Hong Kong, 15 February 99, < www.iipa.com/rbc/
1999/rbc-- hong--kong--301--99.html> with International Intellectual 
Property Alliance, 2004 Special 301 Report: Hong Kong, 15 February 04, 
401-2.
    \844\ Yu Zhong, ``China Attaches More Importance to Protecting 
Intellectual Property Rights'' [Zhongguo yuelaiyue zhongshi baohu 
zhishi chanquan], China IPR News and Developments [CNIPR xinxi 
dongtai], 14 May 04, <www.cnipr.com>.
    \845\ The commitments included reducing the overall level of 
infringement; changing the law so that more IPR offenses are subject to 
criminal enforcement; improving enforcement in the country and at the 
border; and joining the WIPO Internet Treaties ``as soon as possible.'' 
The United States will monitor progress toward these commitments 
through a new U.S.-China Intellectual Property Rights Working Group 
under the JCCT. Office of the United States Trade Representative, The 
U.S.-China JCCT: Outcomes on Major U.S. Trade Concerns, 21 April 04, 2.
    \846\ WTO, Agreement on Trade-Related Aspects of Intellectual 
Property Rights (TRIPs), arts. 41-61.
    \847\ The U.S. government has advocated adjusting the criminal 
threshold for transfer of counterfeiting and piracy cases to criminal 
enforcement for several years. Office of the United States Trade 
Representative, Special 301 Report, 3 May 04, 11-12; Office of the 
United States Trade Representative, Special 301 Report, 1 May 03, 11; 
Office of the United States Trade Representative, Special 301 Report, 
30 April 02, 17.
    \848\ Office of the United States Trade Representative, 2003 Report 
to Congress on China's WTO Compliance, 11 December 03, 50.
    \849\ Twelve Chinese generic pharmaceutical manufacturers brought 
an action before SIPO alleging that sildenafil citrate, the active 
ingredient in Viagra, lacked novelty. SIPO instead invalidated Pfizer's 
Chinese patent on a technicality, asserting that the patent examiner 
had erred in relying on Pfizer's data demonstrating that sildenafil 
citrate treated or prevented erectile dysfunction in animals. The 
decision calls into question the overall Chinese commitment not to bend 
the rules to protect Chinese producers. While the rampant production 
and sale of counterfeit Viagra has damaged legitimate sales 
tremendously and tough restrictions on Pfizer's marketing authorization 
have limited the size of the legitimate market, the systemic concerns 
raised by this decision eclipse the relatively small financial impact 
it is likely to have. ``Viagra'' Patent is Declared Invalid 
[``Wan'aike'' zhuanli bei xuangao wuxiao], China's State Intellectual 
Property Office Web site, 10 July 04, <www.sipo.gov.cn >.
    \850\ Some judgments in civil cases involving U.S. rightholders are 
available (in Chinese only) at <www.chinaiprlaw.com/spxx/spxx.htm>.
    \851\ The SPC has assigned numerous intermediate courts to hear 
patent cases. The authorizations include Supreme People's Court 
Authorization Regarding Assigning Shangdong Province Weifang Municipal 
Intermediate People's Court to Accept Patent Cases [Zuigao renmin 
fayuan guanyu tongyi zhiding Shandong sheng weifang shi zhongji renmin 
fayuan shenli bufen zhuanli jiufen anjian de pifa], issued 2 February 
04; Supreme People's Court Authorization Regarding Assigning Zhejiang 
Province Ningbo Municipal Intermediate People's Court to Accept Patent 
Cases [Zuigao renmin fayuan guanyu tongyi zhiding zhejiang sheng ningbo 
shi zhongji renmin fayuan shenli bufen zhuanli jiufen anjian de pifa], 
issued 15 April 03; Supreme People's Court Authorization Regarding 
Assigning Jiangxi Province Jingde County and County Intermediate 
People's Court to Accept Patent Cases [Zuigao renmin fayuan guanyu 
tongyi zhiding zhejiang sheng ningbo shi zhongji renmin fayuan shenli 
bufen zhuanli jiufen anjian de pifa], issued 31 December 2002.
    \852\ ``U.S. Warns China on Farm TRQs, Pleased with Progress on 
Soybeans,'' China Trade Extra, 20 December 2001, 
<www.ChinaTradeExtra.com>.
    \853\ ``Agricuture TRQs Still a Problem in China Despite USTR 
Report,'' Inside U.S.-China Trade, 14 April 04, 8.
    \854\ China and U.S. Agriculture: Sanitary and Phytosanitary 
Standards, A Continuing Barrier to Trade?, Commission Staff-Led 
Roundtable, 26 March 04, Testimony of Dr. Peter Fernandez, Associate 
Administrator of the U.S. Department of Agriculture's Animal and Plant 
Health Inspection Service, 31.
    \855\ Ibid., 23-24.
    \856\ 2003 White Paper: American Business in China, The American 
Chamber of Commerce People's Republic of China and The American Chamber 
of Commerce in Shanghai, August 03, 108-109.
    \857\ Protocol, Part I.5, 4.
    \858\ Working Party Report, para. 83(c).
    \859\ Working Party Report, para 83(d). The PRC Foreign Trade Law 
provides that all enterprises, foreign, foreign-invested, and domestic 
have trading rights in China. PRC Foreign Trade Law, enacted 6 April 
04, art. 14. The Regulations on the Management of Foreign Investment in 
the Commercial Sector permit foreign-invested and wholly foreign-owned 
companies to provide distribution services. The Regulations on the 
Management of Foreign Investment in the Commercial Sector [Waishang 
tuozi shangye lingyu guanli banfa], issued 16 April 04. Regulations for 
direct selling are expected later this year.
    \860\ Even before some recent initiatives announced by the EU and 
Japan, just the reported figures available as part of the Doha round's 
trade capacity building efforts indicate that Japan contributed over 9 
million U.S. dollars, Canada provided over 3 million U.S. dollars, and 
Australia over 1 million U.S. dollars. The most telling comparison with 
the United States, however, was the EU's contribution of nearly 15 
million U.S. dollars. Note also that the EU's contribution does not 
include additional amounts contributed by its Member States, including 
Germany, which maintains a full-time staff of trainers in Beijing. 
Congressional Research Service, Memorandum on WTO-Related Foreign 
Assistance and Technical Training in China, 23 March 04.

    Notes to Section V(f)--Forced Evictions and Land Requisitions
    \861\ PRC Constitution, art. 10; PRC Land Management Law, adopted 
25 June 86, amended 29 December 88, and 29 August 98. None of the 
Constitution, the Land Management Law, and other relevant regulations 
and interpretations clearly define the nature of collective ownership. 
Collectively owned land is typically managed and administered by 
village committees. Peter Ho, ``Who Owns China's Land? Policies, 
Property Rights, and Deliberate Institutional Ambiguity,'' 177 China 
Quarterly 394, 397-401 (August 2001).
    \862\ PRC Urban Real Estate Management Law, adopted 5 July 94.
    \863\ Commission Staff Interviews; Property Seizures in China: 
Politics, Law and Protest, Staff Roundtable of the Congressional-
Executive Commission on China, 21 June 04, Written Statement of Patrick 
A. Randolph, Professor of Law, University of Missouri at Kansas City. 
In other cases, residents who had been living on urban property for 
years were simply permitted to continue residing in old homes and 
buildings without any formal land use rights or transfer of interest. 
Commission Staff Interviews.
    \864\ PRC Rural Land Contracting Law, adopted 29 August 02. Article 
5 states that ``members of rural collective economic entities have the 
right to contract rural land that is allocated through contracting by 
their own rural collective economic entity.'' Article 20 states the 
contracting term for arable land is 30 years.
    \865\ PRC Constitution; PRC Land Management Law; PRC Urban Real 
Estate Management Law.
    \866\ For one English-language account of China's growing cities, 
see Howard W. French, ``New Boomtowns Change Path of China's Growth,'' 
New York Times, 28 July 04, <www.nytimes.com>. A recent Xinhua story 
notes that Chinese cities will need a total of 200 million square 
meters of additional living space annually until 2020 to accommodate 
urban growth. ``Research Estimates 200 Million Square-Meter Annual Need 
in New Urban Residences,'' Xinhua, 2 June 04 (FBIS, 2 June 04). China 
currently has more than 15,000 highway projects underway that will add 
more than 162,000 kilometers of road to the country. Ted Fishman, ``The 
Chinese Century,'' New York Times, 4 July 04, <www.nytimes.com>.
    \867\ Official statistics provided in Commission Staff Interview. 
Shanghai has announced plans to relocate an additional 80,000 families 
in 2004. ``Developer Calling for Halt to Urban Renovation in 
Shanghai,'' Xinhua, 4 February 04, <news.xinhuanet.com>.
    \868\ Didi Kirsten Tatlow, ``Claims of Olympic Eviction Denied,'' 
South China Morning Post, 11 March 04, <www.scmp.com>. The Geneva-based 
Center on Housing Rights and Evictions claims that 300,000 have been 
evicted in preparation for the Olympics. The head of the Beijing 
Municipal Administration of State Land denied this, claiming that 
18,000 people would be relocated for this purpose, but added that 
300,000 individuals would be relocated as part of an overall urban 
renewal effort in Beijing. According to Mr. Miao, more than 400,000 
households have been relocated in Beijing since 1991. Liu Li, ``City 
Denies Reports on Large-Scale Evictions,'' China Daily, 11 March 04, 
<www.chinadaily.com.cn>.
    \869\ For example, in 2003 alone, 24,000 families were relocated in 
Chengdu. Commission Staff Interview. In 2003, between 200,000 and 
300,000 people were relocated in Tianjin, a number equal to the total 
for the prior five years. ``Seeking the Locus of China's Urban Property 
Housing Price Comprehensive Rise in 2004'' [2004 xunzhao zhongguo 
chengshi fangjia quanmian shangyan de guiji], 21st Century Business 
Herald [21 shiji jingji baodao], 25 May 04, <www.nanfangdaily.com.cn>.
    \870\ PRC Land Administration Law, chapter V.
    \871\ PRC Land Administration Law, chapter V; PRC Urban Real Estate 
Management Law, art. 8.
    \872\ ``China's Farmland Dwindles by 6 Million Ha in Seven Years,'' 
Xinhua, 25 June 04 (FBIS, 25 June 04).
    \873\ ``CPC General Secretary Calls for Strict Farmland 
Protection,'' Xinhua. Chinese officials have expressed concern that 
landless, jobless farmers could threaten ``social stability.'' 
``China's Farmland Dwindles by 6 Million Ha in Seven Years,'' Xinhua.
    \874\ Both governmental and non-governmental sources in China 
contend that in many cases, relocations take place without incident and 
residents are willing to move because they are provided with 
resettlement housing that is better than their dilapidated homes in 
city centers. Commission Staff Interviews.
    \875\ See, e.g., Urban Housing Demolition and Relocation Management 
Regulations [Chengshi fangwu chaiqian guanli tiaoli], issued 6 June 01, 
art. 24; Guidance Opinion for Urban Housing Demolition and Relocation 
Appraisal [Chengshi fangwu chaiqian pinggu zhidao yijian], issued 1 
October 03, arts. 3, 12, 14.
    \876\ Commission Staff Interviews.
    \877\ Commission Staff Interviews. ``Forced Demolitions Blur 
Rights,'' China Daily, 21 April 04 (FBIS, 21 April 04).
    \878\ Commission Staff Interviews. Some residents and observers 
interviewed by Commission staff noted that many residents are willing 
to relocate because they typically have a higher standard of living in 
resettlement housing. They note if transportation networks were better, 
other displaced residents who are unhappy would not feel so 
disadvantaged. See also Bill Savadove, ``Shanghai Increases Payout for 
Eviction,'' South China Morning Post, 23 July 04 (FBIS, 23 July 04) 
(noting complaints by relocated Shanghai residents that ``low-cost 
housing is located far outside the city centre with poor transport and 
other infrastructure'') and Leu Siew Ying, ``Doomed Art Village Group 
Take Battle to the Top,'' South China Morning Post, 22 July 04 (FBIS, 
22 July 04) (quoting one displaced resident who complained that ``The 
compensation won't be enough to buy a house half the size of my present 
house, let alone land for the garden. But it's not just a question of 
money. We have put a lot in to build our home.'')
    \879\ Under the PRC Land Administration Law, when the state 
requisitions farmland from the collective, it pays compensation for 
loss of land, crops and fixtures and a resettlement subsidy. PRC Land 
Management Law, art. 47. According to Professor Roy Prosterman, even if 
all of this amount were paid directly to the farmers, under current 
compensation standards, it would be insufficient to compensate them for 
the economic value of a 30-year land use right. Property Seizures in 
China: Politics, Law and Protest, Testimony and Written Statement of 
Roy Prosterman, President, Rural Development Institute. In practice, 
most of the compensation funds are kept by the local governments and 
collectives and only a small amount is paid directly to farmers. Tang 
Min, ``New Rules Protect Farmers Who Lose Land,'' China Daily, 15 
February 04, (FBIS, 15 February 04) (noting that according to official 
statistics, 60 to 70 percent of the compensation for land requisitions 
goes to local governments, 25 to 30 percent to village collective 
units, and less than 10 percent to the farmers themselves); ``Delegates 
Discussing National Affairs,'' China Daily, 11 March 04 (FBIS, 11 March 
04) (citing a senior official as noting that farmers receive little 
compensation and local governments attempt to profit from land 
seizures). Land officials interviewed by the Commission acknowledged 
that the economic value of the 30-year land use right is not fully 
compensated for when rural land is requisitioned, but argued that 
farmers who lose their land are taken care of in other ways. Commission 
Staff Interviews.
    \880\ ``China's Farmland Dwindles by 6 Million Ha in Seven Years,'' 
Xinhua. There are some experiments under way to alleviate this problem. 
Authorities in Chengdu are experimenting with higher compensation 
standards and a social security system to provide basic living 
necessities for farmers who have lost their land. Commission Staff 
Interviews.
    \881\ Han Baojiang, ``Farmland Wastage Must End,'' China Daily, 22 
March 04 (FBIS, 22 March 04); ``The Land Beneath Their Feet,'' China 
Daily, 16 March 04 (FBIS, 16 March 04); ``Delegates Discussing National 
Affairs,'' China Daily. According to one Xinhua article, ``Some local 
governments lavished land use rights just to fill up their coffers. 
According to statistics, proceeds from land auctions by some 
governments at county and city levels made up about 35 percent of their 
fiscal income.'' ``Effective Actions Called for to Constrain Fast Loss 
of Arable Land in China,'' Xinhua, 12 March 04 (FBIS, 12 March 04). For 
a detailed English-language discussion of these and other problems, see 
Philip P. Pan, ``Chinese Fight a New Kind of Land War,'' Washington 
Post, 14 September 03, <www.washingtonpost.com>.
    \882\ For a detailed description of corruption related to land 
transfers and relocations, see Human Rights Watch, ``Demolished: Forced 
Evictions and the Tenant's Rights Movement in China,'' March 2004, and 
Property Seizures in China: Politics, Law and Protest, Testimony of 
Sara (Meg) Davis, Senior Researcher, Human Rights Watch. Such 
corruption has also been noted by many domestic Chinese sources. See, 
e.g., ``The Land Beneath Their Feet,'' China Daily; Robert J. Saiget, 
``PRC Vice Minister Says `Great Deal' of Corruption in Property 
Market,'' Agence France-Presse, 18 September 03 (FBIS, 18 September 03) 
(citing Liu Zhifeng, vice minister of construction, as stating ``at 
present there is indeed a great deal of corruption in real estate 
development especially in the relocation of people and city 
planning.''). According to Sheng Huaren, vice chairman of the NPC 
Standing Committee, farmers are owed at least 9.88 billion yuan (1.2 
million US dollars) in unpaid land requisition compensation and 
relocation fees. ``China's Farmland Dwindles by 6 Million Ha in Seven 
Years,'' Xinhua. According to Commission sources, there are often close 
personal and business relationships between land officials and 
developers. Commission Staff Interviews.
    \883\ Zhang Shaoli, ``The National Land Ministry Announces Illegal 
Land Cases, Local Governments are the Focus of Investigation,'' 
[Guotubu gongbu tudi weifa anjian, difang zhengfu chen chachu 
zhongdian], Procuratorial Daily [Jiancha ribao], 24 March 04, 
<www.jcrb.com.cn>; ``China's Farmland Dwindles by 6 Million Ha in Seven 
Years,'' Xinhua. According to Chinese sources, permits for 3,763 of 
these zones have been revoked; ``China Alert To Severe Farmland 
Reduction in Urbanization Process,'' Xinhua, 9 July 04 (FBIS, 9 July 
04); Cao Daosheng, ``China Cancels 4,800 Development Zones,'' China 
Daily, 24 August 04, <www.chinadaily.com.cn>. According to official 
reports, China filed more than 30,000 cases involving illegal land 
transactions in the first half of 2004. Xie Dengke, ``More Than 30,000 
Illegal Land Cases Investigated and Prosecuted in the First Half of the 
Year'' [Shang ban nian chachu tudi weifaan yu 3 wan jian], Guangming 
Daily [Guangming ribao], 19 July 04, <www.gmw.cn>.
    \884\ Human Rights Watch, Demolished: Forced Evictions and the 
Tenant's Rights Movement in China. Chinese officials in three cities 
and in relevant national-level ministries confirmed that there is no 
notice and comment period during which affected urban residents are 
entitled to express their views on general city planning and 
development decisions or approvals for specific projects that may 
affect them. Commission Staff Interviews. In a recent article in 
Southern Weekend, one reporter argued that citizens should be involved 
in city planning, noting that citizen participation is the foundation 
of the planning process in many developed countries. Gu Haibing, ``City 
Residents Should be Allowed to Participate in `Overall City Planning' 
'' [``Chengshi zongti guihua'' yinggai rang shimin canyu], Southern 
Weekend, 1 April 04, <www.nanfangdaily.com.cn>.
    \885\ Commission Staff Interviews; Urban Housing Demolition and 
Relocation Management Regulations, arts. 7-17.
    \886\ Urban Housing Demolition and Relocation Management 
Regulations, arts. 16; Urban Housing Demolition and Relocation 
Arbitration Work Rules [Chengshi fangwu chaiqian xingzheng caijue 
gongzuo guicheng], issued 30 December 03, arts. 17-21.
    \887\ Chang Hongxiao, ``Firming Up the Rural Land Contracting 
Law.''
    \888\ Regulations on Land and Resources Hearings [Guotu ziyuan 
tingzheng guiding], issued 9 January 04. Under the regulation, land 
officials must hold public hearings when they (1) establish or revise 
benchmark land prices, (2) prepare or revise a land use master plan and 
mineral resources plan, (3) establish or revise regional compensation 
standards for land requisition, or (4) upon the request of an effected 
landowner, if a requisition involves (a) a plan for formulating 
compensation standards and resettlement packages for intended land 
requisition projects or (b) a plan for using basic agricultural land 
for non-agricultural development. Although the regulation applies to 
both urban and rural areas, its language suggests that it is primarily 
intended to cover requisitions of agricultural land.
    \889\ Under the PRC Constitution and the PRC Land Management Law, 
the state has the power to requisition land for public purposes. PRC 
Constitution, art. 10; PRC Land Administration Law, chapter V. Under 
the PRC Urban Real Estate Management Law, a land use right granted to a 
land user may be recovered by the state ``under special circumstances 
and in light of the need of social and public interests.'' PRC Urban 
Real Estate Management Law, art. 19. In theory, an urban resident or 
farmer could use the PRC Administrative Litigation Law to challenge an 
administrative decision to requisition land, recover a granted land use 
right, or demolish property and relocate residents. However, relevant 
land laws and regulations do not define ``public interest,'' leaving 
officials with broad discretion to make such determinations. Rural 
Development Institute Memorandum, ``Land Takings in China: Policy 
Recommendations,'' 5 June 03 (available at www.cecc.gov/pages/
roundtables/062104/memo.pdf). Urban and rural residents can also 
petition to government officials through the letters and visits system. 
As discussed in Section V(c), however, such petitions are rarely 
successful. One national land official told Commission staff that 
farmers have no right to challenge decisions to requisition 
agricultural land. According to multiple Commission sources, in 
practice most residents who raise complaints dispute the amount of 
compensation, not the underlying relocation or requisition decision. 
Commission Staff Interviews.
    \890\ For reports by international human rights organizations on 
such tactics, see, e.g., Human Rights Watch, Demolished: Forced 
Evictions and the Tenant's Rights Movement in China, and Liu Qing, 
``The Legal Time Bomb of Urban Development,'' China Rights Forum, No. 2 
(2003), 68-72 (both making extensive use of Chinese sources, including 
legal experts, residents, and media reports). According to 
international monitors, in some cases, homes have been bulldozed 
without the required legal notice or administrative review, or while 
residents are still inside, resulting in injuries and even some deaths. 
Chinese and foreign media have reported extensively on abusive eviction 
tactics. See, e.g., ``Forced Evictions Blur Rights,'' China Daily; ``A 
Hundred People Barbarically Pull Down Houses in Shenyang,'' Taiyang 
Pao, 13 November 03 (FBIS, 13 November 03); Yang Li, ``Respect for 
Residents' Rights,'' China Daily, 30 September 03, 
<www.chinadaily.com.cn>; Li Jing, ``Developers Held Over Demolitions,'' 
China Daily, 31 October 03; ``Chinese Legal Experts, Scholars Strongly 
Oppose Government Developers,'' Agence France-Presse, 10 September 03, 
(FBIS, 10 September 03) (citing the China Economic Times as stating 
that in some places, the mafia is used to threaten residents, or 
electricity or water is shut off to force people out); Pan, ``Chinese 
Fight a New Kind of Land War.'' Government circulars explicitly 
prohibiting such abusive tactics also suggest that they have been 
common problems. For an example of one such circular, see Notice on 
Controlling the Scale of Urban Housing Demolition and Relocation and 
Strictly Managing Demolition and Relocation [Guowuyuan banggongting 
guanyu kongzhi chengzhen fangwu chaiqian guimo, yange chaiqian guanli 
de tongzhi], issued 6 June 04 (strictly prohibiting demolition entities 
and relevant units from engaging in uncivilized demolition and 
relocation, illegal demolition and relocation, cutting off water, 
electricity, gas, or heat, obstructing movement, or other tactics to 
forcibly remove residents subject to demolition and relocation).
    \891\ See, e.g., Notice on Controlling the Scale of Urban Housing 
Demolition and Relocation and Strictly Managing Demolition and 
Relocation. In November 2003, Beijing arrested five developers and 
rescinded the qualifications of 13 demolition companies for illegal 
demolitions and abuses. Li Jing, ``Developers Held Over Demolitions,'' 
China Daily, 31 October 03; Wang Jun, ``Qualifications for 13 
Demolition Units are Canceled,'' [Beijing 13 ren chaiqian danwei be 
chexiao zizhi], Xinhua, 5 November 03, <www.xinhuanet.com>.
    \892\ See, e.g., ``Evicted Chinese Residents Clash With Authorities 
in North China's Xi'an,'' Agence France-Presse, 27 May 04 (FBIS, 28 May 
04). Even in Shanghai, considered one of China's most legally advanced 
locales, reports of violent demolition tactics continue to circulate. 
For one example, see the entry for Tuesday, May 11, 2004 on the weblog 
of a foreign reporter in Shanghai, describing a recent incident in 
which more than ``300 policemen and people who were probably hired by a 
relocation company, entered the neighbourhood and started to beat the 
inhabitants, to make them move.'' The ``China Herald'' Weblog, 
www.chinaherald.net/2004--05--09--chinaherald--
archive.html#108432203174288450 (source provided by Sara (Meg) Davis, 
Senior Researcher, Human Rights Watch). In July 2004, a local Shanghai 
television station reported that demolition workers pulled down an 
occupied house, injuring three people. Bill Savadove, ``Shanghai 
Increases Payout for Eviction,'' South China Morning Post, 23 July 04 
(FBIS, 23 July 04). In August 2004, authorities of Cangshan township, 
near Fuzhou, reportedly sent police and a group of convicted criminals 
to Wanli village to demolish homes and intimidate residents who refused 
to relocate. Human Rights in China Press Releases, ``Police and Thugs 
Suppress Fujian Peasant Protest,'' 25 August 04, and ``Protesting 
Peasants Under Seige in Wanli Village,'' 9 September 04. These are but 
a few examples of intimidation tactics that continue to be applied 
despite central government prohibitions on such behavior.
    \893\ Liu Feng, ``Petitions on Land Requisition and Demolition and 
Relocation in the First Half of this Year Exceeed the Number for All of 
Last Year,'' [Jinnian shang ban nian zhengdi chaiqian shangfang chaoguo 
qu nian zongliang], People's Daily [Renmin ribao], 6 July 04, 
<www.peoplesdaily.com.cn>. Chinese activists believe even this number 
is too low. Jane Cai, ``Surge in Property Demolition Complaints,'' 
South China Morning Post, 6 July 04, <www.scmp.com>. In the fall of 
2003, the National Letters and Visits Office in Beijing reported that 
it had received more than 11,600 complaints regarding relocation issues 
in the first eight months of 2003, a 50 percent increase over last 
year. Commission staff visiting Beijing in the spring of 2003 noted 
long lines of petitioners in front of the Ministry of Land and 
Resources. According to one Bejing reporter, land complaints constitute 
the largest category of complaints in the letters and visits system. 
Commission Staff Interview.
    \894\ ``This Year the Number of Suits by People Against Government 
Exceed 100,000, Urban Construction Administrative Suits Constitute the 
Largest Increase'' [Jinnian ``ren gao si'' tupo 10 wan, chengjianlei 
xingzheng an zenzhang zuida], Xinhua, 16 December 04, 
<www.news.xinhuanet.com> (noting that the number of administrative 
lawsuits related to urban construction in the first 11 months of 2003 
increased 31.77 percent over the same period last year, while the 
number of lawsuits related to land and resources increased 31.3 
percent).
    \895\ One Hong Kong article cited ``relevant departments'' as 
stating that between January and November 2003, more than 1,500 
incidents of violence, suicide, and demonstration related to 
demolitions and relocations had occurred across the country. 
``Explosive Public Indignation Arising From Forced Evictions Alarms 
Central Government,'' Ming Pao, 12, November 03 (FBIS, 12 November 03). 
Reports of such incidents appear almost daily in the Chinese and 
foreign press. For a list of more than 50 incidents related to 
relocation that have been reported over the past year, visit the 
Property Rights page of the Commission Web site at <www.cecc.gov/pages/
virtualAcad/rol/propres.php>.
    \896\ ``Explosive Public Indignation Arising From Forced Evictions 
Alarms Central Government,'' Ming Pao; ``More on Anhui Farmer Attempts 
at Self-Immolation in Tiananmen Square Over Forcible Relocation,'' 
Xinhua, 15 September 03 (FBIS, 15 September 03).
    \897\ Zhao Ling, ``An Interview With Rural Development Researcher 
Yu Jianrong of the Chinese Academy of Social Sciences'' (translated by 
Manfred Elfstrom, available at www.chinaelections.org/en).
    \898\ See, e.g., Urgent Notice on Conscientiously Carrying Out the 
Work of Housing Demolition and Relocations in Cities and Towns to 
Safeguard Social Stability [Guanyu renzhen zuohao chengzhen fangwu 
chaiqian gongzuo weihu shehui wending de jinji tongzhi], issued 9 
September 03 (noting that ``disputes and collective petitions sparked 
by demolition and relocation have been on the rise and have even 
triggered some terrible incidents, influencing social stability and the 
normal order of production and life''); Notice on Controlling the Scale 
of Urban Housing Demolition and Relocation and Strictly Managing 
Demolition and Relocation (noting that relocations have resulted in a 
large number of citizen petitions and influenced social stability and 
calling on local governments to curb abuses and reduce the number of 
demolitions). For concens about the growing number of rural disputes 
and an excellent review of the implementation of the PRC Rural Land 
Contracting Law, see, Chang Hongxiao, ``Firming Up the Rural Land 
Contracting Law'' [Yinghua tudi chengbaofa], Finance [Caijing], 20 July 
04, <www.caijing.com.cn>.
    \899\ Commission Staff Interviews. For the Law on the Protection of 
Farmer's Rights, see ``China Expects First Ever Farmer Protection 
Law,'' Xinhua, 12 July 04 (FBIS, 12 July 04). The Supreme People's 
Court is also reportedly drafting an interpretation on handling land 
dispute cases. Chen Si, ``Judicial Interpretation on Cases Involving 
the Transfer of Collective Land and Compensation for Land Requisitions 
to Appear Next Year'' [Jiti suoyouzhi tudi liuzhuan he zhengdi buchang 
anjian de sifa jieshi mingnian chutai], People's Court Daily [Renmin 
fayuan wang], 4 March 04, <www.chinacourt.org>. The Supreme People's 
Court is also reportedly drafting an interpretation to guide courts in 
their handling of rural land disputes. However, Chinese observers 
indicate that the draft intepretation that has been circulated is 
problematic and will not adequately address core issues such as 
compensation. Chang Hongxiao, ``Firming Up the Rural Land Contracting 
Law.'' As some Chinese scholars have observed, the Land Administration 
Law must be amended in part because it is in conflict with the revised 
Constitution. Ye Xinfeng, Gu Xiuyan, Gong Chang, ``How to Link the 
Amended Constitution and the `Land Administration Law' '' [``Tudi 
guanli fa'' zenme yu xiuxian xianan], Theory and Inquiry [Lilun yu 
tansuo], No. 5, 2004, 28-9.
    \900\ Following several self-immolations in Tiananmen Square, the 
State Council appointed Vice Premier Zeng Peiyan to temporarily 
supervise large-scale demolition and land requisition work. ``Explosive 
Public Indignation Arising From Forced Evictions Alarms Central 
Government,'' Ming Pao, 12 November 03 (FBIS, 12 November 03). In June 
2004, Chinese media reported that Premier Wen Jiabao chaired a State 
Council meeting on the problem of urban relocations. ``Wen Jiabao 
Chairs State Council Meeting on Urban Housing Relocation Issues,'' 
Xinhua, 4 June 04 (FBIS, 4 June 04). For regulations issued, see e.g. 
Urgent Notice on Conscientiously Carrying Out the Work of Housing 
Demolition and Relocations in Cities and Towns to Safeguard Social 
Stability [Guanyu renzheng zuohao chengzhen fangwu chaiqian gongzuo 
weihu shehui wending de jinji tongzhi], issued 19 September 03; State 
Council General Office, Notice on Controlling the Scale of Urban 
Housing Demolition and Relocation and Strictly Managing Demolition and 
Relocation [Guowuyuan banggongting guanyu kongzhi chengzhen fangwu 
chaiqian guimo, yange chaiqian guanli de tongzhi], issued 6 June 04; 
Measures on Administering the State Land and Resources System for the 
People [Guotu ziyuan guangli xitong xingzheng wei min cuoshi], issued 
14 January 04; Prohibitions on State Land and Resources Management 
Personnel, [Guotu ziyuan guanli xitong gongquo renyuan jinling], issued 
14 January 04; Urgent Notice on Carrying Out Land and Resources 
Petition Work Well During the Period of the ``Two Meetings'' [Guanyu 
zuohao ``lianghui'' qijian guotu ziyuan xinfang gongzuo de jinji 
tongzhi], issued 11 February 04; State Council General Office, Notice 
on Controlling the Scale of Urban Housing Demolition and Relocation and 
Strictly Managing Demolition and Relocation [Guowuyuan banggongting 
guanyu kongzhi chengzhen fangwu chaiqian guimo, yange chaiqian guanli 
de tongzhi], issued 6 June 2004 (calling on local government to reduce 
demolitions and relocations in the coming year). Procedural regulations 
tightened appraisal and arbitration procedures for land requisitions 
and urban demolitions. Guidance Opinion on Urban Housing Demolition; 
Relocation Appraisal and Urban Housing Demolition and Relocation 
Arbitration Work Rules. The government also established a new hearing 
system for land requisitions. Regulations on Land and Resources 
Hearings [Guotu ziyuan tingzheng guiding], issued 9 January 04.
    \901\ Tian Fengshan was removed in October 2003 on suspicion of 
corruption. Andrew K. Collier, ``Land Minister Is Suspended for Alleged 
Graft,'' South China Morning Post, 22 October 03, <www.scmp.com>. 
According to Chinese reports, immediately after his appointment as 
demolition and relocation czar, Zeng Peiyan led an investigation team 
to look into the illegal requisition of peasant land in Zhejiang and 
Hunan. ``Explosive Public Indignation Arising From Forced Evictions 
Alarms Central Government,'' Ming Pao. In the fall of 2003, an NPC 
inspection visited Fujian, Shaanxi, Sichuan, Hebei, Jiangsu, and Jilin 
to investigate the implementation of the Rural Land Contracting Law. 
Shen Lutao, ``Land Contract and Management Rights of Chinese Peasants 
Protected Effectively,'' Xinhua, 4 November 03 (FBIS, 4 November 03). 
Other investigation and rectification efforts have focused on illegal 
development projects. Zhang Shaoli, ``The National Land Ministry 
Announces Illegal Land Cases, Local Governments are the Focus of 
Investigation,'' [Guotubu gongbu tudi weifa anjian, difang zhengfu chen 
chachu zhongdian], Procuratorial Daily [Jiancha ribao], 24 March 04, 
<www.jcrb.com.cn>. In the spring of 2003, official Chinese sources 
reported that the Ministry of Land and Resources launched an 
``unprecedented'' nationwide probe of illegal land transactions. Tang 
Min, ``Ministry Probes Land Abuses,'' China Daily, 15 March 04, 
<www.chinadaily.com.cn>. China Daily reported in August 2004 that seven 
ministries were involved in the campaign, include the ministries of 
land and resources, finance, agriculture, construction, and 
supervision, the State Development and Reform Commission, and the 
National Audit Office. Dian Tai, ``Regulation of Land Use Starts to 
Show Progress,'' China Daily, 14 August 04 (FBIS, 14 August 04). In 
addition to these measures, central authorities punished some abusive 
demolition companies, established complaint and legal consultation 
hotlines for urban residents and farmers, reformed the land management 
bureaucracy so that local land officials report directly to provincial 
land bureaus instead of to local governments, announced that they would 
enforce legal provisions requiring all land to be bid at auction, and 
institutitued an experimental program for blacklisting construction 
companies that have given bribes to government offices. For hotlines 
and legal consultation measures, see Measures on Administering the 
State Land and Resources System for the People [Guotu ziyuan guanli 
xitong xingzheng wei min cuoshi], issued 14 January 04; Notice on 
Effectively Strengthening Transparency of Government Information on 
Land Resources Through the Internet in Practice and Publicly Promoting 
Administration According to Law and Administration for the People 
[Guanyu qieshi jiaqiang guotu ziyuan zhengwu xinxi wangshang gongkai 
cujin yifa xingzheng he xingzheng wei min de tongzhi], issued 20 May 
04; ``China Curbs Illegal Land and Resources Deals,'' Xinhua, 7 January 
04 (FBIS, 7 January 04); Tang Min, `` `Hotline' to Land Ministry 
Enhances Client Assistance,'' China Daily, 19 December 03. For reforms 
to the bureaucracy, see Tang Min, ``Land Allocation Abuses Probed,'' 
China Daily, 28 December 03 (FBIS, 28 December 03); Andrew K. Collier, 
``State to Approve Capital's Land Sales,'' South China Morning Post, 18 
June 04; Tang Min, ``Ministry Probes Land Abuses.'' For auctions, see 
Tang Zheng, ``Beijing Developers Scramble for Land,'' Finance 
[Caijing], 28 June 04 (FBIS, 28 June 04) (noting that ``after an August 
31 deadline set by the Ministry of Land and Resources and the Ministry 
of Supervision, all rights for commercial land use projects must be 
obtained through auctions or tender bids.''). The deadline has 
reportedly caused a panic among Beijing developers, who have benefited 
from the capital's failure to fully implement the auction requirement. 
For the bribery blacklist, see Li Jinrong, ``China Adopts Blacklist 
System to Tackle Construction Bribes,'' China Net, 14 June 04 (FBIS, 15 
June 04).
    \902\ Commission Staff Interviews. According to Shanghai officials, 
approximately 100 ``relocation centers'' have been established around 
Shanghai. The centers handle relocations for a designated area and are 
supposed to clearly post approvals for the relocation project as well 
as compensation standards and a list of resident rights. Commission 
staff visited one such center in the spring of 2003. The Shanghai 
lawyers association has worked actively with local government bureaus 
to address some of the more sensitive issues related to demolition and 
relocation, particularly the issue of compensation standards. Lawyers 
association officials report that local lawyers have handled about 
6,000 relocation cases in the last several years. According to these 
officials, about 70 percent of the cases arose after residents were 
relocated and involved issues related to resettlement housing.
    \903\ Bill Savadove, ``Shanghai Increases Payout for Eviction,'' 
South China Morning Post, 23 July 04 (FBIS, 23 July 04).
    \904\ Urgent Notice on Carrying Out Land and Resources Petitions 
Work Well During the Period of the ``Two Meetings.'' For treatment of 
land petitioners, see Section III(a)--Rights of Criminal Suspects and 
Defendants, Disappearances, Security Sweeps, and House Arrests.
    \905\ Urgent Notice on Carrying Out the Work of Housing Demolition 
and Relocations in Cities and Towns Well to Safeguard Social Stability; 
Beijing City People's Government, Opinion on Carrying Out the Work of 
Housing and Demolition Well to Safeguard Social Stability [Beijing shi 
renmin zhengfu guanyu zuohao fangwu chaiqian gongzuo weihu shehui 
wending de yijian], issued 10 November 03.
    \906\ In addition to the Zheng Enchong case discussed below, see 
``Zhu Donghui, Litigation Representative for Shanghai Households 
Subject to Demolition and Relocation, Sentenced to Two Years of Re-
education Through Labor'' [Shanghai chaiqianhu susong dailiren Zhu 
Donghui bei pan liaojiao liangnian], Radio Free Asia, 7 July 04 
(reprinted at www.boxun.com).
    \907\ Jane Cai, ``Lawyers Team Up to Fight Property Rows in 
Shanghai,'' South China Morning Post, 23 September 03. See also Human 
Rights Watch, Demolished: Forced Evictions and the Tenant's Rights 
Movement in China, 17 (citing interviews with concerned Shanghai 
lawyers).
    \908\ ``China Jails Woman for Internet Article in Crackdown on 
Petitioners,'' Agence France-Presse, 1 April 04 (FBIS, 1 April 04); 
Human Rights in China Press Releases ``Journalist Pursued for Aiding 
Peasants,'' 12 July 04; ``Tangshan Petitioners Persecuted,'' Human 
Rights in China, 2 July 04.
    \909\ Unlawful or abusive property seizure is an issue that has 
sparked anger in both urban and rural residents and, as indicated 
above, is contributing to social instability. Party and government 
leaders have an interest in controlling the problem. In addition, the 
Hu Jintao and Wen Jiabao leadership team has sought to bolster its 
image by taking action to protect human rights, battle corruption, and 
improve the living standards of rural Chinese. Initiatives to curb land 
abuses dovetail with these general efforts.
    \910\ ``Inspectors Claim Initial Success with Land Laws,'' South 
China Morning Post, 25 June 04 (citing a report by NPC vice-chairman 
Sheng Huaren, which notes that local governments have failed to comply 
with central government initiatives to address corruption in land 
transactions); Li Jing, ``Legislator: Keep an Eye on Unlawful Use of 
Land,'' China Daily, 26 June 04 (FBIS, 26 June 04) (citing NPC chairman 
Wu Bangguo as stating that while rectification campaigns related to 
land abuses have yielded preliminary results, local officials are 
``still displaying a lust for diverting cultivated land'').
    \911\ Property Seizures in China: Politics, Law and Protest, 
Testimony and Written Statement of Roy Prosterman, President, Rural 
Development Institute; Jia Hepeng, `` `Public Interest' Not a Free 
Pass,'' China Daily, 12 July 04 (FBIS, 12 July 04).
    \912\ The need to increase compensation is widely acknowledged by 
Chinese officials and commentators. See, e.g., ``Forced Demolitions 
Blur Rights,'' China Daily.
    \913\ ``Neutral Party Is Needed,'' China Daily, 31 May 04 (FBIS, 31 
May 04); ``Forced Demolitions Blur Rights,'' China Daily.

    Notes to Section VI--Tibet
    \914\ International Campaign for Tibet, ``Dalai Lama Explains His 
Position on China's Preconditions on Negotiations on Tibet,'' 15 
September 03, <www.savetibet.org>. Interview conducted by reporter 
Zhang Jing, Voice of America Mandarin Service, 11 September 03. In 
response to a question on the state of China-Tibet relations, the Dalai 
Lama responded, in part, ``. . . [W]ithin the Chinese constitutional 
framework, I see there is a way to solve this unhappy situation . . .''
    \915\ U.S. Department of State, ``Report on Tibet Negotiations,'' 
23 June 04, <www.state.gov>.
    \916\ Ibid. ``Encouraging substantive dialogue between Beijing and 
the Dalai Lama is an important objective of this Administration. The 
United States encourages China and the Dalai Lama to hold substantive 
discussions aimed at resolution of differences at an early date, 
without preconditions.''
    \917\ Tibetan Government-in-Exile, ``Statement by Special Envoy 
Lodi Gyari, Head of the Delegation sent by His Holiness the Dalai Lama 
to China,'' 11 June 03, <www.tibet.com>: ``Both sides agreed that our 
past relationship had many twists and turns and that many areas of 
disagreement still exist. The need was felt for more efforts to 
overcome the existing problems and bring about mutual understanding and 
trust.''
    \918\ Tibetan Government-in-Exile, ``Two Envoys of His Holiness the 
Dalai Lama to Visit China in Continuation of the Process to Deepen 
Contacts With the Chinese,'' 11 September 04, <www.tibet.net>.
    \919\ ``On Dalai Lama's `Greater Tibet,' China's Tibet,'' Tibet 
Magazine, No.1, 2004, <www.tibetmagazine.net>: ``Referring to the point 
of the `middle road' made by the 14th Dalai Lama, there is a concept of 
`Greater Tibet' which covers the existing Tibet Autonomous Region, the 
entire area of Qinghai province, one-fifth of Xinjiang Uygur Autonomous 
Region, two-thirds of Gansu province, two-thirds of Sichuan province 
and half of Yunnan province, with an area extending 2.4 million square 
kilometers and taking up nearly a quarter of the total territory of 
China.''
    \920\ State Council Information Office, ``Regional Ethnic Autonomy 
in Tibet,'' Xinhua, 23 May 04, <http://news.xinhuanet.com>.
    \921\ PRC Law on Regional National Autonomy, adopted 31 May 1984, 
amended 28 February 2001, art. 2: ``Regional autonomy shall be 
practiced in areas where minority nationalities live in concentrated 
communities. National autonomous areas shall be classified into 
autonomous regions, autonomous prefectures and autonomous counties. All 
national autonomous areas are integral parts of the People's Republic 
of China.''
    \922\ Ibid., art. 7: ``The organs of self-government of national 
autonomous areas shall place the interests of the state as a whole 
above anything else and make positive efforts to fulfill the tasks 
assigned by state organs at higher levels.''
    \923\ ``Regional Ethnic Autonomy in Tibet,'' Xinhua, 24 May 04: 
``Regional ethnic autonomy means, under the unified leadership of the 
state, regional autonomy is exercised and organs of self-government are 
established in areas where various ethnic minorities live in compact 
communities, so that the people of ethnic minorities are their own 
masters exercising the right of self-government to administer local 
affairs and the internal affairs of their own ethnic groups.''
    \924\ Regional National Autonomy Law, arts. 19, 20. Article 19 
provides, ``The people's congresses of national autonomous areas have 
the authority to formulate autonomous regulations and specific 
regulations in light of the characteristics of the politics, economy, 
and culture of local nationalities. After being submitted to and 
approved by the Standing Committee of the National People's Congress 
(NPC), these autonomous regulations and specific regulations can 
become effective.'' Article 20 provides, ``If the resolutions, 
decision, orders, and directives of higher-level state organs are not 
suitable for the actual conditions of national autonomous areas, organs 
of self-government can report this to higher-level state organs for 
approval to flexibly enforce or stop enforcing them. The higher-level 
state organs should give a reply within 60 days of the reception of 
this report.''
    \925\ ``Regional Ethnic Autonomy in Tibet,'' Xinhua.
    \926\ Canadian Broadcasting Corporation, ``Prime Minister Meets 
with Dalai Lama,'' 23 April 04, <www.cbc.ca/>.
    \927\ ``Minorities, organizations, associations, localities, etc., 
apart from being subordinate to the leadership of the state, 
government, or upper-level unit to which they belong, exercise definite 
rights with respect to their own general affairs.'' Chinese Dictionary 
[Hanyu da cidian] (Shanghai: Chinese Dictionary Press, 1997), 5,284 
(Definition 5).
    \928\ ``Options in Exile,'' Times of India, 6 June 03, <http://
timesofindia.indiatimes.com>. The interviewer asked Samdhong Rinpoche, 
``What does `genuine autonomy' mean?'' He replied, ``A little more than 
what Hong Kong enjoys. For visiting Hong Kong, you need a special 
permit. For going to the mainland, a visa or a permit is necessary. 
This controls population influx. But Hong Kong also has a considerable 
degree of democracy and a free press.''
    \929\ Tibetan Government-in-Exile, ``An Introduction: Central 
Tibetan Administration,'' and ``Facts--Occupied Tibet,'' 
<www.tibet.net>. The Web site describes Tibet as an ``occupied 
country'' with an area of 2.5 million square kilometers (965,000 square 
miles).
    \930\ ``Signed Article Criticizing U.S. Policy on Tibet,'' Xinhua, 
9 June 03 (FBIS, 9 June 03). ``At present, the `Tibet issue' would not 
exist, if the United States and other western countries don't support 
the Dalai clique, if the Dalai clique gives up its intention of seeking 
`Tibet independence' or independence in disguised forms, and stops 
activities of splitting the country.''
    \931\ Commission Staff Interviews with Chinese officials.
    \932\ ``Dalai Lama Seeks Talks with China over Tibet,'' Reuters, 16 
March 04, <www.reuters.com>. The Dalai Lama said in an interview 
conducted in India, ``It's very important to have face-to-face meetings 
. . . The best way to eliminate suspicion is to meet face to face.''
    \933\ Steven Marshall and Susette Cooke, Tibet Outside the TAR: 
Control, Exploitation and Assimilation: Development with Chinese 
Characteristics (Washington, D.C.: Self-published CD-ROM, 1997), Table 
7. The 13 autonomous areas include the provincial-level Tibet 
Autonomous Region (TAR) as well as ten Tibetan autonomous prefectures 
and two Tibetan autonomous counties located in Qinghai, Gansu, Sichuan, 
and Yunnan provinces. The 13 areas are contiguous and total 2.24 
million square kilometers [865,000 square miles].
    \934\ ``Dalai Lama Reiterates He Will Not Seek Tibetan 
Independence,'' Hong Kong Journal [Hong Kong Kai Fang], 1 August 03 
(FBIS, 13 August 03). Responding to a question about the scope and 
political status of Tibetan territory, the Dalai Lama referred to ``the 
areas directly ruled by the original Tibetan government.'' When asked 
if he meant the TAR, he said that he was referring to ``the areas under 
the control of the Tibetan government at the time of the signing of the 
17-Article Agreement.'' He explained that in 1951 that territory did 
not include areas such as Chamdo, the far eastern end what is today the 
TAR, or the Tibetan territory east of the Jinsha River (Tibetan: 
Drichu) in what is today Sichuan province.
    \935\ International Campaign for Tibet, ``Dalai Lama Explains His 
Position on China's Preconditions on Negotiations on Tibet,'' 15 
September 03, <www.savetibet.org>. Interview conducted by Voice of 
America, Mandarin Service, 11 September 03. Responding to a question 
about his views on consolidating autonomous Tibetan areas in different 
provinces, the Dalai Lama responded, in part, ``. . . [S]ince I'm 
asking for a certain right which the Constitution of the People's 
Republic of China provided, [I'm asking that] within that, they be 
joined from small pieces, like autonomous regions, autonomous 
districts, autonomous prefectures, like that. So instead of many small, 
small autonomies, the self-administration, actually, as far as work is 
concerned, or effectiveness, is concerned, is more difficult. So a 
broader administration could be more effective . . .''
    \936\ Li Dezhu, ``Large-Scale Development of Western China and 
China's Nationality Problem,'' Seeking Truth [Qiushi], 15 June 00 
(FBIS, 15 June 00) (addressing social and ethnic implications of the 
campaign that Jiang Zemin launched in 1999).
    \937\ ``Current Trends in Tibetan Political Imprisonment: Increase 
in Sichuan, Decline in Qinghai and Gansu,'' Tibet Information Network, 
6 February 04, <www.tibetinfo.net>. The report listed a total of seven 
Tibetan political prisoners for Qinghai and Gansu provinces. TIN listed 
106 Tibetan political prisoners in the TAR in a March 2003 report, 
compared to 90 in February 2004. The number reported for Sichuan 
province rose from 34 in the 2003 report to 46 in 2004.
    \938\ Commission staff visited Malho (Chinese: Huangnan) Tibetan 
Autonomous Prefecture in Qinghai province in September 2003 and Kanlho 
(Chinese: Gannan) Tibetan Autonomous Prefecture in April 2004. Sites 
visited included secondary and tertiary ethnic Tibetan educational 
facilities as well as Buddhist monasteries. Commission staff have heard 
assessments from experts and regular visitors.
    \939\ Commission Staff Interview. For example, officials said that 
in 2001-05, 117 peer-to-peer projects set up between other parts of 
China and the TAR will spend 70 billion yuan ($8.5 billion) on 
infrastructure projects, including roads, schools, and medical 
facilities. The figure does not include spending on the Tibet-Qinghai 
railroad.
    \940\ Development Projects in Tibetan Areas of China: Articulating 
Clear Goals and Achieving Sustainable Results, Rountable of the 
Congressional-Executive Commission on China, 19 March 04, Testimony of 
Daniel J. Miller, Agriculture Development Office, U.S. Agency for 
International Development.
    \941\ ``Tabulation on Nationalities of 2000 Population Census of 
China,'' Department of Population, Social, Science and Technology 
Statistics, National Bureau of Statistics, and Department of Economic 
Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, September 2003). The total Tibetan population in 
China was 5,416,021. 5,373,339 were classified as either 
``agricultural'' or ``non-agricultural.'' Of that number, 4,792,676 
(88.5 percent of the total Tibetan population) were designated 
``agricultural.'' In the TAR, the total population was 2,616,329. 
2,427,168 (92.8 percent) were Tibetan. The total agricultural 
population in the TAR, including all ethnic groups, was 2,185,851 (83.5 
percent of the total TAR population).
    \942\ ``Tibet Ranks 2nd in W. China Urban Residents' Income,'' 
Xinhua, 17 May 04, <http://news.xinhuanet.com>. Urban income in the TAR 
(8,058 yuan) was second only to Chongqing (8,093 Yuan). Rural income in 
the TAR averaged 1,690 yuan. (Based on these figures, urban income was 
4.8 times higher than rural income.)
    \943\ Development Projects in Tibetan Areas of China, Testimony of 
Melvyn Goldstein, Professor of Anthropology at Case Western Reserve 
University.
    \944\ Commission Staff Interview. For example, an official said 
that TAR government revenues should reach 800 million yuan in 2004, but 
expenditures will be 12.9 billion yuan.
    \945\ Commission Staff Interview. An official said that the total 
Central Government investment spending in the TAR for 2003 had been 17 
billion yuan. Of that, 3.5 billion yuan was for work on the Qinghai-
Tibet railroad. The cost of the railroad is currently estimated at 30 
billion yuan ($3.6 billion).
    \946\ Philip P. Pan, ``Tibet Torn Between Tradition and China's 
Bounty,'' Washington Post, 10 September 03.
    \947\ ``Raidi Meets Hong Kong Journalists, Gives Interview,'' Lhasa 
Tibet Daily [Lhasa xizang ribao], 7 August 01 (FBIS, 9 August 01). 
``[S]ome people say that with immigration, the Tibetan population is 
greatly reduced and Tibetan culture will be extinguished. There is 
absolutely no basis for such talk.''
    \948\ ``No Immigration of Other Ethnic Groups: Tibetan official,'' 
Xinhua, 26 September 03, <http://news.xinhuanet.com>.
    \949\ Tabulation on Nationalities 2000 Population of China. 158,570 
Han residents were recorded in the TAR.
    \950\ John K. Fairbank and Roderick MacFarquhar, eds., The 
Cambridge History of China, Vol. 14, (New York: Cambridge University 
Press, 1978), 368: ``Map 7. Railway Construction between 1949 and 
1960.'' The railroads linking Jining, Hohhot, and Baotou in Inner 
Mongolia were built before the PRC was founded.
    \951\ Tabulation on Nationalities of 2000 Population Census of 
China. Total population of the Inner Mongolia Autonomous Region in 2000 
was 23,323,347. Han numbered 18,465,586 and Mongols 3,995,349.
    \952\ Tabulation on Nationalities of 2000 Population Census of 
China. In Tsonub (Haixi) Mongol and Tibetan Autonomous Prefecture, 
Qinghai province, Han numbered 215,706 and Tibetans 40,371, a ratio of 
about five-to-one. In Pari (Tianzhu) Tibetan Autonomous County, Gansu 
province, Han numbered 139,190 and Tibetans 66,125, a ratio of about 
two-to-one. In Tsojang (Haibei) Tibetan Autonomous Prefecture, Qinghai, 
there were 94,841 Han and 62,520 Tibetans, a ratio of about 1.5 to one.
    \953\ ``Leaders of Tibetan Culture Protection Association 
Elected,'' Xinhua, 23 June 04, <http://news.xinhuanet.com>. The 
Association for the Protection and Development of Tibetan Culture was 
established on 21 June 2004 and is headed by senior Tibetan and Han 
officials from the Party, NPC, Chinese People's Political Consultative 
Conference, etc.
    \954\ ``Regional Ethnic Autonomy Accords with Interests of 
Tibetans,'' People's Daily, 24 May 04, <http://
english.peopledaily.com.cn>.
    \955\ Development Projects in Tibetan Areas of China, Testimony of 
Daniel J. Miller.
    \956\ PRC Constitution, art. 54.
    \957\ PRC Criminal Law. Articles 101-113 deal with ``endangering 
state security.''
    \958\ PRC Criminal Law, art. 103. Punishment is set out for ``those 
who organize, plot or carry out the scheme of splitting the State or 
undermining unity of the country.''
    \959\ Commission Staff Interviews in 2004.
    \960\ ``Current Trends in Tibetan Political Imprisonment: Increase 
in Sichuan, Decline in Qinghai and Gansu,'' Tibet Information Network, 
6 February 04, <www.tibetinfo.net>.
    \961\ Commission Staff Interview. An official said that a total of 
about 2,500 prisoners are in the TAR's three formally designated 
prisons: TAR Prison, Lhasa Prison, and Bomi Prison. Three percent have 
sentences that include counterrevolution or endangering state security.
    \962\ Human Rights Watch, ``Another `Singing Nun' Home But Not 
Free,'' 3 August 04, <www.hrw.org>.
    \963\ TIN records contain seven cases of Tibetan political 
imprisonment in Qinghai and Gansu in 1987-88.
    \964\ Article 51 of the PRC Criminal Law specifies that a two-year 
reprieve of execution is ``counted from the date the judgment becomes 
final.'' Article 208 of the PRC Criminal Procedure Law specifies that 
the judgment becomes effective in the case of a death sentence with 
two-year reprieve when it is affirmed by the provincial High People's 
Court. Tenzin Deleg's sentence was affirmed by the Sichuan Province 
High People's Court on 26 January 2003. Article 50 of the PRC Criminal 
Law stipulates that a prisoner who ``commits no intentional crime 
during the period of suspension'' will receive a commutation to life 
imprisonment, and that a prisoner who ``truly performed major 
meritorious service'' will receive commutation to a fixed term of 15 to 
20 years imprisonment.

    Notes to Section VII--North Korean Refugees in China
    \965\ The Plight of North Korean Migrants in China: A Current 
Assessment, Staff Roundtable of the Congressional-Executive Commission 
on China, 19 April 04, Testimony of Suzanne Scholte, <www.cecc.gov>.
    \966\ North Korea: Human Rights, Refugees, and the Humanitarian 
Challenges, Hearing of the Subcommittee on Asia and the Pacific, 
Committee on International Relations, U.S. House of Representatives, 28 
April 04, Testimony of Tarik M. Radwan.
    \967\ China is also a member of UNHCR's Executive Committee.
    \968\ H.R. Rep. No. 108-478 (2004) (Report of the House 
International Relations Committee on the North Korea Human Rights Act, 
H.R. 4011).
    \969\ The Plight of North Korean Migrants in China: A Current 
Assessment, Testimony of Suzanne Scholte.
    \970\ North Korea: Human Rights, Refugees, and the Humanitarian 
Challenges, Testimony of Timothy A. Peters.
    \971\ U.S. House of Representatives Committee on International 
Relations report to accompany the North Korea Human Rights Act of 2004, 
H.R. 4011.
    \972\ Christian Solidarity Worldwide, North Korean Man's Terror of 
Repatriation and Execution Upon Release from Chinese Prison, 23 April 
04.
    \973\ Ibid.
    \974\ Committee to Protect Journalists, China: South Korean 
Photographer Released, 19 March 04.

    Notes to Section VIII--Developments During 2004 in Hong Kong
    \975\ United States-Hong Kong Policy Act of 1992, Public Law No. 
102-383, as enacted 4 April 90.
    \976\ The Basic Law of the Hong Kong Special Administrative Region 
of the People's Republic of China, enacted 4 April 90; Joint 
Declaration of the Government of the United Kingdom of Great Britain 
and Northern Ireland and the Government of the People's Republic of 
China on the Question of Hong Kong, adopted 19 December 84.
    \977\ James A. Leach, ``Decentralized Democracy: A Model for 
China,'' address to Library of Congress Symposium, 6 May 04. (Rep. 
Leach is the Chairman of the CECC and the address may be viewed at 
<www.cecc.gov>.)
    \978\ Richard Boucher, U.S. State Department Daily Press Briefing, 
26 March 04.
    \979\ Interpretation of the Annexes of the Hong Kong Basic Law by 
the NPC Standing Committee, [Chuangu renda changweihui jieshi xianggang 
jibenfa fujian], 6 April 04.
    \980\ ``NPC Standing Committee Decision on Selecting HK Chief 
Executive,'' Xinhua, 26 April 04.
    \981\ Min Lee, ``Eight Chinese Warships Close Hong Kong Visit,'' 
Associated Press, 6 May 04.
    \982\ House Committee on International Relations, Subcommittee on 
Asia and the Pacific, U.S. Policy on South Asia: Hearing Before the 
Subcommittee on Asia and the Pacific, 108th Con., 2nd sess., 22 June 
04.
    \983\ Police Report No. 2, 24 June 04, Police Public Relations 
Branch, Hong Kong Police, Police Public Relations Branch, Police Report 
No.2, 24 June 04.
    \984\ Andrew Batson, ``Hong Kong Overhaul Talks to Begin,'' Dow 
Jones Newswires, 26 January 04 (citing a poll taken by the ``Hong Kong 
Transition Project,'' a group of university researchers).
    \985\ Philip P. Pan, ``Hong Kong Postpones Timetable for Reform,'' 
Washington Post, 08 January 04, <www.washingtonpost.com>.
    \986\ Mei Fong, Andrew Browne, and Matt Pottinger, ``Massive 
Protest In Hong Kong Challenges China,'' Wall Street Journal, 2 July 
04.
    \987\ For different crowd estimates, see Michael DeGolyer, 
``Numbers Speak,'' The Standard, 08 July 04; ``Exaggerated Rally 
Figures Aim to Fool the Hong Kong people,'' Hong Kong China Daily, 8 
July 04.
    \988\ Andrew Batson, ``Hong Kong Overhaul Talks to Begin,'' 
(quoting University of Hong Kong law professor Michael Davis).
    \989\ Michael Ng, ``Triping Over Words in the Race to Be 
Patriotic,'' The Standard, 14 February 04, <www.thestandard.com.hk>
    \990\ Cannix Yau, ``Minister Slams Lee, Turns on Journalists,'' The 
Standard, 8 March 04.
    \991\ Michael Ng, ``Tripping Over Words in the Race to Be 
Patriotic'' (quoting Basic Law drafter Xiao Weiyun).

                                 <all>

</pre></body></html>
